<html>
<title> - JOINT HEARING TO RECEIVE LEGISLATIVE PRESENTATION OF VETERANS SERVICE ORGANIZATIONS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]




 
 JOINT HEARING TO RECEIVE LEGISLATIVE PRESENTATION OF VETERANS SERVICE 
                             ORGANIZATIONS

=======================================================================

                             JOINT HEARING


                                 of the

                     COMMITTEE ON VETERANS' AFFAIRS

                               before the

                     U.S. HOUSE OF REPRESENTATIVES

                                and the

                              U.S. SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                        THURSDAY, MARCH 22, 2012

                               __________

                           Serial No. 112-51

                               __________

       Printed for the use of the Committee on Veterans' Affairs



                  U.S. GOVERNMENT PRINTING OFFICE
73-772                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f6918699b6958385829e939a86d895999bd8">[email&#160;protected]</a>  


                     U.S. HOUSE OF REPRESENTATIVES,

                     COMMITTEE ON VETERANS' AFFAIRS

                     JEFF MILLER, Florida, Chairman

CLIFF STEARNS, Florida               BOB FILNER, California, Ranking
DOUG LAMBORN, Colorado               CORRINE BROWN, Florida
GUS M. BILIRAKIS, Florida            SILVESTRE REYES, Texas
DAVID P. ROE, Tennessee              MICHAEL H. MICHAUD, Maine
MARLIN A. STUTZMAN, Indiana          LINDA T. SANCHEZ, California
BILL FLORES, Texas                   BRUCE L. BRALEY, Iowa
BILL JOHNSON, Ohio                   JERRY McNERNEY, California
JEFF DENHAM, California              JOE DONNELLY, Indiana
JON RUNYAN, New Jersey               TIMOTHY J. WALZ, Minnesota
DAN BENISHEK, Michigan               JOHN BARROW, Georgia
ANN MARIE BUERKLE, New York          RUSS CARNAHAN, Missouri
TIM HUELSKAMP, Kansas
MARK E. AMODEI, Nevada
ROBERT L. TURNER, New York

            Helen W. Tolar, Staff Director and Chief Counsel

                              U.S. SENATE,

                     COMMITTEE ON VETERANS' AFFAIRS

                   PATTY MURRAY, Washington, Chairman

JOHN D. ROCKEFELLER IV, West         RICHARD BURR, North Carolina, 
Virginia                             Ranking
DANIEL K. AKAKA, Hawaii              JOHNNY ISAKSON, Georgia
BERNARD SANDERS, (I) Vermont         ROGER F. WICKER, Mississippi
SHERROD BROWN, Ohio                  MIKE JOHANNS, Nebraska
JIM WEBB, Virginia                   SCOTT P. BROWN, Massachusetts
JON TESTER, Montana                  JERRY MORAN, Kansas
MARK BEGICH, Alaska                  JOHN BOOZMAN, Arkansas

                       Kim Lipsky, Staff Director

                 Lupe Wissel, Republican Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Veterans' Affairs are also 
published in electronic form. The printed hearing record remains the 
official version. Because electronic submissions are used to prepare 
both printed and electronic versions of the hearing record, the process 
of converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                             March 22, 2012

                                                                   Page

Joint Hearing To Receive Legislative Presentation of Veterans 
  Service Organizations..........................................     1

                           OPENING STATEMENTS

Chairman Jeff Miller, U.S. House of Representatives..............     1
    Prepared Statement of Chairman Miller........................    33
Senator Patty Murray, Chairman of The Senate Committee On 
  Veterans' Affairs..............................................     3
Hon. Timothy J. Walz, U.S. House of Representatives..............    23
Hon. Bill Johnson, U.S. House of Representatives.................    25
Hon. Jerry McNerney, U.S. House of Representatives...............    25
Hon. Bob Filner, Ranking Democratic Member, prepared statement 
  only...........................................................    34

                               WITNESSES

Charles Susino, Senior Vice Commander, American Ex-Prisoners of 
  War............................................................     4
    Prepared Statement of Mr. Susino.............................    35
John R. Davis, Director of Legislative Programs, Fleet Reserve 
  Association....................................................     5
    Prepared Statement of Mr. Davis..............................    37
Colonel Bob Norton (USA-Ret), Deputy Director of Government 
  Relations, Military Officers Association of America............     7
    Prepared Statement of Mr. Norton.............................    47
    Executive Summary of Mr. Norton..............................    55
Jamie H. Tomek, Chair, Government Relations Committee, Gold Star 
  Wives..........................................................     9
    Prepared Statement of Mrs, Tomek.............................    58
Allen E. Falk, National Commander, Jewish War Veterans...........    10
    Prepared Statement of Mr. Falk...............................    64
Bill Lawson, National President, Paralyzed Veterans of America...    13
    Prepared Statement of Mr. Lawson.............................    74
Sam Huhn, National President, Blinded Veterans Association.......    15
    Prepared Statement of Mr. Huhn...............................    80
John R. ``Doc'' McCauslin (CMSGT-Ret), Chief Executive Officer, 
  Air Force Sergeants Association................................    17
    Prepared Statement of Mr. McCauslin..........................    88
MG Gus Hargett, President, National Guard Association of the 
  United States..................................................    20
    Prepared Statement of Mr. Hargett............................    96
Gary L. Fry, National Commander, AMVETS..........................    22
    Prepared Statement of Mr. Fry................................   106

                   MATERIALS SUBMITTED FOR THE RECORD

Anthony A. Wallis, Legislative Director/Director of Government 
  Affairs, Association of the United States Navy.................   111


 JOINT HEARING TO RECEIVE LEGISLATIVE PRESENTATION OF VETERANS SERVICE 
                             ORGANIZATIONS

                        Thursday, March 22, 2012

             U.S. House of Representatives,
                                   and U.S. Senate,
                            Committee on Veterans' Affairs,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 10:01 a.m., in 
Room 345, Cannon House Office Building, Hon. Jeff Miller, 
[Chairman of the House Committee on Veterans' Affairs] 
presiding.
    Present: Representatives Miller, Bilirakis, Johnson, 
Runyan, Huelskamp, Turner, McNerney, Donnelly, Walz, and 
Barrow.
    Senators Murray, Burr, and Boozman.

           OPENING STATEMENT OF CHAIRMAN JEFF MILLER

    The Chairman. Thank you for being with us today. In the 
interest of time and after hearing from Chairman Murray, 
Ranking Member Filner and Ranking Member Burr upon their 
arrival, they will make opening statements. I'd ask all the 
other Members that will be here and arriving, if they would 
waive their opening statement. We will have them entered into 
the record in the appropriate place.
    I see no objections. So ordered. And it is indeed my honor 
to welcome all of you here today. I'm looking forward to the 
testimony from some friends and new friends that I have made 
who are sitting at the witness table this morning. We look 
forward to hearing all of your testimony and, of course, 
working with each and every one of you in the coming year on 
your legislative issues, as well as those from the House and 
the Senate.
    I also want to say welcome to all of the guests present 
today who comprise the national auxiliaries of the various 
organizations represented today. We know how important your 
commitment is to our veteran community, and to the different 
groups that you serve as well.
    I'd also like to take a moment to recognize those who are 
visiting from the Sunshine State of Florida. If you're able, if 
you would, please stand or wave a hand. It's great to see you.
    And it's always a pleasure to join with my colleagues from 
across the aisle and across the capital complex. Yesterday we 
were over on Senator Murray's side of the capital hearing 
testimony over in the Senate. And we appreciate the bipartisan 
cooperation that we have received from the Senate. It seems 
like the Veterans' Affairs Committees are about the only ones 
right now that are able to get together, work, and have things 
passed.
    Before we begin today's hearing, I'd like for everybody to 
turn their attention to the chair that's in the very center of 
the room. Some of you in the very back won't be able to see it, 
but you will certainly understand in a moment what we're doing.
    As part of a long standing military tradition, and as long 
as I am Chairman of the House Committee on Veterans' Affairs, 
we will display an empty chair, draped with the POW-MIA flag at 
every one of our hearings. This chair is to be a daily reminder 
of the more than 83,000 servicemembers who have yet to return 
and represents our hope that they will come home to us one day.
    With that, everybody who is able, would you please stand 
and direct your attention to the empty chair before me. Today, 
as a patriotic American, each of us are grateful to those who 
have sacrificed and continue to sacrifice. This Committee 
pauses to recognize the plight and the circumstance of a unique 
group of Americans. They are our prisoners of war and missing 
in action.
    From this day forward, the House Committee on Veterans' 
Affairs will remember this through the placement of a POW-MIA 
empty chair at all of our official meetings. This chair will 
serve as a physical symbol of the thousands of American POW-
MIA's still unaccounted for from all wars and conflicts 
involving the United States of America.
    This is a reminder for all of us to spare no effort to 
secure the release of any American prisoners from captivity. 
The repatriation of the remains of those who died bravely in 
defense of liberty and have a full accounting of all of those 
missing.
    I now call on Vice-Commander Charles Susino of the American 
Ex-Prisoners of War to lead us in the Pledge of Allegiance.
    Mr. Susino. Ladies, guests, gentlemen, would you please 
follow me and recite the Pledge of Allegiance to our honored 
flag. Attention, one, I pledge allegiance to the flag of the 
United States of America, and to the Republic for which it 
stands, one Nation under God, indivisible, with liberty and 
justice for all. Thank you.
    The Chairman. You may be seated. The House Committee on 
Veterans' Affairs has been working on several fronts to address 
the many needs of our Nation's veterans, and there are three 
specific areas that I quickly want to discuss with you this 
morning. First of all is the critical need to increase veterans 
employment in this country. Second, is overseeing substantive 
change to the VA benefit process with an end goal that you all 
share, and that is ending the backlog of disability claims. And 
third, the most recent issue is ensuring your medical care and 
benefits are protected from the reach of sequestration cuts in 
our Federal budget over the coming months.
    And I am proud to report that substantial progress is being 
made on all three fronts. This morning, we have votes that are 
going to be called in the House in about an hour. I have a full 
written statement that I'm going to ask to be entered into the 
record.
    Seeing no objections, so ordered. And instead of me saying 
my piece, I think it's important that we hear from the 
witnesses who have come from a great distance today to testify 
before this Committee. So I would like to yield at this time to 
the Chairman of the Senate VA Committee, Senator Patty Murray.

    [The prepared statement of Chairman Miller appears in the 
Appendix]

             OPENING STATEMENT OF HON. PATTY MURRAY

    Senator Murray. Thank you very much, Chairman Miller. I 
echo your statements, and I specifically highlight the moving 
dedication ceremony. The empty chair is obviously a very solemn 
reminder of our obligation to those servicemembers who have not 
returned from action abroad.
    I will submit my statement for the record per your request. 
We too have votes in the Senate today. But I did quickly want 
to acknowledge some veterans from my home state of Washington, 
not the Sunshine State, but we have a beautiful state despite 
that.
    With us from the Paralyzed Veterans of America are Ernie 
Butler, Dave Zurfluh, and Tom Bungert, and from the Air Force 
Sergeants Association, Bryan Winston. Welcome to all of you, 
and thank you for traveling here.
    I look forward to the testimony of all of our witnesses, 
and thank you all for your tremendous dedication to our service 
men and women. Thank you.
    The Chairman. Thank you very much. We don't have either of 
the Ranking Members with us at this point. We'd ask that their 
statements be entered into the record in the appropriate place. 
So at this time, I would like to go ahead and introduce today's 
witnesses. I will introduce the entire table, and then we'll 
begin with Mr. Susino.
    But first, and you've already heard from him once, is 
Senior Vice President Commander, Charles Susino of the American 
Ex-Prisoners of War. Then we will hear from Mr. John Davis, the 
Director of Legislative Programs for the Fleet Reserve 
Association.
    Next, Colonel Bob Norton, the Deputy Director of Government 
Relations for the Military Officer Association of America. 
Next, Ms. Jamie Tomek, Chair of the Government Relations 
Committee for Gold Star Wives. Next is the Commander of the 
Jewish War Veterans, Allen Falk.
    Then we will hear from Mr. Bill Lawson, the National 
President of Paralyzed Veterans of America. Next, Mr. Sam Huhn, 
National President of Blinded Veterans Association. Next is 
Chief Master Sergeant John McCauslin, the CEO of the Air Force 
Sergeants Association.
    Next, Major General Gus Hargett, President of the National 
Guard Association of the United States. And finally, we will 
hear from Commander Gary Fry of AMVETS.
    I want to thank you again, each of you for coming here to 
testify before this Joint Committee. Vice Commander Susino, you 
are now recognized for your opening statement, sir.

 STATEMENT OF CHARLES SUSINO, SENIOR VICE COMMANDER, AMERICAN 
  EX-PRISONERS OF WAR; JOHN R. DAVIS, DIRECTOR OF LEGISLATIVE 
PROGRAMS, FLEET RESERVE ASSOCIATION; COLONEL BOB NORTON, DEPUTY 
DIRECTOR OF GOVERNMENT RELATIONS, MILITARY OFFICERS ASSOCIATION 
    OF AMERICA; JAMIE H. TOMEK, CHAIR, GOVERNMENT RELATIONS 
COMMITTEE, GOLD STAR WIVES; ALLEN E. FALK, NATIONAL COMMANDER, 
JEWISH WAR VETERANS; BILL LAWSON, NATIONAL PRESIDENT, PARALYZED 
  VETERANS OF AMERICA; SAM HUHN, NATIONAL PRESIDENT, BLINDED 
VETERANS ASSOCIATED; JOHN R. ``DOC'' MCCAUSLIN, CHIEF EXECUTIVE 
  OFFICER, AIR FORCE SERGEANTS ASSOCIATION; MAJOR GENERAL GUS 
 HARGETT, PRESIDENT, NATIONAL GUARD ASSOCIATION OF THE UNITED 
      STATES; AND GARY L. FRY, NATIONAL COMMANDER, AMVETS.

                  STATEMENT OF CHARLES SUSINO

    Mr. Susino. Thank you, Mr. Chairman. Messrs. Chairmen and 
Members of the Veterans' Affairs Committee, my name is Charles 
Susino, Senior Vice Commander of the American Ex-Prisoners of 
War. I am honored to testify before you again today on behalf 
of our National Commander Carroll Bogard. You all have our 
prepared testimony in front of you.
    Now I'd like to speak from my heart in more depth of this 
testimony. Senator Murray, Senator Burr, Representative Miller, 
Representative Filner and Committee Members, this year marks 
the 70th birthday of the American Ex-Prisoners of War.
    On April 14, 1942, two mothers whose sons were captured on 
Bataan, formed the Bataan Relief Organization. In 1945, the 
prisoner of war returning from home became the Bataan Veterans 
Organization. And in 1949, expanding our membership to 
encompass all members of all wars, we became the American Ex-
Prisoners of War.
    Since our beginning, we have closely aligned with our 
slogan, we exist to help those who cannot help themselves. It 
is our mission statement, not mere words, but a way of life for 
the American Ex-Prisoners of War. We consider it an honor and 
duty to reach out to all these veterans who have been unaware 
of the assistance and benefits they are entitled to.
    Nearly 21 million Americans proudly served this country 
during World War II, the Korean War, the Vietnam War. Less than 
3 million survive today. And of all ages, many of them in poor 
health and need care. As a national service officer with the 
Ex-Prisoners of War, I see firsthand veterans from all 
conflicts. Only a few are former prisoners of war. And an 
average of 892 for World War II veterans, 85 for Korean War 
veterans, and 65 for Vietnam veterans, those with us live 
longer than expected.
    Some World War II and Korean veterans have far exceeded 
their average life's expectancy tablets. For Vietnam veterans, 
the life expectancy pegged at 64 or 65, ten years less than the 
average male of non-veteran population. These figures are the 
compliments of the Blue Water Navy Vietnam Veterans' 
Association.
    Unfortunately, all of them are not entitled to use the 
Veterans Administration facility. After putting their lives on 
the line for their country, many fall through the cracks, and 
the care and ruling enacted decades ago for the fighting 
possibility of many millions applications to the Veterans 
Administration.
    Most of these war veterans are in VA category 8 or lower. 
Which means, they're not entitled to VA care at all. These 
veterans designated as category 8 with their income exceeding a 
pre-set threshold classifying them as affluent.
    They are mostly not affluent in that category, yet some 
earn as little as $28,430 a year. Hardly affluent. A 
significant change was made in health care eligibility in 1986. 
Congress mandated health care for veterans, with service-
connected disabilities, as well as special groups of veterans, 
such as the prisoners of war and veterans exposed to herbicides 
and ionizing radiation and World War I veterans. The average 
age of a World War veteran was 88 in 1986, younger today than 
World War II veterans; which is virtually the same age as the 
veterans in the Cold--Korean War.
    Today, we request of you, the 112th Congress, please update 
the law to add World War II, Korean, and Vietnam veterans to 
this special group of veterans to make them available for 
health care. Please consider to include the Gulf War veterans 
in this special group of veterans. It is overdue for Congress 
to update this action in 1986.
    From a health benefits standpoint, they put these war-time 
veterans on a par with World War I veterans, the special 
groups, and the current warriors who are fighting in the Middle 
East, all of which we strongly support. Please let them not be 
forgotten. It is the right thing to do. Please do not continue 
to allow these war time veterans to be excluded from depriving 
them of health care.
    We are willing and able to work with you and your staff on 
drafting this amendment. Messrs. Chairman, Committeemen, this 
completes my testimony. Thank you for allowing me the 
opportunity to appear before you on behalf of the American Ex-
Prisoners of War to share this goal for the 112th Congress. 
Thank you also, all of you, your Committee have done for all of 
us, and the Nation's veterans, and the families in the future.
    If you have any questions for our organization, I will 
attempt to answer them. If I do not have the answers, I will 
make sure I get them for you. God Bless America, and thank you 
very much.

    [The prepared statement of Charles Susino appears in the 
Appendix]

    The Chairman. Mr. Davis.

                   STATEMENT OF JOHN R. DAVIS

    Mr. Davis. I thank you for allowing me the opportunity to 
come share FRA's views on veterans' issues with you today. FRA 
joins with the other associates to state that the VA should be 
exempted from sequestration and the Association appreciates 
Chairman Miller's introduction of the Protect the VA Healthcare 
Act that excludes the VA health care programs from automatic 
sequestration cuts next year.
    FRA strongly believes that the cost of war should include 
treating the Nation's wounded wars, and is deeply concerned 
about the backlog of claims at the VA. Currently there are more 
than 900,000 veterans awaiting decisions and 66 percent are 
pending for more than 125 days. That's an increase of more 100 
percent over the last three years.
    Despite thousands of additional adjusters, the backlog of 
disability claims continues to increase. Put simply, veterans 
injured in the service of their country deserve accurate, 
consistent, and timely disability determinations. There is 
strong bipartisan support to eliminate bureaucratic delays and 
ensure more uniformity between the branches of the military and 
the VA on how they rate disabilities.
    But the VA can promptly deliver benefits to veterans only 
if it has modern technology to do so. The Joint Virtual 
Lifetime Electronic Record shows great promise, as does the 
Benefits, which is an electronic portal for veterans who will 
eventually get timely updated on the status of their disability 
claims.
    FRA's National Veterans Service Officer, Chris Slawinski 
tells that he continues to receive phone calls from association 
members and their surviving spouses to express concerns about 
having been denied benefits by the VA based on inaccurate, 
incomplete, and missing information or evidence. These errors 
by the VA contribute to the growing number of appeals and 
further strains on the claim adjudication backlog.
    The goal of truly seamless transition for wounded warriors 
transitioning from DoD to VA still remains an elusive goal. 
Community Chairwoman Senator Murray and Ranking Member Senator 
Richard Burr in hearings have both acknowledged improvements, 
but also have expressed frustration with bureaucratic in-
fighting and the pace of reform almost five years after the 
2007 media firestorm over conditions for wounded warriors at 
Walter Reed Army Medical Center.
    A top priority of the association is to ensure adequate 
funding for DoD and VA health care resource sharing in 
delivering seamless cost-effective quality services to wounded 
or injured personnel. Clearly, additional oversight hearings 
are required to ensure that the Department's respective 
bureaucracies are held accountable for future progress.
    FRA appreciates the VA's effort to expand presumption to 
ships exposed to Agent Orange during the Vietnam era. In 
January 2012, the Department added 47 ships to the list of Navy 
and Coast Guard vessels that have been exposed to Agent Orange 
herbicide. The list is expanded as VA staff determine that a 
ship was anchored, operated close to the shore, or traveled on 
the inland waterways, and was exposed to the toxic herbicide.
    While the expanded VA policy to include veterans on inland, 
waterways, and ships is appreciated, FRA believes it does not--
go far enough. FRA receives hundreds of calls from blue water 
sailors and their surviving spouses, stating that due to 
service on their ships in Vietnam waters, they too suffer and 
have died from illnesses associated with the exposure to the 
herbicides.
    The association strongly supports the Blue Water Navy 
Veterans Act, sponsored by Representative Christopher Gibson in 
the House and Senator Kirsten Gilldebrand in the Senate, and 
the Agent Orange Equity Act sponsored by Ranking Member Bob 
Filner. These proposals clarify that veterans who served off 
the coast of Vietnam may presume exposure, and should be 
compensated for their service-connected disabilities.
    As more and more ships are determined to have anchored in 
Vietnam coastal waters, the cost of the Blue Water legislation 
goes down. The association urges both these Committees to 
schedule hearings on this important legislation, to determine 
how this can be corrected.
    We also want to thank Chairman Miller for his hearings last 
year in February 2011, regarding the abuses of servicemembers 
with their Service Member Civil Relief Act rights. That hearing 
originally exposed just one financial institution making errors 
against servicemembers.
    Also, we want to thank the President's blueprint for an 
American Built to Last, which includes provisions intended to 
assist veterans and active duty servicemembers with their 
housing that is being coordinated by the Department of Justice, 
Civil Rights Division. I'd be glad to answer any questions you 
might have.

    [The prepared statement of John R. Davis appears in the 
Appendix]

    The Chairman. Thank you, sir. Colonel Norton.

                STATEMENT OF COLONEL BOB NORTON

    Colonel Norton. Thank you, Madame Chair, Chairman Miller, 
Members of the Committees. It's been an honor for the past 15 
years to have testified before the Committees. Over that span, 
the leadership of the Committees and the support of the entire 
Congress for our Nation's veterans has been most gratifying, 
and we are deeply grateful for all of the work and all of the 
support from the Committees. It's a long list that includes 
full funding for VA health care, advance appropriations, the 
Caregiver's Act, the VOW to Hire Heroes Act, the Post 911 GI 
Bill, and the list goes on. We are very grateful.
    On behalf of our 377,000 members, I would like to highlight 
the following issues from my prepared statement. First is the 
coordination of caregiver support between the Defense 
Department and the VA for our most severely wounded warriors. 
Thanks to your efforts and the Armed Services Committees, 
caregiver programs have been upgraded to help the spouses, 
parents, and others who have taken on the enormous 
responsibilities of providing full-time care for our most 
severely disabled veterans.
    But more needs to be done to streamline the hand-off and 
coordination of the VA and DoD care coordination programs. 
There are still too many gaps between the two that cause 
confusion, anger, and helplessness among some caregivers of our 
most severely disabled warriors. We need to do more so that 
those families who have given so much are not left to their own 
devices to navigate between the two bureaucracies.
    MOAA urges the creation of a joint VA/DoD oversight office 
that would better coordinate the Federal recovery coordination 
program, basically run by the VA, and the Defense Department's 
program. In this era of diminishing resources, we need a more 
efficient, effective coordination of these efforts for the 
people who are delivering care to our most severely wounded 
warriors.
    In a similar vein, MOAA recommends the Committees continue 
to provide vigorous oversight of VA programs that address the 
needs of today's veterans suffering from post-traumatic stress, 
traumatic brain injury, or who have been victims of sexual 
assault in military service.
    This week's Army Times, for example, highlights an informal 
survey performed by the Service Times media that indicates a 
rising number of women warriors are reporting for post-
traumatic stress. And the Army has increased the number of 
cases it has taken to courts martial for sexual assaults, and 
the number of convictions is on the rise.
    But more needs to be done when these American heroes come 
over to the VA system to meet their unique needs. This is the 
fastest growing group of veterans needing health care and 
benefits from the VA.
    We are very grateful for the bipartisan support for the 
``VOW to Hire Heroes Act'' (Title II, P.L. 112-56), which is 
now being implemented. In that regard, we recommend the 
following among the actions that are listed in my statement.
    One, extend the timeline for veterans who enroll in the 
special training provision under the Montgomery GI Bill. We are 
concerned that many will not gain the employment credentials or 
licenses they need in the compressed-timeframe authorized. We 
believe that once in the program, these older veterans should 
be grandfathered so that they can complete all of their 
training needed for meaningful employment.
    We also recommend that the Committees working with the 
Armed Services Committees to make sure that the reforms sought 
for the military Transition Assistance Program, or `TAP,' 
actually work for today's veterans. Veteran unemployment starts 
on active duty. Meaningful TAP reform is urgently needed to 
ensure that our service men and women have the tools they need 
to make a successful readjustment in this very difficult jobs 
market. And, we appreciate your ongoing efforts concerning 
veteran employment.
    The Defense Department is doing more on civilian 
credentialing and licensing, but even more needs to be done in 
that arena to take advantage of the tremendous training and 
experience of our serving men and women.
    Finally, MOAA recommends the Committees take strong action 
to protect the GI Bill from certain unscrupulous for profit--
schools, not all, just a few, and provide the tools that will 
enable our student veterans to take full advantage of the 
greatest GI Bill since the great World War II GI Bill.
    Among the recommendations in our statement, MOAA believes 
veterans need more support on campus. We suggest, for example, 
that the campus-based ``VetSuccess'' Program be expanded above 
the 80 campus level recommended in the administration's budget 
request for next year.
    In addition, all schools should be made to comply with 
Department of Education accreditation and other requirements 
that apply now only to Title IV participating schools. And we 
recommend that the Committees direct the VA to work with the 
Department of Education to develop an online dashboard, if you 
will, similar to the new `College Navigator,' so that student 
veterans can compare schools, costs, accreditation, graduation, 
drop-out rates, and other facts.
    In other words, it would be something like an online 
shopping tool like Amazon, but for veterans who are doing their 
research into the kinds of opportunities they have for college.
    Mr. Chairman, we deeply appreciate your recognizing our 
POWs. For our surviving spouses of those who have given their 
all in the recent conflicts in Iraq and Afghanistan, MOAA 
continues to strongly recommend the Committee's endorse 
legislation to authorize that they have the same educational 
benefits as their children do under the Fry Scholarship 
Program. They won't be able to raise their children without 
having a strong GI Bill program including a housing allowance 
and a book allowance, if they are left to the DEA, the legacy 
educational program for surviving spouses.
    I thank you again for this opportunity to present our views 
to the Committees, and I look forward to your questions.

    [The prepared statement of Colonel Bob Norton appears in 
the Appendix]

    The Chairman. Thank you, Colonel. Ms. Tomek.

                  STATEMENT OF JAMIE H. TOMEK

    Ms. Tomek. This is new to me, so I'm going to have to try 
it out a little bit. Thank you for inviting Gold Star Wives to 
be here to testify at this table. I am pleased to be here on 
behalf of them. Gold Star wives are Abraham Lincoln's widows 
and orphans, because we work with those children that are left. 
In our case now, we call ourselves surviving spouses, because 
there some men among us, but for the most part we are women and 
widows.
    The survivor populations served by VA is a separate 
category of beneficiaries that should be equally recognized by 
government officials, and sometimes we're not. We do not 
qualify as family members once our spouse has been killed or 
dies of a service-connected disability. And often people forget 
to remember survivors.
    We have several issues to talk with you about today. First 
is the Office of Survivor Assistance with VA, it has not yet 
been fully staffed. There is still two program analysts 
positions open. They have once hiring action going on, but we 
would like to see that office fully staffed to provide adequate 
advice to the Secretary of Veterans Affairs.
    The staff who answer the 1-800-VA phone number often don't 
provide adequate, consistent, or accurate information on behalf 
of survivors. We ask that specific survivor training be 
provided to those employees, so that they can understand that 
survivor benefits are different than veteran's benefits. And we 
often have to go to the Veteran's Benefits Administration and 
we can do that, but we'd like to have that initial information 
provided accurately.
    The dependency and indemnity compensation is currently paid 
to surviving spouses at 41 percent of the 100 percent disabled 
compensation. Other Federal survivors receive a 55 percent 
benefit of retirement pay from their employees. We only get 41 
percent.
    We are going to be asking people in Congress to help us 
raise that benefit. We have women--44 percent of the DIC widows 
live on $20,000 or less, because maybe they took care of the 
children, or maybe they took care of a spouse who was wounded, 
died of a service-connected cause. $20,000 in today's economy 
is not really sufficient to live on, and we have 44 percent of 
surviving spouses living on that.
    The dependents and education assistance which Colonel 
Norton mentioned, the monthly payment for that for a surviving 
spouse currently is $957. The GI--post GI Bill beneficiaries 
receive more in housing allowance than our widows receive in 
tuition assistance.
    Eighteen months have passed since you all past a Champ VA 
Dental Insurance bill, and nothing has happened. Nothing has 
been posted on policy, no pilot has been implemented, we'd like 
to ask you to check into that.
    We ask you to eliminate the SBPDIC offset by passing S-260 
and 178. The Veterans Disability Benefits Act of 2003 
eliminated the SBPDIC offset for surviving spouses who 
remarried after the age of 57. But we don't understand the 
logic of Congress to abandon those of us who have chosen not to 
remarry.
    And finally, TRICARE proposed benefit health care plan 
has--we as surviving spouses have no retired pay, and so we 
can't figure out how we're going to pay for the premiums. It 
exempts post 9/11 surviving spouses and children from pre-PBMs, 
but those of us who had husbands die prior to 9/11 or whose 
husband died of service-connected disability have no retirement 
pay, and we are not exempt under that proposal.
    We hope you take a look at that as it comes through the 
Congress. Thank you all for letting me testify. We look to you 
as our protectors, and we work--we hope to change some of these 
inequities. We can't accomplish it without your help, and I 
believe that you are--feel similarly and you'll help us--let us 
move into action and I thank you for being here today.

    [The prepared statement of Jamie H. Tomek appears in the 
Appendix]

    The Chairman. Thank you very much. Mr. Falk, you're 
recognized.

                   STATEMENT OF ALLEN E. FALK

    Mr. Falk. Okay. Thank you. Chairman Miller, Chairwoman 
Murray and Members of the Committees, my name is Allen Falk, 
and I am the National Commander of the Jewish War Veterans of 
the United States of America.
    The Chairman. Try to pull the mic a little bit closer to 
you.
    Mr. Falk. I'm sorry. I'm the National Commander of the 
Jewish War Veterans of the United States of America.
    This is my first time testifying before the Committee, as 
you can see, I can't find the button. However, I have the honor 
of representing the oldest veterans organization in our 
country. This is our 116th year, and we have a long history of 
dealing with veterans' programs and working with the Congress.
    At our annual convention, our last annual convention in 
Jacksonville, we prepared the detailed priority papers on all 
our positions, it has been submitted, in the limited time we 
have to make a verbal presentation, I'm going to cut right to 
the priorities that were determined by the convention this 
year. Which is the welfare of the service men and women in 
Afghanistan and Iraq and the--especially the returning veterans 
and the problems that they are facing now, both in-country and 
as a transit--and make a transition back home.
    There are severe problems. You've heard some of them 
generally referred to here. The issue of TBI, Traumatic Brain 
Injuries caused by the high exposure to IEDs, we know it's a 
problem, but we don't know--in effect what we don't know. We 
know there are great questions about the severity, of the 
duration, and the effect of these conditions, and there's even 
great issues and disputes within the medical community as to 
the ratings, what constitutes a mild, a moderate, or a severe 
TBI.
    Even without the traumatic effects of TBI, we know we have 
enormous problems with PTSD, and there are a number of reasons 
why that's occurring, which are basically unique to the 
stresses our service people are suffering in Afghanistan and 
Iraq. A number of those considerations we have faced for the 
first time.
    You have to go back to World War II, when you had really a 
clarity of purpose within the Armed Services as people went off 
to fight. In the beginning early years of World War II, the 
physical sacrifice and danger that all our personnel were 
reporting was enormous, but the one thing they had was clarity 
of purpose. They knew what they were doing, what they had to 
do. They either headed west towards Berlin or east--or rather 
east to Berlin or west to Tokyo. And when they got there, their 
task was done, and they knew it was well worth doing.
    In Vietnam, we had the same problem that we have now. We're 
in a situation we don't really understand what our tasks are in 
the military. We even discuss now whether there's still counter 
insurgency or counter terrorism. There's no victory in sight, 
there's no easy way of defining a victory. We don't hear the 
phrase we lived with in Vietnam, ``there's no end at the light 
of the tunnel,'' but physically it may not be so effective, but 
it effects morale, and morale effects depression. There's still 
a lot of work that has to be done on that.
    The conditions in Afghanistan now, place additional stress 
on combat personnel, because in effect, everyday they're 
constantly a target, and yet many personnel will come back 
through a whole tour, or wounded seriously, and never even had 
a chance to take a shot at the enemy. That puts an enormous 
amount of stress on personnel.
    There's--of course, the problems with the repeat and even 
extended tours. That is something completely new, and we wonder 
how this was all put together, to where we have to rely on 
extending tours and repeating tours, even involuntarily, and 
the psychological effect that has.
    We Vietnam veterans had one advantage. When we got there, 
on the first day, you put a calendar on the wall, they start 
putting crossed-out marks on each day. You knew what the end 
was, you knew when you got short, you were going to be even 
protected because everybody wanted to go to the end and get 
out, have their job done. That's not what they face today, and 
I don't think we have any idea really about the psychological 
stress and damage that places on personnel that don't know if 
they're going to be called back in, both career personnel and 
especially in Reserve and National Guard personnel.
    There's a new type of stress that's placed on personnel 
that I've never seen discussed anywhere, and it's actually 
looked on as a benefit, but I think it creates new stress. And 
that is the instant communication that the combat personnel 
have through Internet and Skype. Even as late as Vietnam, you 
sent home letters and photos and packages, that was the only 
contact we really had. We had what was called ``Mars calls'' 
where you could actually go up on a hill top and make a phone 
call through all the ham operators around the world. If you 
were lucky, you'd have that twice.
    Now, we have, in effect, virtual war, and combat personnel 
that are practically commuting back and forth to battle. They 
come back to their little shack or wherever they happen to be, 
and they're able to turn on their computer, and turn on the 
Skype and talk to the kids, and try and pretend nothing 
happened, and listen to all the problems that are going back at 
home. It can be--it's a double-edged sword. It's a great way of 
maintaining contact with the family, but it puts all the 
problems of the family right back in the lap of the combat 
soldiers.
    That's while they're there. There's a whole new area of 
problems on return when they do get back to the country. The 
problems with employment, the re-employment issues, the 
employment training, college, attempting to get better 
education, the bad economy, it's a tough time trying to pick up 
the American dream. There's a disconnect with almost 99 percent 
of the population.
    As was indicated earlier, there's three million veterans 
now, in World War II alone, we had 16 million out of 140 
million. There is a disconnect from American society and 
returning combat veterans. There, of course, are the issues 
that have been raised about the problems that women veterans 
encounter. All of this leads to problems that transition from 
constant adrenalin alerts to the boring routines of getting 
back at home and trying to earn a living and support your 
family. All this leads to suicide rates which are very high, 
and we still believe to be under-reported.
    As far as solutions, I can't give you, and JWV can't give 
you, answers, immediate answers to these problems. But we know 
what we have to do. We have to have more effective independent 
autonomist and trusted studies. Studies so far have been by DoD 
or other military agencies, and they have even been 
conflicting. The Armed Forces Health Center study apparently 
found that repeated deployments did not prove to be harmful to 
vets, and actually they were healthier because the vets with 
problem dropped out. That was different than the Army Surgeon 
General's report that clearly found additional combat exposure 
created more PTSD and correlated.
    We need these studies. These studies should be free of 
conflicts, real or apparent, sufficient for peer review, and 
publication by respected scientific journals. The situation is 
unique, as I indicated, but it's analogous to the Agent Orange 
issue, which has been raised here.
    As Mr. Davis indicated, we're now talking about Blue Water 
and Navy ships and what constitutes exposure in Vietnam. We had 
a fight, one heck of a battle with the Federal government and 
the VA to even acknowledge that there were any affects from 
Agent Orange exposure. I served as Chairman of the New Jersey 
State Commission on Agent Orange. We had an association of 
Agent Orange commissions, because it went back to the states 
when the states still had money, when the feds weren't really 
acknowledging the research that was out there.
    It was only after scientific journals started publishing 
the results of correlating dioxin exposure to at least highly 
elevated levels of dioxin that Congress did act. I had 
additional comments, but I see I'm way over the time limit. I 
would just ask that staff note that we offer the services of 
Lieutenant Colonel Dr. Jacob Romo who recently retired from the 
VA, and had a 30-year Army career Vietnam veteran as an expert 
on the issue of veteran suicides, and helpful ways of 
preventing and lessening that.
    Finally, my--I'm grateful personally for all the work that 
the Committees have done on the economic issues, but our policy 
board has directed that I state JWV points out that Congress 
and the administration, both present, and over the last decade, 
have not fully faced these issues I've indicated.
    We've recently seen the results in the case of Sergeant--
Staff Sergeant Bales, how serious the consequences of these 
failures can be. Thank you for your attention.

    [The prepared statement of Allen E. Falk appears in the 
Appendix]

    The Chairman. Thank you, Mr. Falk. Mr. Lawson.

                    STATEMENT OF BILL LAWSON

    Mr. Lawson. Good morning, Chairman Murray, Chairman Miller 
and Members of the Veterans' Affairs Committees. I'm Bill 
Lawson, National President of Paralyzed Veterans of America.
    On behalf of our members, officers, and staff of the 
paralyzed veterans, it is an honor and a privilege to present 
this testimony which highlights issues of critical importance 
to the well-being of veterans with spinal cord injury or 
dysfunction, and in fact, all veterans.
    For 66 years, Paralyzed Veterans has represented the 
interest of veterans with catastrophic spinal cord injury and 
disease, working to ensure that their medical, economic, and 
social needs are met. I appear here today to continue that 
tradition.
    The full range of our concerns is detailed in my written 
statement, and in this year's independent budget, of which we 
are a proud co-author. During the 1947 Paralyzed Veterans' 
Convention, then President Gill Moss stated, and I quote, ``We 
are strongly opposed to the tenancy of cutting appropriations 
to the Veterans Administration as an economy move of 
government.'' Unfortunately, 65 years later, we're still 
addressing that same concern.
    Discretionary spending in VA accounts for approximately $62 
billion. Nearly 90 percent of that funding is directed toward 
VA medical care programs. The VA is the best health care 
program for veterans. Providing primary care and specialized 
health services is an integral component of the VA's core 
mission and responsibility to veterans.
    Across the Nation, VA is a model health care provider that 
has led the way in various areas of medical research, 
specialized services, and health care technology. However, 
Paralyzed Veterans is deeply concerned about steps VA has taken 
in recent years to generate resources to meet ever growing 
demand on the health care system.
    In fact, the FY2012 and 2013 advanced appropriation budget 
proposal released by the administration last year included 
management improvements. This is nothing more than a gimmick 
used by previous administrations to generate savings and offset 
the growing cost to deliver care.
    Additionally, the 2013 budget request and 2014 advanced 
appropriation recommendation includes many of the same 
gimmicks. Unfortunately these savings are never realized, 
leaving VA short of resources.
    We believe that continued pressure to reduce Federal 
spending will only lead to greater reliance on gimmicks and 
false assumptions, which generate apparent but illusory 
funding. This is particularly true given the VA's claim that it 
was provided nearly $3 billion in excess resources in 2012. We 
question how the VA could make such a claim when there still 
remains fully seven months in this current fiscal year. This 
information deserves the highest level of scrutiny and 
oversight that your Committees can provide.
    Finally in light of the administration's continued 
inability to determine its position with regards to 
sequestration, we have serious concerns about VA's claims to 
have nearly five percent in excess resources, when it faces the 
prospect of up to two percent reduction in funding under the 
rules of sequestration.
    We cannot emphasize enough, the VA--the need for VA to 
state that without a doubt that its programs will not be cut 
through sequestration. Otherwise, it is imperative that the 
Senate and the House approve Senate 2128 and House 3895 
respectfully to ensure that VA health care programs are 
protected from consideration for spending reductions.
    Our concern for the adequacy of the VA funding possible 
gimmicks and statements asserting excess resources is more than 
just curiosity for budgetary gamesmanship. Most notably, they 
illustrate a real disconnect between the health care needs of 
our members, and available VA resources.
    Paralyzed Veterans' professional medical staff compiles a 
monthly survey of available beds and health care personnel 
within the VA's spinal cord injury system of care. These 
staffing reports consistently reveal deficiencies in staffing, 
particularly in the field of nursing.
    Our most recent bed staffing survey that was completed just 
last month indicates the actual number of nurses personnel 
providing care at the bedside was 161 below, and I emphasize 
below the minimum requirement. Similarly, this survey indicates 
a shortage of physicians, social workers, psychologists, and 
therapists throughout the system, resulting in a deficit of 120 
acute care beds across the system.
    My question is how can the VA boast about having a $3 
billion excess, while at the same time, the VA is severely 
under-staffed, it just doesn't make sense, and I would ask if 
you agree.
    In closing, I would like to say on behalf of all veterans, 
please understand, we volunteered, we served, we fought, and we 
sacrificed for the freedoms that all of us enjoy today. Do you 
think it's just reward that we return home only to find 
ourselves having to fight for what we were promised?
    Again, on behalf of the Paralyzed Veterans of America, I 
thank the Committees for the opportunity to come before you 
with our concerns. We look forward to working with you in 
providing the services and benefits that America's veterans 
have earned.

    [The prepared statement of Bill Lawson appears in the 
Appendix]

    The Chairman. Thank you, Mr. Lawson. Mr. Huhn, you're 
recognized.

                     STATEMENT OF SAM HUHN

    Mr. Huhn. Good morning, Mr. Chairman, Chairman Murray, 
Members of the Veterans' Affairs Committee, the House and 
Senate. My names is Sam Huhn. I am the National President of 
the Blinded Veterans Association, and I have a couple of items 
that I would like to bring to your attention of bills that we'd 
like to get passed in this session.
    Our first bill is the Special Adaptive Housing Bill, 
introduced before and passed through the Committee, passed the 
House, but didn't get anywhere in the Senate. Introduced again 
this year by Senator Sanders of Vermont. It's S-914.
    What this bill does is, currently you can get the housing 
grant if you're blind in both eyes, and have a visual acuity of 
5 over 200. We want to change that to 5--20 over 200 which is 
the legal blindness standard. The reason for that change is 
because some of these veterans with traumatic brain injury have 
what they call functional blindness where their eyes are 
healthy, but their brain and their optic nerve don't allow them 
to see. And therefore, they grant them the 20 over 200 rating.
    The VA wants the bill, the Blinded Veterans wants the bill, 
and I hope it can get passed out this session. It is a good 
bill, it's clean, and it's the right thing to do.
    The other bill that has been introduced is Beneficiary 
Travel Bill. Now what happens, according to Chapter 38 of the 
Veterans Benefits, their Section 322, paragraph 11.1 is where 
the VA allows the payment of transportation for veterans to go 
to the hospital for treatment.
    Now, they only pay for the transportation for those who are 
20 percent service-connected up to 100 percent service-
connected. Now, we want the bill which has been introduced by 
Senator Tester and 1755 and supported by Senator Begich of 
Alaska, Senator Leahy and Senator Sanders have also backed this 
bill, introduced in the House by Congressman Michele and I 
believe some other Congressman have also signed up on the bill 
as of this morning.
    And what this--what we want added to is the non-service-
connected blinded veterans who have incomes less than $20,000 a 
year. These men and women come from places like America Samoa, 
the Hawaiian Islands, they have to go to Palo Alto, California 
for their blind rehabilitation. Those from Alaska, Montana and 
Idaho, they have to go to American Lake up in Washington State. 
Very expensive travel.
    Those from the far northeast of the United States, up in 
Maine, New Hampshire, Vermont, they have to take long distance 
travel to go to the only blind center in the eastern part of 
the country is at West Haven, Connecticut. And the problem is, 
these guys need this blind rehabilitation. It gives them skills 
of orientation of mobility, how to use a cane to get around 
safely. It gives them psychological help for their loss of--
coping with the loss of vision, independent living skills. Some 
of them lie to their wives about what they learn up there, 
because they teach them how to make their own beds, and clean 
their own clothes, and so they never tell their wives they 
learned that part of it when they go home.
    And they learn these manual skills and all this stuff at 
the blind centers. And so it's a good bill. The VA likes it. We 
spoke to the VA benefits business people, and they can absorb 
the cost. It's clean. It's a clean bill, and it's good, and I 
think it's the right thing for you guys to pass out this year. 
I told--yeah, and the House version of the bill I believe is 
3687, S or HR-3687.
    The last thing I'd like to talk about and it's not the 
least on my agenda is the Defense Appropriations Bill of 2008. 
That bill gives me augina, and I'll tell you why. They 
appropriated this money and guess what, the only thing they did 
was they appointed a director and deputy director for the 
Vision Center of Excellence, Hearing Center of Excellence, and 
Len Restoration Center of Excellence. No money in `09, no money 
in `10, and in `11, three or four of us went to see the 
Secretary of Veterans Affairs and asked him to intercede for us 
with the Department of Defense, which he did, and miraculously 
now we have a facility over in Bethesda. We have personnel, 12 
people, we have computers, and the whole point of the computers 
was to make this place a depository for the diagnosis and 
treatment of 58,000 brain damaged service people, that will all 
be in this database. And when they transfer seamlessly, 
hopefully, into the VA system, that information will go with 
them. So nothing contra-indicated to their condition of say 
medication or therapy that would hurt them, would be known. You 
know, like someone have an eye problem, and they treat them for 
a sinus infection, that's a no/no.
    And so by having this information now, that's fine. And the 
other part of this appropriation was to do research on the--see 
how repair--we could do repairs to the optic nerve, and to that 
part of the brain that affects sight and hearing.
    Now, it got $4 million in the budget. By the time the 
appropriators got done with it, they cut it by $800,000 down to 
3.2. Now, you know what, a strange way that people on the hill 
think, especially these appropriators. They can sit here and 
appropriate hundreds of millions of dollars for a breast cancer 
cure, prostate cancer cures, you know, all these cancer cures, 
then--and then they go to the Department of Defense and they 
get hundreds of millions again appropriated through that for 
the same cures. Something wrong with this picture, when we've 
got 58,000 traumatically brain injured service people who are 
losing their hearing, losing their sight, possibly beyond the 
dole for the next 50, 60, 70 years when they--when there's 
research maybe stop the onslaught of their vision loss and 
their hearing loss, and they could become productive citizens 
and they don't have to be on the dole.
    There's just something wrong with the priorities up here on 
the hill, that they would give all this money for these cancer 
cures and nothing wrong with that, I've had cancer myself. But 
the problem is, is that you know, our veterans, you know, you 
people calling it our treasure, these are 20-year-old men and 
women who we send off to war, and they're coming back damaged, 
and that's what we think about them, that we can cut four 
million--take our $800,000 out of that appropriation, so that 
they can use this--you know, it's just disgraceful.
    Let me finish up by saying one other thing. I saw a line 
item 2 in appropriations that they were building a soccer field 
for these terrorists down in Gitmo, and that was 800,000. And 
so I think to myself, these guys down there, they'll be getting 
soccer shoes and shirts, and all this nice equipment down 
there, and our service people come back and they get the shaft. 
This shouldn't happen. This should not happen in this country.
    I think my time is up. Thank you very much for inviting me. 
Thank you very much for listening, Mr. Chairman and Committee.

    [The prepared statement of Sam Huhn appears in the 
Appendix]

    The Chairman. Thank you very much, Mr. Huhn. We appreciate 
your comments, and I don't think there's a Member on this dais 
who believes that it was an appropriate expenditure of funds to 
build a soccer field at Gitmo for anybody.
    Chief Master Sergeant McCauslin, you are recognized.

  STATEMENT OF CHIEF MASTER SERGEANT JOHN R. ``DOC'' MCCAUSLIN

    Sergeant McCauslin. Chairman Murray, Chairman Miller, and 
Members of these Committees, good morning. On behalf of our 
110,000 members of the Air Force Sergeants Association, I thank 
each of you for this opportunity to offer our views of our 
members for your FY2013 funding priorities for the Department 
of Veterans' Affairs.
    This annual hearing is always special to us because it 
clearly illustrates that our Nation is well served by your 
nonpartisan approach that characterizes these Committees. 
Historically, your Committees have simply done the right thing 
for those who serve this Nation, and AFSA is very proud to have 
the opportunity to work with you.
    Joining us today are a considerable number of active and 
retired airmen and officers from the active duty force, Guard 
and Reserves behind me. They are spouses and DAF employees that 
are stationed at six military installations here in the 
national capital region. I'm told they represent 36 states and 
the District of Columbia. And I am pleased, as I'm sure you 
are, that they are able to be here today. Schedule permitting, 
I encourage each of you to take time at the end of this hearing 
to speak to them directly, and hear their firsthand concerns, 
and how about a group photo with these deserving folks.
    I'll begin by telling you that AFSA is very concerned with 
the prospect of sequestration, and how it could undermine VA 
funding in the coming years. We thank Chairman Miller for his 
leadership in introducing legislation that will provide clarity 
on this matter to our veterans. And we also ask that your 
Committees act promptly on his bill, HR-3895, the Protect VA 
Healthcare Act of 2012.
    Regarding our women veterans, we applaud your Committees 
for championing women veterans' issues in recent years; 
however, the issue of unique health care of women veterans must 
be addressed with higher urgency. There are more than 214,000 
women serving in our DoD today, many of whom have served in 
Iraq and Afghanistan. Nineteen percent of our Air Force are 
women, and they also suffer from the same effects of battle, as 
many of their male counterparts.
    Something about our family caregivers. Family caregivers 
provide critical and crucial support in caring for our 
veterans, and AFSA greatly appreciates the work of your 
Committees in passing the Caregivers and Veterans Omnibus 
Health Services Act of 2010. This is a program that is indeed 
actively meeting the needs.
    Related to taking care of these veterans, the VA backlog 
for compensation and pensions, education and appeals claims is 
a total disgrace. At the time of my written statement to you 
last Friday, VA Monday's morning workload report showed more 
than 1.4 million claims still pending. 600,000 or 66 percent of 
them for more than 125 days, and that's totally unacceptable.
    Regarding the Transition Assistance Program, the VOW to 
Hire Heroes Act made the Transition Assistance Program an 
interagency workshop, coordinated by DoD, Labor, and Veterans' 
Affairs, and it's a mandatory program for servicemembers to 
help them to secure employment at the end of their service, and 
not further exasperate the employment situation.
    AFSA verified that the content of TAP has changed very 
little in the last 25 years, and we're aware that a new program 
is in the works. Hopefully, it will provide veterans with 
current information and tools that they need to successfully 
transition into the civilian sector.
    Let me briefly discuss modification of enhanced per diem 
for your State Veterans Homes. The State Veterans Homes program 
continues to provide over 50 percent of long-term care for 
veterans, providing over 30,000 beds in 140 State Veterans 
Homes in all 50 states. These homes are an excellent Federal 
investment, since the states provide funding for two-thirds of 
the total operating cost.
    To correct the enhanced per diem problem, the House on 
October 11th last year, voted unanimously on HR-2074 to approve 
language authored by Representative Mike Michaud and Chairman 
Miller which would modify the program by allowing VA to enter 
into contracts or agreements with each of these homes. 
Identical language was included in S-914, authored by Senator 
Mark Begich, and approved unanimously by the Senate Veterans' 
Affairs Committee back on June 29 last year. Unfortunately, the 
Senate has not moved on either bill since last year.
    Next, homeless veterans. Ending veterans homelessness is a 
top priority for VA and this Association. Thanks to your 
efforts, sir, VA now has the resources to attack the program 
head on. The news of a 12 percent decrease this last year is 
indeed encouraging, but there are still 67,500 homeless 
veterans. A particular concern among our homeless veterans, 
male and female, that have young children, because we 
understand those numbers are increasing. No one, repeat no one 
who has served this Nation in uniform should ever have to be 
living on the streets.
    How about concurrent receipt. AFSA continues its advocacy 
for its legislation that provides concurrent receipt for our 
military pay and veteran's disability compensation for all 
disabled retirees without offset. Support of our survivors with 
current military deployments and increasing casualties, it's 
imperative that we plan to properly take care of those who may 
be left behind when a military member makes that ultimate 
sacrifice.
    AFSA strongly believes that surviving spouses with the SBP 
plan annuities should be able to receive their earned SBP 
benefits and the DIC payments related to their sponsor's 
service-connected death.
    We want to thank Congressman Joe Miller for introducing HR-
178, and Senator Bill Nelson for introducing S-260, which would 
repeal the SBP DIC offset. We also thank the 177 and 49 co-
sponsors respectively who support this important legislation.
    Defining veterans status for certain reserve component 
members, AFSA supports full veterans status for reserve 
component members with 20 years or more of service, who do not 
otherwise quality for veteran status under current law.
    The House on October the 21st last year, passed 1025, which 
was introduced by Congressman Tim Walz. Thank you, sir. We now 
urge the Senator Veterans' Affairs Committee to move forward on 
Senator Mark Pryor's bill, S-491 that would grant the status to 
these deserving individuals that are veterans in every sense of 
the word.
    I want to speak just briefly about cemeteries, specifically 
the Clark Veterans Cemetery. The United States Air Force left 
Clark Air Base in the Philippines in the 1991, following 
destruction of the base by Mount Pinatubo volcanic eruption and 
the collapse of base agreement negotiations. No provisions were 
made for the perpetual care of its military post cemetery, 
known as the Clark Veterans Cemetery. Known by many as the 
cemetery America forgot, the cemetery is the final resting 
place for 8,600 U.S. military veterans.
    Recently Frank Guinta introduced HR-4168, which addresses 
the neglected condition of that cemetery. ABMC says the 
decision rests with you, the Members of Congress, to act 
favorably on HR-4168, which by the way is cost neutral. Repeat 
cost neutral, and it would certainly ensure veterans interred 
at Clark where they're properly honored for generations to 
come.
    Moving on to the Post 911 GI Bill, arguably the very best 
legislation ever passed by Congress, and thanks to many of you, 
it's providing unprecedented educational opportunities for the 
thousands of men and women who served in uniform since 9/11.
    AFSA is concerned with the statistics that show the cost of 
sending a veteran to a not-for-profit school is more than 
double the cost of a public university, and that eight out of 
ten educational institutions collecting the most VA benefits 
are for profit schools. By no means are we suggesting 
impropriety with these or other educational facilities that are 
receiving Federal money. Many institutions are indeed offering 
high quality degrees that servicemembers can use in conjunction 
with their military career or aid them in employment once they 
separate.
    AFSA strongly endorses S-2179, the Military and Veterans 
Educational Reform Act of 2012, which was recently introduced 
by Senator Jim Webb to make critical reforms to protect the 
integrity of that post 9/11 GI Bill, and the military's Tuition 
Assistance Program.
    Our retirees our truly national treasures. At its surface 
is the last issue I'd like to comment, which might not appear 
under purview of your Committee, but I feel it's ancillary.
    The Administration's proposed 2013 budget cuts for higher 
TRICARE fees, the establishment of new ones and the creation of 
a BRAC-like panel that would review current military 
compensation and recommend changes, probably reductions, for 
Congress to consider. The President and many senior civilian 
leaders have repeatedly said they will not balance the budget 
on the backs of our veterans. We took them at their word, but 
now this is in fact, exactly what they are proposing to do.
    Apparently they've lost sight of the fact that military 
retirees are veterans, and now they've created an air of 
mistrust among those who have served and are now serving. 
Senior civilian and military leaders openly speak of the 
importance of ``keeping the faith'' with our military members, 
particularly where earned benefits are concerned. Benefits like 
the VA offers, retired pay and health care.
    Right now, Airmen seated behind me are asking ``where is 
the faith'' and they're looking to you, the Members of 
Congress, to provide that answer. Passing the buck to 
servicemembers instead fulfilling promised benefits, only 
serves to undermine long-term retention and readiness.
    In conclusion, sir, I'd like to thank you again for the 
opportunity to express the views of our members on these 
important issues. We understand tough decisions are ahead, but 
AFSA contends that it's of paramount importance for our Nation 
to provide quality health care and top notch benefits, in 
exchange for the devotion, sacrifice and service of our 
military members. So too must those making the decisions take 
into consideration the decisions of the past, the trust of 
those impacted, and the negative consequences of those who 
based their trust in our government. Thank you again, sir.

    [The prepared statement of John R. ``Doc'' McCauslin 
appears in the Appendix]

    The Chairman. Major General Hargett.

             STATEMENT OF MAJOR GENERAL GUS HARGETT

    General Hargett. Mr. Chairman, thank you for the 
opportunity to testify here today on behalf of the 470,000 
Guard men and women and our veterans across the Nation.
    As you know, the Guard is a unique organization, that we 
train for both the state and Federal mission. In fact, more 
than 700 Guard men and women were recently called up as 
tornados ravaged several communities in the south and Missouri.
    Whenever called, I remind everyone, that our National 
Guardsmen uproots from his family and civilian community, and 
he doesn't go back until the mission is complete. They return 
to a non-supported community.
    Since 9/11, more than 460,000 National Guard members have 
deployed in contingency operation. These Guardsmen compose of 
substantial amount of our post 9/11 veteran population. When 
Guard members return from deployment, they do not live within 
the 24/7 supported structure of an active duty military 
installation. A key issue for the National Guard community is 
HR-1025, as you've heard described, which would provide 
recognition as veterans to members of National Guard and 
Reserve who have served 20 years and earned military retired 
pay.
    HR-1025 unanimously passed the House last year, but has not 
been taken up in the Senate. The bill would authorize veteran 
status under Title 38 of the USC for National Guard and Reserve 
members of the Armed Services specifically members who draw a 
non-traditional retirement.
    HR 1025 is cost neutral, because it would provide no 
benefits other than the honor of being a veteran who has served 
20 years honorably for our service. Many serving and retired 
National Guard Reserve members may not even know that they do 
not qualify as a veteran.
    Some National Guard members who have been protecting the 
homeland on aerospace controlled mission, formerly known as 
Operational Noble Eagle, the southwest border on Title 32 
orders, may one day retire from the Guard, and not have the 
privilege of calling themself a veteran.
    I could offer several illustrations of people who have 
served as much as 30 years, and who now draw their military 
retirement, have deployed but in a training status overseas, 
but are unable to claim veteran status. This is simply not 
right and needs to be adjusted.
    As you may recall, a predecessor bill HR 1025 passed the 
House unanimously in 2010, thanks to Congressman Walz. HR 1025 
is now back before the Committee where it warrants the proper 
consideration. Critics of the legislation have charged that it 
would allow the camel's nose under the tent, that is simply not 
true. If signed into law, 1025 would help tear down the 
remnants of a wall of prejudice that still exists in some 
quarters against National Guard and Reservists, a force that's 
always ready and always there, as a cost neutral stand alone 
bill, HR 1025 provides an excellent opportunity for Congress to 
come together and honor the National Guard and Reserve members.
    NGAUS respectfully requests that Members of the Senate 
Committee on Veterans' Affairs please join our colleagues in 
the House and move this bill forward. Our career National Guard 
and Reserve members deserve nothing less. We have offered 
written testimony in support of several other bills, and stand 
prepared to answer questions on those bills.
    Mr. Chairman, thank you for the opportunity to testify here 
today and thank you for what you do for our veterans.

    [The prepared statement of Major General Gus Hargett 
appears in the Appendix]

    The Chairman. Thank you, General. Mr. Fry.

                    STATEMENT OF GARY L. FRY

    Mr. Fry. Chairman Miller, distinguished Committee Members, 
as the National Commander of AMVETS, I am honored to share our 
concerns and comments on the issues under the purview of your 
Committees.
    Today, with a decade of war behind us and horrific budget 
cuts staring us in the face, our men and women in uniform 
remain steadfast in their mission to defend this great Nation. 
This dedication and sacrifice must never be forgotten.
    President Obama once said that the national budget would 
not be balanced on the backs of veterans, and AMVETS adamantly 
supports this concept of preserving all earned veterans' 
benefits. Our servicemembers and veterans do not deserve to be 
asked to continue making sacrifices. They don't deserve excuses 
or broken promises. They deserve nothing less than this 
Nation's full support. They've done the hard work on behalf of 
Americans, now it's time for all Americans to relieve them of 
their heavy burdens.
    Today's military and veterans community is faced with many 
challenges and AMVETS is dedicated to aggressively tackling 
these issues on behalf of American Veterans everywhere 
including topics such as veterans unemployment, VA and DoD 
health care, veterans' benefits, womens veterans, National 
Guard and Reserve servicemembers, homeless and rural veterans, 
POW and MIA recovery and identification and mortuary affairs.
    The problem of veterans unemployment should be seen as a 
national disgrace while everyone appears to be talking about 
the problem, few real solutions have been offered. In 
recognition of those who honorably fought to maintain the 
freedoms of those who stayed behind, we as a Nation, cannot do 
enough to ensure that the American veteran gets the proper 
skills, certifications and education necessary to be successful 
in life.
    AMVETS is promoting the idea of making veterans a protected 
class under the current Affirmative Action law. This would only 
require a change in a few words. Veterans are among the 
smallest minority groups in this country, with fewer than seven 
percent of Americans ever having served in the Armed Forces and 
less than one percent wearing the uniform today.
    One of the chief responsibilities of VA is providing 
primary and specialty, physical and mental health care to 
American veterans. AMVETS has serious concerns that any 
reduction in spending on a VA health care program will lead to 
catastrophic reduction in these critical services.
    AMVETS calls on Congress and the Administration to ensure 
that VA health care programs are fully funded in a timely 
manner. AMVETS believes promises made to our military members 
and veterans when they agreed to leave their homes and 
families, in our stead, it's critical that veterans' benefits 
become a national priority because of sacrifices performed by 
these men and women.
    Among the most critical issues facing women veterans today 
are homelessness, military sexual trauma, and a lack of gender 
specified health care. These three issues are a trifecta of 
humiliation and deprivation for women veterans. How can we as a 
Nation allow some of our most vulnerable veterans, many of whom 
also have children, to be living on the streets of our cities? 
Is it right that a woman should have to fear for her personal 
safety, not only from foreign enemies, but from her comrades-
in-arms simply because she made a conscious decision to serve 
in the military?
    We certainly concur with the General here on the National 
Guard bills. AMVETS fully supports 1025, and I'd like to 
emphasize this cost neutral bill would not bestow any new or 
unearned benefits, would simply provide career reserve 
component members, the honor of being recognized as veterans.
    AMVETS urges the House and Senate Veterans' Affairs 
Committee to consider the importance of supportive housing 
facilities for homeless veterans, many of which are situated on 
VA property and/or owned by the VA. Consistent with Secretary 
Shinseki's goal of eliminating homelessness among veterans by 
the year 2015, these facilities are vital to the approximately 
68,000 homeless veterans that rely upon them for shelter, 
health care and other services.
    We at AMVETS are deeply disturbed by the on-going reports 
of mishandling of the remains of our fallen heroes. There is no 
more sacred responsibility than the dignified and respectful 
recovery, return and burial of those killed in action. While 
AMVETS acknowledges that there's been a great deal of positive 
improvements, more needs to be done to ensure that these don't 
ever happen in the future. We recommend continued and increased 
oversight on all mortuary operations facilities.
    Mr. Chairman and the Committee, it's my privilege to have 
been here, and I think I speak for everybody else at the table, 
we appreciate what the Committee has done. You have a very good 
reputation, and we're sure that that will continue in the 
future. Thank you.

    [The prepared statement of Gary L. Fry appears in the 
Appendix]

    The Chairman. I thank you very much, Mr. Fry. Thank you 
everybody for your testimony today, we appreciate it. In case 
some of you have looked up here at the clock on the wall, you 
see there's two lights and a red light, that means that the 
House has been called into----
    Mr. Walz. That's what that means?
    The Chairman. Yes, that's what that means. It means the 
House has been called in to vote. Some of the House Members 
will have questions that we'll submit to you for the record. I 
would also now like to call on my good friend and former Member 
of the House, now a Member of the United States Senate from 
Arkansas, John Boozman to take the chair.
    Senator Boozman.[Presiding] Thank you, Mr. Chairman. And I 
know that our House guys have to leave, so I think we'd like to 
go right to Mr. Wallis.

               STATEMENT OF HON. TIMOTHY J. WALZ

    Mr. Walz. Well, thank you, Senator. Always a true gentleman 
and a real asset to this Committee. We're glad to have you on 
that side. Chairman Miller, thank you, just a quick moment if 
that's okay, and I want to thank you for putting our focus on 
our POW-MIA issue. That's an issue of moral consciousness that 
permeates all the other things we do here, and so I think 
that's absolutely appropriate. And thank you to all of you, and 
all of you sitting there. They know they come with millions 
behind them, and many places you could be today, you could take 
your time and resources and be elsewhere, but you don't for one 
simple reason, you love this country, and you know it's 
important that you're here to make this right.
    I too share, and I have to tell you, I am right with the 
Chairman on this. Sequestration is not only wrong-headed, it's 
dangerous. It's--I have to tell you, I don't see anywhere in 
here, and I have to very clear, anywhere in the Constitution be 
very clear, we failed at our job, we absolutely capitulated our 
responsibilities over political issues, and now we're stuck in 
a situation where we're not willing to make the hard choices 
and prioritize this Nation's concerns.
    There's no doubt that we have financial issues to deal 
with. We can do that. But to come into this room and ask us to 
start that conversation here, when there's other places we can 
start it, when there's other things we can do, because we 
didn't have the courage, and I would argue the moral courage to 
make the hard choices and tell the population, and tell our 
neighbors, it's going to cost some money to care for our 
veterans. We should do that as efficiently and effectively as 
possible, but don't tell them you get something for nothing, 
and don't tell them that these wounded warriors, and don't 
come, as we heard Ms. Tomek say, I have to tell you, if we're 
telling our widows that we simply can't fix the DIC, because 
you won't find anyone who will tell you this makes any moral 
sense whatsoever. It's simply wrong.
    But the argument always is, we don't have the resources to 
fix it because we're broke. Well, I have to tell you, a Nation 
that cannot care for those and the widows who sacrificed so 
much is just not financially broke, they are morally broke. We 
are neither. We are neither.
    So it's such a pleasure to be here. And I have to tell you 
I believe if this Committee were running the Congress, things 
would be different because the bipartisan nature of this, the 
folks that testify here are here for the conscious of this 
country, not for short-term personal gain. And it's always 
gratifying for me to see you here, to see the effort that it 
took to get here, to testify with these things, and watch 
democracy work. So on behalf of my constituents in southern 
Minnesota, thank you for having faith in the system, thank you 
for advocating for the right things, and thank you for helping 
us together write legislation that makes a difference.
    So I yield back and thank you for the time, Senator.

    [The prepared statement of Hon. Timothy J. Walz appears in 
the Appendix]

    Senator Boozman. Thank you, Mr. Wallis. Mr. Wallis, you 
know, being a retired sergeant major truly does understand. My 
dad was a retired master sergeant. When I'm around him, I feel 
like I'm--you know, I need to be doing something.
    Let's go down to Mr. Johnson. These guys have to go. If he 
would speak for a couple of minutes, and then we'll go down to 
Mr. McNerney real quick so they can get their vote.

             OPENING STATEMENT OF HON. BILL JOHNSON

    Mr. Johnson. And, Senator, I'd like to tell you, you both 
have got me out-ranked, because I started out as a staff 
sergeant, before I retired as a lieutenant colonel in 1999. So 
I get to follow all of you. So thank you very much. And thank 
you--I want to thank the Chairman for having this hearing 
today.
    I'd first like to thank all the veterans and the members of 
the service organizations who've come to Washington today, 
especially from my home state of Ohio, I appreciate so very 
much your efforts to advocate on behalf of our Nation's heroes. 
And as many of you are veterans yourselves, I'd also like to 
thank you for your service to our country.
    Would everyone from Ohio please raise your hand or stand to 
be recognized? They're kind of scattered throughout the 
audience. All right. Thank you very much.
    Each organization plays an important role in improving the 
lives of our Nation's veterans, their families and survivors, 
and also connecting them with the assistance, the benefits, and 
the services that they are entitled to. And I'm truly grateful 
for your service to our veterans' community, especially in 
Ohio.
    Be assured that I share your dedication to those who have 
sacrificed so much for our great Nation. I look forward to 
working with you and my colleagues here on the Committee to 
ensure that our veterans are receiving the care and benefits 
that they have earned with their selfless sacrifice for our 
country. And with that, I'll yield back.
    Senator Boozman. Let's go to Mr. McNerney, another former 
House colleague that I very much enjoyed working with while I 
was here.

    [The prepared statement of Hon. Bill Johnson appears in the 
Appendix]

            OPENING STATEMENT OF HON. JERRY MCNERNEY

    Mr. McNerney. Thank you, Mr. Chairman. I too miss your 
service on the House Committee, but I'm glad you're on the 
Senate Committee. You've been of real service to our veterans.
    What I want to say is that I really do appreciate the 
testimony that was given this morning. I missed the first few, 
but we have the hard written testimony, I'll read that on the 
airplane this afternoon.
    Every veteran out there, man or woman, has his or her own 
story. I've been listening to these stories for the last five 
or six years, many of them are very touching stories, they've 
served hard, and now they have earned rights and benefits in 
this country, and it's our duty as Members of this Committee to 
make sure that those benefits and services are there when 
they're needed. And there's still holes in the system, we've 
seen improvements, but we hear testimony about the grave 
markers that were misplaced, about the travesties that took 
place at Arlington National Cemetery, about our National Guards 
not being recognized as veterans, and so on.
    There's so much more that needs to be done. And I'm really 
proud to work here on this bipartisan Committee of men and 
women, Democrats and Republicans that want to do what our 
Nation needs to do to serve the people, the men and women who 
have put on the uniform in this country and served in good 
times and bad, and made this country the great country that it 
is. So I'm proud to be a Member of the Committee, and I'm proud 
that you all are here to give us your testimony. Thank you.

    [The prepared statement of Hon. Jerry McNerney appears in 
the Appendix]

    Senator Boozman. Thank you very much and again we 
appreciate your service now on the Committee for many, many 
years.
    Let me just apologize for being late. The--right now, 
there's just lots going on, and you just feel like you need to 
be in two or three places. But again it's so important. You 
know, I did away with a couple of other places because I 
understand how important it is to be here. And it's important 
that you're here.
    You know as we look out, I know myself and the staff that's 
here, and the rest of the people on the Committee so much 
appreciate you all. I mean, we're here as a Committee, you 
know, trying to fight the battle with your help, but I can't 
tell you how important it is for you to be here, talking to 
your representatives, talking to their staff, talking to the 
senators, and telling them how important these issues are.
    The other thing is, I really want to thank the Auxiliaries. 
I've got a wife and three daughters, I understand who does the 
work, and we really do appreciate all of your efforts and, you 
know, what you do for these organizations, and how blessed we 
are to have you all.
    Let me just ask two or three questions real quickly and--I 
know, Mr. McCauslin, our Chairwoman in the Senate, you know, 
she mentioned in her opening statement that she was planning on 
introducing a bill in the coming days that will provide 
veterans with information that will help them make informed 
educational choices.
    Her bill would also require DoD and VA to work together to 
develop a policy on misleading marketing and aggressive 
recruitment of servicemembers and veterans. I guess the 
question is, as the Committee looks at the issue in the coming 
weeks and months, what are some of the key points that we 
should keep in mind?
    Sergeant McCauslin. Yes, sir. All right. Thank you, sir, 
for your question. I think some of the key points are these so-
called scam schools that are producing diplomas that, you know, 
have no real value on the outside. They're not jobs. They're 
basket weaving, tennis or something else that doesn't produce 
employment for our folks.
    And just this morning at a reception, I was talking with a 
congressman from Pennsylvania, and he gave me some ideas, and 
I'm going to go up there and meet with him on their--I think 
it's called PIE, Partners in Education Program, where the 
schools are hooked up with local industries to teach what are 
the job needs in that respective area. That needs to be pursued 
and we plan on meeting and talking about that and try to get 
the VA to take that on.
    Senator Boozman. Very good. Colonel Norton, in--and you 
know, just in visiting with veterans in the state and really 
just, you know, throughout the capacity, in my capacity, I know 
the Committee's capacities, you know, we've got a situation now 
where you almost have veterans as they're applying for jobs 
that are not volunteering the fact that they are veterans, 
because of some of the stigmas that are being, you know, put on 
them, and you know, the many deployments, you know, all of 
those kinds of things. And, you know, we have a lot of veterans 
coming back with wounds that aren't visible, and yet are 
certainly as important as the visible wounds that others have 
suffered in the war.
    There's a lot of work to do to kind of address, you know, 
the misinformation, you know, about veterans that are having 
those difficulties. I guess what I'd like to know from you is 
perhaps what are the--some of the strategies that you found, 
you know, to be most helpful, most effective perhaps in 
fighting against this type of misinformation, and to make the 
case, the so important case for employers to hire veterans. And 
I can tell you, you know, that's the right thing to do, but as 
a Committee Member, you know, and as a person that's trying to 
make the system work, and as somebody that was the Ranking 
Member and the Chairman at one time on the Committee in the 
House, you know, that had to do with veterans employment, you 
know, the better job that we do that, if you get people, you 
know, where they can earn a living, a wage, support their 
families, that takes care a lot of the problems, you know, with 
future abuse down the line.
    So, you know, it's so important for so many reasons. And as 
you know better than anybody, the--our unemployment numbers, 
and I think increasing discrimination are a real problem. Yes, 
sir.
    Colonel Norton. Thank you, Mr. Chairman. Let me just say 
first that we really appreciate all your work over the years 
here in the House, and now on the Senate Veterans' Affairs 
Committee. I had the honor of testifying before you in your 
district in Rogers, Arkansas about five years ago on the GI 
Bill----
    Senator Boozman. Right.
    Colonel Norton. --and during that period, that work led to 
the post 9/11 GI Bill. We greatly appreciate your leadership.
    I think the issue of misinformation as relates to veteran 
employment, can be tackled primarily at the local level. For 
example, we're involved now in three pilot projects that we 
call the Community Blueprint. One of them is Valdosta, Georgia, 
and we're bringing together community partners, local 
officials, the VA, and at present, what we're doing is, we are 
recruiting 200 young men and women veterans to enter into a 
construction employment training program. They will be using GI 
Bill benefits for that certification and training, and the 
local employers are guaranteeing them employment positions at 
the end of their training.
    So I think the idea of overcoming misinformation starts 
with bringing together the resources and the assets at the 
community level. So you have the mental health resources, you 
have the social support services. You have the military and 
veterans groups. There is an active collaboration called the 
Community Blueprint that is bringing people together, 
recruiting veterans, and then helping them get into formal 
training programs. And at the end of that process, they get 
jobs.
    We're hoping that that can be expanded. We think a lot of 
this misinformation has to do with making sure that local 
community partners understand not only the opportunities that 
veterans can bring to employment, but also the challenges and 
work together. That can overcome the misinformation that's out 
there.
    Senator Boozman. Very good, thank you. Ms. Tomek, we 
appreciate you and all that you represent, and your 
organizations hard work. I noted in your testimony that the 
Gold Star Wives are often contacted by surviving spouses, who 
have called the VA Hotline and got wrong or misleading 
information or inaccurate information.
    Again, you know, we've heard similar concerns about the 
education call centers. Can you tell us the ramifications, what 
it means, you know, as you talk to these people, your members 
when VA gives them bad information?
    Ms. Tomek. I can tell you a story or two. Yesterday I 
walked around the Longworth Building with my friend, Mary 
Morgan. Mary is one of those ladies who reaches out often to 
other people. She talks at community centers about widows and 
what it is to be a Gold Star wife.
    She talked about visiting with a lady in Kansas City, 
Missouri who she knew was eligible for DIC. Mary finally got 
the woman to agree. Her husband had served for 27 years to go 
to the VA to ask for DIC. Mary says that it took three or four 
people within the VA, and Mary was very persistent in getting 
and insisting that this woman was eligible for DIC, because she 
knows her benefit book.
    And finally after she handed them a Gold Star Wives' 
brochure, that they looked at and took back to copy, they began 
to admit that maybe they needed to look at the dates of 
service, and where the servicemember had served his 27 years 
with service-connected cause, to give that lady her DIC.
    But we often find those kinds of things. If you're not 
persistent and maybe aggressive, depending on what you consider 
that attitude, you miss those VAs, and those ladies don't--and 
men don't get the VA benefits that their husbands earned.
    Senator Boozman. Uh-huh. Well, we appreciate your efforts 
in that regard, and certainly your story I think, you know, 
really does put the salt. In here, we look at facts and 
figures, and you know, that really brings to light how it does 
affect individuals and how not doing as good a job as we should 
be doing really does impact lives. So thank you very much.
    Let me just ask a couple of more things. When it comes to 
claims processing, a number of performance metrics have been 
heading in the wrong direction, including quality, timeliness 
and the size of the backlog. You know, VA has a number of 
initiatives working hard trying to fix these issues, but it 
appears that literally it could take years before veterans see 
major improvements as results of the measures if they work.
    So I guess, you know, two or three of you that like to jump 
in, if you could give us some suggestions from your standpoint 
as to how the--you know, yourselves, VA, Congress, you know, 
all of us working together could perhaps improve that situation 
in the near term, rather than some of these things that it 
looks like it's going to take a long time.
    Mr. Davis.
    Mr. Davis. Yeah, I think that one of the things we need in 
that area, is to make sure that both DoD and VA work together 
to make sure that there's a seamless transition from DoD to VA. 
And I know that brings about certain jurisdictional problems 
for this Committee and for the Armed Services Committee because 
there's sort of a gray area there where they overlap. But I 
think that's one of the critical things to look at, is to make 
sure that when this person goes through the transformation that 
it can be done seamlessly, and those veterans particularly for 
those that are injured, we think that, you know, we need to 
make sure that both bureaucracies at DoD and VA are working 
together to help the injured veteran.
    And I think, you know, Committee oversight hearings in that 
regard, both the Veterans' Committees in both Houses and the 
Armed Services Committee in both Houses can play an invaluable 
role in making sure that these bureaucracies are responsive to 
the needs of the wounded warrior and the veteran.
    Senator Boozman. Yes, sir, Mr. Lawson.
    Mr. Lawson. Yes, sir. I'd add one thing too that I think is 
clogging up the system as well is decision errors. You have 
thousands of claims that go up, and a decision is made to deny 
it. It comes back down to the veteran, and then most of them 
using veteran service organizations then have to appeal that 
decision. So let's just say you had 500,000 claims that were 
denied, you're going to have 500,000 claims going back up 
again. So it's just a constant thing of claims going up and up.
    In my personal experience, it took me 13 years before they 
were finally able to understand what was going on.
    Senator Boozman. Thank you. Yes, ma'am, Ms. Tomek.
    Ms. Tomek. I--in our testimony, we include a statement that 
perhaps in the Veterans Benefit Administration there should be 
some Committee--some advisors, some stakeholders who serve as 
advisors to the department. So that they understand some of 
this at the high levels, where the administration is taking 
place. We call those stakeholders, surviving stakeholders, and 
I think that could also be veteran stakeholders providing some 
advice and listening to what the kinds of experiences we've all 
had.
    Senator Boozman. Very good. Thank you. Yes, sir.
    Mr. Susino. Dealing with Vietnam veterans and the checking 
out of a PTSD, there's cases of dog handlers, persons who have 
these dogs and go to the front lines, and they submit a claim 
for PTSD, and they are denied, and say they don't have PTSD. I 
don't understand that. And then there's a report that comes out 
that his dog has PTSD and he doesn't. So I don't understand why 
claims are not looked at more thoroughly, and not just thrown 
aside.
    My problem is when I--in our regional office, they're 
training many people to do the job, and sometimes, and I think 
many times, they don't know what they're looking at, and they 
don't realize what veterans go through when they're in the 
front lines. He doesn't have a CIB, but yet again, he carries a 
rifle, and he does shoot at the enemy, he keeps the dog there, 
and turn him down, and we have to resubmit and ask for PTSD. 
Again, I think it's asinine that they do this. It's not one 
case.
    So reappealing, it's taking time away from other cases, and 
why they are not trained better to look at it the way it should 
be looked at. Thank you.
    Senator Boozman. Good, thank you. I think you make a good 
point. Thank you very much.
    Mr. Falk.
    Mr. Falk. I recall Secretary Shinseki talking about the 
transition from the paper files, which we all were used to in 
the old days, your record followed you in the transition to 
electronics today, and I don't know if that has been completed 
or whether the VA has enough staff adequately to make the final 
transition. Because I believe that may be part of the delay 
problem is still there, are old records that have yet to be 
placed into computer files.
    Senator Boozman. Very good, thank you. Let me just ask one 
more thing and then we'll close. And I really do think it's 
important. You know I've been around here not a long, long 
time, but I've been around here for ten years. And I've really 
in noticing I think the VA is doing a much, much better job of, 
you know, handling the problems that we have with returning 
women veterans, just women veterans in general. And, you know, 
our VA's were not set up, you know, for the influx that we've 
had. And again I know we've worked hard, and you know, we've 
had progress in improving services, you know, more veteran 
program managers available, you know, changing the way some of 
the disability claims are handled.
    I guess very quickly, and you might start with this, Mr. 
Norton, the--as we continue on this path, and like I said, I 
think we're working hard, the Committee is working hard, and 
really the most important thing as you solve problems is to 
realize you've got a problem. And, you know, I think we've 
realized that, and are working hard to solve it.
    Do you have any suggestions where we can, you know, again 
improve the quality and the services that we're providing for 
women? As someone with a wife and three daughters.
    Colonel Norton. Just in general, Mr. Chairman, and we could 
submit more detail for the record, one I think obvious approach 
is to hire more medical specialists who focus on the unique 
health care needs of women veterans. That's everything from 
physical health care, mental health care, newborn care, et 
cetera. But over and above that, I think frankly that General 
Shinseki and the VA are working toward this, and making some 
progress. And that is a cultural change.
    There needs to be a cultural change within the VA. As you 
well know, a lot of women veterans when they first encounter a 
VA facility, find that they feel unwelcome, they feel like 
outsiders, they don't feel like this is the place for them. 
Frankly, the reality is that there are still a lot of old guys 
like me who are going to VA facilities, and some of our younger 
women warrior veterans don't feel quite at home, and so that's 
a cultural challenge.
    I think they're working on that, but I would urge the 
Committees to double down your efforts on that kind of thing, 
along with the increased capacity, increased resources, not 
necessarily additional money, but the hiring of specialists who 
can take care of our women veterans.
    Senator Boozman. Good, very good point. Does anybody else 
want to jump in?
    Mr. Fry. Yeah, if I could give a less than 24-hour's old 
example of some of the slow downs. It was necessary for me to 
use the VA health care system yesterday. I live in northwestern 
Pennsylvania and when I went over to the clinic in Greenbelt, 
they were very nice to me, very accommodating. But there's no 
common server. They had to start the process all over again, 
and I sat an hour with a lady in there getting all the 
information again.
    And all that does is--that's some of the bottlenecks that 
me and my constituents are talking about. In this day and age, 
I can't believe that they can't access records from one common 
server.
    You take my little situation across the country, and it 
would be a thousands and thousands of man hours saved, and more 
people could be taken care of at one time. I'm not complaining 
about the employees, because that lady, she was a real trooper. 
She knew what she was doing, and that's a fresh one. That's 
less than 24 hours old. And I've been in the VA health care 
system for a long, long time. Thank you.
    Senator Boozman. No, and I appreciate that. And I think 
that's an important distinction. You know, you've got good 
people that are working hard. Sometimes we put them in a 
position where they can't be very efficient, you know, trying 
to perform the function. Mr. Davis.
    Mr. Davis. Before closing, I just wanted to say you had 
talked about the GI Bill earlier, and I know that there's been 
some problems regarding for profit schools and what not, but I 
just want to also reiterate that the GI Bill has been an 
enormous moral booster for our soldiers, sailors, Marines, and 
airmen that have been involved with the War on Terror. And we 
go out from time to time, and I'm sure a lot of these people do 
as well, and talk to people in uniform at meetings and what 
not. And when that bill was passed, and a year or two later 
after that, there were a lot of questions, and a lot of people 
that were using it, and they were very, very appreciative of 
that benefit change.
    Senator Boozman. No, I agree. It really is a tremendous 
benefit, and as you all know, you know, we had some problems in 
implementing it, because it was just such a significant 
improvement, such a rapid departure from what we were doing, 
but to their credit, VA worked really hard to overcome those 
problems. And for the most part, you know, we've got those 
solved, so I think that we can be very appreciate of their hard 
work.
    Let's close with Mr. Lawson.
    Mr. Lawson. I just wanted to talk a little bit more about 
employment. You know, we always--we hear about the problem with 
veterans employment. One thing that we don't hear a lot about 
is the problems with unemployment for catastrophically disabled 
veterans.
    It's nearly 85 percent unemployment rate for 
catastrophically disabled veterans. At Paralyzed Veterans for 
the last six years, we have launched our own voc rehab programs 
to put a lot of these people through, and we're being quite 
successful in getting these employed.
    The VA's voc rehab program really needs to be modernized. 
There's a lot of red tape, a lot of things that a veteran has 
to go through in order to--and the hands are tied of those voc 
rehab representatives. And I think that's one of the reasons 
why we're so successful with ours, because we don't have to go 
through all that. And--but I just think that there needs to be 
a little bit more conversation about those with catastrophic 
disabilities finding jobs.
    Senator Boozman. Good. Thank you very much.
    Again, I agree, and you know, that's the importance of 
these kind of hearings, you know, these kind of soliciting 
information, you know, as everybody working together, you know, 
on both sides of the aisle. Again, you all with your different 
groups working together, this is a time for all of us, you 
know, to band together, and understand, help the public 
understand, help Congress understand, continue to understand, 
that the benefits that we're talking about are earned benefits. 
These are something that, you know, a great deal of sacrifice 
was expended, you know, to have these earned benefits, and we 
do want to protect them.
    So thank you very much for being here. Again, I think the--
you know, yawl had a tremendous job, it was very instructive. 
Before we finish, I have a couple of things. I ask unanimous 
consent that all Members have five legislative days in which to 
revise and extend their remarks, and include any extraneous 
material for today's joint hearing.
    And hearing no objection, so ordered. And with that, the 
hearing is dismissed. Thank you.

    [Whereupon, at 11:52 a.m. the Joint Committee was 
adjourned.]



                            A P P E N D I X

                              ----------                              

               Prepared Statement of Chairman Jeff Miller

    Good morning everyone. First, I want to thank all of you for coming 
here today.
    In the interest of time, after hearing from Chairman Murray, 
Ranking Member Filner, and Ranking Member Burr, I would like to ask 
Committee Members to waive their opening statements. There will be an 
opportunity for remarks during the question and answer period following 
today's testimony.
    Hearing no objections, so ordered.
    It is my honor to be here this morning and a source of inspiration 
every time I look out into a crowd and see some of our Nation's most 
dedicated and honorable citizens serving here as a voice to veterans 
across this great land. It is my hope that we can use today as an 
opportunity to better support our Nation's veterans.
    To all of you who have traveled here today, I thank you for making 
the trip to Washington to share your legislative agenda with our 
Committees and the Congress, and more importantly for your continued 
service and dedication to help better the lives of our veterans, their 
families, and survivors.
    All have sacrificed on behalf of our Nation and each of you here 
today represents those we honor, including veterans who put this 
country first; those who have been wounded in the line of the duty; and 
those we have lost.
    I also welcome our guests present today who comprise the national 
auxiliary commanders. Thank you for being here today and for all of the 
good work that members of the auxiliary do for our country.
    I would also like to take a moment to recognize the members of the 
different organizations who - like myself - are proud to call Florida 
home. Gentlemen and ladies, would you please stand.
    I am pleased to be joined by my colleagues from across the aisle 
and across the capitol including Ranking Member Filner, Ranking Member 
Burr, and Members of both the House and Senate Veterans' Affairs 
Committees.
    In particular, I want to extend a warm welcome to Chairman Patty 
Murray of the Senate Committee on Veterans' Affairs. Senator Murray, it 
was a pleasure to work with you last year in constructing and passing 
the V.O.W. to Hire Heroes Act of 2012.
    I look forward to working further with you this year to help our 
Nation's veterans.
    Before we begin today, I ask that everyone turn their attention to 
the center of the room. As part of a longstanding military tradition, 
as long as I am Chairman, the House Committee on Veterans' Affairs will 
display an empty chair draped with the P.O.W./M.I.A. flag at every 
hearing.
    This chair is to be a daily reminder of the more than 83,000 
servicemembers who have yet to return and represents our hope that they 
will come home to us one day.
    With that, will everyone who is able, please stand and direct your 
attention to the empty chair before me.
    Today as patriotic Americans who are grateful to those who have 
sacrificed and continue to sacrifice, this Committee pauses to 
recognize the plight and circumstance of a unique group of Americans. 
They are our prisoners of war and missing in action. From this day 
forward, the House Committee on Veterans' Affairs will remember this 
through the placement of a P.O.W./M.I.A. empty chair at all official 
meetings.
    This chair will serve as a physical symbol of the thousands of 
American P.O.W./M.I.A.s still unaccounted for from all wars and 
conflicts involving the United States of America.
    This is a reminder for all of us to spare no effort to secure the 
release of any American prisoners from captivity, the repatriation of 
the remains of those who died bravely in defense of liberty, and a full 
accounting of those missing.
    I now call upon Vice Commander Charles Susino of the American Ex-
Prisoners of War, to lead us in the pledge of allegiance.
    The House Committee on Veterans' Affairs has been working on 
several fronts to address the many needs of our Nation's veterans, and 
there are three specific areas I would like to discuss with you this 
morning.
    First is the critical need to increase veteran employment around 
the country. Second is overseeing substantive change to the VA benefits 
process with the end goal of ending the backlog of disability claims. 
The third and most recent issue is ensuring your medical care and 
benefits are protected from the reach of sequestration cuts to the 
Federal budget.
    I am proud to report substantial progress being made on all three 
fronts.
    Several months ago congress passed into law the bipartisan V.O.W. 
to Hire Heroes Act of 2012, a comprehensive veterans retraining and 
employment package which, among other things, provide nearly 100,000 
unemployed veterans with the skills they need to find meaningful 
employment in today's economy.
    This legislation aims to provide both long term and short term 
employment for all veterans. I would like to thank each of your 
organizations for your support in enabling this legislation to be 
passed and enacted into the law of the land.
    In addition, as I mentioned before, another area needing critical 
attention is the backlog of disability claims. A dramatic reduction in 
this backlog is fundamentally important, if for no other reason than to 
ensure the promise our country made to each of our service men and 
women who defended our freedoms is fulfilled.
    To this end, I am pleased to see the benefits system being brought 
into the 21st century with the rollout of the electronic claims 
processing system throughout the next two years.
    While I understand much more needs to be done to fully cure the 
backlog problem, equipping the Veterans Benefits Administration with 
modern technology is a solid step in the right direction.
    In addition, our Committee will continue to place an increased 
focus on quality of care, with the end goal of ensuring decisions are 
done correctly the first time.
    The last area I'd like to touch on is our collective need to know 
with absolute certainty that your health care needs and benefits are 
protected from the reach of sequestration.
    As many of you are aware, such a cut would severely impact VA's 
ability to provide the high quality health care America's veterans have 
earned and deserve. Our government made a commitment to every one of 
you as you stood ready to defend our great Nation.
    Since august, when the Budget Control Act of 2011 was passed, I 
have sought assurances from both Secretary Shinseki and President Obama 
that VA would be exempt from sequestration, as the law intended.
    Unfortunately, we have failed to receive any assurances from the 
administration that our veterans will be exempt from the negative 
effects of sequestration.
    So let me be clear: we will fight for your rights just as you once 
fought for ours. As such, I introduced H.R. 3895, the protect VA health 
care act of 2012 (H.R. 3895).
    This bill would remedy this issue once and for all and ensure that 
future generations of veterans are not held hostage to the type of 
political gamesmanship that i believe is holding up the president's 
decision.
    So I ask you this, as you meet with your representatives, I ask 
that each of you in our audience ask them to join me in cosponsoring 
this bill, H.R. 3895, to protect the VA health care system on behalf of 
the men and women serving our Nation who have already sacrificed 
enough.
    I want to thank you all again for being here, and I look forward to 
hearing your recommendations and concerns for the remainder of this 
legislative session.
    Now, I would call on the distinguished Chairman of the senate 
Committee veterans' affairs Senator Patty Murray for her opening 
comments.

                                 <F-dash>
                Prepared Statement of Hon. Bob Filner, 
                       Ranking Democratic Member

    Good morning! I want to thank everyone for being here today to 
discuss your organizations legislative priorities and share your views 
on how the Department of Veterans' Affairs can better serve veterans. I 
would also like to thank you and your organizations for your service 
and hard work over the years in support of our country and veterans.
    Also, I would like to welcome and acknowledge everyone who traveled 
from outside Washington, DC to be here. I particularly want to 
recognize the California delegations and especially your Members from 
my district in California. Let me also commend all of your hard working 
staff here in Washington, DC. You should be proud of the continued 
professionalism and advocacy that they share with this Committee and 
the expertise they bring in producing the Independent Budget every 
year.
    This Committee continues to depend on the Independent Budget for 
direction on funding the VA programs so we can meet the needs of 
veterans. We should continue to ask the VA tough questions on their 
programs and outcomes, and be able to have an honest discussion on any 
gaps or shortfalls to understand the true need. At the end of the day, 
we must provide veterans the benefits they have rightfully earned.
    As we are all aware the military will begin to downsize and reduce 
its numbers. There will be more veterans coming home that will need 
physical health care and mental health care. We should continue to work 
on ideas to improve medical services for veterans and solve our backlog 
of pending claims. There is a lot of hard work that needs to be done 
and we are open to all ideas that improve the VA.
    The President announced the budget request for VA for fiscal year 
2013 and the Advance Appropriations request for 2014. In discretionary 
funding, VA requested a 4.5 percent increase, and a 16.2 percent 
increase in mandatory funding, for an overall budget increase of 10.5 
percent in fiscal year 2013.
    I will continue to support of the President and Secretary 
Shinseki's efforts to transform the VA into a 21st Century agency. I 
remain committed to work with my colleagues to ensure that we get the 
correct funding and policies that we need.
    I want you to know that our Committee remains steadfast in our 
determination that VA is excluded from any potential funding cuts 
designed to help balance the budget. We WILL NOT balance the budget on 
the backs of veterans. Our veterans stood up to protect and defend our 
Nation . . . and we will stand up to provide for our veterans and their 
families when they come home . . . by ensuring they have the health 
care and benefits they have earned.
    This will be an interesting discussion and I look forward to 
hearing your priorities and ideas.
    Thank you Mr. Chairman. I yield back.

                                 <F-dash>
                  Prepared Statement of Charles Susino

    Messrs. Chairmen and Members of the Veterans' Affairs Committees:
    My name is Charles Susino, Sr. Vice Commander of the American Ex-
Prisoners of War. I am honored to testify before you again today on 
behalf of National Commander Carroll Bogard.
    Senator Murray, Senator Burr, Representative Miller and 
Representative Filner, I congratulate your efforts as you navigate your 
committees through the second half of the 112th Congress. Our 
organization has watched you and your colleagues grapple with hard 
decisions while attempting to provide for America's veterans, their 
families and survivors.
    This year marks the 70th birthday of the American Ex-Prisoners of 
War. On April 14, 1942, two mothers whose sons had been captured on 
Bataan formed the Bataan Relief Organization; in 1945, after the POWs 
returned home, we became the Bataan Veterans Organization; and in 1949, 
expanding our membership to encompass ALL former prisoners of war from 
ALL wars, we became the American Ex-Prisoners of War.
    Since World War I, more than 142,000 Americans - including 85 women 
- have been captured and interned as POWs.
    Today, former POWs number just about 15,000. And soon the concerns 
of our tiny group of heroes will matter not--to this committee or any 
other.
    Some of our youngest members are in their early thirties; however 
instead of 142,000, as in the past, we're talking of just 23 former 
POWs from current conflicts.
    We are immensely grateful for past Congressional actions to help 
ex-POWs. It was our organization who pushed in the early 1980s for 
``Presumptives'' and because of the efforts of your committees, the 
Veterans Administration and the heroes in red jackets walking the halls 
of Congress telling the stories of former prisoners of war, we now have 
benefits and entitlements that protect us...and the POWs that will 
surely come after we are gone.
    As we look to the future, we want to lend our small voice and 
support to America's aging veteran population from WWII, Korea and 
Vietnam - veterans who may have fallen through the cracks of care 
because of rulings enacted to cope with the frightening possibility of 
many millions of applicants to the Veterans Administration.
    16,112,566 individuals were members of the United States armed 
forces during World War II. In November 2011, the Department of 
Veterans Affairs estimated that approximately 1,711,000 American 
veterans were still living. More than 1,100 WWII veterans die each day. 
The average age of a WWII veteran is 92.
    1,800,000 individuals were members of the United States armed 
forces serving in Korea during the 3-year period of the Korean War. 
Only about 1/3 of that number are still alive today. The average age of 
a Korean War veteran is 85.
    2,594,000 individuals served in South Vietnam Jan. 1, 1965 - Mar. 
28, 1973. Of this number of Americans who served in Vietnam, less than 
850,000 are estimated to be alive today. The average age of a Vietnam 
veteran is 66. These are our ``youngsters'' in the time frame I'm 
speaking on today.
    The clock is ticking and time is running out for the brave men and 
women who fought the good fight to keep America free. And while the 
debt we owe them can never be repaid in full, you can make their next 
days, months, years better.
    There are less than 3 million heroes alive from these three great 
conflicts. You could fit them all into the city of Chicago. As they 
have aged, their disabilities have left many of them with poor quality 
of life and financially burdened.
    Many of these Wartime Veterans are in the VA Category 8 or lower, 
which means they are not entitled to VA care at all. These Veterans are 
designated as Priority 8 when their income exceeds a pre-set threshold 
classifying them as ``affluent''. They are the most affluent category 
of vets, yet some earn as little as $28,430 a year - hardly affluent.
    A significant change was made in health-care eligibility in 1986. 
Congress mandated VA health care for veterans with service-connected 
disabilities as well as other special groups of veterans, such as 
former prisoners of war, veterans exposed to herbicides and ionizing 
radiation and veterans of World War I. The average age of the WWI 
veterans was 88 in 1986 . . . younger than today's WWII veteran; 
virtually the same age as today's Korean War veteran.
    Today, we have a request of you, the 112th Congress: please update 
the 1986 law to add WWII, Korean, and Vietnam War veterans to this 
special group of veterans to make them eligible for health care. Please 
also consider including the Gulf War veterans in this special group as 
well. It is overdue to update Congress' actions in 1986. From a health 
benefits standpoint, this puts these war-time veterans on par with WWI 
veterans, the special groups, and the current warriors who are fighting 
in the middle-east, all of which we strongly support. Please let them 
not be forgotten. Please do not continue to allow these war time 
veterans to be excluded and deprived health benefits.
    It's the right time to add these heroes to this special group of 
veterans. It's the right thing to do.
    We are willing and able to work with you or your staff on drafting 
this amendment.
    We would also like to join our brother veteran service 
organizations in asking your consideration of the following bills:
    HR 813, introduced by Representative Bob Filner (CA), which would 
amend section 1318(b)(1), title 38, United States Code, to allow 
dependency and indemnity compensation (DIC) to be paid to the survivor 
of a veteran whose was continuously rated totally disabled for at least 
one (1) year immediately preceding death, whereas, eligibility under 
current law requires the veteran to be rated totally disabled for a 
minimum of ten (10) years.
    S423 introduced by Richard Burr (NC). Authorizes the Secretary of 
Veterans Affairs (VA) to provide an effective date of an award of 
disability compensation, in the case of a veteran who submits a fully-
developed claim, of up to one year before the date of receipt of such 
claim.
    HR28 introduced by Mike McIntyre (NC). Veterans Outreach 
Improvement Act of 2011. A bill to amend title 38, United States Code, 
to improve the outreach activities of the Department of Veterans 
Affairs, and for other purposes.
    HR23 introduced by Bob Filner (CA) Belated Thank You to the 
Merchant Mariners of World War II Act of 2011. A bill to amend title 
38, United States Code, to direct the Secretary of Veterans Affairs to 
establish the Merchant Mariner Equity Compensation Fund to provide 
benefits to certain individuals who served in the United States 
merchant marine (including the Army Transport Service and the Naval 
Transport Service) during World War II.
    HR178/ S.260 introduced by Joe Wilson (SC)/Bill Nelson (FL). 
Military Surviving Spouses Equity Act. A bill to amend title 10, United 
States Code, to repeal the requirement for reduction of survivor 
annuities under the Survivor Benefit Plan for military surviving 
spouses to offset the receipt of veterans dependency and indemnity 
compensation.
    HR309 introduced by John Mica (FL). Samuel B. Moody Bataan Death 
March Compensation Act. A bill to provide compensation for certain 
World War II veterans who survived the Bataan Death March and were held 
as prisoners of war by the Japanese.
    HR303 introduced by Gus Bilirakis (FL). Retired Pay Restoration 
Act. A bill to amend title 10, United States Code, to permit additional 
retired members of the Armed Forces who have a service-connected 
disability to receive both disability compensation from the Department 
of Veterans Affairs for their disability and either retired pay by 
reason of their years of military service or Combat-Related Special 
Compensation and to eliminate the phase-in period under current law 
with respect to such concurrent receipt.
    HR812 introduced by Bob Filner (CA). Agent Orange Equity Act of 
2011. A bill to amend title 38, United States Code, to clarify 
presumptions relating to the exposure of certain veterans who served in 
the vicinity of the Republic of Vietnam.
    HR3712 introduced by Martin Heinrich (NM). Bataan Defenders 
Congressional Gold Medal. A bill to grant the Congressional Gold Medal 
to the troops who defended Bataan during World War II.
    The American Ex-Prisoners of War are proud supporters of The 
Independent Budget. The FY2013 edition represents the 26th consecutive 
year that our partnership of veterans service organizations has joined 
together to produce a comprehensive budget document that highlights the 
needs of every generation of veterans. During that time, The 
Independent Budget has improved significantly while gaining much more 
respect and recognition.
    Messrs. Chairmen and Committeemen, this completes my testimony. 
Thank you for allowing me the opportunity to appear before you on 
behalf of the American Ex-Prisoners of War to share our goals for the 
112th Congress. Thank you also for all that your Committees have done 
and for all that you will do for our nation's veterans and their 
families in the future.
    God bless America.

                                 <F-dash>
                  Prepared Statement of John R. Davis
                                THE FRA

    The Fleet Reserve Association (FRA) is the oldest and largest 
organization serving enlisted men and women in the active, Reserve, and 
retired communities plus veterans of the Navy, Marine Corps, and Coast 
Guard. The Association is Congressionally Chartered, recognized by the 
Department of Veterans Affairs (VA) and entrusted to serve all veterans 
who seek its help.
    FRA was established in 1924 and its name is derived from the Navy's 
program for personnel transferring to the Fleet Reserve or Fleet Marine 
Corps Reserve after 20 or more years of active duty, but less than 30 
years for retirement purposes. During the required period of service in 
the Fleet Reserve, assigned personnel earn retainer pay and are subject 
to recall by the Secretary of the Navy.
    The Association is actively involved in the Veterans Affairs 
Voluntary Services (VAVS) program and a member of the National 
Headquarters' staff serves as FRA's National Veterans Service Officer 
(NVSO) and as a representative on the VAVS National Advisory Committee 
(NAC). FRA testifies regularly before the House and Senate Veterans' 
Affairs Committees and Appropriations Subcommittees.
    FRA's National Veterans Service Officer also oversees FRA's 
Veterans Service Officer Program and represents veterans throughout the 
claims process and before the Board of Veteran's Appeals. In addition, 
171 FRA Shipmates provided almost 12,000 volunteer hours of support at 
59 VA facilities throughout the country in 2011, enabling FRA to 
achieve VAVS ``Service Member'' status. Members of the Auxiliary of the 
Fleet Reserve Association are also actively involved in the VAVS 
program and hold an Associate Membership seat on the committee which 
requires involvement at 15 or more VA facilities.
    In August 2007, FRA became a member of the Veterans Day National 
Committee joining 24 other nationally recognized Veterans Service 
Organizations on this important committee that coordinates National 
Veterans' Day ceremonies at Arlington National Cemetery. FRA also is a 
leading organization in The Military Coalition (TMC), a group of 34 
nationally recognized military and veteran's organizations collectively 
representing the concerns of over five million members. In addition, 
FRA senior staff members serve in a number of TMC leadership roles.
    FRA celebrated its 87th anniversary on November 11, 2011. Nearly 90 
years of dedication to its members has resulted in legislation 
enhancing quality of life programs for Sea Services personnel, 
retirees, veterans and their families and survivors.
    FRA's motto is: ``Loyalty, Protection, and Service.''

             CERTIFICATION OF NON-RECEIPT OF FEDERAL FUNDS

    Pursuant to the requirements of House Rule XI, the Fleet Reserve 
Association has received no federal grant or contract during the 
current fiscal year or either of the two previous fiscal years.

                              INTRODUCTION

    Distinguished Chairman, Chairwoman, Ranking Members and other 
Members of these Committees, FRA's membership appreciates this 
opportunity to present the Association's 2012 legislative goals. The 
foundation for this statement is the fact that veteran's benefits are 
earned through service and sacrifice in the defense of this great 
Nation and are not entitlements or social welfare benefits.

                   THE 2013 VA BUDGET & SEQUESTRATION

    A high priority for FRA is to clarify that the entire Department of 
Veterans Affairs (VA) budget is exempt from sequestration as mandated 
by the 2011 Budget Control Act (BCA) that will take effect January 
2013. This concern stems from vagueness in the current law and the 
Association appreciates Chairman Rep. Jeff Miller's (Fla.) attention to 
this issue and the introduction of the ``Protect the VA Health Care 
Act'' (H.R. 3895) that excludes the VA health care programs from 
automatic sequestration cuts next year.
    The VA FY 2013 budget request includes a 10.5 percent increase 
($140.3 billion) over the current fiscal year plus $54.5 billion in 
advanced appropriations for VA health care in FY 2014. Funding for non-
VA outpatient care is increased by almost 14 percent over the FY 2012 
budget. The increased funding is in response to estimates that more 
than one million current active duty personnel will become veterans 
over the next five years. The budget also addresses a number of other 
VA priorities, including efforts to reduce the backlog of unresolved 
disability claims and reduce unemployment and homelessness among 
veterans.
    FRA strongly supports these proposed increases and notes that the 
FY 2013 Independent Budget (IB) recommends just over $68 billion in 
discretionary spending for next year while the Administration's FY 2013 
budget recommends nearly $64 billion in discretionary funding
    FRA supports the recommendations of the IB which was recently 
released by AMVETS, Disabled American Veterans (DAV), Paralyzed 
Veterans of America (PVA) and the Veterans of Foreign Wars (VFW). The 
IB provides detailed funding analysis of the proposed VA budget and is 
intended to be used as a guide to policy makers to make necessary 
adjustments to meet the challenges of serving America's veterans.

                       DISABILITY CLAIMS BACKLOG

    The cost of defending the Nation includes treating the nation's 
wounded warriors, and FRA is deeply concerned about the backlog of 
claims at the VA. Veterans injured in service to their country deserve 
accurate and timely disability determinations. Our military's 
involvement in Iraq is ending and the war in Afghanistan is winding 
down yet there are additional demands on VA health care resources. For 
years, FRA has advocated for new and improved technology to better 
manage the deluge of disability claims associated with the war efforts 
and to eviscerate the disability claims backlog. However, as of January 
2012, the VA reports that more than 800,000 veterans are awaiting 
decisions, 60 percent of which are pending 125 days or more - an 
increase of more 100% over the past three years.
    FRA notes that thousands of additional claims adjusters have been 
hired since January 2007. Yet despite the additional resources and 
manpower, the backlog of disability claims continues to increase. 
Adding to this backlog are errors due to inadequate examination, 
inaccurate processing and lack of oversight.
    Two recent VA Inspector General Regional Office inspections \1\ 
indicated that the Veterans Administration Regional Office staff did 
not accurately process disability claims, and used insufficient medical 
examination reports to process TBI claims. VBA claims processors 
perform a vital role in adjudicating these claims, and it is clear that 
VA needs to ensure that decisions in disability compensation and 
pension cases are accurate, consistent, and timely. New personnel must 
become proficient in the claims process and maintain their knowledge 
and skills proficiency in this field.
---------------------------------------------------------------------------
    \1\ Office of Inspector General Inspection of VA Regional Office 
Pittsburgh, PA (February 27, 2012) and VA Regional Office St. 
Petersburg, FL (February 8, 2012.)
---------------------------------------------------------------------------
    FRA's National Veterans Service Officer (NVSO), Christopher 
Slawinski, states that he continues to receive calls from Association's 
members and/or their surviving spouses who express concerns about 
having been denied benefits by the VA based on inaccurate, incomplete 
or missing information or evidence. These errors by the VA contribute 
to the growing number of appeals and a further strain on the claims 
adjudication backlog.
    FRA continues to believe there is strong bi-partisan support to 
reform the system and lawmakers have made clear that they want to 
improve claims processing to eliminate bureaucratic delays and ensure 
more uniformity between branches of the military and the VA in how they 
rate disabilities. The VA must maintain an effective delivery system, 
taking decisive and appropriate action to correct deficiencies and 
improve processes. That said, VA can promptly deliver benefits to 
veterans only if it has modern technology, adequate resources, 
sufficient personnel training and staffing.
    FRA strongly supports the Administration's efforts to create a 
Joint Virtual Lifetime Electronic Record (VLER) and an integrated 
Electronic Health Record (iEHR). A VLER for every service member would 
be a major step towards the Association's long-standing goal of a truly 
seamless transition from military to veteran status for all service 
members and would permit a DoD, VA, and private health care providers 
immediate access to a veteran's health data. There is some sharing now 
between DoD, VA and the private sector, but more needs to be done. 
Wider expansion of data sharing and exchange agreements between VA, DoD 
and the private sector is needed. VA's ``Blue Button'' initiative 
permits veteran's online access to some medical history, appointments, 
wellness reminders and military service information, but most is only 
accessible only after an in-person authentication. The VLER strategy 
utilizes secure messaging standards, similar to that which is used for 
email, to securely relay information between sources. The VLER working 
group is collaborating with VBA and its paperless processes and while 
being HIPPA (Health Insurance Portability and Protection Act) 
compliant, there are legislative hurdles to overcome, similar to that 
which the VBA is facing with its paperless process.

                 WOUNDED WARRIORS & SEAMLESS TRANSITION

    FRA believes post traumatic stress should not be referred to as a 
``disorder.'' This terminology adds to the stigma of this condition, 
and the Association believes it is critical that the military and VA 
work to reduce the stigma associated with PTS and TBI.
    The goal of a truly seamless transition for wounded warriors 
transitioning from DoD to VA still remains elusive. The Senate Veterans 
Affairs Committee heard testimony in May 2011 from Scott Gould, VA 
Deputy Secretary, and DoD Deputy Secretary William Lynn on the progress 
the two agencies are making in achieving the goal of a seamless 
transition for disabled veterans from the Department of Defense (DoD) 
to the VA. Committee Chairwoman Sen. Patty Murray, and Ranking Member 
Sen. Richard Burr acknowledged improvements but also expressed concern 
and frustration with bureaucratic infighting and the pace of reform 
almost four years after the 2007 media firestorm over conditions for 
wounded warriors at Walter Reed Army Medical Center in Washington, DC. 
FRA agrees and a top priority for the Association is to ensure adequate 
funding for DoD and VA health care resource sharing in delivering 
seamless, cost effective, quality services to wounded or injured 
personnel. There has been progress, however additional oversight 
hearings are needed to ensure that the Department's respective 
bureaucracies are held accountable for further progress on this issue.
    FRA remains concerned that the military service commands continue 
to either bypass the medical evaluation board (MEB) process through 
administrative measures, or ``lowball'' disability ratings to deny 
service connected injured military members their full benefits. FRA is 
currently working with a service member through this process who stated 
that his MEB was not handled properly and evidence which would have 
confirmed disability was not considered in the decision process.
    The VA has launched a streamlined version of its online application 
for VA health benefits (VA Form 1010EZ) for active duty personnel and 
Reservists returning from deployment at 61 demobilization sites 
nationwide and expects the form to reduce processing time by seven 
days. The new online application will be completed as part of a their 
demobilization and regularly scheduled briefing on VA benefits, which 
outlines five years of free healthcare and medications for returning 
service members eligible for VA health care.
    The new application is a joint venture between the VA and DoD, and 
is a positive step toward a seamless transition from DoD to VA 
benefits. Additionally the VA and other federal agencies must work 
collaboratively to improve the Transitional Assistance Program (TAP) to 
help veterans return to civilian life as easily as possible per 
provisions of the recently enacted Veterans Opportunity to Work Act 
(VOW.)
    The Armed Services Committees and Veterans Affairs Committees must 
also remain vigilant regarding their oversight responsibilities 
associated with ensuring a ``seamless transition'' for our Nation's 
wounded warriors. In conjunction with this, FRA notes with concern the 
shifting of departmental oversight from the Senior Oversight Committee 
(SOC) comprised of the DoD and VA secretaries per provisions of the FY 
2009 National Defense Authorization Act, to the more junior Joint 
Executive Council (JEC) which is now responsible for supervision, and 
coordination of all aspects of DoD and VA wounded warrior programs.
    Related to essential transition programs, according to Navy Times 
editors, ``Even before sequestration takes effect budget cuts have 
impacted the (DoD) Office of Wounded Warrior Care and Transition Policy 
with the elimination of 40 percent (44 positions) of the staff, and all 
15 contract employees in the transition policy section that leaves only 
two full-time civilian employees.'' \2\ FRA also notes the importance 
of the Virtual Transition Assistance Program (VTAP) website that was 
scheduled to replace the current Turbo TAP website. The VTAP is 
envisioned to enhance access to online and digital resources, virtual 
classrooms, social media and other 21st century information platforms.
---------------------------------------------------------------------------
    \2\ Navy Times Editorial, January 16, 2012, Page 4
---------------------------------------------------------------------------
    VTAP is in tune with the current generation of service members and 
their families and enables them to tailor their own transition 
experience
    The existing Turbo TAP program has been moved to the Office of 
Civilian Personnel Policy and is under review to try to make the 
program more useful for troops. Program changes include greater focus 
on improving resumes with links to Defense Manpower Data Center to 
allow potential employers to confirm military education and training, 
automatic translation of military skills into language employers can 
understand, access to job banks, and search for accredited schools for 
continuing education.
    The Association notes the potential of the eBenefits web site which 
serves as an electronic portal for veterans, service members and their 
families to research, find, access, and in the near future manage their 
VA benefits. The program is a service of the VA and DoD and was one of 
the recommendations of the President's Commission on Care for America's 
Returning Wounded Warriors (Dole/Shalala).
    The Association also encourages support for the Navy's Safe Harbor 
Program and the Marine Corps Wounded Warrior Regiment (WWR), programs 
that are providing invaluable support for these personnel before they 
transition to veterans' status.
    Finally, Congress should expand the VA Caregivers Act to full-time 
care givers of catastrophically disabled veterans before September 11, 
2001. In addition, the Defense Centers of Excellence should be 
adequately funded and staffed.

                    CAMP LEJEUNE CONTAMINATED WATER

    The Federal Agency for Toxic Substance and Disease Registry efforts 
last year are important in determining the impact the contaminated 
water at Camp Lejeune had on those Marines, their families, and others 
assigned to the base between 1957 and 1987. Their survey is the largest 
ever carried out by the agency and is intended to determine the impact 
on birth defects, childhood cancers, and mortality rates due to 
exposure to pollution at Camp Lejeune. Statistical analysis is expected 
to be available in early 2014. FRA appreciates the efforts of House VA 
Committee Chairman Rep. Jeff Miller and Senate VA Committee Ranking 
Member Sen. Richard Burr in addressing this issue.
    The Association supported the original version of the ``Caring for 
Camp Lejeune Veterans Act'' (S. 277), sponsored by Sen. Burr that 
authorizes VA health care for former military family members, veterans, 
and family members stationed at Camp Lejeune for three decades 
beginning in 1957, when the water at the base was acknowledged to have 
been contaminated with carcinogens. That said, the Association strongly 
opposes funding the legislation by eliminating appropriations for the 
Defense Commissary Agency (DeCA) and directing consolidation of all DoD 
commissaries and exchanges.
    FRA also supports the Janey Ensminger Act (H.R. 1742) sponsored by 
Rep. Brad Miller which is similar to Senator Burr's S. 277, however the 
legislation does not require DoD to reimburse VA for the cost of care 
for affected veterans and family members.

                        DISABILITY RATING REVIEW

    The Association urges aggressive committee oversight of the 
Integrated Disability Evaluation System (IDES) to ensure that 
disability ratings established by this system are fair and consistent. 
FRA supports the modernization of the VA Schedule of Rating 
Disabilities to ensure that the ratings are uniform between the 
different services, between enlisted and officers, and uniform between 
DoD and VA.
    According to a May 2011 GAO report (GAO-11-633T) the IDES pilot 
evaluation results were promising, but degree of improvement was 
unknown, and timeliness for disability claim adjudication has since 
worsened. The report noted that service members who went through the 
IDES pilot were more satisfied than those that went through the 
previous legacy system which took on average 540 days. The IDES process 
adjudicated claims for active duty personnel on average of 295 days and 
Reserve Component claims took 305 days on average. Although IDES is an 
improvement over the legacy system is still currently falls short of 
the VA's goal of adjudicating claims at 125 days or less.
    The Independent Budget (IB), a recent Institute of Medicine report 
(IOM), the final report (2007) of the Veterans Disability Benefit 
Commission (VDBC), and the Dole -Shalala Commission all agree that the 
current disability rating should be reformed to more fully take into 
account non-economic loss and quality of life factors when determining 
compensation.
    The Association also recommends that Congress change the current 
practice of rounding down veterans and survivors benefits to the next 
lowest dollar. Over time, the effect of rounding down can be 
substantial and our members have expressed concern about these effects.
    A Senate floor amendment to the FY 2012 Military Construction and 
Veterans Affairs Appropriations bill was offered as a cost-savings 
measure that would change the manner in which presumptive disabilities 
related to exposure to Agent Orange would be determined. Sick Vietnam-
era veterans would be required to prove a ``clausal relationship'' 
between Agent Orange exposure and one or more of the 15 presumptive 
illnesses that the VA now recognizes. This onerous amendment was tabled 
by a vote of 69-30. FRA strongly opposes this type of budget-saving 
gimmick that would do serious harm to many disabled veterans and would 
further delay disability rating evaluations. Current law requires that 
a disease or injury be incurred concurrently with military service that 
has been a reliable standard of proof. Congress through the important 
oversight of these distinguished committees, much remain vigilant 
regarding other attempts to restrict service connection for disability 
benefits.
    In 2010 Congress excluded the requirement that a veteran with PTS 
must provide a specific instance that caused the problem. The change 
allowed veterans, displaying PTS symptoms, to only prove that they 
served in a combat zone. This change was intended to streamline the 
disability rating process for veterans with PTS, however, the VA now 
requires that PTS cases to be confirmed only by a department 
psychiatrist or psychologist. Allowing a qualified psychiatrist or 
psychologist to determine a PTS diagnosis outside the VA network would 
reduce demand on scarce VA resources and personnel and speed-up the 
disability rating process.
    The Association urges Congress to authorize a presumption of 
service-connected disability for combat veterans and veterans who are 
exposed to high levels of noise and subsequently claim hearing loss or 
tinnitus. Currently, veterans must prove that the hearing problem was 
caused by military service.

               PHYSICAL DISABILITY BOARD OF REVIEW (PDBR)

    FRA salutes Sen. Mark Udall for his efforts to get the VA to assist 
the Physical Disability Board of Review (PDBR) in communicating with 
more than 40,000 veterans with disability ratings of 20 percent or less 
via a series of PDBR info packet mailings to them from VA. FRA also 
published articles on the PDBR in its weekly electronic newsletter and 
monthly magazine.
    The PDBR was mandated by the FY2008 Defense Authorization Act to 
reassess the accuracy and fairness of disability claims that resulted 
in combined disability ratings of 20 percent or less for service 
members who were separated from service due to medical conditions 
rather than being medically retired. To be eligible for a PDBR review, 
service members must have been medically separated between September 
11, 2001, and December 31, 2009, with a combined disability rating of 
20 percent or less, and found ineligible for retirement. PDBR can not 
downgrade a disability for veterans seeking a review if their rating. 
Since January 1, 2009 only 2,842 of the more than 77,000 eligible for 
reassessment have applied. Nearly half of those reviewed have been 
upgraded to 30 percent or more. FRA urges that adequate staff and 
resources be provided to the PDBR to be able to process an increase in 
the volume of veterans seeking a review of their ratings.

                          AGENT ORANGE REFORM

    FRA appreciates the VA's efforts to expand presumption to ships 
exposed to Agent Orange during the Vietnam era. In January 2012 the 
Department added 47 ships to its list of Navy and Coast Guard vessels 
that may have been exposed to the Agent Orange herbicide. The list 
expanded as VA staff determined that a ship anchored, operated close to 
shore or traveled on the inland waterways and was exposed to the toxic 
herbicide.
    While the expanded VA policy to include veterans who sailed on 
``inland waterway'' ships is appreciated, FRA believes it does not go 
far enough. FRA receives hundreds of calls from ``blue water sailors'' 
and their surviving spouses, stating that due to service on ``their 
ships'' in Vietnam waters, they too suffer or have died from many of 
the illnesses associated to presumed exposure to herbicides as their 
``brown water'' and ``boots on the ground'' counterparts.
    The Association strongly supports the ``Blue Water Navy Vietnam 
Veterans Act'' (H.R. 3612, S. 1629) sponsored by Rep. Christopher 
Gibson and Sen. Kirsten Gillibrand respectively and the ``Agent Orange 
Equity Act'' (H.R. 812) sponsored by Ranking Member Rep. Bob Filner. 
These proposals clarify that veterans who served off the coast of 
Vietnam may presume exposure to herbicides in determining disability 
ratings and would allow ``Blue Water'' veterans to be compensated for 
their service-connected disabilities. In addition, the Association 
urges the distinguished committees to schedule hearings on this 
legislation.

                           ACCESS TO VA CARE

    FRA appreciates the lifting of the ``temporary'' 2003 ban on 
enrolling Priority Group 8 veterans, and was encouraged that the VA 
opened enrollment for some of these beneficiaries. The ban 
significantly limited access to care and more than 260,000 veterans 
have been impacted by the policy, however the gradual elimination on 
the ban has stopped. Our Nation made commitments to all veterans in 
return for their service and limiting enrollment conveys the wrong 
message to service members currently serving in Iraq and Afghanistan 
and those who have served in the past.
    Expanding access to VA Hospitals and Clinics for TRICARE 
beneficiaries is important and FRA supports opportunities to expand 
DoD/VA joint facilities demonstration projects such as combining the VA 
Hospital and the Naval Hospital at Great Lakes Naval Base, Illinois, 
and ensuring that military retirees are not required to pay for care in 
VA facilities. All 153 VA medical centers accept TRICARE beneficiaries 
except for TRICARE for Life beneficiaries.

                          MEDICARE SUBVENTION

    FRA believes authorization of Medicare subvention for eligible 
veterans would improve access for Medicare-eligible veterans and 
enhance health care funding for the Department of Veterans Affairs 
(VA).The Association supports the ``Medicare VA Reimbursement Act'' 
(H.R. 814) sponsored by House VA Committee Ranking Member Rep. Bob 
Filner that would authorize Medicare reimbursements to Department of 
Veterans' Affairs (VA) medical facilities for care provided to 
Medicare-eligible veterans for non-service-connected conditions. Under 
current law, Medicare is not authorized to reimburse VA hospitals for 
care provided to Medicare eligible veterans. This results in veterans 
being forced to decide between receiving medical care through the VA or 
using Medicare at a non-VA facility and foregoing the personalized care 
of a VA hospital. Most veterans pay into Medicare for most of their 
lives, yet the law prohibits them from benefitting from this via care 
at VA facilities later in life.

                             WOMEN VETERANS

    During the past decade military roles and responsibilities have 
been broadened and the number of women serving has significantly 
increased. There are more than 1.8 million women veterans and today 
they make up more than 15 percent of our active duty forces and 18 
percent of the Reserve Component (RC). ``Traditionally women veterans 
have under utilized VA health care. Women veterans who use VA are 
younger than their male counter parts.'' \3\ The average female veteran 
age is 48, and the male veteran average age is 61. According to IB the 
number of female veteran patients doubled from FY 2000-FY 2010 during 
which the population of female veteran's patients went from 150,000 to 
300,000. Looking back, in 1999 more than 44 percent (of women veterans) 
had enrolled in VA as compared to only 15 percent utilization by women 
vets from earlier eras.
---------------------------------------------------------------------------
    \3\ US General Accounting Office. VA Health Care for Women: 
Progress Made in Providing Services to Women Veterans. 1999. GAO/HEHS-
99-38.
---------------------------------------------------------------------------
    A recent Military Times poll indicates women veterans serving in 
the combat zone have a slightly higher rate of PTS with 20 percent of 
women serving in Iraq and Afghanistan displaying symptoms of PTS. A 
Rand Corp. study released in 2008 indicates that 14 percent of all 
combat veterans develop PTS.
    FRA supports the VA efforts to create an appropriate model of care 
for women veterans and the pilot program to provide child care services 
for women veterans who come to the VA for treatment of their wounds and 
injuries. Further, VA should enhance its sexual trauma and other gender 
specific programs and continue to improve services tailored to women 
veterans in all VA facilities.

                            SCRA ENFORCEMENT

    Abuses of service members' Servicemembers Civil Relief Act (SCRA) 
rights were originally exposed by the House Veterans Affairs Committee 
under the leadership of Chairman Rep. Jeff Miller during a February 
2011 hearing. The hearing revealed J.P. Morgan Chase Bank violated the 
SCRA by improperly charging higher-than-allowed interest on 4,500 
active duty service members' mortgages and foreclosing on 18 service 
members' homes while they were deployed. The Association thanks the 
Administration for the efforts referenced above and appreciates 
Chairman Miller's leadership in scheduling oversight hearings on these 
abuses.
    In addition, the President's ``Blue Print for an America Built to 
Last'' includes provisions intended to assist veterans and active duty 
service members with their housing. In conjunction with this, financial 
institutions that provide mortgages will be required to conduct a 
review of every service member foreclosed upon since 2006 and provide 
compensation for any who where wrongly foreclosed upon. This process is 
being coordinated by the Department of Justice's Civil Rights Division.
    The review will also search for deployed service members who were 
wrongfully charged a mortgage interest rate in excess of six percent in 
violation of the SCRA. Further the DoD's Homeowners Assistance Program 
(HAP) to help certain service members who were forced to sell their 
homes at a loss due to Permanent Change in Station (PCS) has been 
extended to include those who received a PCS after October 1, 2010. 
Currently the program is limited to PCS moves between July 1, 2006-
December 31, 2008. Certain mortgage institutions will also collectively 
pay $10 million into the Department of Veterans Affairs (VA) home loan 
program.

                          VETERAN'S EMPLOYMENT

    Veterans' unemployment and programs to assist them in finding jobs 
throughout our Nation is a major concern for our members. The recently 
enacted Veterans Opportunity to Work to Hire Heroes Act (VOW) addresses 
veterans' employment and related programs and along with other MSO/VSO 
leaders FRA attended a recent meeting with White House staff for an 
update on implementing employment initiatives and programs to address 
these challenges. The agenda included briefings on job fairs being 
scheduled throughout the country in conjunction with the White House 
Business Council, updates on related initiatives and the publication of 
a new 22-page Guide to Hiring Veterans that includes information on 
legal and policy developments, skills transition, how to hire veterans 
and appropriate interview questions, veterans benefits, resources and 
contacts, plus appendixes on disability employment and VOW tax credits 
for employers. The Guide is now posted on FRA's web site (www.fra.org) 
and our leadership is encouraging our Branch leaders and others to 
check this out and become more familiar with resources and support that 
are now available to our Nation's veterans. In addition, VA Career 
Fairs are being scheduled throughout the country to help veterans' 
connect with potential employers and find jobs.
    According to Navy Times (March 9, 2012), the unemployment rate for 
veterans between the ages of 18-24 is 31 percent. FRA thanks the 
distinguished leaders of these Committees, Rep. Miller and Sen. Patty 
Murray, for working to advance legislation to authorize tax credits to 
employers that employ veterans and disabled veterans. The Association 
also appreciates the White House Jobs Bank powered by the National 
Resource Directory which provides a central source for veterans seeking 
job opportunities without having to visit multiple sites.
    FRA supports the enforcement of The Uniformed Services Employment 
and Reemployment Rights Act (USERRA) which is a federal law intended to 
ensure that persons who serve or have served in the Armed Forces, 
Reserves, National Guard or other ``uniformed services:'' (1) are not 
disadvantaged in their civilian careers because of their service; (2) 
are promptly reemployed in their civilian jobs upon their return from 
duty; and (3) are not discriminated against in employment based on 
past, present, or future military service.
    Many assume that the federal government leads by example and were 
surprised by a February 29, 2012 story in the Washington Post claiming 
that the federal government could be one of the biggest offenders of 
USERRA. The article stated that the Departments of Labor, VA, DoD and 
the U.S. Postal Service are the biggest offenders of USERRA. FRA urges 
continued attention to veteran's employment issues to ensure that 
veterans returning home are not penalized for their military service.

                             MENTAL HEALTH

    FRA is deeply concerned about the long waits for mental health care 
appointments at some VA facilities across the country, and reports that 
as many as 18 veterans are committing suicide daily. At the request of 
Senate VA Committee Chairwoman Sen. Patty Murray, the VA surveyed 
mental health providers revealing that in many areas of the country 
wait times far exceeded the VA's mandated 14-day window. In addition 70 
percent of providers said they did not have adequate staff or space to 
meet the mental health care needs of the veterans, and 46 percent said 
the lack of off-hour appointments prevented veterans from accessing 
care. FRA shares Sen. Murray's concerns that with 33,000 more troops 
coming home from Afghanistan next year, the demands on the VA mental 
health program will only increase.
    The Committee's Ranking Member, Sen. Richard Burr expressed 
disappointment with the VA mental health program even though the 
program funding has increased by 136 percent and staff increased by 47 
percent since FY 2006. The Senator believes that 70-80 percent of PTS 
patients will recover if they get adequate and timely treatment. FRA is 
likewise concerned about the situation and supports the Committee's 
call for an investigation and audit to determine what is causing the 
long waits in the VA mental health program.
    The IB expresses concern that potential changes to mental disorders 
rating table being developed by the Veterans Benefit Administration 
(VBA). This entirely new rating methodology for mental health disorders 
would focus on work impairment rather than the current ``average 
impairment of earnings capacity'' that also includes non-employment 
functional impairment. The IB expresses additional concern about the 
lack of transparency and lack of input from the VSO community in the 
new mental health rating methodology. FRA advocates that any rating 
changes should not reduce any disabled veterans benefits.

                                SBP/DIC

    FRA supports the ``Military Surviving Spouses Equity Act'' (H.R. 
178) sponsored by Rep. Joe Wilson, and Senate companion legislation 
sponsored by Sen. Bill Nelson (S. 260). This legislation addresses the 
reduction of SBP annuities for survivors by the amount of DIC they 
receive. Current DIC payments are $1,154 and enacted legislation in 
2009 partially addressed this inequity by authorizing an increase via 
the Special Survivor Indemnity Allowance of only $50 per month for that 
year, with increases to $100 in 2014. The above referenced legislation 
would increase the allowance to $150 per month in 2014 with gradual 
increases to $310 per month in 2017.
    SBP and DIC payments are paid for different reasons. SBP coverage 
is purchased by the retiree and intended to provide a portion of 
retired pay to the survivor upon his/her death, while DIC is indemnity 
compensation paid to survivors of service members who die of service 
connected causes. And it's important to note that surviving spouses of 
federal civilian retirees who are disabled veterans and die of service 
connected causes receive DIC without offset to their federal civilian 
SBP benefits.

                           POST 9/11 G I BILL

    The Post 9/11 GI Bill is a tremendous benefit for service members 
who qualify for benefits under the new program and has significantly 
improved the morale of those currently serving. The Association urges 
the committees to continue its oversight of the program to ensure that 
the changes in the law do not delay timely processing of benefits.
    FRA supports upgrading Vocational Rehabilitation and Employment 
(VRE) to ensure parity with Post 9/11 GI Bill benefits. Also OIF/OEF 
survivors should have the same benefits provided to dependent children. 
There should be transparency and better oversight of Post 9/11 GI Bill 
benefits to ensure beneficiaries are getting benefits at a reasonable 
cost, and allow catastrophically disabled veterans to transfer 
education benefits to their full-time care givers when the transfer did 
not occur prior to the disabled veterans discharge.
    The Association appreciates enactment of the ``Restoring GI Bill 
Fairness Act'' (Public law 112-26) sponsored by House VA Committee 
Chairman Miller, that increases the tuition cap from $17, 500 to 
$27,000 for veterans attending private schools if they were enrolled in 
the private school before the Post 9/11 Veterans Assistance Improvement 
Act took effect. Last year's bill reforming the Post 9/11GI Bill 
included a tuition cap ($17,500) for private schools. The legislation 
ensures that veterans already attending private schools before the 
legislation passed last year, are able to complete their education that 
was promised them when the original Post 9/11 GI Bill was enacted in 
2008.

                    NATIONAL CEMETERY ADMINISTRATION

    Chairman Miller's call for to complete an audit of veteran's 
gravesites to ensure all veterans and their dependents are buried in 
the correct graves, is important and our members appreciate the House 
Committee's ongoing investigation to ensure that these problems do not 
ever arise again at veterans cemeteries.
    The National Cemetery Administration (NCA) maintains over three 
million gravesites at 131 national cemeteries in 39 states, the 
District of Columbia, and Puerto Rico that are composed of 3.1 million 
gravesites. The VA estimates that about 22.4 million veterans are alive 
today. They include veterans from World War II, the Korean War, the 
Vietnam War, the Gulf War, and the War on Terror, as well as peacetime 
veterans. It is expected that one in every six of these veterans will 
request burial in a national cemetery. Annual internments are estimated 
to gradually increase to 116,000 in FY 2013 and remain at that level 
until 2015.
    FRA appreciates the increased burial plot allowance from $300 to 
$700 effective October 1, 2011, although there is still a gap between 
the original value of the benefit and the current benefit. The 
Association also supports the IB recommendations to increase the plot 
allowance to $1150. Further NCA's Operations and Maintenance budget 
should be increased by $20 million for FY 2013 so it can meet 
increasing demands created by the aging veteran population.

           FULL VETERANS STATUS FOR RESERVE COMPONENT SERVICE

    FRA supports full veteran status for Reservists with 20 years or 
more of service, who do not otherwise qualify for same with associated 
benefits under current law. The Association appreciates Sen. Mark 
Pryor's leadership by introducing the ``Honor American's Guard-Reserve 
Retirees'' (S. 491) bill and appreciates the leadership of Rep. Timothy 
Walz's companion bill (H.R. 1025) that has passed the House by voice 
vote.

            COURT-ORDERED DIVISION OF VETERANS COMPENSATION

    The intent of service-connected disability compensation is to 
financially assist a veteran whose disability may restrict his or her 
physical or mental capacity to earn a greater income from employment. 
FRA believes this payment is that of the veteran and should not be a 
concern in the states' Civil Courts. If a court finds the veteran must 
contribute financially to the support of his or her family, let the 
court set the amount allowing the veteran to choose the method of 
contribution. FRA has no problem with child support payments coming 
from any source. However, VA disability should be exempt from 
garnishment for alimony unless the veteran chooses to make payments 
from the VA compensation award. The Federal government should not be 
involved in enforcing collections ordered by the states. Let the states 
bear the costs of their own decisions. FRA recommends the adoption of 
stronger language offsetting the provisions in 42 USC, now permitting 
Federal enforcement of state court-ordered divisions of veterans' 
compensation payments.

                           CONCURRENT RECEIPT

    FRA continues its advocacy for legislation authorizing the 
immediate payment of concurrent receipt of full military retired pay 
and veterans' disability compensation for all disabled retirees. The 
Association appreciates the progress that has been made on this issue. 
There still remain disabled service members collecting Concurrent 
Retirement and Disability Payments (CRDP) that are 50 percent disabled 
or greater that are slowly being phased in over a ten-year period 
(2004-2014). They should receive full benefits starting in 2014. 
Additionally, those Chapter 61 retirees receiving CRDP and retirees 
with less than 50 percent disability rating should also receive full 
military retired pay and VA disability compensation without any offset.
    The Association strongly supports Rep. Sanford Bishop's ``Disabled 
Veterans Tax Termination Act'' (H.R. 333) and Senate Majority Leader, 
Harry Reid's ``Retired Pay Restoration Act'' (S. 344). Both proposals 
would authorize comprehensive concurrent receipt reform, and Rep. Gus 
Bilirakis' ``Retired Pay Restoration Act'' (H.R. 303) would authorize 
concurrent receipt for retirees receiving CRDP with a disability rating 
of 50 percent or less.
    FRA also strongly supports House Personnel Subcommittee Chairman 
Joe Wilson's bill (H.R. 186), that expands concurrent receipt for 
service members who were medically retired with less than 20 years of 
service (Chapter 61 retirees) and would be phased-in over five years. 
This proposal mirrors the Administration's proposal from the 110th 
Congress. In 2008, Congress voted to expand eligibility for Combat-
Related Special Compensation (CRSC) coverage to Chapter 61 retirees and 
the proposed legislation would, in effect, extend eligibility for CRDP 
to all Chapter 61 retirees over five years. FRA supports Rep. Robert 
Andrews bill (H.R. 1979) that among other provisions also expands 
concurrent receipt. A less costly improvement in an austere budget year 
would be fixing the so-called ``glitch'' for CRSC that result in 
compensation declining when the VA disability rating increases - 
another enhancement supported by the Association.

       UNIFORMED SERVICES FORMER SPOUSES PROTECTION ACT (USFSPA)

    FRA urges Congress to take a hard look at the USFSPA with a sense 
of purpose to amend the language therein so that the Federal government 
is required to protect its service members against State courts that 
ignore provisions of the Act.
    The USFSPA was enacted 29 years ago; the result of Congressional 
maneuvering that denied the opposition an opportunity to express its 
position in open public hearings. The last hearing, in 1999, was 
conducted by the House Veterans' Affairs Committee rather than the 
Armed Services Committee which has oversight authority for amending the 
USFSPA.
    Few provisions of the USFSPA protect the rights of the service 
member, and none are enforceable by the Department of Justice or DoD. 
If a State court violates the right of the service member under the 
provisions of USFSPA, the Solicitor General will make no move to 
reverse the error. Why? Because the Act fails to have the enforceable 
language required for Justice or the Defense Department to react. The 
only recourse is for the service member to appeal to the court, which 
in many cases gives that court jurisdiction over the member. Another 
infraction is committed by some State courts awarding a percentage of 
veterans' compensation to ex-spouses, a clear violation of U. S. law; 
yet, the Federal government does nothing to stop this transgression.
    There are other provisions that weigh heavily in favor of former 
spouses. For example, when a divorce is granted and the former spouse 
is awarded a percentage of the service member's retired pay, the amount 
should be based on the member's pay grade at the time of the divorce 
and not at a higher grade that may be held upon retirement. 
Additionally, Congress should review other provisions considered 
inequitable or inconsistent with former spouses' laws affecting other 
Federal employees with an eye toward amending the Act.

                               CONCLUSION

    In closing, allow me again to express the sincere appreciation of 
the Association's membership for all that you and the Members of both 
of the House and Senate Veterans' Affairs Committees and your 
outstanding staffs do for our Nation's veterans.
    Our leadership and Legislative Team stands ready to meet with you, 
other members of the Committees or their staffs at any time, to improve 
benefits for all veterans who've served this great Nation.

                                 <F-dash>
       Prepared Statement of Colonel Robert F. Norton, USA (Ret.)
    MADAM CHAIR MURRAY, CHAIRMAN MILLER AND DISTINGUISHED MEMBERS OF 
THE COMMITTEES, on behalf of the 375,000 members of the Military 
Officers Association of America (MOAA), I am grateful for the 
opportunity to present testimony on MOAA's major legislative priorities 
for veterans' health care and benefits this year.
    MOAA does not receive any grants or contracts from the federal 
government.

VETERANS' HEALTH CARE
    MOAA thanks the Committees for their leadership and steadfast 
resolve to preserve and protect veterans' health care and benefits. We 
are also extremely appreciative of the Administration and VA's 
commitment to maintaining viable and robust funding for VA programs as 
highlighted in the Fiscal Year (FY) 2013 President's Budget submission.
    The advance appropriations process has once again allowed the VA to 
continue health care system operations and not get caught up in the 
budget battles that caused delay in earlier appropriations cycles.
    We appreciate Secretary Shinseki's commitment to breaking down 
bureaucratic barriers while continuing to aggressively push for 
transformation of VA health and benefits systems in the interest of our 
nation's veterans. MOAA is grateful for the Secretary's outreach 
efforts to military and veterans' service organizations through monthly 
and quarterly meetings and we look forward to a continuing 
collaboration with the Department and the Committees.
    Integrity, Management, Finances, and Accountability of VA-Health 
Systems--While the Secretary's efforts to transform the VA have been 
significant, they have not been without difficulty. The transformation 
of the health system into a more agile, uniform and patient-centered 
system that is fully integrated with other VA functions has not yet 
been achieved.
    Many of the bureaucratic issues plaguing the health care system are 
also barriers to progress across the VA enterprise--issues which 
inhibit uniformity, consistency of operations, increase costs and limit 
achievement of a system that can respond to changing requirements. 
These issues include:

    <bullet>  Lack of systematic compliance, accountability and 
oversight;
    <bullet>  Limitations on information sharing, accuracy of 
information, and communications; and,
    <bullet>  Multiple segregated policies, programs, and services that 
are duplicative, inefficient, ineffective, and add to the already 
confusing institutional morass.

    Transforming VA will require a major cultural shift and steadfast 
long-term commitment and investment in funding health and associated 
benefits systems by leaders and across government agencies.
    While Congress has been generous in supporting record levels of VA 
health funding in recent years, we know that budget pressures may make 
it challenging to sustain these levels in future years.
    We adamantly believe that any reductions or delays in funding VA 
health care and benefits ultimately devalue veterans' service and erode 
the Department's ability to deliver services to veterans.
    As a strong proponent of the 2013 Veterans' Independent Budget, 
MOAA urges the Committees to consider this resource in deliberating the 
VA budget requirements.

    MOAA recommendations:

    <bullet>  Preserve funding of the health system and streamline 
financial accounting systems to achieve more real-time and accurate 
fiscal projections and advanced appropriation requirements.
    <bullet>  Prevent targeting of VA programs as offsets for budget 
shortfalls; oppose higher usage and drug co-payment fees for VA 
services.
    <bullet>  Enact legislation to exempt VA health care funding from 
automatic Sequestration cuts should Congress fail to reach agreement on 
national debt reduction.
    <bullet>  Maintain critical infrastructure and continue capital 
investments, modernization efforts, and veteran-patient-centric 
transformation initiatives, including full operability of electronic 
data and records to better meet the evolving and emergent needs of the 
21st Century military and veteran populations.
    <bullet>  Oppose proposals that would combine VA and the Military 
Health Care System/TRICARE on the premise of creating efficiencies or 
alleged cost-savings in order to address mounting pressures resulting 
from the federal deficit or as a consequence of the Patient Protection 
and Affordable Care Act (P.L. 111-148).
    <bullet>  CHAMPVA-26. Pass legislation (H.R. 115, Rep Filner, D-CA) 
to permit adult children of Survivors entitled to CHAMPVA to be carried 
on their parent's insurance up to age 26 under specific circumstances. 
All other government and private sector plans mandate that such 
coverage must be made available.

    Wounded, Ill and Injured Warrior Care & Support--Since 2007, every 
VA-DoD authorization and appropriations bill has sought to 
institutionalize a seamless and unified approach to caring and 
supporting America's combat and disabled troops, veterans and their 
loved ones.
    After more than ten years of conflict, cultural impediments, 
insufficient oversight and inconsistent implementation of policy 
continue to hamper wounded warrior care and support--preventing the VA 
and DoD from leveraging the full extent of possibilities for 
collaboration, cooperation, and communication.
    One of the most troubling issues that emerged from the Walter Reed 
scandal was the finding that the Services were ``low-balling'' disabled 
servicemembers' disability ratings, with the result that many 
significantly disabled members were being medically separated and 
transferred to the VA rather than being medically retired (which 
requires a 30% or higher disability rating)--a trend that continues 
today, especially for those in the National Guard and Reserves.
    Congress has taken positive steps to address this situation, 
including establishment of the Physical Disability Board of Review 
(PDBR) to give previously separated servicemembers an opportunity to 
appeal too-low disability ratings.
    A jointly executed VA-DoD Integrated Disability Evaluation System 
(IDES) pilot has been implemented and expanded, but experience under 
IDES has shown that the fundamental goals it was to achieve - to be 
more streamlined, faster, less complex, and non-adversarial - have for 
the most part yet to be realized. The service member, typically without 
effective assistance, must navigate a still-complex adversarial system 
that is compromised by incomplete medical evaluations, overlooked 
conditions, and examinations omitting diagnoses - resulting in gaps in 
care, delays in decision-making, and lack of timely adjudication.
    MOAA will continue to monitor the IDES. We request that the 
Committees work with the Armed Services Committees to streamline the 
system to ensure the fairest possible outcomes for our wounded 
warriors. Further, MOAA urges the Committees to ensure any 
restructuring of disability and compensation systems does not 
inadvertently reduce compensation levels for disabled servicemembers-
veterans.
    MOAA also urges continuing oversight for fully implementing 
interoperability of VA-DoD electronic medical records (EMR) to help 
reduce barriers to care and roadblocks in agency-patient relationships. 
MOAA is concerned that the timelines for achieving interoperability of 
EMR data keep getting pushed back. Should VA's technology budget be 
reduced, the initiative would be at risk of being pushed far out into 
the future.
    Though the war in Iraq has officially ended and the country looks 
at an exit strategy in Afghanistan, MOAA has serious concerns whether 
the longer-term stability and viability of policies, programs and 
services that have been put in law and executed for our wounded, ill, 
injured, and disabled members and their families remain a top priority.
    MOAA recently learned that the VA and Defense officials have 
disbanded the Senior Oversight Committee (SOC), which was co-chaired by 
both Department Secretaries and was supposed to provide high level 
oversight, visibility and resolution on wounded warrior issues. The 
functions of the SOC have transferred to the lower-level Joint 
Executive Council (JEC).
    MOAA has voiced concerns in previous years to the Committees and 
the Armed Services Committees, that such a move would lower functional 
responsibility to a significantly lower level within both Departments 
and reduce visibility and continued progress on these issues.
    At a minimum MOAA believes the Veterans Affairs and Armed Services 
Committees should conduct joint hearings addressing the JEC's role, 
responsibilities, and effectiveness in daily oversight, management, 
collaboration between the Departments, and address issues highlighted 
in reports, investigations, and studies related to wounded, ill, 
injured and disabled programs.
    MOAA recognizes the collaborative efforts of VA and DoD in care 
coordination, particularly in their efforts to support our 
catastrophically wounded, ill and injured. After a bumpy start, VA has 
implemented regulations and policies to compensate caregivers and help 
wounded warriors' caregivers coordinate care across government agencies 
and local communities through its Caregiver Support and Federal 
Recovery Coordination (FRCP) Programs.
    However, the impact and experiences of wounded warriors and their 
caregivers with care coordination programs continue to be all over the 
map. Much of the confusion stems from having two programs; the FRCP and 
the DoD Care Coordination Program (RCP) are separately managed and 
operated. Rather than fulfilling the objective of jointness and 
seamlessness, the various bureaucracies too often end up putting their 
separate organizational interests ahead of those of wounded members and 
families.
    We believe that Congress should revise and expand Sec. 1611 of 
Public Law 110-181 to mandate a single, joint VA-DoD program and 
establish an office for managing, coordinating and assisting wounded, 
ill, injured, and disabled members through recovery, rehabilitation, 
and reintegration. MOAA believes care coordination should encompass 
both medical and non-medical aspects to fully meet the range of needs 
veterans will experience over their lifetime. Integrating VA-DoD 
programs into a single Care Coordination Program will streamline 
processes, eliminate redundancies, reduce expenditures, and expedite 
services.

    MOAA recommendations:

    <bullet>  Institutionalize medical and transitional support 
policies, programs and procedures across the VA health care and 
benefits systems to ensure those most catastrophically injured, ill or 
disabled transfer seamlessly from military status to veteran status 
with no break in continuity of care and services in both the short-term 
and over the lifetime of the veteran.
    <bullet>  Enforce accountability of congressionally-mandated VA and 
DoD wounded warrior policies and programs and establish permanent base-
line funding for policy and program execution, research, staffing, and 
other resource requirements, including the integrated and legacy 
disability evaluations systems and caregiver programs.
    <bullet>  Establish a single, joint VA-DoD Care Coordination 
program office, consolidating the Federal Recovery Coordination Program 
(FRCP) and the military Recovery Care Coordination Program charged with 
managing, coordinating, communicating, outreaching, and assisting 
servicemembers, veterans and their families-caregivers through 
recovery, rehabilitation, and reintegration.

    Psychological-Cognitive Health and Suicide Prevention--MOAA thanks 
the Committees for championing initiatives, policies and funding that 
address post-traumatic stress disorder (PTSD) and traumatic brain 
injuries and your commitment to improving the psychological health and 
well-being of our veterans.
    Additionally, we commend the VA for its staunch commitment to 
enhancing mental and behavioral health programs by working with the DoD 
and other government and non-government entities to address veterans' 
physical and psychological needs as a result of deployment-combat-
related stressors and trauma injuries and wounds.
    However, a decade of war has placed unprecedented demands and 
stressors on our warriors and families that will leave scars and 
unintended consequences for generations to come.
    Our Association is deeply concerned about the exponentially growing 
need to address mental health, behavioral and cognitive conditions in 
light of the rising suicides, alcohol and substance use playing out 
across the veteran and military communities.
    Veterans and their families tell us that they have seen much 
progress in improving policies and programs at the national level. 
However, they don't always see these policies and program implemented 
and interpreted consistently across all VA medical facilities.
    The real tragedy for some veterans who really need help is that 
they may give up, or lose hope or trust in the system.
    We hear frequent comments like:

    ``I don't trust the VA. I am constantly fighting with people in the 
VA medical center every step of the way to get help. It's like the VA 
is fighting with itself--why can't they just do what is right?'' (PTSD 
Veteran Spouse-Caregiver)
    ``I'm frustrated because my providers seldom ask me how I'm doing. 
They talk to my wife as though I'm not in the room . . . when they 
don't talk to me it makes me feel like they don't care about me.'' 
(Amputee-TBI Veteran)
    ``The typical VA response to care is to give the patient a machine 
or medication.''(PTSD-TBI Veteran Spouse-Caregiver)

    VA acknowledges mental health and staffing shortfalls. MOAA urges 
Congress to continue to appropriate necessary funds which would allow 
continuation of the VA's expansion efforts of its mental health 
capacity to improve access, timeliness, quality, delivery, and follow-
on care and information.
    Expansion efforts and funds should include marketing and outreach 
to encourage enrollment of eligible veterans, with special emphasis on 
Guard-Reserve members, rural veterans and high risk populations.
    We also encourage the Committees' support in establishing a single 
VA-DoD strategy and a joint Suicide Prevention Office that reports 
directly to the Department Secretaries.

    MOAA recommendations:

    <bullet>  Ensure sufficient funding and access to psychological, 
trauma and cognitive treatment, including evidenced-based mental/
behavioral health, marital/family counseling services, and non-
traditional and/or recreational therapies.
    <bullet>  Establish a joint VA-DoD strategy and joint program 
office for more uniform delivery and synchronization of critical care 
and services for reducing servicemember-veteran suicides.

    Women Veterans--Today's force has changed significantly over the 
past decade and women are helping to change the face of the military as 
they join the service at higher rates than at any other time in 
history. As such, these women are also changing the face of the VA. 
Over 1.8 million women veterans are enrolled in VA care and that number 
is expected to grow by 30 percent over the next five years.
    In FY2009 and 2010, PTSD, hypertension, and depression were among 
the top three diagnoses for women treated in VA facilities--and one in 
five women reported they had been a victim of military sexual trauma.
    MOAA believes additional legislative authority is needed to help VA 
more effectively and efficiently deliver services and care, not only to 
women veterans, but also to the growing population of veterans who are 
married and/or have family responsibilities.

    MOAA recommends the Committees continue to oversee issues affecting 
women veterans by

    <bullet>  Fully implementing P.L. 111-163, Caregivers and Veterans 
Omnibus Health Services Act of 2010 that provide equitable medical care 
and improved support services for female veterans including newborn 
care.
    <bullet>  Reconciling discrepancies related to reporting and 
supporting women impacted by military sexual trauma-assault in VA and 
DoD systems.
VETERANS BENEFITS
    Disability Claims Management: Quality, Training, and Technology 
Upgrades

    MOAA continues to support a comprehensive, integrated strategy for 
improving the claims-management system with primary emphasis on quality 
decisions at the initial stage of the process.
    The Administration's budget request projects the VA will receive 
about 1.25 million claims for disability for the next fiscal year.
    MOAA believes that the VA is making progress in attacking the 
claims backlog. Further progress won't come easily as the number and 
complexity of claims continues to rise after more than 10 years of 
conflict in Afghanistan and Iraq. Moreover, recently added diseases 
presumed caused by exposure to Agent Orange among Vietnam War veterans 
will further drive up the number of claims. Consistent, quality 
decisions on initial claims remain a crucial challenge for the VA.
    An over-arching concern is that the quality of initial claims 
decision is a disappointing 84% system-wide.

    MOAA recommends the Committees sustain vigorous oversight of VA's 
plans to modernize the claims system:

    <bullet>  Ensure the VA's approach is grounded in ``deciding claims 
right the first time,'' not just meeting numerical quotas.
    <bullet>  Oversee the new case management model for claims 
processing and monitor other field-tested initiatives directed at 
improving quality and accuracy.
    <bullet>  Ensure that the Veterans Benefits Management System 
(VBMS) is provided sufficient and timely resources to develop into a 
comprehensive, paperless, and rules-based platform.
    <bullet>  Ensure that VA provides standardized training to 
employees, and tests all employees, including coaches and managers, on 
the skills, competencies, and knowledge required to do their jobs.
    <bullet>  Monitor employee performance standards and work-credit 
system, and support adequate incentives for quality and accuracy, not 
just production quotas.

    Veteran Transition, Readjustment and Employment

    MOAA is grateful for the Committees' bi-partisan collaboration on 
the ``VOW to Hire Heroes Act'' (P.L. 112-56), which the Association 
strongly supported.
    When fully implemented the ``VOW Act'' can help address rising 
unemployment in the veteran population. The Veterans Retraining 
Assistance Program (VRAP) provision in the VOW Act offers the potential 
to address chronic unemployment in older (age 35-64) veterans by 
opening access to Montgomery GI Bill benefits for up to 100,000 of 
these veterans over the next few years.
    Re-tooling the military transition assistance program (TAP) is 
another core feature of ``VOW''. Generations of separating and retiring 
service men and women have endured `death by PowerPoint' presentations 
under TAP. A concerted effort by all stakeholders is needed to ensure a 
newly designed program will be useful to military men and women when 
they complete their service.

    MOAA recommendations:

    <bullet>  Conduct oversight hearings soon after the implementation 
of the Veterans Retraining Assistance Program (VRAP) program in July, 
2012 to ensure that outreach, recruiting and MGIB enrollments are on 
track.
    <bullet>  Grandfather VRAP participants whose licensing, training, 
or associate's degree program - leading to employment - won't be 
completed in the compressed timeframe authorized.
    <bullet>  Assess the TAP redesign at a joint hearing with the Armed 
Services Committees to ensure it meets the needs of separating service 
men and women.
    <bullet>  Extend the 31 December 2012 sunset date for the employer 
tax incentives in the Act to ensure sufficient information on the 
effectiveness of these incentives in hiring veterans and disabled 
veterans.

GI BILL PROGRAMS
    Oversight, Outcomes, Transparency

    The Post-9/11 GI Bill authorized under Chapter 33 of 38 U.S. Code 
is the most generous educational assistance program since the great 
World War II GI Bill.
    The VA has made over 680,000 payments to colleges, universities and 
training programs on behalf of veterans, active duty service men and 
women and dependents who have received transferred benefits.
    However, a year-long Senate investigation detailed troubling trends 
in GI Bill outcomes and oversight:

    <bullet>  33% of new GI Bill payments went to For Profit colleges, 
which trained only 25% of enrolled veterans in 2009 - 2010, the first 
year under the new program
    <bullet>  8 of the top 10 recipients of Chapter 33 funds were For 
Profit colleges
    <bullet>  The government spends more than twice as much per veteran 
at For-Profit colleges compared to public not-for-profit colleges
    <bullet>  Recruiting expenditures at certain For Profit schools 
greatly exceed student services for veterans, which in some cases 
essentially do not exist
    <bullet>  The Attorney General and multiple states have brought 
suit against certain For Profit schools for misrepresentation, 
recruiting abuses, inflated job placements and other deceptive 
practices.

    MOAA recommends the Committees:

    <bullet>  Direct the Department of Veterans Affairs to work with 
the Department of Education to create an online ``dashboard'' so that 
prospective GI Bill users can more easily compare costs, credit and 
transfer policies, outcomes and graduation rates and related consumer-
friendly information about colleges in all sectors.
    <bullet>  Further expand the VA's on-campus VetSuccess program 
beyond the 80 campus, $8.8 million program requested in the 
Administration's budget request for FY 2013.
    <bullet>  Amend the educational counseling provisions in Chapter 
36, 38 U.S. Code to mandate such counseling via appropriate means, 
including modern technologies, and permit veterans to ``opt out''. It 
will be necessary to raise the $6 million cap in the counseling 
provision to meet the enormous demand of new GI Bill enrollments.
    <bullet>  Establish a centralized complaint reporting and 
resolution process for veterans using GI Bill entitlement.
    <bullet>  Require that all programs receiving funding under the GI 
Bill be ``Title IV'' eligible; in other words, all post-secondary 
programs would have to meet Dept. of Education standards for 
accreditation and other requirements.
    <bullet>  Support legislation to account for all Federal 
educational assistance funding under the Title IV category. Changing 
the so-called ``90/10'' rule would compel all colleges and universities 
to demonstrate that their product is valuable enough to attract private 
sector students to pay for the education offered.
    <bullet>  Trademark the term ``GI Bill'' so that the Dept. of the 
VA can control the use of that term for GI Bill-related websites and 
deter other promotional media that present themselves as quasi-
governmental sources of information on the GI Bill.

    Towards A 21st Century GI Bill Architecture

    MOAA continues to recommend the Committees work toward an 
integrated platform for GI Bill programs.
    A streamlined architecture for the GI Bill is needed to support 
recruitment, reenlistment and readjustment outcomes for our nation's 
Armed Forces in the 21st century. Veterans, lawmakers, military 
recruiters, college administrators, non-degree trainers and the general 
public need a simple, transparent and clear understanding of the 
service that is required for earning entitlement to the GI Bill.
    To maintain multiple, overlapping GI Bill program authorities 
causes confusion, increases administrative cost, and weakens the 
potential of these programs to efficiently support intended outcomes.

    MOAA recommendations:

    <bullet>  Integrate all active duty and reserve duty programs in a 
single chapter in Title 38. Benefit eligibility should be based on two 
metrics: the length and type of military duty performed.
    <bullet>  Repeal Chapter 30, the Montgomery GI Bill - with 
appropriate grandfathering of remaining participants--and amend 
language in the preamble to Chapter 33 to indicate that the program is 
intended to support recruitment, reenlistment and readjustment outcomes 
for the Armed Forces.
    <bullet>  Repeal Chapter 1607, 10 USC. MGIB benefits for 
operational active duty service performed by National Guard and Reserve 
servicemembers after 11 September 2001 were superseded by the P911 GI 
Bill.
    <bullet>  Consolidate the Selected Reserve GI Bill with the new GI 
Bill. Benefits authorized under Chapter 1606 of Title 10 USC were last 
raised (except for annual COLAs) in 1999. The ratio between Chap. 1606 
benefits and the MGIB benefits has plunged to 23.6% against a 
historical ratio of 47-48%.

    Vocational Rehabilitation and Employment (VR&E)

    MOAA is grateful for the provisions in the ``VOW to Hire Heroes 
Act'' that improve VR&E and extend automatic eligibility through 2014 
for active duty servicemembers referred by DoD with severe illnesses or 
injuries. The provision enables VR&E to provide rehabilitative services 
early in the disability evaluation process. The law also expands the 
Special Employer Incentive program to employers who hire veterans 
participating in VR&E even in cases where the veteran has not completed 
training. We also appreciate the VR&E upgrades in P.L. 111-377 that 
raised the subsistence allowance under the program to the housing 
allowance available under the P911 GI Bill.

    MOAA recommends further extending the delimiting period for VR&E 
from 12 to 15 years after service and examining the reach and 
effectiveness and VR&E outreach programs.

SURVIVORS' and DEPENDENTS' BENEFITS
    Survivors' Educational Benefits. The Gunnery Sergeant John D. Fry 
Scholarship program (P.L. 111-32) established Post-9/11 GI Bill benefit 
entitlement for the children of Fallen members of our Armed Forces who 
died in the line of duty after September 10, 2001.
    Unfortunately, surviving spouses are ineligible for ``Fry 
Scholarships.'' At the time the legislation was being considered, no 
one stopped to think that the surviving spouses themselves would need a 
robust benefit in order to attain the skills and education to provide 
for their children and prepare them for college.
    Survivors and Dependents Educational Assistance (DEA) program 
benefits under Chapter 35, 38 USC simply do not afford surviving 
spouses a realistic opportunity to raise young (in most cases) children 
and go to school concurrently without shouldering substantial financial 
debt while dealing with substantial life challenges.
    For surviving spouses of the Iraq and Afghanistan conflicts, DEA 
translates to ``college is unaffordable.'' For full-time college 
enrollment, a Survivor receives only $936 per month, no cost-of-living 
(housing) allowance, and no book stipend.
    Today, the total potential DEA benefit is $43,065 compared to 
$53,028 under the MGIB. But, the Fry Scholarships pay the full cost of 
enrollment at any public college or university, a housing allowance 
based on a Sergeant's (E-5) ``with dependents'' housing rate for the 
zipcode of the college, and up to $1000 annually for books.

    MOAA recommends the Committees support S. 1952 (Sen. Merkley, D-OR) 
to authorize P911 GI Bill benefits (Chapter 33, 38 USC) for Survivor 
Spouses of members who died in the line-of-duty after 10 September 2011 
in lieu of Survivors and Dependents Educational Assistance (DEA) 
benefits. As an interim measure, if resources are not available for 
P911 GI Bill-level benefits, authorize DEA participants a housing 
allowance and book stipend.

    Dependency and Indemnity Compensation (DIC) Equity. DIC, which is 
paid to survivors of those who paid the ultimate sacrifice, is set at a 
flat rate for all. MOAA believes DIC should be set at 55% of the 
compensation paid to 100% service-disabled veterans and placed on an 
equal footing with survivors of disabled civil service employees. 
Survivors of federal workers have their compensation set at 55% of 
their Disabled Retirees' Compensation. The November 2009 GAO report on 
Military & Veterans' Benefits (GAO 10-62) found that ``DIC payments are 
almost always less than workers' compensation payments for survivors of 
federal employees who die as a result of job-related injuries.'' MOAA 
supports establishing the annual DIC rate at 55% of the compensation 
rate for a 100% service-connected veteran.
    Caregivers of Catastrophically Disabled Veterans. Catastrophically 
disabled veterans, whose spouses serve as primary care givers, receive 
additional allowances due to the severity of their service-connected 
multiple disabilities. Spouses who are full-time caregivers are 
precluded from earning a retirement or Social Security benefits in 
their own right. When the veteran dies, the widow(er)'s income is 
reduced to the same DIC rate that other surviving spouses of veterans 
receive when the death was service connected. The percentage of 
replacement income can be as little as 15%. The income replacement of 
other federal survivor benefit plans is close to 50% of the benefit 
upon which they are based. MOAA recommends the Committees increase the 
income replacement rate for widow(er) s of catastrophically disabled 
veterans.
    Retain DIC on Remarriage at Age 55. Legislation was enacted in 2003 
to allow eligible military survivors to retain DIC upon remarriage 
after age 57. At the time, Congressional staff advised that age-57 was 
selected only because there were insufficient funds to authorize age-55 
retention of DIC upon remarriage. MOAA recommends authorization of age-
55 for retention of DIC upon remarriage in order to bring this benefit 
in line with rules for the military SBP program and all other federal 
survivor benefit programs.
    CHAMPVA Dental. MOAA supports allowing Survivors qualified for 
CHAMPVA health care to be allowed to enroll in a proposed CHAMPVA 
Dental program. The proposal, which is modeled on the TRICARE Retiree 
Dental Plan, would have no PAYGO offset requirement since it would be 
fully funded by enrollees' premiums.

NATIONAL GUARD AND RESERVE VETERANS
    National Guard and Reserve servicemembers who have served a 
qualifying period of active duty are unique in the veterans' community, 
as many continue to serve in uniform. These `dual-status' veterans face 
special challenges associated with their status including rising 
unemployment rates.
    Since September 11, 2001, more than 842,000 Guard and Reserve 
members have served on operational active duty (as of 21 February 
2012), and approximately 300,000 or more have served on multiple tours.
    The FY 2012 National Defense Authorization Act further expanded 
DoD's ``operational reserve'' policy by authorizing non-emergency 
access to the Guard and Reserve. The NDAA contains a provision that 
permits the Service Secretaries to activate up to 60,000 reservists for 
up to one year to perform pre-planned, budgeted missions that will no 
longer require a national emergency declaration by the Commander in 
Chief.
    Routine Federal call-ups for non-emergency missions are 
unprecedented in our nation's history. With this sea-change in reliance 
on the Reserves, it will be critical for the Committees, working with 
the Armed Services Committees, to ensure that this expansion of policy 
does not adversely affect Guard and Reserve members, their families and 
employers.

    MOAA recommends the Committees:

    <bullet>  Closely monitor the Office of Special Counsel's pilot 
project regarding enforcement of reemployment rights protections for 
Federal agency workers under the Uniformed Services Employment and 
Reemployment Rights Act (USERRA).
    <bullet>  Support legislation to strengthen the USERRA as 
recommended by the Department of Justice in a forwarding letter to 
Congress from Vice President Biden (20 September 2011).
    <bullet>  Consider additional USERRA protections such as: requiring 
states to waive their sovereign immunity in cases requiring the 
enforcement of the statute; making workplace arbitration agreements 
unenforceable in disputes arising under USERRA; authorizing punitive 
damages against egregious violations of the statute and providing for a 
jury trial in such cases; and, requiring (under current law, 
``authorizing'') a court to use equitable relief, including injunctions 
and restraining orders when appropriate, for USERRA violations.
    <bullet>  Assess the ongoing work of the GAO, tasked by the House 
Committee on Veterans Affairs, to study financial institutions' 
compliance with the Servicemembers Civil Relief Act (SCRA) prohibitions 
against mortgage foreclosure during periods of military service.
    <bullet>  Consider adopting additional improvements to the SCRA: 
imposition of civil fines for violations of the law; criminal penalties 
in egregious cases of SCRA violation; and recovery of reasonable 
attorneys' fees by servicemembers from SCRA violators.
    <bullet>  Working with Armed Services Committees, support 
authorization for employers to pay TRICARE Reserve Select premiums as 
an incentive to hire and retain Guard and Reserve members.
    <bullet>  Ensure that the modified Transition Assistance Program 
(TAP) mandated in the ``VOW to Hire Heroes Act'' is tailored to meet 
the needs of de-activating Guard / Reserve members including local / 
regional adaptation.
    <bullet>  Support collaborative efforts with States and others that 
result in civilian credentialing / licensure for military skill 
training in designated employment fields

    Recognition of Career National Guard and Reserve Veterans

    National Guard and Reserve members who complete a full Guard or 
Reserve career and are receiving or entitled to a military pension, 
government health care and other benefits are not ``veterans of the 
Armed Forces of the United States,'' unless they have served a 
qualifying period of active duty.
    This strange situation exists because the definitions of 
``veteran'' in Title 38 limit the term to service men and women who 
have served on active duty under Title 10 orders.
    For example, National Guard members who served on military duty 
orders (other than Title 10) at Ground Zero in New York City on Sept. 
11, 2001, the Gulf Coast following Hurricane Katrina, the BP oil spill 
catastrophe off the Gulf Coast, or conducted security operations on our 
Southwest border, and subsequently retired from the National Guard are 
not deemed to be veterans under the law unless at some point they had 
served on Title 10 orders.
    Due to military funding and accounting protocols, many reservists 
performed operational missions during their careers but the orders 
purposely were issued under other than Title 10 to avoid crediting the 
service as de facto ``active military service.''
    Ironically, these career reservists have earned specified veterans' 
benefits, but they can't claim that they are veterans.
    MOAA is grateful to the House Veterans Affairs Committee and the 
full House for twice passing enabling legislation. H.R. 1025 (Rep. 
Walz, D-MN) passed the House on 11 October 2011 and has been referred 
to the Senate. The bill would establish that National Guard and Reserve 
members who are entitled to a non-regular retirement under Chapter 1223 
of 10 USC and who were never called to active federal service during 
their careers are veterans of the Armed Forces. The legislation would 
prohibit the award of any new or unearned veterans' benefits.

    MOAA recommends the Senate Committee on Veterans Affairs approve 
the ``Honor America's Guard and Reserve Retirees Act'', S. 491 (Sen. 
Pryor, D-AR) to authorize that career members of the National Guard and 
Reserve who were never called up to Federal active duty and are 
entitled to or receiving military retired pay are veterans of the Armed 
Forces.

    (Former) Clark Air Force Base, Philippines, Military Cemetery

    When U.S. forces hastily departed the Philippines in 1991, no 
provision was made for the long-term maintenance and upkeep of the 
Clark Air Force Base (AFB) Military Cemetery. The cemetery contains the 
remains of 8600 American service members, veterans and family members 
from the Spanish American War through the present conflicts. The U.S. 
Air Force maintained the cemetery from 1951 until 1991.
    Clark AFB Military Cemetery remains in operation. Last year, an 
Iraq conflict serviceman and a Vietnam War Silver Star recipient were 
interred in the cemetery.
    Thanks to the extraordinary efforts of a local VFW Chapter and 
private support from the ``Clark Veterans Cemetery Restoration 
Association'', the Cemetery has not been allowed to slip into complete 
disrepair.
    But Clark AFB Military Cemetery has been abandoned by the United 
States government. We have dishonored the memory of the fallen that lie 
buried there.

    MOAA recommends the Committees approve bi-partisan legislation 
(H.R. 4168, Rep. Guinta, R-NH) to place the Clark AFB Military Cemetery 
under the control of the American Battle Monuments Commission.

    Conclusion

    MOAA is grateful to the Members of the Committees for your 
leadership in supporting our veterans and their families who have 
``borne the battle'' in defense of the nation.

Executive Summary
                        Selected Recommendations

VETERANS' HEALTH CARE

    Integrity, Management, Finances, and Accountability of VA-Health 
Systems

    <bullet>  Fully fund the VA health system and streamline financial 
accounting systems to achieve more real-time and accurate fiscal 
projections and advanced appropriation requirements.
    <bullet>  Prevent targeting of VA programs as offsets for budget 
shortfalls; oppose higher usage and drug co-payment fees for VA 
services.
    <bullet>  Exempt VA health care funding from automatic 
Sequestration cuts should Congress fail to reach agreement on national 
debt reduction (H.R. 3895, Rep. Jeff Miller, R-FL).
    <bullet>  Maintain critical infrastructure and continue capital 
investments, modernization efforts, and veteran-patient-centric 
transformation initiatives, including full interoperability of 
electronic data and records to better meet the evolving and emergent 
needs of the 21st Century military and veteran populations.
    <bullet>  Oppose proposals that would combine VA and the Military 
Health Care System/TRICARE on the premise of creating efficiencies or 
alleged cost-savings in order to address mounting pressures resulting 
from the federal deficit or as a consequence of the Patient Protection 
and Affordable Care Act (P.L. 111-148).
    <bullet>  CHAMPVA-26. Pass legislation (H.R. 115, Rep Filner, D-CA) 
to permit adult children of Survivors entitled to CHAMPVA to be carried 
on their parent's insurance up to age 26 under specific circumstances. 
All other government and private sector plans mandate that such 
coverage must be made available.

    Wounded, Ill and Injured Warrior Care & Support

    <bullet>  Institutionalize medical and transitional support 
policies, programs and procedures across the VA health care and 
benefits systems to ensure those most catastrophically injured, ill or 
disabled transfer seamlessly from military status to veteran status 
with no break in continuity of care and services in both the short-term 
and over the lifetime of the veteran.
    <bullet>  Enforce accountability of congressionally-mandated VA 
and/or joint Departments of VA and Defense (DoD) wounded warrior 
policies and programs and establish permanent base-line funding for 
policy and program execution, research, staffing, and other resource 
requirements, including the integrated and legacy disability evaluation 
systems and caregiver programs.
    <bullet>  Establish a single, joint VA-DoD Care Coordination 
program office, consolidating the Federal Recovery Coordination Program 
(FRCP) and the military Recovery Care Coordination Program charged with 
managing, coordinating, communicating, outreaching, and assisting 
servicemembers, veterans and their families-caregivers through 
recovery, rehabilitation, and reintegration.

    Psychological-Cognitive Health and Suicide Prevention

    <bullet>  Ensure sufficient funding and access to psychological, 
trauma and cognitive treatment, including evidence-based mental/
behavioral health, marital/family counseling services, and non-
traditional and/or recreational therapies.
    <bullet>  Establish a joint VA-DoD strategy and joint program 
office for more uniform delivery and synchronization of critical care 
and services for reducing servicemember-veteran suicides.

    Women Veterans

    <bullet>  Fully implement P.L. 111-163, Caregivers and Veterans 
Omnibus Health Services Act of 2010 that provides equitable medical 
care and improved support services for female veterans including 
newborn care.
    <bullet>  Reconcile discrepancies in reporting military sexual 
trauma / assault and ensure support for women who have been victims of 
such attacks.

VETERANS' BENEFITS

    Claims Backlog

    <bullet>  Ensure the VA's claims management system is grounded in 
``deciding claims right the first time,'' not just meeting numerical 
quotas.
    <bullet>  Oversee the new case management model for claims 
processing and monitor other field-tested initiatives directed at 
improving quality and accuracy.
    <bullet>  Ensure that the Veterans Benefits Management System 
(VBMS) is provided sufficient and timely resources to develop into a 
comprehensive, paperless, and rules-based platform.
    <bullet>  Ensure that VA provides standardized training to 
employees, and tests all employees, including coaches and managers, on 
the skills, competencies, and knowledge required to do their jobs.
    <bullet>  Monitor employee performance standards and work-credit 
system, and support adequate incentives for quality and accuracy, not 
just production quotas.

    Veteran Transition, Readjustment and Employment

    <bullet>  Conduct oversight hearings soon after the implementation 
of the Veterans Retraining Assistance Program (VRAP) program in July, 
2012 to ensure that outreach, recruiting and MGIB enrollments are on 
track.
    <bullet>  Grandfather VRAP participants whose licensing, training, 
or associate's degree program - leading to employment - won't be 
completed in the compressed timeframe authorized.
    <bullet>  Assess the TAP redesign mandated in the VOW to Hire 
Heroes Act at a joint hearing with the Armed Services Committees to 
ensure it meets the needs of separating service men and women.
    <bullet>  Extend the 31 December 2012 sunset date for the employer 
tax incentives in the VOW Act to ensure sufficient information on the 
effectiveness of these incentives in hiring veterans and disabled 
veterans.

GI BILL PROGRAMS

    Oversight, Outcomes, Transparency

    <bullet>  Direct the Department of Veterans Affairs to work with 
the Department of Education to create an online ``dashboard'' so that 
prospective GI Bill users can more easily compare costs, credit and 
transfer policies, outcomes and graduation rates and related consumer-
friendly information about colleges in all sectors.
    <bullet>  Further expand the VA's on-campus VetSuccess program 
beyond the 80 campus, $8.8 million program requested in the 
Administration's budget request for FY 2013.
    <bullet>  Amend the educational counseling provisions in Chapter 
36, 38 U.S. Code to mandate such counseling via appropriate means, 
including modern technologies, and permit veterans to ``opt out''. 
Raise the $6 million cap in the counseling provision to meet the 
enormous demand of new GI Bill enrollments.
    <bullet>  Establish a centralized complaint reporting and 
resolution process for veterans using GI Bill entitlement.
    <bullet>  Require that all programs receiving funding under the GI 
Bill be ``Title IV'' eligible; in other words, all post-secondary 
academic programs should meet Dept. of Education standards for 
accreditation and other requirements.
    <bullet>  Support legislation to account for all Federal 
educational assistance funding under the Title IV category. Changing 
the so-called ``90/10'' rule would compel all colleges and universities 
to demonstrate that their product is valuable enough to attract private 
sector students to pay for the education offered.
    <bullet>  Trademark the term ``GI Bill'' so that the Dept. of the 
VA can control the use of that term for GI Bill-related websites and 
deter other promotional media that present themselves as quasi-
governmental sources of information on the GI Bill.

    Towards A 21st Century GI Bill Architecture

    <bullet>  Integrate all active duty and reserve duty programs in a 
single chapter in Title 38. Benefit eligibility should be based on two 
metrics: the length and type of military duty performed.
    <bullet>  Repeal Chapter 30, the Montgomery GI Bill - with 
appropriate grandfathering of remaining participants - and amend 
language in the preamble to Chapter 33 to indicate that the program is 
intended to support recruitment, reenlistment and readjustment outcomes 
for the Armed Forces.
    <bullet>  Repeal Chapter 1607, 10 USC. MGIB benefits for 
operational active duty service performed by National Guard and Reserve 
servicemembers after 11 September 2001 were superseded by the P911 GI 
Bill.
    <bullet>  Consolidate the Selected Reserve GI Bill with the new GI 
Bill. Benefits authorized under Chapter 1606 of Title 10 USC were last 
raised (except for annual COLAs) in 1999. The ratio between Chap. 1606 
benefits and the MGIB benefits has plunged to 23.6% against a 
historical ratio of 47-48%.

    Vocational Rehabilitation and Employment (VR&E) - MOAA recommends 
further extending the delimiting period for VR&E from 12 to 15 years 
after service and examining the effectiveness of VR&E outreach 
programs.

SURVIVORS' and DEPENDENTS' BENEFITS
    Survivors' Educational Benefits - Support S. 1952 (Sen. Merkley, D-
OR) to authorize P911 GI Bill benefits (Chapter 33, 38 USC) for 
survivor spouses of members who died in the line-of-duty after 10 
September 2011 in lieu of Survivors and Dependents Educational 
Assistance (DEA) benefits. As an interim measure, if resources are not 
available for P911 GI Bill-level benefits, authorize DEA participants a 
housing allowance and book stipend.
    Dependency and Indemnity Compensation (DIC) Equity - MOAA supports 
establishing the annual DIC rate at 55% of the compensation rate for a 
100% service-connected veteran.
    Caregivers of Catastrophically Disabled Veterans - MOAA recommends 
the Committees increase the income replacement rate for widow(er)s of 
catastrophically disabled veterans.
    Retain DIC on Remarriage at Age 55 - MOAA recommends authorization 
of age-55 for retention of DIC upon remarriage in order to bring this 
benefit in line with rules for the military SBP program and all other 
federal survivor benefit programs.
    CHAMPVA Dental - MOAA supports allowing Survivors qualified for 
CHAMPVA health care to be allowed to enroll in a proposed CHAMPVA 
Dental program.

NATIONAL GUARD AND RESERVE VETERANS
    <bullet>  Closely monitor the Office of Special Counsel's pilot 
project regarding enforcement of reemployment rights protections for 
Federal agency workers under the Uniformed Services Employment and 
Reemployment Rights Act (USERRA).
    <bullet>  Support legislation to strengthen the USERRA as 
recommended by the Department of Justice in a forwarding letter to 
Congress from Vice President Biden (20 September 2011).
    <bullet>  Consider additional USERRA protections such as: requiring 
states to waive their sovereign immunity in cases requiring the 
enforcement of the statute; making workplace arbitration agreements 
unenforceable in disputes arising under USERRA; authorizing punitive 
damages against egregious violations of the statute and providing for a 
jury trial in such cases; and, requiring (under current law, 
``authorizing'') a court to use equitable relief, including injunctions 
and restraining orders when appropriate, for USERRA violations.
    <bullet>  Assess the ongoing work of the GAO, tasked by the House 
Committee on Veterans Affairs, to study financial institutions' 
compliance with the Servicemembers Civil Relief Act (SCRA) prohibitions 
against mortgage foreclosure during periods of military service.
    <bullet>  Consider adopting additional improvements to the SCRA: 
imposition of civil fines for violations of the law; criminal penalties 
in egregious cases of SCRA violation; and recovery of reasonable 
attorneys' fees by servicemembers from SCRA violators.
    <bullet>  Working with Armed Services Committees, support 
authorization for employers to pay TRICARE Reserve Select premiums--a 
lower-cost alternative to employer-provided coverage--as an incentive 
to hire and retain Guard and Reserve members.
    <bullet>  Ensure that the modified Transition Assistance Program 
(TAP) mandated in the ``VOW to Hire Heroes Act'' is tailored to meet 
the needs of de-activating Guard / Reserve members including local / 
regional adaptation.
    <bullet>  Support collaborative efforts with States and others that 
result in civilian credentialing / licensure for military skill 
training in designated employment fields.

    Recognition of Career National Guard and Reserve Veterans - MOAA 
recommends the Senate Committee on Veterans Affairs approve the ``Honor 
America's Guard and Reserve Retirees Act'', S. 491 (Sen. Pryor, D-AR) 
to authorize that career members of the National Guard and Reserve who 
were never called up to Federal active duty and are entitled to or 
receiving military retired pay are veterans of the Armed Forces.
    (Former) Clark Air Force Base, Philippines, Military Cemetery - 
MOAA supports legislation (H.R. 4168, Rep. Guinta, R-NH) to place the 
Clark AFB Military Cemetery under the control of the American Battle 
Monuments Commission.

                                 <F-dash>
                  Prepared Statement of Jamie H. Tomek

    Madam Chair Murray, Chairman Miller, Ranking Members Burr and 
Filner, and Members of both the Senate and House Committees on Veterans 
Affairs, I am pleased to be here today to testify on behalf of Gold 
Star Wives on legislative issues pertinent to our nation's military 
widows and widowers. My name is Jamie Tomek, Chair of the Gold Star 
Wives' Government Relations Committee. I became the widow of First 
Lieutenant Glen D. Tomek, when he was killed in action April of 1969 in 
Vietnam. I am proud to represent Gold Star Wives here today, but would 
prefer to have not lost my husband 43 years ago . . . as is the case of 
every one of us here today.
    Gold Star Wives of America (GSW), founded in 1945, is a 
Congressionally Chartered organization of surviving spouses of military 
members who died while serving on active duty or died from a service-
connected cause. GSW is a volunteer organization.
    We provide information about survivor benefits and assist survivors 
experiencing difficulties accessing their benefits. We strive to raise 
the awareness of Congress, the public, the military and veterans' 
communities and GSW about the many inequities existing in our survivor 
programs and benefits. Many of our members volunteer in Department of 
Veterans Affairs (VA) hospitals and clinics and visit service members 
hospitalized at Department of Defense (DoD) medical treatment 
facilities. In 2010, GSW members reported volunteer hours and 
contributions valued at more than $200,000.
    GSW's current members are the surviving spouses of military members 
who served during World War II, the Korean War, the Vietnam War, the 
Gulf War, the conflicts in both Iraq and Afghanistan, and every period 
in between. For this written testimony, we will refer to all of members 
as surviving spouses.
    Because the survivor population is a separate category of 
beneficiaries, we strongly encourage and suggest the use of the term 
survivor when speaking about veterans and their families or military 
personnel and their families.
    We would like to thank Congressman Filner for including surviving 
spouses in the Mortgage Amendment to the Servicemembers Civil Relief 
Act; Congressman Bilirakis and his staff for intervening with the VA to 
ensure that DEA benefits were paid by direct deposit; and Senator 
Begich and Congressman Dan Young for legislation that would provide 
space available travel on military aircraft for many of our members.
    We would also like to thank Senator Bill Nelson, Senator James 
Inhofe, and Representative Joe Wilson for their continued support of 
bills to eliminate the Dependency and Indemnity Compensation DIC offset 
to the Survivor Benefit Plan (SBP).
    GSW's most important issues are as follows:

                     Office of Survivors Assistance

    The Office of Survivors Assistance was Congressionally mandated by 
Public Law 110-389, Title II Section 222 (Veterans' Benefits 
Improvement Act of 2008) to serve as a resource regarding all benefits 
and services furnished by VA to Survivors and dependents of deceased 
veterans and survivors and dependents of deceased members of the Armed 
Forces. OSA serves as the primary advisor to the Secretary of Veterans 
Affairs on all matters related to policies, programs, legislative 
issues, and other initiatives affecting veterans' survivors and 
dependents.
    OSA honors the commitment made to its constituents for access to 
applicable benefits and services under the law. OSA also serves as an 
advocate for their special needs in the policy and programmatic 
decisions of the VA.
    Since FY 2011, the office has been staffed by a Director and a 
Program Analyst. Currently, there is an active hiring action for a 
Staff Assistant to complement the staffing levels. GSW urges you to 
encourage VA to fully staff the Office of Survivors Assistance to 
ensure the purpose and intent of the Public Law is fulfilled.
    We have established and maintained excellent contacts within the 
various organizations in VA to assist us with cases that involve 
extenuating circumstances. VA, in particular the Veterans Benefit 
Administration, has made and we are confident they will continue to 
improve processing times for claims. Perhaps the inclusion of survivor 
stakeholders should be considered as we can provide valuable input that 
could be included in the improvement process and we offer our 
assistance and look forward to collaborative efforts.

                      Training on Survivor Issues

    GSW is often contacted by surviving spouses who have called the 
national VA phone number for information. In many cases, they were 
given incorrect or inadequate information about the benefits to which 
they were entitled. GSW suggests that the VA provide training on 
survivor benefits and issues for those who provide information on 
benefits. Such training would ensure that accurate, consistent, and 
timely information is provided to survivors.

          Increase Dependency and Indemnity Compensation (DIC)

    The Servicemen's and Veterans Survivor Benefit Act of 1956 
established DIC (P. L. No. 84-881). The purpose of DIC is an indemnity 
payable to survivors when a military member dies of a service-connected 
cause.
    GSW seeks parity with other Federal survivor programs when 
calculating DIC. DIC is currently paid to widows at 41% of the VA 
Disability Compensation received by the veteran with a 100% service-
connected disability. The monthly flat-rate DIC is $1195. Other Federal 
survivor programs provide 55% of the retirement pay of the Federal 
employee to the widow. Bringing DIC's computation to 55% would provide 
parity with other Federal survivor programs and would increase DIC by 
approximately $300 per month.
    The continued economic stresses our country is now enduring places 
surviving spouses one step away from a car that stops running or an 
unpaid house payment or utility bill. In statistics received from OSA 
44% of surviving spouses reported income below $20,000. Many surviving 
spouses are in financial distress, unable to pay for food, medical co-
pays and utilities. Equalizing the computation of DIC would offer some 
relief from worry and would improve financial independence and 
confidence for GSW members. An increase in DIC should not subject the 
Survivor Benefit Plan (SBP) beneficiaries to further offset.
    Congress should make the ethical decision now to change the DIC 
compensation to 55% that is afforded other Federal survivors. Why 
military surviving spouses must accept a lower percentage than other 
Federal survivor programs is incomprehensible to GSW. There has been no 
increase in DIC except for COLAs since flat rate DIC was implemented in 
1993.

                          CHAMPVA Dental Plan

    Congress enacted legislation requiring the VA to provide access to 
dental insurance plans through the CHAMPVA health insurance program. 
Eighteen months has passed and the policy is not yet in place. CHAMPVA 
recipients need access to both dental insurance plans to maintain their 
overall health.
    GSW is thankful for this needed piece of legislation for our 
surviving spouses and children but we are perplexed and concerned at 
the length of time that has passed without implementation.
    The new law directs the VA to determine how reasonable it is to 
sell dental insurance to veterans by conducting a feasibility study. 
However, the law is rather vague on specifics and leaves much left for 
the VA to decide. Although the legislation is very positive, it still 
leaves a lot that is yet to be determined.
    This new insurance plan is intended to be voluntary. The VA will 
contract with a dental insurance agent to administer the program and 
will charge sufficient premiums to ensure the costs are covered. So 
far, there has been no information other than the bill's text, which 
leaves key questions unclear, such as how patients and providers can 
sign up and where the pilot program will take place.

              Dependent Education Assistance Program (DEA)

    The DEA or Chapter 35 benefits need to be increased. Current 
benefits do not cover the costs of today's tuition much less books, 
fees and living expenses. As quoted in Forbes, ``For the past quarter-
century, the cost of higher education has grown 440%, according to the 
National Center for Public Policy and Education.''
    Surviving children of those who died on active duty after 9-11 
receive benefits under the Marine Gunnery Sergeant John David Fry 
Scholarship. All other beneficiaries, including surviving spouses of 
those who died on active duty after 9-11, receive benefits under the 
DEA program.
    The lack of adequate DEA benefits means that these surviving 
spouses and children require student loans and leaves the beneficiaries 
with a significant debt load.
    In its 2005 report ``Rising Above the Gathering Storm,'' the 
National Academy of Science points out that for the United States to 
remain economically competitive and a world leader, our nation must 
invest in a future quality workforce (Tucker et.al. 2005).
    According to the President's Council of Advisors on Science and 
Technology, ``The problem is not just a lack of proficiency among 
American interns; there is also a lack of interest in Science, 
Technology, Engineering, and Math (STEM) fields among many interns''. 
According to the Department of Commerce, female STEM majors earn 30 
percent more an average income then non-stem graduates. (Surviving 
spouses are 98.2 percent female.) Therefore, GSW encourages the VA to 
embrace government incentive programs such as STEM and SMART Grants to 
ensure that qualified survivors receive the benefits of these programs.
    Recent VA reports indicate that 49 percent of survivors are unaware 
of their education benefits. GSW encourages further outreach to 
surviving spouses about benefits. The reports also indicate that the 
majority of surviving spouses have only a high school education (from 
the 2010 National Survey of Veterans). The VA cannot currently provide 
statistics on the percentage of surviving spouses and children who use 
DEA benefits. The only available statistics indicate that there were a 
total of 90,657 participants, 14,904 of which are spouses and 75,753 
are children. This is less than 2.9 percent of the survivor population.

                Elimination of the DIC Offset to the SBP

    Disabled military retirees view the Committee on Veterans Affairs 
as their protector and advocate. We are asking this Committee to be a 
protector of surviving spouses and ensure that our deceased husbands 
receive a benefit of retirement they worked hard to earn and for which 
they paid substantial premiums. In 1999, Congress decided to eliminate 
the offsets to military retired pay with an incrementally phased in 
plan.
    Representative Jeff Miller, Chairman of the House Committee on 
Veterans Affairs played a key role in restoring full SBP by eliminating 
the Social Security Offset to SBP [P.L. 108-375]. Unfortunately, 
military surviving spouses whose military spouse died on active duty or 
of a service-connected cause endured a second unjust offset - the DIC 
offset to SBP. Congress and DoD policy makers who have not suffered the 
misfortune of an early death due to military service should honor this 
selfless, responsible act of purchasing an annuity to provide for their 
family with utmost dignity.
    There are 33,280 of the 57,134 surviving spouses whose husbands 
earned and purchased SBP receive nothing from the SBP annuity.
    Public Law 108-183 [NDAA FY 2005] eliminated the DIC offset to SBP 
for surviving spouses who remarried after the age of 57. GSW 
appreciates the Committee's ``first step'' to provide ``survivor 
concurrent receipt'' to remarried widows; however, we do not understand 
the logic used to abandon those of us who have not remarried.
    GSW believes that Congress is ignoring the sacrifice of America's 
Fallen Heroes by not recognizing their service and sacrifice with the 
dignity of earned and purchased retirement benefits. We believe the 
price of an early death, coupled with the responsible act to purchase a 
survivor annuity should be compelling when Congress is determining 
funding priorities. SBP is actually an employment benefit promised to 
the deceased service member. How is it that Congress placed a higher 
priority on granting full military retired pay to living disabled 
retirees but did not consider the benefits that deceased service 
members earned for their surviving spouses?
    We ask that the members of the Committee on Veterans Affairs be 
more pro-active in finding the funding to pay full SBP to the surviving 
spouses of deceased service members. Surviving spouses of those who are 
acknowledged to have died in service to their country should not be 
victimized so that DoD can profit from the loss of the retiree. (For 
more detailed information, please see the GSW Fact Sheet at Attachment 
1.)

                      TRICARE Dental Program (TDP)

    The NDAA FY 2010 created new dental insurance provisions for 
surviving spouses and children of those who died on active duty after 
9-11. These new dental insurance provisions align with the medical 
benefits these surviving spouses and children receive. Under the new 
provisions of TDP surviving spouses receive premium-free dental 
insurance under the active duty TDP for 3 years after the death of 
their military spouse, and surviving children receive premium-free 
dental insurance until they reach the age of majority.
    When DoD implemented these changes to TDP, many of the eligible 
surviving spouses and surviving children were not notified the new 
benefit was available in a timely manner. Because of this delay in 
notification many of the surviving spouses who were participating in 
the TRICARE Retired Dental Plan (TDRP) continued to pay premiums for 
several months after they were entitled to premium-free dental 
insurance under TDP. Some surviving spouses paid as much as $500 in 
premiums to TDRP for themselves and their children because DoD failed 
to notify them in a timely manner.
    These surviving spouses and children should be reimbursed for the 
expenses incurred due to this delayed notification.

                              TRICARE Fees

    The currently proposed ``tiered'' TRICARE fee system is based on 
the amount of military retirement pay retired service members receive. 
Surviving spouses and surviving children receive no military retirement 
pay.
    Although the proposal includes provisions to exempt post 9-11 
surviving spouses and children whose sponsor died on active duty the 
proposal failed to address fees for surviving spouses and children 
whose sponsor died on active duty before 9-11 or whose sponsor died of 
a service-connected cause.
    When Congress processes the DoD proposal, they need to take into 
consideration that those who use:

    <bullet>  TRICARE Prime, already pay an annual enrollment fee and 
may have co-pays for medical appointments and hospitalization.
    <bullet>  TRICARE Standard, already pay 25% of the charges for 
medical care, the annual deductible and co-pays for any medications 
they obtain from the mail order or retail pharmacy programs.
    <bullet>  TRICARE for Life, already pay a minimum of $99.90 monthly 
for Medicare Part B ($1198.80annually), plus co-pays for medications 
purchased by mail or a retail pharmacy.

    There are many complications involved in this issue:

    <bullet>  Surviving spouses do not receive military retirement pay; 
some surviving spouses of retired service members receive SBP, which is 
an annuity based on a portion of the deceased service member's military 
retirement pay, but not all deceased retired service members purchased 
SBP.
    <bullet>  Surviving spouses who receive only DIC of $1195 monthly 
cannot afford to pay these proposed fees. Would these spouses no longer 
be entitled to TRICARE if they could not pay the fees? Would they be 
entitled to military medical care in a military facility? Given the low 
priority of retired surviving spouses for military medical care would 
these surviving spouses ever be able to get an appointment for medical 
care?
    <bullet>  Other surviving spouses receive none of the SBP purchased 
by their sponsor because it is totally offset by DIC.
    <bullet>  Pre 9-11 surviving spouses of service members who died on 
active duty only receive SBP if their military spouse was retirement 
eligible when he died.
    <bullet>  Surviving spouses of retired service members who died of 
a service-connected cause are currently required to pay the higher 
family premiums if the children are to be covered by TRICARE Prime. 
TRICARE Prime is currently the only version of TRICARE that has a fee.
    <bullet>  If the service member had children from a previous 
marriage or relationship, would the family enrollment fee the legal 
surviving spouse pays cover TRICARE fees for the children of other 
marriages or relationships?

    Surviving spouses look to us as their voice in Congress as we are 
the vanguards with changing the inequities of survivor benefits, 
educating the public as well as elected officials. However, this cannot 
be accomplished without your support. We are that family minus one - we 
are spouses and children, all having suffered the unbearable loss.
    I believe that you who serve on these two committees feel 
similarly. Let us work to make this statement one of action and not 
just rhetoric. I appreciate the opportunity to be here and am happy to 
answer questions. Thank you.

Attachment 1
    REPEAL THE SURVIVOR BENEFIT PLAN/DEPENDENCY AND INDEMNITY 
COMPENSATION (SBP/DIC) OFFSET

    Objective: To repeal the law that requires a $1.00 reduction in a 
DoD Survivor Benefit Program (SBP) for each $1.00 received from the 
VA's Dependency and Indemnity Compensation (DIC) program. SBP is a 
premium-based voluntarily selected benefit of retirement.

    Legislation: 112th Congress
    HR 178 Rep. Joe Wilson, SC
    177 Co-sponsors (3/15/2012)

    S 260 Sen. Bill Nelson, FL and Sen. James lnhofe, OK
    49 Co-sponsors (3/15/2012)

    Cost FY11:
    Military Retirement Trust Fund Outgoing $55 Billion to military 
retirement and survivor payments
    $3.62 Billion to 294,000 Surviving Spouses

    CBO score:
    $536 Million (2012) owed to 54,778 offset Widows (less than 1% of 
$55 B)

    Original Survivor Benefit Bill HR 10670, signed by President 
Richard Nixon, Sept 21, 1972, House Report 92-481 passed as a free-
standing bill

    For more information please contact:
    Gold Star Wives of America, Inc.
    888-751-6350
    703-351-6246 www.qoldstarwives.org

    Surviving Spouses Deserve Equal Beneficiary Status:

    No DIC offset for other beneficiary categories, such as:

    <bullet>  Remarried surviving spouses over age 57 receive both SBP 
and DIC payments (2004)
    <bullet>  Surviving children do not have offset between SBP and DIC
    <bullet>  Former spouses may receive SBP and current spouse 
receives DIC
    <bullet>  Surviving spouses receive SBP from first marriage and DIC 
from second marriage
    <bullet>  Surviving spouses of non-service connected death receive 
full SBP up to 55% (SBP/62)
    <bullet>  Federal Civilian surviving spouses do not have offset 
with DIC
    <bullet>  31,000 surviving spouses have NO SBP to pay TRICARE 
premiums, CHAMPVA has no premiums
    <bullet>  Federal Civil Service Annuity is not offset by DIC and no 
premiums are paid for survivor benefit by civilian employees who die in 
active employment

    Favorable Recommendations Eliminate Offset to SBP/DIC:

    <bullet>  The Veterans Disability Benefits Commission (2007)
    <bullet>  Commission on Care for America's Returning Wounded 
Warriors (2007)

    Philosophical Basis of DoD's Survivor Benefit Plan:

    To supplement the survivor benefit of Social Security at age 62. 
(Repealed in 2003)

    <bullet>  To establish a survivor benefit similar to the Federal 
Civil Service Annuity or 55% of retired pay with a reasonable ``cost 
sharing'' premium
    <bullet>  2001, all military active duty deaths included in SBP, no 
premiums paid
    <bullet>  Federal Civilian Employee death... no premiums paid for 
survivor annuity

[GRAPHIC] [TIFF OMITTED] T3772.001


                                 <F-dash>
                  Prepared Statement of Allen E. Falk

                              INTRODUCTION

    Chairman Miller, Chairwoman Murray, and Members of the House and 
Senate Committees on Veterans' Affairs, my fellow veterans and friends, 
I am Allen E. Falk, the National Commander of the Jewish War Veterans 
of the U.S.A. (JWV). JWV is Congressionally Chartered and also provides 
counseling and assistance to members encountering problems dealing with 
the Department of Defense (DoD), the Department of Veterans Affairs 
(VA), and other government agencies. JWV is an active participant in 
The Military Coalition, a select group of over 30 military associations 
and veterans' organizations representing over five million active duty, 
reserve and retired uniformed service personnel, veterans, families, 
and survivors on Capitol Hill. In fact, I am very proud that our 
National Executive Director, Colonel Herb Rosenbleeth, who is here with 
me today, is the President of the Military Coalition.
    On March 6th, 7th and 8th, our National Executive Committee members 
were here in Washington to meet with their Representatives and Senators 
as part of JWV's Capitol Hill Action Day(s). Our members prepared 
diligently for these important meetings and successfully presented many 
of JWV's legislative priorities to your colleagues, their members of 
Congress and congressional staff.
    Members of the committee, it was a singular honor for me to present 
the prestigious JWV Medal of Merit to you, Chairman Miller (R-FL), at 
our Congressional Reception during our days on Capitol Hill. It was 
equally rewarding to JWV to have so many of you participate with us!
    JWV's presentation to the Chairman of the House Foreign Affairs 
Committee reflects our strong interest in and great concern for world 
events. While we advocate health care and compensation for veterans, 
JWV is also deeply involved in U.S. interests overseas. We must be 
always vigilant to protect the freedoms won by our brave veterans!
    Also Madame Chairwomen, I recall with the greatest pride and 
pleasure that we presented you with the JWV Medal of Merit at our 
Congressional Reception in 2006. Our sincere congratulations to you on 
your subsequent selection as Chairwoman of the Senate Committee on 
Veterans' Affairs.
    Mr. Chairman, on March 15th, we at JWV celebrated our 116th 
birthday. For all of these 115 years, JWV has advocated a strong 
national defense, and just and fair recognition and compensation for 
veterans. The Jewish War Veterans of the USA prides itself in being in 
the forefront among our nation's civic and veterans groups in 
supporting the well-earned rights of veterans, in promoting American 
democratic principles, in defending universal Jewish causes and in 
vigorously opposing bigotry, anti-Semitism and terrorism both here and 
abroad. Today, even more than ever before, we stand for these 
principles. The Jewish War Veterans of the U.S.A. represents a proud 
tradition of patriotism and service to the United States of America.
    As the National Commander of the Jewish War Veterans of the USA 
(JWV), I thank you for the opportunity to present the views of our 
100,000 members on issues under the jurisdiction of your committees. At 
the conclusion of JWV's 116th National Convention in Jackson, Florida, 
our convention delegates adopted our resolutions for the 112th 
Congress. These mandates establish the legislative agenda for JWV 
during my year as National Commander.
    JWV believes Congress has a unique obligation and compelling 
opportunity to ensure that veterans' benefits are regularly reviewed 
and improved to keep pace with the needs of all veterans in a changing 
social and economic environment. JWV salutes the Chairs and Members of 
both the House and Senate Veterans' Affairs Committees for the landmark 
veterans' legislation enacted over the past several years. Eligibility 
improvement, patient enrollment, long-term care, access to emergency 
care, presumptive Agent Orange disability, enhanced VA/DoD sharing, 
improved preference rights of veterans in the federal government and 
other records recognize the debt this great country owes to those who 
have so faithfully served.
    We must improve access to veterans' health care, increase 
timeliness in the benefit claims process, and enhance access to 
national cemeteries and to state cemeteries for all veterans.

                         NO GOVERNMENT FUNDING

    For the record, the Jewish War Veterans of the USA, Inc. does not 
receive any grants or contracts from the federal government. This is as 
it should be.

                         THE MILITARY COALITION

    JWV continues to be a proud member and active participant of the 
Military Coalition (TMC). PNC Robert M. Zweiman, JWV's National 
Chairman, serves on the Board of Directors of the Coalition and, again, 
our National Executive Director, Colonel Herb Rosenbleeth, USA (Ret), 
continues to serve as the President of the Military Coalition and as 
Co-Chair of the Coalition's Membership and Nominations Committee.
    JWV requests that the House and Senate Committees on Veterans' 
Affairs do everything possible to fulfill the legislative priorities of 
the Military Coalition which are applicable to your committees. These 
positions are well thought out and are clearly in the best interests of 
our military personnel, our veterans and our great nation.

         THE PARTNERSHIP FOR VETERANS HEALTH CARE BUDGET REFORM

    JWV is proud to be a member of the Partnership for Veterans Health 
Care Budget Reform.
    The Partnership is a coalition of nine veteran service 
organizations which meets regularly at the DAV. JWV fully supports the 
partnership's two main concerns, i.e., the quality, accuracy and the 
timeliness of VA claims, and the threat to advanced funding for the VA. 
Our thanks to Peter Dickinson and Joe Violante of DAV, for their 
outstanding leadership and expertise.

                           MANDATORY FUNDING

    JWV continues to maintain that the Congress has an unbreakable 
obligation to its veterans. Adequate VA funding must be guaranteed by 
the Congress.
    This country has a sacred obligation to those who have served and 
defended our nation to fully provide for their needs when they return 
from battle. Mandatory funding is necessary so that all category eights 
receive the care they need, so that veterans receive long term care, 
and so that VA medical research will be second to none! This is 
especially important now that we know more about the real challenges 
and expenses resulting from injuries to the brain, eyes, amputations, 
and other catastrophic injuries.
    Only when the VA not only knows in advance the level of its funding 
but also knows with certainty that its funding levels will be adequate 
for all of its requirements can our veterans be assured that all of 
their health care needs can and will be met.

                     IRAQ AND AFGHANISTAN VETERANS

    One of the greatest concerns of the Jewish War Veterans at this 
time is to assure that our servicemen and women returning home from 
Iraq, Afghanistan, and other overseas duty are being provided with the 
very best assistance available to them.
    This is not merely a matter of convenience and comfort. The list of 
serious problems they face today is substantial:
    Our present poor economic conditions have resulted in a rate of 
unemployment for veterans much higher than non-veterans. According to 
the US Bureau of Labor Statistics, veterans aged 18 to 24 had a 30.4 
percent jobless rate compared to 15.3 percent for non-veterans in the 
same age range. These figures are disappointing, especially in view of 
the protections in the Uniformed Services Employment and Re-employment 
Rights Act.
    There are a lot reasons why this employment gap is emerging. Our 
youngest veterans may not yet have the skills that many employers find 
essential, like college educations and experience in office settings. 
They also have to contend with employees who may unfairly fear the 
aftereffects of service in a combat zone. As young veterans make the 
transition to civilian life, it is important that programs exist to 
help ease this change. The new Veterans Jobs Bill, which includes 
credits for employers who hire veterans and an extra year of GI Bill 
benefits for employed veterans, gives some additional assistance to 
unemployed veterans. More needs to be done and more should be done. 
These are the men and women who volunteered to serve our country - 
every single one of them should have the resources they need to find 
permanent employment after his or her service.
    There are many family and relationship issues resulting from 
multiple deployments. Any veteran who has spent a substantial period of 
time separated from loved ones can understand the additional stress 
resulting from multiple deployments. Family members can never be sure 
if, and when, this can occur. This is especially true in the Reserve 
and National Guard components.

    <bullet>  Health and medical problems caused by exposures in combat 
areas. Medical advances have reduced the number of fatal injuries in 
combat. But the extensive use of improvised explosive devices by the 
enemy has caused a great number of serious injuries, burns, 
amputations, and brain damage.
    <bullet>  Depression and anger from the above conditions has 
resulted in a large number of cases of post traumatic stress being 
reported in returning veterans. They often have problems transitioning 
from constant ``adrenaline alerts'' to ``boring routines'' back home. 
In addition, only 1% of the US population is presently serving in all 
of the armed forces. This can result in social and cultural differences 
with those who have never served. Unfortunately, these factors have 
contributed to a very high suicide rate amongst our returning vets.

    I urge our membership at every echelon to bring up these issues as 
soon as possible and report back to me about successful programs for 
returnees. We at National will pass on this information.
    We also will, through our active participation in The Military 
Coalition, work with all the other major veterans organizations to 
assure our military returnees receive the maximum assistance they so 
rightly deserve.

                           RETURNING VETERANS

    This nation has sent hundreds of thousands of young men and women 
into some of the toughest fighting and harshest conditions ever faced 
by U.S. military personnel.
    Now these returning veterans are facing high unemployment, 
homelessness, and serious family and relationship issues due to or 
aggravated by these often repeat combat tours, and sometimes 
devastating health and medical problems such as PTSD and TBI. This 
country must provide sufficient funding to solve these issues.

                         TRAUMATIC BRAIN INJURY

    Traumatic Brain Injury (TBI) is often called the signature wound of 
the Iraq and Afghanistan wars. TBI occurs when a sudden trauma or head 
injury disrupts the normal functions of the brain. Common causes of TBI 
for military personnel include falls, vehicle accidents and explosive 
devices. Most reported TBI among Operation Enduring Freedom and 
Operation Iraqi Freedom service members and veterans has been traced 
back to improvised explosive devices, or IEDs, used extensively against 
Coalition Forces. Our Armed Forces in Iraq and Afghanistan have 
sustained repeated attacks from weapons such as rocket propelled 
grenades and land mines in addition to IEDs. Battle injuries from these 
attacks often result in a TBI. Over half of reported TBIs are blast 
related. Of the servicemembers who required medical evacuation for 
these battle related injuries to Walter Reed Army Medical Center from 
January 2001 to March 2008, 32% were diagnosed with TBI. Army Vice 
Chief of Staff Peter Chiarelli recently reported that the Army had over 
126,000 diagnosed cases of TBI from 2000 to 2010. That included more 
than 95,000 mild cases such as concussions, 20,000 moderate cases and 
more than 3,500 with severe, penetrating injuries.
    Not all blows or jolts to the head will result in a TBI. The 
severity of such an injury may range from ``mild'' i.e., a brief change 
in mental status or consciousness to ``severe'', i.e. an extended 
periods of unconsciousness or amnesia after the injury. Each of the 
different forms of TBI, mild, moderate and severe, display different 
symptoms. It is imperative that service members in a combat zone be 
screened for mild TBI as early as possible as TBI and PTSD symptoms may 
initially be very similar. Early intervention is important to speed 
recovery and maximize functional outcomes. The initial focus of 
treating a TBI is to stabilize the injured service member in order to 
minimize secondary complications. After individuals with moderate or 
severe TBI have been stabilized, the treatment plan generally involves 
rehabilitation efforts to teach patients who continue to have medical 
and functional problems how to cope with their specific injury-related 
symptoms. Most existing research on TBI is focused on injuries 
sustained from automobile accidents and more research is needed on 
combat related traumatic brain injuries where service embers may 
experience more than one blast episode.
    TBI is a complex brain trauma, experienced differently by each 
person depending upon several unique characteristics, such as the type 
of injury and an individual's personal health and resilience. While it 
is true that most service members who suffer traumatic brain injuries 
return to duty, individuals with severe TBIs may need inpatient care at 
a military treatment facility (MTF) a VA polytrauma hospital, or a 
civilian rehabilitation center. Data has also shown that having a TBI 
increases the risk for suicidal behavior. In comparison to the general 
population, TBI survivors are at increased risk for suicide attempts 
and death by suicide.
    The Jewish War Veterans supports efforts by the Department of 
Defense and the Department of Veterans Affairs to fund increased 
research efforts into the most effective and feasible ways to prevent 
TBIs in theatre and to develop a range of rehabilitation interventions 
for those personnel who are impacted by IED and other TBI injuries.

                         POST TRAUMATIC STRESS

    Stress is a normal response of the body and mind. While stress is 
normal, there are some stressors, such as military combat, when the 
body's instinct to defend itself may be challenged by witnessing or 
experiencing traumatic events involving a direct or indirect threat of 
serious injury or death. These traumatic events may be experienced 
alone, or in the company of others, as in military combat operations. 
Feeling stress in a war zone has been called ``a normal reaction by a 
normal person to an abnormal event''. Post Traumatic Stress Disorder, 
which is commonly referred to as PTSD, is a psychiatric condition which 
some soldiers develop after they have experienced or witnessed some 
very traumatic and sometimes life-threatening events or stressors as a 
result of military combat. Some researchers and clinicians define PTSD 
as a failure to recover from that psychiatric disorder.
    Our troops in Iraq and Afghanistan who have repeated and prolonged 
exposure to the combat stressors of killing, maiming, and dying are 
much more likely to generate the risk of developing PTSD symptoms and 
to bring those problems home. It is common for anyone participating in 
combat, or seeing its aftermath, to be filled with complicated and 
conflicting emotions - including fear, sadness, and horror - all 
legitimate reactions to the combat experience. These strong feelings 
are a natural reaction to being confronted with danger. Memories of 
those stressful events may be so strong that they impair an 
individual's ability to perform day to day functions, interact normally 
with family and friends, and maintain gainful employment.
    Observers have noted that there may have been no war better 
designed to produce combat stress and trauma than Operation Iraqi 
Freedom which was a round the clock, unrelenting danger zone. Nearly 
half of Afghanistan and Iraq veterans treated by the Department of 
Veterans Affairs suffer from mental health issues, and PTSD is the most 
common, affecting nearly 200,000. According to Army Vice Chief of Staff 
Gen. Peter Chiarelli ``post traumatic stress remains a particularly 
difficult and prevalent injury coming out of this war''. Estimates of 
the incidence and prevalence of PTSD vary; however, health care experts 
say that the wars in Afghanistan and Iraq have produced more diagnosed 
cases of PTSD per capita than any other war in our nation's history. 
Estimates by organizations including Stanford University and the Rand 
Research Center contend that about one-third of the nearly 2 million 
men and women who have served in Iraq or Afghanistan have suffered from 
PTSD. Calling PTSD an epidemic, the Army estimates that there could be 
472,000 service members with the condition, half of them in the Army. 
Individual or group therapy, in addition to some medications, may be 
used in the treatment of PTSD. Therapy helps those with PTSD work 
through the traumatic events and feelings that caused the condition. 
Certain antidepressant medications and mild tranquilizers are at times 
prescribed to help lessen some of the painful symptoms associated with 
PTSD.
    The Jewish War Veterans supports efforts by the Department of 
Defense and the Department of Veterans Affairs to fund research efforts 
testing therapies that will help our service members overcome the 
debilitating symptoms of PTSD. Among these therapies currently being 
investigated are Cognitive Rehabilitation Effectiveness, Exposure 
Therapy, and Hyperbaric Oxygen Treatment.

                     MILITARY AND VETERAN SUICIDES

    According to the Center for a New American Security's Suicide 
report, Military suicides have increased since the start of the wars in 
Iraq and Afghanistan. The surge in suicides, which have risen five 
years in a row up until 2011, has become a major problem for the US 
military. New research suggests that repeated combat deployments seem 
to be driving the suicide surge. About a third of Army suicides happen 
in war zones, and another third are among personnel who had never 
deployed. However, two-thirds of Army suicides have deployed, many 
returning home with emotional disorders such as PTSD, which make them 
prone to take their own lives. Army Vice Chief of Staff General Peter 
Chiarelli informed the House Armed Services Committee in December 2010 
that ``The greatest single debilitating injury of soldiers returning 
from Iraq and Afghanistan is post traumatic stress''.
    Nearly 1 in 5 soldiers comes home from the wars reporting symptoms 
of PTSD. Marine Corps suicide statistics are reported differently than 
the Army's and are not easy to intermingle with the Army's figures, 
however, Marine Corps suicides increased from 2006 to 2009, though it 
dipped slightly in 2010. The Army reported that for 2011 suicides 
decreased about 10% from the previous year, however, within that total 
the number of active duty soldier suicides reached an all time high of 
164 soldiers, 5 more than 2010 and two more than 2009. The Army saw an 
increase in the number of soldiers hospitalized for suicidal ideation - 
from 1,500 hospitalizations in 2007 to more than 3,500 in 2010. It 
appears that Army emphasis on getting the soldiers help that they need 
may explain the increase in hospitalizations and the modest decrease in 
suicides.
    Because of repeated deployments of Regular Army as well as National 
Guard and Reserve soldiers to the combat zone, there has been a 
documented increase in PTSD among our military. The combination of 
repeated combat exposure and ready access to weapons can be lethal to 
anyone contemplating suicide. About half of soldiers who kill 
themselves use weapons, and the figure rises to 93% among those 
deployed in war zones. It appears the military finds itself in a Catch 
22 situation as combat increases fearlessness about death and the 
capability for suicide. The very qualities for soldiers to be 
successful in combat are also associated with increased risk for 
suicide.
    It has been suggested that the Army's most effective suicide-
prevention strategy would be to make its troops suicide-resistant 
rather than trying to intervene once soldiers have decided to kill 
themselves. General Chiarelli stated that the Army's goal is more aimed 
at ``holistically improving the physical, mental and spiritual health 
of our soldiers and their families than solely focusing on suicide 
prevention''. Additionally, the Army has launched a five year study 
with the National Institute of Mental Health to identify possible 
suicide indicators, in order to enable soldiers most at risk to get the 
help they need. The Army has recently rewritten its Army Suicide 
Prevention pamphlet and created numerous task forces and suicide-
prevention programs. Combat veterans will undergo twice as many mental 
health screenings under the new Defense Authorization Act for 2012, 
That law requires troops who deploy to contingency operations to 
receive a mental health assessment within 120 days before deploying, 
another 90 to 180 days after returning from deployment, a third within 
a year after returning, and a fourth 18 to 30 months after returning. 
The assessments aim to identify mental health concerns such as post-
traumatic stress disorder and suicidal ideation.
    The Jewish War Veterans supports the efforts by the Department of 
Defense and the Department of Veterans Affairs to develop ways of 
intervening before veterans act on their suicidal ideation. To that end 
the JWV supports the VA's National Suicide Call Center which has 
received thousands of calls from veterans referring many to local VA 
suicide prevention coordinators for same-day or next-day service. 
Suicide among veterans id double the rate as it is in the regular 
population. It is triple the rate among Iraq and Afghanistan veterans 
who generally comprise a younger population of veterans. Therefore the 
JWV strongly supports expanding crises hotline services through the 
development and utilization of texting and social media outlets, 
technologies increasingly adopted by our younger veterans.

                             CLAIMS BACKLOG

    The VA disability claims backlog has reached nearly one million 
cases. Veterans must wait approximately a half a year to find out 
whether their claim has been processed. Veterans currently wait far too 
long to receive benefits for disability.
    At no time in recent history has so much attention been focused on 
VA's Compensation and Pension delivery mechanisms. VA is struggling 
under an outrageous backlog of claims, and facing volume of an 
unprecedented level.
    As the country struggles to cope with returning veterans from two 
wars overseas and an aging population of veterans of our previous wars, 
VA's performance has been found wanting by nearly all concerned 
stakeholders.
    VA must be authorized adequate technology and sufficient claims 
processors to be able to speed up the process. The wait must be 
reduced.
    JWV endorses coordinated, comprehensive approach to improve quality 
of claims decisions and timeliness.

    <bullet>  Claims workers. Monitor VA actions to hire / train high-
quality claims workforce.
    <bullet>  Automate technologies supporting claims. Support various 
'back office' process claims initiatives in VA ``test bed'' sites.
    <bullet>  Presumptive Service Connection. Promote distribution of 
'brown' and 'blue' water Navy ship logs as they become available for 
TMC members to apply for Agent Orange-related diseases. Support passage 
of S. 1629 (Sen. Gillibrand), the Agent Orange Equity Act of 2011, to 
establish eligibility for presumptive service-connection for 'blue 
water' Navy Vietnam-era sailors.
    <bullet>  Defend against budget-based attacks on VA claims-
processing laws and system.
    <bullet>  Monitor ongoing DOD disability review process under USAF 
Executive Agency, as established by Congress, to provide a fair re-look 
for servicemembers whose Service disability ratings were low-balled.
    <bullet>  Support modernization of the VA Schedule of Rating 
Disabilities based on current medical science

                            BLINDED VETERANS

    Blinded veterans are of special concern to JWV. The large number of 
IED explosions in Iraq and Afghanistan have led to a huge number of eye 
injuries and blinded veterans. In fact, orbital blast globe injuries, 
optic nerve injuries, and retinal injuries have been all too common. 
JWV strongly urges the congress to insure adequate funding to care for 
our thousands of veterans with eye injuries.

                               VA BUDGET

    The business of government must not be calculating how to cut from 
what we do for veterans, but rather how we can ensure what we do is 
delivered without fail and without delay.
    America may suffer, but America will not be broken so long as we 
keep faith with those who serve. We cannot look to the military and 
veterans of America for cheap savings in the short term, or we will 
surely feel the effects of the weakening of the foundations of this 
country in the long run.
    Our military and veterans made this country great, and the Jewish 
War Veterans remains dedicated to the principle that sound investment 
in a strong national defense, and fulfillment of the sacred duty to 
provide for those who bear the battle, will carry us as a country 
through whatever storms may come.

                             VA HEALTH CARE

    It is unclear whether veteran's health care funds are, in fact, 
protected from possible automatic, across the board cuts in federal 
spending which could begin in 2013. Sequestration is not covered in the 
new VA budget.

    <bullet>  With the VA health care budget of about $51 billion which 
serves 6.2 million patients, a sequestor could result in a one billion 
dollar cut. No funding shortfall should be covered by VA co-pay 
increases or by denying care to any category of veteran.
    <bullet>  Sustain VA advance health care appropriations to ensure 
fully-funded access to care for returning Iraq and Afghanistan 
veterans, and veterans of all conflicts.
    <bullet>  Urge investment, training and cultural awareness in the 
VA health system of the unique health needs of women veterans. Ensure 
full implementation of all VA Caregivers Law (P.L. 111-163) provisions, 
including those supporting women veterans.
    <bullet>  Extend the VA Caregivers Act to full-time Caregivers of 
catastrophically disabled veterans of conflicts before Sept. 11, 2011
    <bullet>  Support programs and funding to expand / improve care, 
rehabilitation and research for veterans suffering from PTSD / TBI. 
Increase behavioral health staff and resources including outreach to 
address rising suicide rate in veterans
    <bullet>  Oppose fee hikes for currently enrolled veterans in all 
categories.
    <bullet>  Urge completion of VA strategic plan for rural veteran 
access to care and services
    <bullet>  Support further collaboration of DoD - VA to achieve real 
``seamless transition'' for injured, ill and wounded warriors as well 
as other service members and veterans transiting the two systems; 
preserve integrity and access to both systems for dually eligible 
members.
    <bullet>  Enact technical amendment to establish CHAMPVA 
entitlement for adult children of survivors eligible for CHAMPVA as 
required in the National Health Care Reform Act.
    <bullet>  Support passage of OIF / OEF 'burn pit' registry and 
other toxic exposure registries as necessary to track long-term health 
effects of deployments in Iraq and Afghanistan
    <bullet>  Expand VA research including research into the etiology, 
diagnosis and treatment of gastrointestinal and respiratory syndromes 
that are increasing among OIF / OEF veterans
    <bullet>  Support research on the long-term health of veterans' 
progeny
    <bullet>  Urge passage of corrective legislation to authorize 
Medicare / Medicaid reimbursement to State Veterans' Homes to offset 
cost of care.

                             LONG TERM CARE

    As the VA care shift from an inpatient to an outpatient system, VA 
must ensure the needs of our aging veteran population are being met.
    JWV believes that VA should take its responsibility to America's 
aging veterans seriously and provide the care mandated by Congress. 
Congress should do its part and provide adequate funding to VA to 
implement its mandates.
    JWV recommends Congress provide designated funding for Long-Term 
Services (i.e. staffing, capacity, and program development).

                AGENT ORANGE BENEFITS EXPANDED TO OTHERS

    The Department of Veterans Affairs refuses to recognize that men 
and women who served on ships off the coast of Vietnam and other sites 
in Southeast Asia were exposed to Agent Orange as well as other toxins.
    The Department's refusal to recognize that these service members 
were exposed by air currents, polluted drinking water, handling toxin 
tainted items such as clothing, airframes, etc. The main reason for the 
Department's stance appears to be monetary rather than scientific or 
compassionate. The men and women suffering from the results of toxic 
poisoning arising out of their military service are now being denied 
the medical services they desperately require because of the stance by 
the Department of Veterans Affairs.
    Therefore, the Jewish War Veterans of the USA calls upon Congress 
to designate any veteran who served anywhere proximate to where any 
toxin was used manufactured or distributed to be presumptively eligible 
for services and benefits deemed a disabled veteran.

                    ENDING HOMELESSNESS FOR VETERANS

    Two years ago, VA Secretary Eric Shinseki announced VA's commitment 
to a five-year plan to end veteran homelessness. Committed to the ideal 
that ``no one who has served this nation as veterans should ever be 
living on the streets,'' Shinseki unveiled a multi-billion dollar plan 
that seeks to understand, end and prevent future homelessness. 
According to figures released this summer by VA, the average number of 
veterans who are homeless on any given night has dropped from over 
131,000 in 2009 to 75,700 in June of 2010. This represents an important 
and commendable first step, but we cannot let up on this effort as we 
begin to address the most difficult and entrenched cohort of veterans 
within the homeless population. These figures clearly show the approach 
is working at reducing homeless numbers, so we must ensure these 
efforts continue until we can end the national embarrassment that 
created a scenario where nearly one of every four homeless is a veteran 
who once served in the Armed Forces.
    It appears that today there are at least 150,000 Iraq and 
Afghanistan veterans homeless or in programs aimed at keeping them off 
the streets.
    The Department of Veterans Affairs had stated that this number has 
tripled since 2006, and that 70% of these veterans have psychological 
problems because of their combat exposure, and 13% of these homeless 
veterans are women.
    Therefore, the Jewish War Veterans of the USA demands that the 
Department of Veterans Affairs and State governments immediately take 
all steps necessary to provide services to transition these homeless 
veterans back into society.

                  OPPOSITION TO TRICARE COST INCREASES

    The Department of Defense (DoD) seeks increases to TRICARE costs 
for military retirees. JWV members are strongly opposed to DoD's 
proposals concerning TRICARE fee increases. This is a powerful moral 
commitment that has been made to our military personnel that must not 
be broken. DoD has failed to keep faith with military personnel.
    Those who wear the uniform of their country for twenty or more 
years are, for all practical purposes, enrolled in a 20- to 30-year 
pre-payment plan that they must complete to earn lifetime health 
coverage. In this regard, military retirees and their families pay 
enormous ``up-front'' premiums for such coverage through decades of 
service and sacrifice. Once that pre-payment is already rendered, the 
government cannot simply ignore it and focus only on post-service cash 
payments - as if the past service, sacrifice, and commitments had no 
value.
    DoD and the nation - as good-faith employers of the trusting 
members from whom they demand such extraordinary commitment and 
sacrifice - have a reciprocal health care obligation to retired service 
members and their families and survivors that far exceeds any civilian 
employer's.
    JWV is strongly opposed to any increases whatsoever in TRICARE 
costs for career military personnel. Only Congress can now preserve 
TRICARE benefits.

                         HEALTHCARE DISPARITIES

    The Department of Veterans Affairs Center for Minority Veterans 
Advisory Panel has repeatedly identified a serious disparity between 
the quality of services made available to female and minority veterans 
as compared to all other veterans.
    The National Institute of Health has identified this disparity of 
services as the number three issue among its top five priorities at the 
Department of Veteran Affairs. This pattern of a lower quality of 
health services for the poor, disadvantaged, female and minority ethnic 
and racial groups equates to higher levels of morbidity and mortality. 
The Jewish War Veterans of the USA finds such disparity unconscionable 
and inexcusable.
    Therefore, the Jewish War Veterans of the USA demands that Congress 
and the Department of Veterans Affairs immediately take any and all 
steps necessary to close this disparity of services.

               CORRECT THE SURVIVOR BENEFIT PROGRAM (SBP)

    Survivors of military retirees who die of service-connected causes 
and who paid into SBP, and survivors killed in active-duty, should 
receive both SBP and DIC (Dependency and Indemnity Compensation) 
benefits without the current dollar for dollar offset. JWV strongly 
supports legislation to end this offset.
    JWV strongly supports HR 178, The Military Surviving Spouses Equity 
Act, which would correct this inequity.

                                MIA/POW

    JWV has always been an ardent, active supporter of the National 
League of Families of American Prisoners and Missing in Southeast Asia. 
JWV will always remember those who are still unaccounted for and their 
families. We fly the MIA-POW flag in the lobby of our headquarters and 
place that flag in front of our meeting rooms.
    JWV specifically advocates adequate funding for the Joint Prisoners 
of War, Missing in Action Accounting Command (JPAC) and the continued 
accounting for all those still missing from the Vietnam conflict until 
each and everyone is accounted for.

                   PROTECT EARNED VETERANS' BENEFITS

    <bullet>  Promote public and political recognition that veterans' 
benefits are earned through service and sacrifice in defense of the 
nation and are not ``entitlement'' or ``social welfare'' programs
    <bullet>  Oppose deficit-driven political decisions that would lump 
earned veterans' benefits with unrelated civilian entitlement programs
    <bullet>  Reject political pandering that would ask veterans to do 
their ``fair share'' in overcoming national economic woes
    <bullet>  Support final passage of the Honor America's Guard-
Reserve Retirees Act (S.491 / H.R. 1025) to establish that career 
members of the Guard and Reserves who are entitled to a reserve 
pension, TRICARE and earned veterans' benefits, but never served on 
Title 10 Federal active duty, are ``veterans of the Armed Forces'' 
under the law.

     UPGRADE VETERANS' EMPLOYMENT, EDUCATION AND TRAINING PROGRAMS

    <bullet>  Monitor implementation of the ``VOW to Hire Heroes Act of 
2011,'' which upgrades transition support services, employment 
assistance, and targeted employment training assistance for military 
men and women and veterans.
    <bullet>  Support other initiatives for employers to recruit, hire 
and retain veterans including returning veterans of the Guard and 
Reserve.
    <bullet>  Vocational Rehabilitation and Employment (VRE) benefits. 
Upgrade VRE to ensure parity with P911 GI Bill by establishing a cost-
of-living (housing) stipend.
    <bullet>  Support VA plan to reduce / eliminate veteran 
homelessness
    <bullet>  Survivors and Dependents Educational Assistance. 
Authorize Survivors of OIF / OEF Post-9/11 GI Bill benefits (Chap. 33, 
38 USC), the same benefit available to their dependent children.
    <bullet>  Raise DEA (Chap. 35) rates for pre-11 Sept. 2001 
Survivors to match the Montgomery GI Bill; establish a housing stipend 
for DEA.
    <bullet>  Support legislation that promotes veterans' success in 
their use of GI Bill benefits; upgrade 'consumer education' resources 
for military students and student veterans; demand greater transparency 
and oversight of all GI Bill programs including tracking outcome 
metrics of all public, private, and proprietary programs
    <bullet>  Authorize transfer-of-benefits under the P911 GI Bill 
from catastrophically disabled veterans to their full-time Caregivers 
in cases where a transfer action did not occur prior to the veterans' 
medical discharge or retirement
    <bullet>  Basic Reserve GI Bill benefits. Urge proportional 
upgrades to Title 10 Reserve GI Bill program to keep pace with cost of 
education.
    <bullet>  GI Bill Integration for 21st Century Force. Urge hearings 
for a unified architecture for all GI Bill programs for active duty, 
Guard & Reserve service members under the principle of awarding 
benefits according to the length and type of duty performed.

STRENGTHEN LEGAL / FINANCIAL PROTECTIONS FOR MILITARY FAMILIES
    <bullet>  Monitor Congressionally-directed 3-year reemployment 
rights pilot project for Guard - Reserve Federal workers under the 
Office of Special Counsel. Arrange for periodic updates for TMC with 
the OSC.
    <bullet>  Establish employment and reemployment rights under the 
USERRA for Transportation Security Administration (TSA) workers who are 
members of the Guard and Reserve
    <bullet>  Authorize veterans' preference appeal rights for veterans 
in the TSA
    <bullet>  Ensure implementation of upgrades to Servicemembers' 
Civil Relief Act (SCRA) protections regarding telephone service 
contracts, residential and motor vehicle lease termination fees, and 
enforcement by U.S. Attorney General of 'right of private action'.
    <bullet>  Review and endorse appropriate provisions in a Dept. of 
Justice legislative package (Sept. 2011) submitted to Congress that 
would strengthen the USERRA and SCRA.
    <bullet>  Strengthen SCRA coverage for military spouses and 
families

BUSINESS CREDITS FOR FIRMS THAT HIRE VETERANS
    The percent of veterans unemployed and underemployed is greater 
than that of the general population.
    There is a generalized sense that the civilian employers do not 
seek out nor select otherwise qualified candidates because they are 
veterans, and businesses that reach out to the veterans' population 
deserve to be rewarded for their efforts.
    Therefore, the Jewish War Veterans of the USA calls upon Congress 
to enact legislation, which would give tax incentives to businesses 
that hire veterans and increased tax incentives to businesses that hire 
disabled veterans, and the Jewish War Veterans of the USA calls upon 
the states to grant recognition to military schooling and certificates 
of proficiency given by the military.
    Furthermore, the Jewish War Veterans of the USA calls upon the 
Department of Veterans Affairs to perform a study of the attitudes of 
private employers as to the veracity of the sense of animus toward 
veterans and to develop programs to reverse those prejudices if and 
where they exist.

CLARIFICATION OF MILITARY MEDICAL RECORDS
    A veteran's military records contain a plethora of information, not 
all of which is readily available to someone not familiar with the 
military shorthand and abbreviations.
    A medical professional at a Department of Veterans Affairs facility 
should be able to obtain quickly the information contained within the 
veteran's military records without the need of trying to decipher the 
entire record, and by having the military records in plain English 
available to medical professional services for the veteran would be 
improved and expedited.
    Therefore, the Jewish War Veterans of the USA requests that the 
Department of Veterans Affairs and the Department of Defense coordinate 
their efforts to make the records of all veterans understandable to 
medical professional who may need the information contained therein to 
treat the veteran.

EXPOSURE TO TOXINS
    It appears that the exposure to toxins was more wide-spread than 
currently recognized.
    This exposure includes chemical, biological and nuclear toxins, and 
the Department of Defense appears not to have revealed all the sites of 
toxic contamination.
    There are strong indications that there was chemical contamination 
at Fort McClellan as well as other installations where chemicals were 
stored.
    Therefore, the Jewish War Veterans of the USA demands that the 
Department of Defense immediately put forward a complete and accurate 
list of all sites, regardless of location, where there was any 
contamination and provide treatment and compensation to the victims of 
the contamination.

GRAVE MARKERS FOR ALL VETERANS
    The Department of Veterans Affairs offers grave markers for men and 
women killed in active service since 1990.
    The date of eligibility is arbitrary and not related to any 
specific event, and those men and women who were killed in action prior 
to the eligibility date are just as worthy as those who died after that 
date.
    Therefore, the Jewish War Veterans of the USA calls upon the 
Department of Veterans Affairs to offer to the families of those killed 
in action defending this Nation a grave marker regardless of the date 
lost.

MORTGAGE SERVERS FAILURE TO ABIDE BY THE SERVICEMEMBERS CIVIL RELIEF 
        ACT
    The Servicemembers Civil Relief Act provides very clearly defined 
rights of members of the military.
    There are a number of mortgage service providers who have moved to 
foreclose on homes owned by members of the military, both the active 
and reserve components during their deployments, in violation of the 
SCRA.
    There are a number of mortgage service providers who have over-
charged fees they allege are due, and a servicemember may lose his/her 
security clearance as a result of an illegal foreclosure by a mortgage 
service provider.
    Therefore, the Jewish War Veterans of the USA demands that the 
Department of Justice and the federal prosecutors to move vigorously 
against any mortgage service provider who violates the Servicemember 
Civil Relief Act and to send each and every one of them to trial, 
seeking restitution and fines.

VETERANS CEMETERY AT THE FORMER CLARK AIR FORCE BASE
    There is a military cemetery at the former Clark Air Force Base in 
the Republic of the Philippines which has fallen into disarray and 
disrepair.
    The United States had transferred Clark Air Force Base to the 
Philippine government, including the property upon which the military 
cemetery is located, and this military cemetery is the final resting 
place of some of America's war dead.
    This Nation has a duty to honor these men and women who died to 
protect our freedom and way of life.
    Therefore, the Jewish War Veterans of the USA requests the 
President and Congress to move forward to reacquire the land upon which 
the military cemetery lies and to maintain the cemetery in a proper and 
appropriate fashion.

SEXUAL TRAUMA OF WOMEN IN THE MILITARY
    There are more women serving in the military now than ever before. 
These women are serving in combat-like roles in dangerous areas, and 
the number of complaints of sexual harassment and sexual assault are 
increasing in alarming numbers.
    It appears that the military is not vigorously investigating and 
prosecuting the perpetrators of these crimes, and it appears that there 
is a systemic effort to downplay the problem rather than aggressively 
confront it.
    The counseling and treatment of such victims must be more than 
merely adequate but must be a top priority of the military. Many of 
these victims are separated from the military and then fall within the 
scope of services of the Department of Veterans Affairs where the level 
of services available to them varies widely across the country, often 
depending upon the priorities set by the local director.
    Therefore, the Jewish War Veterans of the USA demands that the 
Department of Defense thoroughly investigate every allegation of sexual 
harassment and sexual assault and, if found to be true, to prosecute to 
the fullest the perpetrators, regardless of rank or whether the 
perpetrators is in the military or is a contract employee.
    Furthermore, the Jewish War Veterans of the USA demands that the 
Department of Defense provide the best available treatment and 
counseling program to such victims and not to discharge them from the 
military until they are able to function within the greater society at 
the best level possible.
    The Jewish War Veterans of the USA demands that the Department of 
Veterans Affairs provides a complete array of services to such victims 
upon their discharge from the active military so that there is no break 
in services and no need for the victim to go through a period when she 
must be re-qualified and re-rated before being eligible for ongoing 
services.

DOD MISSION IN DANGEROUS TIMES
    The Department of Defense is facing large cuts in the near future. 
JWV believes this nation must maintain adequate force levels and 
adequate equipment levels. Military readiness does not come cheaply. 
Our military personnel should all have a reliable benefits package that 
will never be reduced.
    Today's active-duty service members and those who serve in the 
National Guard and Reserve components, have volunteered to stand watch 
in this nation's defense. Yet few stand watch for them. Basic benefits 
of their service, from retirement to TRICARE, are under assault. The 
defenders of the country need to be able to focus on defending this 
country. They must not worry their benefits will be pulled out from 
beneath them while they are focused on more pressing concerns such as 
terror plots, IEDs, and insurgents seeking to undermine hard-fought 
gains.
    The Congress must insure that DoD is funded to meet all its 
missions including possible overseas threats from Iran, North Korea, 
and even China.

BACK-UP TO DOD
    VA Hospitals must be adequately funded, staffed and equipped to 
perform their vital role as this nation's only back-up for DoD medical 
facilities. U.S. military personnel could possibly suffer casualties 
exceeding the capacity of the combined military medical treatment 
facilities.
    In such a case, the VA would be vital to the nation. JWV strongly 
urges the Congress to fund the VA to fully handle this potential 
workload.

CONCLUSION
    Chairman Miller and Chairwoman Murray, our great nation is still 
sending thousands of brave young men and women off to war in Iraq and 
Afghanistan. Our country must, therefore, pay for the costs involved.
    At our annual national conventions our members work diligently to 
develop our legislative priorities. Our dedicated resolutions chairman, 
PNC Michael Berman, works very diligently to develop our resolutions 
and to bring them before our convention delegates. Following further 
fine-tuning by our convention delegates, our resolutions are finalized, 
and become our legislative priorities for the coming year. We thank you 
for the opportunity to present them to you today.

                                 <F-dash>
                   Prepared Statement of Bill Lawson

    Chairman Murray, Chairman Miller and members of the Committees, I 
appreciate the opportunity to present the legislative priorities for 
2012 of Paralyzed Veterans of America (Paralyzed Veterans). Since its 
founding, Paralyzed Veterans has developed a worthy record of 
accomplishment, of which we are extremely proud. Again, this year, I 
come before you with our views on the current state of veterans' 
programs and services and recommendations for continued improvement in 
the services and benefits provided to veterans.

    BACKGROUND--Paralyzed Veterans was founded in 1946 by a small group 
of returning World War II veterans, all of whom had experienced 
catastrophic spinal cord injury and who were consigned to various 
military hospitals throughout the country. Realizing that neither the 
medical profession nor government had ever confronted the needs of such 
a population, the returning veterans decided to become their own 
advocates and to do so through a national organization.
    From the outset the founders recognized that other elements of 
society were neither willing nor prepared to address the full range of 
challenges facing individuals with a spinal cord injury, be they 
medical, social, or economic. Paralyzed Veterans' founders were 
determined to create an organization that would be governed by the 
members, themselves, and address their own unique needs. Being told 
that their life expectancy could be measured in weeks or months, these 
individuals set as their primary goal actions that would maximize the 
quality of life and opportunity for all veterans and individuals with 
spinal cord injury--it remains so today.
    To achieve its goal over the years, Paralyzed Veterans has 
established ongoing programs of research, sports, service 
representation to secure our members' and other veterans' benefits, 
advocacy in promoting the rights of all citizens with disabilities, 
architecture promoting accessibility, and communications to educate the 
public about individuals with spinal cord injury. We have also 
developed long-standing partnerships with other veterans' service 
organizations. Paralyzed Veterans, along with AMVETS, Disabled American 
Veterans, and the Veterans of Foreign Wars, co-author The Independent 
Budget--a comprehensive budget and policy document that has been 
published for 26 years.
    Today, Paralyzed Veterans is the only congressionally chartered 
veterans' service organization dedicated solely to the benefit and 
representation of veterans with spinal cord injury or disease.

    SUFFICIENT, TIMELY AND PREDICTABLE FUNDING FOR VA HEALTH CARE--As 

the country faces a difficult and uncertain fiscal future, the 
Department of Veterans Affairs (VA) likewise faces significant 
challenges ahead. Paralyzed Veterans has serious concerns about 
potential reductions in VA spending. We are especially concerned about 
steps VA has taken in recent years in order to generate resources to 
meet ever-growing demand on the VA health-care system. In fact, the FY 
2013 Budget Request and FY 2014 advance appropriation budget proposal 
released by the Administration includes ``management improvements,'' a 
popular gimmick used by previous Administrations to generate savings 
and offset the growing costs to deliver care. Unfortunately, these 
savings are often never realized leaving VA short of necessary funding 
to address ever-growing demand.
    Of even greater concern to Paralyzed Veterans is the VA's claim in 
the FY 2013 Budget Request that it was provided nearly $3.0 billion in 
excess resources in FY 2012 and more than $2.0 billion in excess 
resources in FY 2013. We question how the VA can make such a claim, 
particularly about FY 2012, when there remains fully six months in this 
current fiscal year (FY 2012). The claim of excess resources does not 
seem to match the all-too-common reports that we receive of 
understaffed facilities and unavailability of services.
    Additionally, with regards to the FY 2013 Budget Request, Paralyzed 
Veterans has serious concerns about funding provided for Major 
Construction and non-recurring maintenance. While The Independent 
Budget recommends approximately $2.7 billion for Major Construction for 
FY 2013, the Administration proposes to actually reduce funding from FY 
2012 to FY 2013. For FY 2013, the Administration recommends 
approximately $532 million, $58 million less than the amount 
appropriated for in FY 2012. We also believe that the Administration 
continues to insufficiently fund non-recurring maintenance needs. By 
underfunding the infrastructure needs of the VA, the actual ability of 
the VA health care system to provide timely, quality health care is 
jeopardized thereby placing the health of veterans themselves at risk. 
It is time for the Administration and Congress to get serious about 
funding the construction and maintenance needs of the VA.
    For FY 2013, the Administration recommends $55.7 billion for total 
Medical Care spending. The Independent Budget recommends approximately 
$57.2 billion for total medical care. In light of the VA's claims of 
excess resources, we urge Congress to remain vigilant to ensure that 
the proposed funding levels for FY 2013 are in fact sufficient to meet 
the continued growth in demand on the health care system.
    As for the specific recommendations for advance appropriations for 
FY 2014 offered by the Administration, considering our concerns about 
the funding levels provided for FY 2012 and FY 2013, we believe that 
those estimates may be insufficient to meet the continuing increase in 
demand for health care services. We are also skeptical of the 
substantial increase in funding that the Administration calls for in 
the Medical Support and Compliance account for FY 2014. Given the 
scrutiny on funding for administrative functions within the VA health 
care system, we are not certain that this projected increase truly 
reflects a wise investment in resources.
    Moreover, we have serious concerns about the significant reduction 
in funding projected for Medical Facilities in FY 2014. While we 
understand that the Administration intends to transfer approximately 
$320 million in resources and 1,080 FTE from Medical Facilities to 
Medical Services in FY 2014, this does not fully account for the 
reduction in funding. The Administration's proposal also reflects a 
plan to reduce funding for Non-Recurring Maintenance (NRM) by nearly 
$300 million as well. This substantial decrease in NRM funding 
certainly cannot be justified given the massive backlog of maintenance 
and construction projects that currently exists. This fact is even more 
troubling given the Government Accountability Offices (GAO) findings in 
its report released last year on advance appropriations that identified 
deficiencies in NRM funding. We encourage the Committee to conduct 
aggressive oversight to ensure that the Administration is not cutting 
funding in these critical areas simply as a way to drive down its 
spending projections.
    Finally, in light of the Administration's continued inability to 
determine its position with regards to sequestration, we have serious 
concerns about the fact that the VA claims to have nearly five percent 
in excess resources when it faces the prospect of up to a two percent 
reduction in funding under the rules of sequestration. We cannot 
emphasize enough the need for VA to state unequivocally that its 
programs will not be cut through sequestration. Otherwise, it is 
imperative that the Senate and House approve S. 2128 and H.R. 3895 
respectively to ensure that VA health care programs are protected from 
consideration for spending reductions.

    PROTECTION OF THE VA HEALTH CARE SYSTEM, WITH A FOCUS ON 
SPECIALIZED SERVICES--The VA is the best health care provider for 
veterans. Providing primary care and specialized health services is an 
integral component of VA's core mission and responsibility to veterans. 
Across the nation, VA is a model health care provider that has led the 
way in various areas of medical research, specialized services, and 
health care technology. In fact, the VA's specialized services are 
incomparable resources that often cannot be duplicated in the private 
sector. However, these services are often expensive, and are severely 
threatened by cost-cutting measures and the drive toward achieving 
management efficiencies.
    Over the years, the VA has earned a reputation as a leader in the 
medical field for its quality of care and innovation in both the health 
care and medical research fields. However, even with VA's advances as a 
health care provider, some political leaders and policy makers continue 
to advocate for VA enrollment restrictions, use of vouchers, or 
increased fee basis care. Such changes to the Veterans Health 
Administration (VHA) would result in moving veterans from ``veteran-
specific'' care within VA and into the private health care industry. 
Ultimately, these proposals would lead to diminution of VA health care 
services, and increased health care costs in the federal budget. 
Despite these recent calls for providing veterans with vouchers for 
private care or the expansion of fee basis care, Paralyzed Veterans 
strongly believes that VA remains the best option available for 
veterans seeking health care services.
    The VA's unique system of care is one of the nation's only health 
care systems that provide developed expertise in a broad continuum of 
care. Currently, VHA serves more than 8 million veterans, and provides 
specialized health care services that include program specific centers 
for care in the areas of spinal cord injury/disease, blind 
rehabilitation, traumatic brain injury, prosthetic services, mental 
health, and war-related poly-traumatic injuries. Such quality and 
expertise on veterans' health care cannot be adequately duplicated in 
the private sector.
    Specialized services, such as spinal cord injury care, are part of 
the core mission and responsibility of the VA. These services were 
initially developed to care for the unique health care needs of 
veterans. The provision of specialized services is vital to maintaining 
a viable VA health care system. Specialized services are part of the 
primary mission of the VA. The erosion of these services would lead to 
the degradation of the larger VA health care mission. Reductions in 
beds and staff in both VA's acute and extended care settings have been 
reported, even though Public Law 104-262, ``The Veterans' Health Care 
Eligibility Reform Act of 1996,'' mandated that VA maintain its 
capacity to provide for the special treatment and rehabilitative needs 
of veterans. In addition, Congress required that VA provide an annual 
capacity reporting requirement, to be certified or commented upon, by 
the Inspector General of the Department. Unfortunately, this basic 
reporting requirement expired in 2004.
    Furthermore, restructuring plans and moves by some to begin moving 
down the path of privatization heighten the risk not only to 
specialized services, but to the entire VA health care system. With 
growing pressure to allow veterans to seek care outside of the VA, the 
VA faces the possibility that the critical mass of patients needed to 
keep all services viable could significantly decline. All of the 
primary care support services are critical to the broader specialized 
care programs provided to veterans. If primary care services decline, 
then specialized care is also diminished.
    As VA services are catered to the needs of veterans, VHA has 
received excellent ratings from patient satisfaction surveys, and 
garnered much recognition for its national safety program. The VA's 
system of patient-centered and coordinated care helps to ensure safe 
and consistent delivery of services. Additionally, independent research 
organizations have also found VA to be the lowest cost provider when 
compared to private health care systems. Paralyzed Veterans will 
continue to oppose any efforts that place the VA health care system at 
risk of being unable to properly meet the health care demands of 
veterans, particularly veterans with spinal cord injury or dysfunction.

    LONG-TERM CARE--Paralyzed Veterans continues to be concerned about 
the lack of VA's long-term care services for veterans with spinal cord 
injury or dysfunction (SCI/D). Approximately 6,000 of our members are 
now over 65 years of age and another 7,000 are currently between 55 and 
64. These aging veterans are experiencing an increasing need for VA's 
home and community-based services and VA's specialized SCI/D nursing 
home care.
    The ability to remain in the home for many of these veterans is 
based on their ability to receive VA home and community-based services 
such as hospital based home care or respite services. For others, their 
living status and independence is based on the health of a primary 
caregiver, usually a spouse, who is also aging and may no longer be 
able to provide the level of support they once could. VA's non-
institutional long-term care services are keys to supporting aging SCI/
D veterans and their caregivers and their desires to remain home as 
they grow older.
    Unfortunately, the ability of veterans with SCI/D to access a full 
range of VA home and community-based care varies across the country. 
Waiting lists exist at almost all VA facility locations and many other 
VA facilities don't offer the full range of services mandated by the 
``Millennium Health Care Act.'' Additionally, VA program geographic 
boundaries often limit access to long-term care services provided by a 
regional VA SCI center.
    The availability of these services is necessary to support veterans 
with SCI/D and their aging caregivers in their own homes, where they 
most want to be, and at a dramatically lower cost of care to VA. 
Paralyzed Veterans requests that your Committees encourage VA to 
provide the full range of home and community-based long-term care 
services, as mandated by P.L. 106-117, the ``Veterans Millennium Health 
Care and Benefits Act of 1999,'' at each and every VA facility within 
the system.
    Regarding specialized SCI/D nursing home care, VA currently only 
provides specialized nursing home care services for veterans with SCI/D 
in four locations. Combined these four locations only provide 152 
staffed specialized nursing home care beds and they are all located 
east of the Mississippi River. While the VA CARES process called for 
additional SCI/D nursing home care beds the VA construction process has 
been slow to respond. CARES called for additional beds to be located in 
Cleveland, Ohio; Long Beach, California and in Memphis, Tennessee. Of 
those recommended sites for expansion of capacity, only Cleveland has 
been placed into service within the VA system providing long-term care 
services to SCI/D veterans. Additionally, several sites are in various 
stages of the design process for expansion of long-term care capacity, 
with Dallas, Texas being included in the funding request for Major 
Construction for FY 2013. After almost 10 years, Paralyzed Veterans is 
still pushing VA to proceed with the additional recommendations.
    Similarly, the provision of Special Monthly Compensation (SMC) and 
Aid & Attendance (A&A) benefits afford veterans with catastrophic 
disabilities the opportunity to access long-term care options that 
ordinarily may cost too much. With this in mind, we believe that the 
Committees need to address the well-established shortfall in the rates 
of Special Monthly Compensation (SMC) paid to the most severely 
disabled veterans that the VA serves. SMC represents payments for 
``quality of life'' issues, such as the loss of an eye or limb, the 
inability to naturally control bowel and bladder function, the 
inability to achieve sexual satisfaction or the need to rely on others 
for the activities of daily life like bathing, or eating. To be clear, 
given the extreme nature of the disabilities incurred by most veterans 
in receipt of SMC, we do not believe that the impact on quality of life 
can be totally compensated for; however, SMC does at least offset some 
of the loss of quality of life.
    Paralyzed Veterans believes that an increase in SMC benefits is 
essential for veterans with severe disabilities. Many severely injured 
veterans do not have the means to function independently and need 
intensive care on a daily basis. Many veterans spend more on daily 
home-based care than they are receiving in SMC benefits. This fact was 
supported by the testimony of numerous witnesses at a hearing conducted 
by the House Veterans' Affairs Subcommittee on Disability Assistance 
and Memorial Affairs in July 2009.
    Additionally, one of the most important SMC benefits to Paralyzed 
Veterans is Aid and Attendance (A&A). Paralyzed Veterans would like to 
recommend that Aid and Attendance benefits should be appropriately 
increased. Attendant care is very expensive and often the Aid and 
Attendance benefits provided to eligible veterans do not cover this 
cost. In fact, many Paralyzed Veterans members who pay for full-time 
attendant care incur costs that far exceed the amount they receive as 
SMC-Aid and Attendant beneficiaries at the R2 compensation level (the 
highest rate available). We encourage the Committees to consider 
legislation that specifically address increases to the R1 and R2 rates 
for SMC and A&A benefits soon.

    PROTECTING VETERANS BENEFITS WHILE MODERNIZING THE VA CLAIMS 
PROCESS--Paralyzed Veterans believes that VA benefits have no place in 
deficit reduction efforts. VA disability compensation is a benefit 
provided because an individual became disabled in service to the 
country. In addition, many ancillary benefits--particularly Specially 
Adapted Housing benefits, adaptive automobile assistance, and 
vocational rehabilitation--are provided to service connected disabled 
veterans. Moreover, education benefits, such as the Post-9/11 GI Bill, 
are earned through service. These benefits reflect the debt of 
gratitude this nation owes the men and women who served in uniform and 
recognize the challenges they face every day as a result of their 
service. Any attempt to reduce or modify eligibility criteria would be 
considered an abrogation of the responsibility that this nation has to 
veterans and would be wholly unacceptable. Additionally, reduction in 
funding for VA pension programs would place veterans who live on the 
financial margins to face the prospect of poverty and homelessness.
    At the same time, we must remain engaged as the VA claims process 
evolves and as the VA continues an extensive revision of the VA 
schedule of rating disabilities (VASRD) even as Congress begins to 
express interest in leaving its own mark on how the VASRD should be 
rewritten. The Veterans Benefits Administration (VBA) is currently 
engaged in the process of updating all 15 of the body systems governed 
by the VASRD. Additionally, it has committed to regularly updating the 
entire VASRD every five years. VBA indicated in testimony earlier this 
year that the review process for all 15 body systems is in various 
stages of completion, ranging from interim final rules being written to 
already having been posted for public review in the Federal Register.
    As this review process continues, Paralyzed Veterans must emphasize 
what we believe is one of the most important aspects of a revision to 
the ratings schedule--the consideration of quality of life as a 
component of a new ratings schedule. Members of Congress, the VA, and 
various stakeholders including the veterans' service organization 
community have expressed support for this idea as well. The schedule 
for rating disabilities is meant to reflect not just the average 
economic impairment but the impact of a lifetime of living with a 
disability and the everyday challenges associated with that disability.
    Paralyzed Veterans also appreciates the interest and effort that 
has been given to updating and modernizing the VA disability system in 
recent years. However, it is important to note that success in 
reforming the VA claims processing system will require the Veterans 
Benefits Administration (VBA) to institutionalize the ongoing 
transformation process at all levels to develop a work culture that 
values, measures, reports and rewards quality and accuracy over speed 
and production.
    The VBA is entering its third year of its most recent effort to 
transform an outdated, inefficient, and inadequate claims-processing 
system into a modern, automated, rules-based and paperless system. VBA 
has struggled for decades to provide timely and accurate decisions on 
claims for veterans' benefits, especially disability compensation. 
However, despite repeated prior attempts to reform the system, VBA has 
never been able to reach the goals it has set for itself. Whether VBA 
can be successful this time depends to a large extent on whether it can 
complete a cultural shift away from focusing on speed and production to 
a business culture of quality and accuracy.
    There have been some encouraging steps towards such a cultural 
shift over the past two years; however, this early progress must be 
institutionalized in order to create the long term stability needed to 
eliminate the current backlog of claims, and more importantly, prevent 
such a backlog from returning in the future. VBA must change the way it 
measures and reports the work it performs as well as the way in which 
employees are rewarded, in order to reflect the principle that quality 
and accuracy are at least as important as speed and production. 
Ensuring that decisions are correct the first time will, over time, 
increase public confidence in the VA and decrease appeals.
    One of the more positive steps that has occurred as a part of VBA's 
transformation has been the open and candid attitude of VBA's 
leadership over the past several years, particularly progress towards 
developing a new partnership between VBA and veterans' service 
organizations who assist veterans in filing claims. Veterans' service 
organizations have vast experience and expertise in claims processing, 
with local and national service officers holding power of attorney 
(POA) for hundreds of thousands of veterans and their families. We can 
make VBA's job easier by helping veterans prepare and submit better 
claims, thereby requiring less time and resources to develop and 
adjudicate them. Veterans' service organizations have been increasingly 
consulted on a number of the new initiatives underway at VBA, including 
Disability Benefit Questionnaires (DBQs), the Veterans Benefit 
Management System (VBMS), and many, but not all business process 
pilots, including the I-LAB at the Indianapolis VA Regional Office. 
Building upon these efforts, VBA must continue to reach out to its 
veterans' service organization partners, not just at central office, 
but also at each of the 57 Regional Offices.
    Ultimately, we remain hopeful that the VA may finally be making 
real progress towards meaningful reform to the claims process that will 
ensure veterans receive accurate decisions the first time. However, it 
will be incumbent upon the Committees to conduct substantive oversight 
on VBA's activities to ensure that the primary objective--accurate 
decisions the first time--is being achieved.

    INCREASE IN CHAMPVA BENEFICIARY AGE--The Civilian Health and 
Medical Program of the Department of Veterans Affairs (CHAMPVA) is a 
comprehensive health care program in which the VA shares the cost of 
covered health care services for eligible beneficiaries, including 
children up to age 21. Due to the similarity between CHAMPVA and the 
Department of Defense (DOD) TRICARE program the two are often mistaken 
for each other. However, CHAMPVA is a VA managed program whereas 
TRICARE is a health care program for active duty service members, 
military retirees and their families and survivors.
    All commercial health insurance coverage along with TRICARE has 
increased the age for covered dependents from 21 years of age to 26 
years, in accordance with the provisions of P.L. 111-148, the ``Patient 
Protection and Affordable Care Act.'' At this time the only qualified 
dependents that are not covered under a parent's health insurance 
policy up to age 26 are those of 100 percent service-connected disabled 
veterans covered under CHAMPVA.
    To address this issue legislation has been introduced in the 112th 
Congress that would increase the age for dependents covered by CHAMPVA 
to 26 years old. The House bill is H.R. 115, and its Senate companion 
is S. 490. We believe that these bills should be passed by Congress and 
quickly enacted into law to ensure that dependent children of severely 
disabled veterans are afforded the same health care protection as all 
other children.

    IMPROVE TRAVEL BENEFITS FOR CATASTROPHICALLY DISABLED VETERANS--
Currently the VA does not provide travel reimbursement for 
catastrophically disabled non-service connected veterans who are 
seeking inpatient medical care. Expanding VA's beneficiary travel 
benefit to this population of severely disabled veterans will lead to 
an increasing number of catastrophically disabled veterans receiving 
quality comprehensive care, and result in long-term cost savings for 
the VA.
    Too often, catastrophically disabled veterans choose not to travel 
to VA medical centers for care due to significant costs associated with 
their travel. When these veterans do not receive the necessary care, 
the result is often the development of far worse health conditions and 
higher medical costs. For veterans who have sustained a catastrophic 
injury like a spinal cord injury or disorder, timely and appropriate 
medical care is vital to their overall health and well-being. When 
these veterans do not receive the prescribed care, associated illnesses 
quickly manifest and create complications that often result in 
reoccurring hospitalizations and long-term, if not permanent, medical 
conditions that diminish veterans' overall quality of life and 
independence.
    It is for this reason that legislation in both the House and Senate 
Committees on Veterans' Affairs, H.R. 3687 and S. 1755, respectively, 
proposes to change Section 111 of title 38 U.S. Code to extend travel 
reimbursements for inpatient care to catastrophically disabled non-
service connected veterans who have incurred a spinal cord injury or 
disorder, visual impairment, or multiple amputations. For this 
particular population of veterans, their routine annual examinations 
often require inpatient stays, and as a result, significant travel 
costs are incurred by these veterans. Eliminating the burden of 
transportation costs as a barrier to inpatient care, will improve 
veterans' overall health and well being, as well as decrease, if not 
prevent, future costs associated with both primary and long-term 
chronic acute care. Most importantly, extending VA's travel 
reimbursement benefit to catastrophically disabled, non-service 
connected veterans will improve their access to health care and help 
support full rehabilitation.
    Paralyzed Veterans of America appreciates the opportunity to 
present our legislative priorities and concerns for the second session 
of the 112th Congress. We look forward to working with the Committees 
to ensure that sufficient, timely, and predictable resources are 
provided to the VA health care system so that eligible veterans can 
receive the care that they have earned and deserve. We also hope that 
the Committees will take the opportunity to make meaningful 
improvements to the benefits that veterans rely on.
    Chairmen Murray and Miller, I would like to thank you again for the 
opportunity to testify. I would be happy to answer any questions you 
have.

Information Required by Rule XI 2(g)(4) of the House of Representatives
    Pursuant to Rule XI 2(g)(4) of the House of Representatives, the 
following information is provided regarding federal grants and 
contracts.
                            Fiscal Year 2012
    No federal grants or contracts received.
                            Fiscal Year 2011
    Court of Appeals for Veterans Claims, administered by the Legal 
Services Corporation--National Veterans Legal Services Program-- 
$262,787.
                            Fiscal Year 2010
    Court of Appeals for Veterans Claims, administered by the Legal 
Services Corporation--National Veterans Legal Services Program-- 
$287,992.

                                 <F-dash>
                     Prepared Statement of Sam Huhn

INTRODUCTION
    Madame Chair Murray, Chairman Miller, Ranking Members Senator Burr 
and Congressman Filner, and other Members of the Committees on Veterans 
Affairs, on behalf of the Blinded Veterans Association (BVA), I express 
appreciation for this invitation to present our legislative priorities 
for 2012. BVA is the only congressionally chartered Veterans Service 
Organization exclusively dedicated to serving the needs of our Nation's 
blinded veterans and their families. The Association has worked to 
improve the lives of blinded veterans throughout the 67 years of its 
service. As more wounded service members continue to return after more 
than ten years of Operation Enduring Freedom (OEF), the recently 
terminated Operation Iraqi Freedom (OIF), and Operation New Dawn (OND), 
a new generation of seriously eye injured is being added to the decades 
of combat wounded from previous wars. It is vital that we ensure that 
these newly injured combat veterans, and all veterans from previous 
wars, have the full continuum of high-quality vision care and benefits 
they have earned from the Department of Veterans Affairs (VA) and 
through the actions of this Congress.

CENTERS OF EXCELLENCE
    The establishment of a Vision Center of Excellence (VCE) for the 
prevention, diagnosis, mitigation, treatment, and rehabilitation of 
military eye injuries was authorized by the Fiscal Year (FY) 2008 
National Defense Authorization Act (NDAA, Public Law 110-181, Section 
1623). The Hearing Center of Excellence (HCE) and Extremity Trauma and 
Amputee Center (LEIC) were established in the FY 2009 NDAA (Public Law 
110-417). Congress established these three Centers of Excellence (COEs) 
three years ago. The intent was that all three be joint initiatives of 
the Department of Defense (DoD) and VA. The overall objective was to 
improve the care of American military personnel and veterans affected 
by combat eye, hearing, and limb extremity trauma, and to improve 
clinical coordination between DoD and VA for the treatment of wounded 
service members. These three Centers are also tasked with developing 
clinical registries containing up-to-date information on the diagnosis, 
treatment, surgical procedures, and follow-up examinations for the 
injuries experienced by our nation's military personnel.
    Despite the legislative mandate to the contrary, the Defense 
Department-Veterans Affairs Centers of Excellence have generally 
struggled to meet even their start-up goals. In the case of the Hearing 
Center of Excellence and the DoD -VA Extremity Trauma and Amputee COE, 
at this time there are fewer than half a dozen employees between them 
organizationally even though DoD operates three amputee clinical 
centers.
    Former Defense Secretary Robert Gates included the three Centers as 
his second top priority in the February 2010 Quadrennial Defense Report 
(QDR). Bureaucratic issues, governance questions, and limited budgets 
have all hindered significant progress toward the full operational 
establishment of the Vision Center of Excellence, the Hearing-Audiology 
Center of Excellence, and the Extremity Trauma and Amputee Center of 
Excellence. While we can report some progress during the past year with 
VCE now having employed a DoD Director, a VA Deputy Director, and 11 
full-time support staff, the other two Centers still lack necessary 
personnel, thus hampering their progress. They also continue waiting 
for Memos of Understanding and Operational Agreements. These three 
Defense Centers of Excellence now face additional major challenges in 
meeting their mandated objectives without strong governance oversight 
and sufficient funding levels.
    DoD and VA Information Technology, along with contractor 
assistance, have developed the Defense Veterans Eye Injury and Vision 
Registry (DVEIVR) as the very first clinical electronic health registry 
having the ability to exchange with VA providers all eye-injury 
clinical notes, diagnostic records, and surgical records from the 
battlefield. DVEIVR was tested this past year and began extracting 
information from the Joint Trauma Tracking Registry (JTTR) and Armed 
Forces Health Surveillance Center on vision injured. During the next 
six months DVEIVR will enter into its second stage of the pilot testing 
of data exchange. Later, information technology data extractors will 
take approximately 59,000 records of eye-injured personnel in Military 
Treatment Facilities (MTFs) and VA Medical Centers (VAMCs.) The data 
extractors will then securely download them into the DVEIVR in the next 
several months. Despite this plan, cuts to DoD Information Technology 
could slow or even stop this joint effort.
    BVA requests that Congress appropriate $10 million for the VCE 
operations budget FY 2013 and it require DoD and the VA Veterans Health 
Administration (VHA) to report quarterly on their functional plans for 
DVEIVR. BVA also requests status updates for HCE and LEIC. We believe 
that within the framework of VCE and DVEIVR, Seamless Transition of eye 
care and vision rehabilitation services, as well as veteran and family 
education, can be developed and refined to improve long-term care of 
veterans.

SEAMLESS TRANSITION
    During the past three years, BVA has worked with Members of these 
VA Committees, in addition to both the House Armed Services Committee 
(HASC) and Senate Armed Services Committee (SAC). We have explained the 
need to hold both DoD and VA jointly accountable for the many 
organizational problems associated with the Seamless Transition process 
that have so much affected the battle eye-injured and those with visual 
system dysfunction complications associated with Traumatic Brain Injury 
(TBI). VA last reported that DoD had the ICD-9 diagnostic code 
information for 58,000 eye-injured service members and that VA had it 
for 46,000. Within those numbers 16 percent of all evacuated wounded 
had sustained eye trauma. Specific numbers from December 2010 data are 
as follows:

    <bullet>  Department of Veterans Affairs 46,000*
    <bullet>  DoD Vision Center Excellence 58,000
    <bullet>  Optic nerve injury 1,200
    <bullet>  Retinal injuries 8,441
    <bullet>  Chemical/ thermal burns 4,294
    <bullet>  Orbital blast injuries globe 4,970
        *Includes mild, moderate, severe eye injuries. \1\
---------------------------------------------------------------------------
    \1\ ``Analysis of VA Health Care Utilization Among OEF and OIF 
Veterans'' Office VA Public Health and Enviromental Hazards Cumulative 
Data from 1st Quarter 2002 to 4th Quarter 2010

    Of the eye injured, 2,089 are reported by VHA to have a diagnosis 
of low vision and 190 have been blinded, requiring treatment for both 
groups at one of the 12 then existing VA Blind Rehabilitation Centers 
(BRCs), or at low-vision clinics. Combat blinded veterans often suffer 
from multiple traumas that include TBI, amputations, neuro-sensory 
losses, PTSD (found in 44 percent of TBI patients), pain management, 
and depression (affecting 22 percent of those diagnosed with TBI). The 
Defense and Veterans Brain Injury Center (DVBIC) reports that an 
analysis of the first 433 TBI-wounded found that 19 percent had 
concomitant amputation of an extremity. Mild TBI was found in 44 
percent of these 433 patients and 56 percent were diagnosed with 
moderate-to-severe TBI. Some 12 percent of those with moderate to 
severe TBI had penetrating brain trauma. \2\
---------------------------------------------------------------------------
    \2\ ``Pain and Combat Injuries in Soldiers from OIF and OEF,'' 
Journal of Rehabilitation Research & Development 44 (November 2, 2007): 
179-94.
---------------------------------------------------------------------------
IED BLAST SURVIVAL
    Improvised Explosive Device (IED) survivors face challenges that 
range from the minor to the monumental: fractures, amputations, 
disfigurement, sensory deficits, cognitive and motor impairments, 
dysphagia, emboli and stroke, headaches, personality changes, visual 
and auditory disturbances, altered affect, hypersensitivities and 
dulled judgment. \5\ The mortality from blast violence has been reduced 
by rapid medical interventions but blast injuries, by their nature, 
usually include eye, ear and brain trauma. The resulting trauma is 
sufficiently great that service members returning home will need years 
of neurological, psychological, otolaryngological, and ophthalmologic 
follow-up.
    ``The majority of soldiers we saw were injured by a blast of some 
sort, rather than, for example, a gunshot wound,'' said Prem S. 
Subramanian, MD, PhD. Dr. Subramanian, now an associate professor of 
neuro-ophthalmology at Wilmer Eye Institute, spent several years on 
staff at Walter Reed Medical Center in Washington, D.C., where he 
managed many polytrauma patients who had sustained serious head and eye 
combat injuries in Iraq or Afghanistan.
    Stop the bleeding, keep them breathing. For troops who sustain 
multiple injuries, this is a sober logic that governs the sequence of 
interventions. ``In combat theater, surgeons and medics apply the 
medical priority of `Save Life, Limb and Eyesight' approach to 
prioritizing injuries, with limbs and eyes earning equal attention, and 
both of those deferring to life-threatening injuries,'' Dr. Subramanian 
said. ``If patients had a severe intra-cerebral hemorrhage, for 
example, or subdural or subarachnoid hemorrhage, causing brain 
herniation or depression of their vital signs, obviously that would 
command the greatest precedence. Many would arrive at Walter Reed in 
severe shock because of blood loss or a closed head injury.'' \3\ BVA 
urges Members of Congress to support all battlefield research funding.
---------------------------------------------------------------------------
    \3\ Eye Net Magazine, American Academy Ophthalmology Nov/Dec. 2008 
Brain Injury and Vision Loss From Blast Trauma Clinical Update: The 
Wounds of War by Dennis Smith Editor
---------------------------------------------------------------------------
    TBI vision dysfunction was noted in a New England Journal of 
Medicine study performed by doctors practicing at the Palo Alto VA 
Polytrauma Center. The doctors had studied polytrauma patients 
diagnosed with TBI who had no knowledge of an eye injury or who had not 
previously reported eye injury (eyes with open injury were excluded 
from analysis). Upon comprehensive eye exams, 43 percent of the 
polytrauma patients had a closed eye injury in at least one location. 
These data, combined with the 16 percent of those with known, or open, 
vision injuries, imply that approximately 200,000 veterans may be 
experiencing mild, moderate, or severe neurological vision dysfunction. 
\4\ & \5\
---------------------------------------------------------------------------
    \4\ Veteran Service Organizations Independent Budget VSOIB.Org, 
page 75-76 Vision Injuries of Wars
    \5\ Cockerham G. C., et al., ``Closed-eye ocular injuries in the 
wars in Iraq and Afghanistan.'' N Engl J Med 364 (June 2, 2011): 2172-
2173.
---------------------------------------------------------------------------
    Added to the number of penetrating eye injuries are the 75 percent 
of mild, moderate-to-severe TBI service members who have suffered 
visual system dysfunction. The data now come from various VA research 
findings based on veterans tested by neuro-ophthalmologists or low-
vision optometrists. With increased visual screenings, each month they 
are diagnosing higher numbers of vision impairments from blasts. 
Although TBIs rarely result in legal blindness, researchers have found 
rising numbers with TBI functional blindness and the VA Polytrauma 
Centers in Palo Alto, Richmond, and Tampa reported that 75 percent of 
all TBI patients have complained of visual symptoms as a result of 
their blast exposure. VA research has further revealed that individuals 
with a diagnosis of TBI visual system dysfunction have at least one, 
and often three, of the following associated visual disorders: 
diplopia, convergence disorder, photophobia, ocular-motor dysfunction, 
color blindness, and an inability to interpret print. \6\ One research 
study that examined 25 TBI veterans found, in the percentages 
indicated, none of the following visual complications diagnosed early 
in the normal medical evacuation process: corneal damage, 20 percent; 
cataracts, 28 percent; angle recession glaucoma, 32 percent; retinal 
injury, 22 percent. These complications place veterans at high risk of 
progressive visual impairments if not diagnosed and treated early. \7\
---------------------------------------------------------------------------
    \6\ Brahm, Karen D. Kirby, Jennine, Goodrich, Greg Ph.D. Vision 
Impairment and Dysfunction in Combat Injured Servicemembers with 
Traumatic Brain Injury, Optometry and Vision Science Volume 86, No. 7 
Pg. 817-825
    \7\ Cockerham, Glen MD. Palo Alto VAMC Poly Trauma Power Point, TBI 
Vision June 2009
---------------------------------------------------------------------------
    Service members with visual system impairment, or a penetrating eye 
injury, must be tracked, especially those of the Army National Guard or 
Army Reserve, so that their care is ensured and facilitated. The 
failure to make an early diagnosis of a TBI visual impairment and to 
appropriately treat it may prevent such veterans from performing basic 
activities of daily living, resulting in increased unemployment, 
inability to succeed in future educational programs, greater dependence 
on government assistance programs, depression, and other psychosocial 
complications.

PEER REVIEWED VISION TRAUMA RESEARCH PROGRAM (VTRP)
    BVA, along with six other Veterans Service Organizations dedicated 
to serving our Nation's veterans, are joined in supporting the 
programmatic request of continuing directed funding in FY 2013 for the 
for the Peer Reviewed Vision Trauma Research Program (VTRP) extramural 
research line item, funding requested at $10 million for core vision/
eye research. This programmatic line item, managed by DoD's 
Telemedicine and Advanced Technology Research Center (TATRC), was 
initially created by Congress in FY 2008 appropriations and funded at 
$4 million. In FY 2012, it was funded at the lowest level of $3.25 
million in the past four years, resulting in lack of funding for 
several vital deployment related eye trauma research grants. Defense-
related vision trauma research warrants a far more vigorous investment, 
especially since TATRC and DoD experts identified vital research gaps 
into restoration of sight and eye care as a priority for funding.
    Today, battlefield conditions in OEF have resulted in the 
classification of 10 percent of all eye wounds as severe global 
injuries. In addition, and more generally, among those wounded and 
evacuated, 48 percent of the eye injured have wounds of a higher level 
of penetration and include TBI-related visual system dysfunction. This 
is due to service members' exposure to the blasts when dismounting from 
vehicles and being subjected to the full force of IEDs. According to 
DoD, serious combat eye trauma from OIF and OEF was the fourth most 
common injury (58,000 injuries) and trails behind only TBI (229,106) 
PTSD (estimated at 300,000), and hearing loss (198,921). The majority 
of the wounded have also suffered from polytrauma.
    The November 2008 Medical Surveillance Defense Monthly Report from 
the Armed Forces Health Center reported that a ten-year active duty eye 
injury review from 1998 to December 2007 revealed a total of 188,828 
ocular injuries. While 63 percent of the injuries were mild, there 
were; 8,441 retinal and choroidal hemorrhage injuries (including 
retinal detachment), 686 optic nerve injuries, and 4,294 chemical and 
thermal eye burn injuries. \8\
---------------------------------------------------------------------------
    \8\ Armed Forces Surveillance Center MSMR Volume 15, No 9, November 
2008 Eye Injuries Active Duty Force 1998-2007 pg 2-4
---------------------------------------------------------------------------
    BVA demands to know why the Peer Reviewed Vision Trauma Research 
Program is the lowest funded of all of CDMRPs for battlefield research. 
Vision TBI screening programs and accompanying research are vital to 
ensuring more front line deployment screening and treatment options for 
these visual complications. Not unlike the existing specialized 
research programs on burns, blood transfusions, limb extremity, and 
spinal cord injuries, a more vigorously funded VTRP extramural research 
program will enable the exploration of new and promising research 
opportunities that directly meet battlefield needs. In light of this 
urgent need, BVA strongly disagrees with the determination of Congress 
to cut the Defense VTRP by 20 percent, down from $4 million in 2011 to 
$3.2 million for FY 2012.
    BVA requests that eye and vision trauma research within defense 
appropriations be increased for the Vision Trauma Research Program VTRP 
within the Congressionally Directed Medical Research Program (CDMRP). 
We request, for FY 2013, $10 million as a dedicated line item for 
Vision Trauma Research Program and point out that eye injury research 
provides combat surgeons with new treatments that will preserve vision. 
We also emphasize that the PRMR-Vision line item in defense 
appropriations is a dedicated funding source for extramural research 
into immediate battlefield needs. Although we were repeatedly told 
there was no funding for FY 2012 and that tough choices therefore had 
to be made, we point to a Floor statement on December 15 by Senator 
John McCain: ``Mr. President, the Armed Services Committee authorized, 
and the Congress will soon appropriate, some $290 million for research 
into post-traumatic stress disorder, prosthetics, blast injury, and 
psychological health. These are critical to improving actual 
battlefield medicine. Yet, once again, the appropriators inserted 
unrequested funding for medical research, this time to the tune of $600 
million. Let me remind my colleagues that these unrequested projects 
are funded at the expense of other military priorities.''
    This type of eye trauma research for wounded warriors is not 
conducted by the National Eye Institute (NEI) within the National 
Institutes of Health (NIH) and is not funded by VA or other agencies. 
DoD engages representatives of VA and NEI in a programmatic review of 
the vision trauma research grants it receives. Each year, dozens of eye 
trauma research grants cannot be funded because of the limit funded in 
CDMRP. Despite the identification by TATRC of the urgent need to fill 
the vision trauma battlefield research gaps in both eye trauma and TBI 
vision programmatic research, Congress substantially reduced vision 
funding for FY 2012. \9\ Although the VCE Director reviews defense 
vision trauma research grants that can facilitate data-analyzed 
documentation of the findings and the publication of combat 
translational clinical plans to improve both acute eye injury care and 
the long-term vision rehabilitation outcomes, VCE has no internal DoD 
research funding.
---------------------------------------------------------------------------
    \9\ ``Description of Research Gap Power Point `Inadequate War 
Related Vision Trauma Research' DoD PP Nov 2010
---------------------------------------------------------------------------
    We urge members of congress to review the GAO Report GAO-12-342SP, 
Section 14, 2012. The majority of federal funding for health research 
and related activities is spent by the National Institutes of Health 
(NIH), within the Department of Health and Human Services (HHS), the 
Department of Defense (DOD), and the Department of Veterans Affairs 
(VA). In fiscal year 2010, NIH, DOD, and VA obligated about $40 
billion, $1.3 billion, and $563 million, respectively, for activities 
related to health research. \10\ While other federal funds may provide 
research to wide variety of medical conditions listed in the CDMRP, 
battlefield deployment research should be considered vital to DoD 
budgets and taken into strong consideration with traumatic injury 
research programs receiving priority funding to save life, limb and eye 
sight.
---------------------------------------------------------------------------
    \10\ ``Opportunities to Reduce Duplication, Overlap, and 
Fragmentation, Achieve Savings, and Enhance Revenue'' GAO12-342SP Feb 
28, 2012 Section 14, Health Research Funding, Annual Report
---------------------------------------------------------------------------
DoD-VA HEARING CENTER OF EXCELLENCE AND RESEARCH
    Noise-Induced Hearing Loss and Tinnitus. During present-day combat, 
a single exposure to the impulse noise of an IED can cause immediate 
tinnitus and hearing damage. Nevertheless, rarely do Members of these 
Committees receive testimony regarding the third most common injury 
from the wars. The figure now stands at 198,921 for OIF and OEF service 
members with service-connected hearing loss. Another 214,428 have been 
rated for tinnitus. \11\
---------------------------------------------------------------------------
    \11\ Beck, Lucille Ph.D. Chief of VA Audiology, DVA Congressional 
Briefing House Hearing Caucus Feb 8, 2012
---------------------------------------------------------------------------
    An impulse noise is a short burst of acoustic energy, which can be 
either a single burst or multiple bursts of energy. According to the 
National Institute for Occupational Safety and Health, prolonged 
exposure from sounds at 85+ decibel levels (dBA) can be damaging, 
depending on the length of exposure. At 140+ dBA, the sound pressure 
level of an IED, damage occurs instantaneously. Many common military 
operations and associated noise levels, all exceeding the 140 dBA 
threshold, occur on the battlefield, making hearing loss and tinnitus 
the number one injury from the wars. According to Air Force Director of 
HCE Colonel Mark Packer, MD, more than 233,000 active duty OIF and OEF 
service members have now documented various levels of hearing loss. 
\12\
---------------------------------------------------------------------------
    \12\ VSO Independent Budget 2012 pgs 113-114 Tinnitus and Hearing 
Loss OIF and OEF
---------------------------------------------------------------------------
    HCE has a staff of one Air Force officer assigned in San Antonio's 
Wilford Hall. There is no full-time VA staffing. While BVA appreciates 
that total funding for HCE operations is $5 million for FY 2012, there 
is a clear lack of strong oversight from the DoD-VA Health Executive 
Committee (HEC). A January 31, 2011 Government Accountability Office 
Report (11-114) on Hearing Programs found that while hearing loss is a 
major physical injury from the wars, the progress on starting a hearing 
injury registry to track and develop coordinated care between the two 
health care systems lags far behind. \13\ BVA has become increasingly 
frustrated that the two major sensory injuries from the wars, vision 
and hearing, are the least funded for research. The high numbers of 
invisible wounds that result in hearing and visual impairments, and 
that negatively affect ability to function in society, are the least 
funded when it comes to research budgets related to other injuries. BVA 
supports the Defense Health Programs (DHP) DoD request of Sensory 
Injury Research FY 2013 for $14,796,000 for hearing, vision, and gait 
injuries to meet this challenge.
---------------------------------------------------------------------------
    \13\ ``Hearing Loss Prevention: Improvements to DOD Hearing 
Conservation Programs Could Lead to Better Outcomes'' GAO-11-114 
January 31, 2011
---------------------------------------------------------------------------
    Translated into other financial terms, the government paid out 
approximately $1.1 billion in VA disability compensation for tinnitus 
in 2010. At the current rate of increase, service-connected disability 
payments to veterans with tinnitus will cost $2.26 billion annually by 
2014. While the government will spend increasing amounts to compensate 
veterans with tinnitus, its investment in hearing trauma defense 
research pales in comparison (less than 1 percent of current 
compensation payments combined). The number of veterans affected is not 
small either--as of the end of the second quarter of FY 2011, there 
were 198,921 from OIF and OEF operations with a service connected 
hearing loss.

BENEFICIARY TRAVEL FOR BLINDED VETERANS: H.R. 3687 AND S. 1755
    BVA thanks Congressman Michaud, and Senator Tester for introducing 
legislation for disabled SCI and blinded veterans who are currently 
ineligible for travel benefits, thus assisting low income and disabled 
veterans' the travel financial burdens. Veterans who must currently 
shoulder this hardship, which often involves airfare, can be 
discouraged by these costs to travel to a BRC. The average age of 
veterans attending a BRC is 67 because of the high prevalence of 
degenerative eye diseases in this age group. BVA urges that these 
travel costs be covered by the VISN from which the veteran is referred 
and not be an added burden for the disabled blinded veteran obtaining 
the crucial rehabilitation training needed to gain independence through 
VA Blind Rehabilitation Service (BRS). BVA therefore requests enactment 
of HR 3687ensuring that VHA cover such travel costs by changing Title 
38 Section 111 to ensure that VA provided public transportation costs 
for travel to special rehabilitation program.
    It makes little sense to have developed, over the past decade, an 
outstanding blind rehabilitative service, with high quality inpatient 
specialized services, only to tell low income, disabled blinded 
veterans that they must pay their own travel expenses. To put this 
dilemma in perspective, a large number of our constituents are living 
at or below the poverty line but the VA Means threshold for travel 
assistance sets $14,340 as the income mark for eligibility to receive 
the benefit. The Congressional Budget Office scored the cost that would 
result from S. 1755--$2 million for FY 2013 and $4 million each year 
thereafter to travel for admission to either a Spinal Cord Injury 
Center or a BRC. VA utilization data revealed that one in three 
veterans enrolled in VA health care was defined as either a rural 
resident or a highly rural resident. The data also indicate that 
blinded veterans in rural regions have significant financial barriers 
to traveling without utilization of public transportation.
    To elaborate on the challenges of travel without financial 
assistance, the data found that for most health characteristics 
examined, enrolled rural and highly rural veterans were similar to the 
general population of enrolled veterans. The analysis also confirmed 
that rural veterans are a slightly older and a more economically 
disadvantaged population than their urban counterparts. Twenty-seven 
percent of rural and highly rural veterans were between 55 and 64. 
Similarly, approximately twenty-five percent of all enrolled veterans 
fell into this age group. \14\ In FY 2007, rural veterans had a median 
household income of $19,632, 4 percent lower than the household income 
of urban veterans ($20,400) \15\. The median income of highly rural 
veterans showed a larger gap at $18,528, adding significant barriers to 
paying for air travel or other public transportation to enter a VA BRC 
or other rehabilitation program. More than 70 percent of highly rural 
veterans must drive more than four hours to receive tertiary care from 
VA. Additionally, states and private agencies do not operate blind 
services in rural regions. In fact, almost all private blind outpatient 
agency services are located in large urban cities. With the current 
economic problems with state budgets clearly in view, we expect further 
cuts to these social services that will bring even more challenges to 
the disabled in rural regions.
---------------------------------------------------------------------------
    \14\ Department of Veterans Affairs, Office of Rural Health, 
Demographic Characteristics of Rural Veterans Issue Brief (Summer 
2009).
    \15\ VSO IB 2013 Beneficiary Travel pg 119-120, 124-125
---------------------------------------------------------------------------
VETERANS PROGRAMS IMPROVEMENT ACT OF 2011, S. 914
    The current Special Adaptive Housing (SAH) requirement has a visual 
acuity standard of 5/200 for eligibility. The 5/200 requirement should 
be modified for the service-connected blind to 20/200 or less, or to a 
loss of peripheral visual fields to 20 degrees or less. The Veterans 
Benefits Administration testified before the VA Subcommittee on 
Economic Opportunity in June 2010, expressing support for this change 
since the 5/200 visual acuity standard is not used to deliver any other 
VBA benefits. In addition, VHA has a visual acuity standard of 20/200 
or less for legal blindness. BVA was grateful that H.R. 5290 was passed 
by the House VA Committee with full bipartisan support and then 
approved on the House Floor in September 2010. We also thank Senator 
Begich and other Members for including this legislation in Section 306 
of S. 914, the Veterans Programs Improvement Act of 2011.
    If accessible housing grants and beneficiary travel assistance is 
not allowed so that disabled veterans can live independently at home, 
the alternative high cost of institutional care in nursing homes will 
become the much less desirable alternative. According to a 2008 MetLife 
survey, the average private room charge for nursing home care was $212 
daily ($77,380 annually). For a semi-private room it was $191 ($69,715 
annually). Even assisted living center charges of $3,031 per month 
($36,372 annually) rose another 2 percent in 2008. These options are 
far more costly and considerably less attractive than for VA to provide 
adaptive housing grants for veterans to remain in their homes and 
function there with some independence. \16\ In the United States, the 
fifth most common cause of admission to nursing homes is blindness.
---------------------------------------------------------------------------
    \16\ BVA Testimony, Subcommittee on Economic Opportunity HVAC June 
2010 Hearing
---------------------------------------------------------------------------
BLIND REHABILITATION CENTERS (BRCs)
    After more than 64 years of existence and progress, VA BRCs still 
provide the most ideal environment in which to maximize the 
rehabilitation of our Nation's blinded veterans. BRCs help blinded 
veterans acquire the essential adaptive skills to overcome the many 
social and physical challenges of blindness. Only the inpatient VA BRCs 
have all of the diverse, specialized nursing staff, orthopedics, 
neurology, rehabilitative medicine, occupational and physical therapy, 
pharmacy services, and lab services to treat the complex war wounds of 
service members and veterans.
    The VHA Director of BRS must have more central control over blind 
center resources and funding levels. The full Continuum of Care model 
by VHA should ensure that both the outpatient programs and inpatient 
BRCs have adequate staffing. Some VISN directors might attempt to force 
medical centers or BRC directors to cut the staff and the BRC training 
that is inherent in the success of these highly specialized 
rehabilitation programs.
    We caution that private agencies for the blind do not have the full 
specialized nursing, physical therapy, pain management, audiology and 
speech pathology, pharmacy services, neuro-radiology support services, 
along with the subspecialty surgery specialists, to provide the 
clinical care necessary for the newly complex, polytrauma war wounded. 
The lack of electronic health care records is also a major problem when 
veterans return to DoD or VA for follow-up care. BVA requests that all 
private agencies be required to demonstrate peer reviewed quality 
outcome measurements that are a standard part of VHA BRS, and that they 
must also be accredited by either the National Accreditation Council 
for Agencies Serving the Blind and Visually Handicapped (NAC) or the 
Commission on Accreditation of Rehabilitation Facilities (CARF). Blind 
Instructors should be certified by the Academy for Certification of 
Vision Rehabilitation and Education Professionals (ACVREP). Agencies 
should also have the specialized medical staffing necessary for complex 
wounds. Additionally, no private agency should be used for newly war 
blinded service members or veterans unless it can provide clinical 
outcome studies, evidence-based practice guidelines, and joint peer-
reviewed vision research.

FUNDING VHA BRS
    BVA supports the VSO Independent Budget (IB) for FY 2013 and the 
IB's Advance Appropriations budget for FY 2014. This document was sent 
to Congress earlier this year. The section of greatest interest, 
however, and which most affects our membership, is the one dedicated to 
VA BRS. The FY 2012 budget for BRS was $126 million. For FY 2013, it 
would increase to $134 million. Advance Appropriations for FY 2014 
would bring another increase, this one to $143 million. The VA budget 
for BRS covers 13 BRCs and 45 outpatient programs.
    Currently, 50,574 blinded veterans are now enrolled in BRS with 
specialized care at those sites and within those programs. \17\ Studies 
estimate that there are 156,854 legally blinded veterans and 
epidemiological projections indicate that there are another 1,160,407 
low-vision impaired veterans in the United States. Considering the 
large number of veterans who may seek these services, ensuring that 
each VA VISN Director continues to fully fund the Blind Rehabilitation 
Clinics and BRCs is a high priority for BVA. We urge members to protect 
VHA funding special disability programs from cuts.
---------------------------------------------------------------------------
    \17\ Blind Rehabilitation Service, BR Data (VHA, October 14, 2010).
---------------------------------------------------------------------------
VISUAL IMPAIRMENT SERVICES TEAMS (VIST) AND BLIND REHABILITATION 
        OUTPATIENT SPECIALISTS (BROS)
    The mission of each Visual Impairment Service Team (VIST) program 
is to provide blinded veterans with the highest quality of blind 
rehabilitation training. To accomplish this mission, the VIST program 
has established mechanisms to maximize the identification of blinded 
veterans and to offer a review of benefits and services for which they 
are eligible. VIST Coordinators are in a unique position to provide 
comprehensive case management and Seamless Transition services to 
returning OIF/OEF service personnel for the remainder of their lives. 
They can assist not only newly blinded veterans but can also provide 
their families with timely and vital information that facilitates 
psychosocial adjustment.
    The VIST program now employs 115 full-time Coordinators and 43 who 
work part-time. VIST Coordinators nationwide serve as the critical key 
case managers. As state governments slash social services budgets, 
these actions could draw more blind and low-vision veterans into the 
system for care. Given the demographic projections of visually impaired 
and blinded veterans, BVA believes and has always maintained that any 
VA facility with 150 or more blinded veterans on its rolls should have 
a full-time VIST Coordinator. Although VISTs and BROS ensure that 
rehabilitation training occurs, some medical center directors are 
delaying for months the filling of vacant positions for these key 
personnel. We ask for stronger oversight and authority from VA BRS to 
ensure that positions are filled. We ask Congress to request a 
timetable for the BROS scholarship program that was included in S 1963 
more than a year ago.

GUIDE DOG AND SERVICE DOG POLICY
    BVA has more experience with guide dogs than most Veterans Service 
Organizations. For 67 years, BVA has worked with both VA and the 
original guide dog training programs to ensure that veterans who want a 
guide dog can obtain one. For decades, hundreds of blinded veterans 
have received guide dogs from a handful of well-known high quality 
programs that never charged a veteran to receive a dog. The demand, 
however, is now growing rapidly for expansion of this new benefit from 
VA Prosthetics so that VA would cover all the costs associated with all 
service dogs.
    When it comes to service dogs for disabled veterans, Members of 
Congress should understand that the private sector is virtually 
unregulated. There are 49 states that have no laws concerning licensure 
of service dog programs and no certification requirements for 
instructors or trainers. BVA points out that while some advocates of 
these programs attempt to use the International Association of 
Assistance Dog Partners (IAADP) or the Americans with Disabilities Act 
(ADA) as enforcement and regulatory mechanisms, the international 
service animal standards are totally voluntary and there are no clear 
federal statutory standards for the service animal programs. ADA rules 
are only about public access to facilities for the disabled with a 
marked ``service animal'' but the statute is silent on the licensing or 
certification of the service dog program.
    On the IAADP website, please note the following statement: 
``Certification is not required in the USA.'' Most states therefore 
lack programs to certify dogs if they did not go through the IAADP 
training course. The Department of Justice decided to foster ``an honor 
system,'' making the tasks the dog is trained to perform on command or 
cue to assist a disabled person the primary way to differentiate 
between a service animal and a pet rather than requiring yearly 
certification for programs. This opened the door for people to train 
their own assistance dog. Only nine service dog programs voluntarily 
cooperate with the IAADP standards while 86 programs do not participate 
in these standards. Although we hear about cost concerns regarding 
nearly everything else, we have not heard that covering all future 
costs associated with service animals. Furthermore, Physicians, Nurses, 
Occupational Therapists, and Physical Therapists also lack knowledge 
and training in this area to determine prescribing of service dog.
    All factors considered, we ask: Who within VA will ``prescribes'' 
and decide if a service dog is necessary? Will it be only the veteran 
and the service dog program? With other VA benefits, the providers must 
prescribe devices or prosthetics. What then will occur with this 
policy?
    We strongly caution Members to reassess this situation for the 
protection of disabled veterans against the potential risk of fraud and 
poor training, and to consider the potential cost to VA. BVA requests 
further consideration of the aforementioned problems. We request that 
our views be considered in any future hearings on this issue.

CONCLUSION
    On behalf of BVA, thank you for your efforts on behalf of all 
veterans and their families. We look forward to working with all 
Members of Congress in an effort to better serve our brave men and 
women who have sacrificed on the battlefield and who are now seeking 
care within the DoD and VA systems. We hope to also continue our 
dedicated service to the veterans of previous generations to whom we 
also owe our freedom. I will now gladly answer any questions you may 
have concerning our testimony.

RECOMMENDATIONS
    <bullet>  BVA endorses the VSO Independent Budget recommendation 
regarding the advance funding for veterans health care for FY 2013-
2014. We again question why medical centers often have vacant clinical 
positions while the VISNs and VHA have added administrative FTEEs.
    <bullet>  Congress must ensure full establishment and Programmatic 
Operational Management (POM) of the budget requested by DoD for FY 2013 
for the Vision Center of Excellence (VCE) and Defense Veterans Eye 
Injury Registry (DVEIR). DoD/VA staffing resources are critical to the 
success of each Center of Excellence. The Health Executive Council 
(HEC) must provide Congress with quarterly updates on all three DoD-VA 
Centers of Excellence for Vision, Hearing, and Limb Extremity Injuries.

    <bullet>  The following needed funding levels for the Centers of 
Excellence have been identified for POM for FY 2013: $5 million for the 
Defense Department-Veterans Affairs Extremity Trauma and Amputee Center 
of Excellence, $10 million for VCE, and $5 million for HCE.
    <bullet>  BVA firmly supports the position that extramural vision 
research funding through the dedicated Peer Reviewed Vision Trauma 
Research Program VTRP is critical. BVA urges that VTRP be funded at $10 
million in FY 2013 for vision/eye research.
    <bullet>  BVA requests passage of S. 914 legislation to correct the 
Special Adaptive Housing standard for legal blindness, the Veterans 
Benefits Administration must use legal standard 20/200 or less, or 20 
degrees of visual field loss or less.
    <bullet>  Beneficiary travel to VA Blind Rehabilitation Centers 
(BRCs) should be provided by amending Title 38 of U.S.C. Section 111. 
BVA requests support of S. 1755 and H.R. 3687 to cover any modes of 
commercial travel for blind or spinal cord injured disabled veterans 
for admission to inpatient rehabilitation services.
    <bullet>  VA must maintain a ``critical mass'' of capital, human, 
and technical resources to promote effective, high-quality 
rehabilitative care, especially for those returning wounded with 
complex health problems such as blindness, multiple amputations, spinal 
cord injury, or TBI with mental health problems.
    <bullet>  BVA supports FY 2013 Sensory System Injury programmatic 
request from Defense Health Program (DHP) for $14,796,000 for all 
sensory deployment injury research to meet this vital need.
    <bullet>  BVA has repeatedly requested in its annual resolutions 
that VA Information Technology be compliant with Section 508 of the 
Americans with Disabilities Act. This compliance problem has still not 
been fixed after many years. Recently, 50 percent of the IT budget to 
meet compliance was cut within VA IT. Blind VA employees and BVA Field 
Service Representatives are frequently unable to access the current VA 
system because of its lack of ADA-compliant features. We request 
oversight for compliance with this program.

 DISCLOSURE OF FEDERAL GRANTS OR CONTRACTS BLINDED VETERANS ASSOCIATION
    The Blinded Veterans Association (BVA) does not currently receive 
any money from a federal contract or grant. During the past two years, 
BVA has not entered into any federal contracts or grants for any 
federal services or governmental programs.
    BVA is a 501c (3) congressionally chartered, nonprofit membership 
organization.

                                 <F-dash>
    Prepared Statement of CMSGT (RET) USAF John R. ``Doc'' McCauslin

    Chairman Murray and Miller, on behalf of the 110,000 members of the 
Air Force Sergeants Association, I thank you for this opportunity to 
offer the views of our members on the FY 2013 priorities for the Second 
Session of the 112th Congress. This hearing will address issues 
critical to those serving and who have served our nation.
    For more than 50 years, the Air Force Sergeants Association has 
proudly represented active duty, guard, reserve, retired, and veteran 
enlisted Air Force members and their families. Your continuing effort 
toward improving the quality of their lives has made a real difference 
and our members are grateful. In this statement, I have listed several 
specific goals that we hope this committee will pursue for FY 2013 on 
behalf of current and past enlisted members and their families. The 
content of this statement reflects the views of our members as they 
have communicated them to us. As always, we are prepared to present 
more details and to discuss these issues with your staffs.
    How a nation fulfills its obligations to those who serve reflects 
its greatness. Since 1973 with the inception of the all volunteer 
force, we have continued to meet our objectives in recruiting. It is 
evident that today's treatment of the military influences our ability 
to recruit future service members, since a significant percentage of 
those wearing the uniform today come from of military families.
    It is important that this committee view America's veterans as a 
vital national resource and treasure rather than as a financial burden. 
As you deliberate on the needs of America's veterans, this Association 
is gratified to play a role in the process and will work to support 
your decisions as they best serve this nation's veterans. We believe 
this nation's response for service should be based on certain 
principles. We urge this committee to consider the following principles 
as an underlying foundation for making decisions affecting this 
nation's veterans.

                           GUIDING PRINCIPLES

    1. Veterans Have Earned a Solid Transition from Their Military 
Service Back into Society: This country owes its veterans dignified, 
transitional, and recovery assistance. This help should be provided 
simply because they faithfully served in the most lethal of 
professions. For example - America lost 36,500 in the Korean War, 
58,000 died in the Vietnam conflict; another 4,484 were lost in Iraq 
and most recently, more than 1,800 in Afghanistan.
    2. Most Veterans Are Enlisted Members: Enlisted veterans served 
with great pride and distinction. Our volunteer force has deployed over 
3.3 million servicemembers and over 900,000 have deployed more than 
once during the last eleven years. 45,000 of those who have deployed 
have Traumatic Brain Injuries (TBI). 700,000 children of our 
servicemembers have had one parent deployed during their lifetime. We 
should factor in the unique circumstances of enlisted veterans, 
especially in the area of the needs of the servicemember and their 
families once they have completed their tour of service to our country
    3. Decisions on Veterans' Funding Should be Based on Merit: Funding 
for military veterans must, of course, be based on fiscal reality and 
prudence. However, Congress and, in turn, the VA must never make 
determinations simply because ``the money is just not there'' or 
because there are now ``too many'' veterans. Funding for veterans' 
programs should be viewed as a national obligation--a ``must pay'' 
situation. If congress can vote, fund, and send our servicemembers to 
war, they need to facilitate, fund, and provide care for those who have 
returned.
    4. Remember that the Guard and Reservists are Full-fledged Veterans 
Too! In Iraq, Afghanistan, and around the world, reserve component 
members are valiantly serving their nation, ready to sacrifice their 
lives if necessary. Since September 11, 2001, record numbers have been 
called up and continue to support operations. Nearly half of U.S. 
forces that served in Iraq have been guardsmen and reservists. Without 
question, enlisted guard and reserve members are full-time players as 
part of the ``Total Force.'' Differences between reserve component 
members and the full-time force, in terms of VA programs or 
availability of services, are well overdue for review and updates.
    5. The VA Must Openly Assume the Responsibility for Treatment of 
the Maladies of War: We are grateful for VA decisions in recent years 
that show a greater willingness to judge in favor of the service 
member. The VA focus on health care conditions caused by battle should 
be on presumption and correction, not on initial refutation, delay, and 
denial. It is important that the decision to send troops into harm's 
way also involves an absolute commitment to care for any healthcare 
condition that may have resulted from that service. Many veterans call 
and write to this Association about our government's denial, waffling, 
and reluctant recognition of illnesses caused by conditions during past 
conflicts. We applaud past decisions of your committees toward 
reinforcing a commitment to unconditional care after service, and 
encourage you to do the same in the future.
    6. Taking Care of Families: Taking care of families is as essential 
as taking care of our Veterans. This is especially true for family 
members who now serve as the primary caregivers of ill or injured 
Veterans. By taking care of these family members, we honor a commitment 
made by our country to our Veterans and military members.

                   ADMINISTRATION'S FY 2013 PROPOSAL

    Proposed FY 2013 Funding: The Administration requested $140.3 
billion for VA in FY 2013; $76.3 billion for mandatory benefits like 
disability compensation and $64 billion is in discretionary funding, 
primarily for the Veterans Health Administration. These amounts 
represent a welcomed 10.5 percent increase over FY 2012 levels but 
falls roughly $4 billion short of funding levels recommend by The 
Independent Budget, a document co-authored by the VFW, AMVETS, Disabled 
American Veterans, and Paralyzed Veterans of America. AFSA endorses the 
Independent Budget because we believe this careful review of Veterans 
programs reflects a more accurate assessment of the funding VA will 
need in the coming year.
    With thousands of service members slated to be released by DoD in 
the coming months, many of them will turn to the VA for their care. 
None of these patriots should be turned away or their care delayed and 
it is imperative that VA receives a full complement of resources to 
address this shift in the nation's obligation. We strongly urge these 
committees to review the Administration's proposed funding levels and 
boost them where appropriate.
    Sequestration: Our members are concerned with the prospect of 
sequestration and how it could undermine VA funding in the coming 
years. Due to an unintended conflict in law, VA could still face a two 
percent cut in their medical care budget as a result of last year's 
budget deficit reduction agreement. Such a cut would severely impair 
the department's ability to provide the life-saving healthcare 
America's veterans have earned and deserve.
    Although assurances have been given this will not happen, 
nevertheless, this discrepancy exists and it must be resolved soon, and 
with absolute certainty. Our Veterans deserve no less. The Air Force 
Sergeants Association endorses Chairman Miller's bill, H.R. 3895, the 
``Protect VA Healthcare Act of 2012,'' and the Senate companion 
measure, S. 2128, offered by Senator Jon Tester which provides this 
clarity.
    We urge you not to delay in advancing this important legislation, 
and call on Congress as a whole to pass it as quickly as possible so 
Veterans and the department won't be left wondering when, or if the rug 
will be pulled out from underneath them.

                          VETERANS HEALTH CARE

    Wounded Warriors: Nearly 48,000 service members have been wounded 
in action over the past eleven years. Thousands of others have suffered 
service-connected illness and injuries in related support actions. As a 
nation, we have no greater responsibility than to care for our warriors 
now suffering from the maladies of war. We are pleased that the budget 
continues to show high levels of support for Wounded Warrior care. We 
hope this support never wanes.
    Continued emphasis and funding is needed for VA programs that 
address Traumatic Brain Injury (TBI) and Post-Traumatic Stress Disorder 
(PTSD), the two ``signature injuries'' of the most current conflicts. 
Oftentimes TBI and PTSD do not produce visible signs until long after 
the battle is over. Nor are they easy to treat. There is no ``one size 
fits all'' treatment and VA must research and ensure a variety of 
effective ones are readily available. At the same time, greater numbers 
of Veterans are returning from the battlefield with significant visual 
and auditory-impairments. We are concerned that VA may not have 
adequate resources to address the influx of Veterans with auditory and 
visual disabilities, and believe this area of care merits further study 
by these committees.
    Care for Women Veterans: We applaud the actions of your committees 
in recent years for championing women Veteran issues! The unique health 
care requirements of women Veterans must be addressed with a sense of 
higher urgency from Congress. According to a recent VA Fact Sheet, more 
than 1.8 of the nations 22.2 million Veterans are women. Currently, 
women make up more than 19 percent of the active duty Air Force and 
approximately 21 percent of the Air Force Reserve (Air Force Personnel 
Center). We currently have more than 214,000 women serving in the DoD 
today, many of whom served in Iraq and Afghanistan. Of those who have 
served, VA estimates that more than 40 percent have already enrolled 
for healthcare, a percentage that is expected to double in the next 20 
years. They too suffer from the same effects of battle as many of their 
fellow male service members; such as PTSD, TBI, and Wounded Warrior 
issues that come with wearing the uniform. As the number of women 
veteran's increases, VA must be funded accordingly to meet their 
specific health care needs. We have been transitioning over the years 
away from the large male population of previous wars and conflicts and 
we must absolutely make sure that we do not neglect the needs of these 
women who have volunteered to serve our country.
    Defense Centers of Excellence: VA should actively support the 
efforts of many Defense Centers of Excellence (DCOE) which have been 
created to address specific areas of military related medicine. Their 
participation with each of the individual DCOE's will contribute to the 
diagnosis and treatment of the many types of severe injuries Veterans 
are experiencing as a result of the conflicts in Iraq and Afghanistan.
    Family Caregivers: Family Caregivers provide crucial support in 
caring for Veterans and AFSA greatly appreciates the work of these 
committees in passing the ``Caregivers and Veterans Omnibus Health 
Services Act of 2010'' (P.L. 111-163), now commonly known as the 
``Caregiver Bill.'' This important piece of legislation provides a 
monthly stipend, respite care, mental and medical health care, and 
secures necessary training and certifications required for caregivers 
to meet the specific needs of injured OEF/OIF Veterans. VA recognizes 
that Family Caregivers in a home environment can enhance the health and 
well-being of Veterans under VA care. The families of these injured 
Veterans want to provide this care and the Caregiver Bill turned that 
into a reality for many. Anything we can do to further alleviate the 
burden they have accepted would be most appropriate.
    At the same time, AFSA strongly supports the full expansion of the 
caregiver program to include Veterans of other engagements. There 
should be no distinction in the sacrifices made by a severely disabled 
veteran or their family, regardless of where or when they served. The 
service of our veterans from previous wars must be honored similarly, 
and Congress must support and oversee a timely and fair implementation 
of P.L. 111-163 that provides these caregiver benefits to veterans of 
all eras.
    Support the judicious use of VA-DoD sharing arrangements: AFSA 
supports the judicious use of VA-DoD sharing arrangements involving 
network inclusion in the DoD health care program, especially when it 
includes consolidating physical examinations at the time of separation. 
It makes no sense to order a full physical exam on your retirement from 
the military and then within 30 days the VA has ordered their own 
complete physical exam with most of the same exotic and expensive 
exams. The decision to end that duplication process represents a good, 
common-sense approach that should eliminate problems of inconsistency, 
save time, and take care of veterans in a timely manner. Initiatives 
like this will save funding dollars. However, AFSA recommends that 
these committees closely monitor the collaboration process to ensure 
these sharing projects actually improve access and quality of care for 
eligible beneficiaries. DoD beneficiary participation in VA facilities 
must never endanger the scope or availability of care for traditional 
VA patients, nor should any VA-DoD sharing arrangement jeopardize 
access and/or treatment of DoD health services beneficiaries. One 
example of a successful joint sharing arrangement is the new clinic 
with ambulatory care services being in Colorado Springs, Colorado. This 
will aid the large number of veterans remaining in the area and support 
the increases in Colorado Springs as a result of BRAC initiatives. The 
VA and DoD each have a lengthy and comprehensive history of agreeing to 
work on such projects, but follow-through is lacking. We urge these 
committees to encourage joint VA-DoD efforts, but ask you to exercise 
close oversight to ensure such arrangements are implemented properly.
    Support VA Subvention: With more than 40 percent of veterans 
eligible for Medicare, VA-Medicare subvention is a very promising 
venture, and AFSA offers support for this effort. Under this plan, 
Medicare would reimburse the VA for care the VA provides to non-
disabled Medicare-eligible veterans at VA medical facilities. This 
funding method would, no doubt, enhance elderly veterans' access to VA 
health care and enhance access for many veterans.
    Other Healthcare Issues: Other Veteran's health-care issues not 
addressed in this statement but included in our Associations top 
priorities are:

    <bullet>  Limit user fees and prescription co-pay increases at VA 
medical facilities
    <bullet>  Require the VA to accept licensed civilian medical/dental 
provider prescriptions
    <bullet>  Pursue the VA to have chiropractic care where possible

                        GENERAL VETERANS ISSUES

    ``Seamless'' Transferable Medical Records - Speedier Claims 
Processing and Improved Accuracy: For many veterans, association with 
the VA begins with the claims process. Proposed increases in funding 
and manpower mentioned in the Administration's budget plan are 
admirable. The backlog for compensation and pension, education and 
appeals claims is a disgrace! At the time this testimony was prepared, 
VA's Monday Morning Workload Report showed more than 1.4 million claims 
were pending. 600,979 or 66 percent have been pending for more than 125 
days and this is unacceptable! I don't profess to be an expert here, 
but I am aware larger VSOs have already made recommendations to these 
committees in this area--changes my organization can and will support. 
One thing is clear: the record numbers of veterans generated by the 
wars in Afghanistan and Iraq underscore the importance of accelerating 
DoD and VA plans to seamlessly transfer medical information and records 
between the two federal departments. The implementation of a true, 
Virtual Lifetime Electronic Record is long overdue and a welcomed step 
into the 21st century. At the same time there needs to be greater 
emphasis on accurately processing initial claims, which would reduce 
appeals and secondary submissions. Most important, it would better 
serve the needs of Veterans who rely on the timely approval of VA 
benefits and services.
    Transition Assistance Program: The VOW To Hire Heroes Act made the 
Transition Assistance Program (TAP), an interagency workshop 
coordinated by Departments of Defense, Labor and Veterans Affairs, 
mandatory for service members to help them secure meaningful employment 
at the end of their service. We appreciate the efforts of these 
committees to make sure all separating members receive this important 
transition benefit. At the same time, AFSA is concerned with the fact 
that the content of TAP has changed very little in the last 25 years. 
We understand the Department of Labor plans to unveil a new program in 
the near future, and we encourage Members of Congress to ensure it 
provides Veterans with current information and tools they need to 
successfully transition out of the military and into the civilian 
sector. We hope the new program will place greater emphasis on the 
participation of military spouses because they too play a key role in 
the successful transition of the entire military family.
    Policy Consistency: We appreciate your committees' efforts to 
reduce the pervading feeling among veterans that our government's 
approach to providing adequate service to an ever-growing number of 
veterans is to shrink the number of patients by excluding more classes 
of veterans. Please continue to resist any effort that limits Priority 
8 veterans who deserve to have the VA option available to them--even 
though they may not be inflicted with service connected disabilities.
    Provide a Written Guarantee: Many veterans are frustrated and 
disappointed because existing programs they thought they could depend 
on have been altered or eliminated due to changing budget philosophies. 
That has created a perception among service members and veterans that 
the covenant between the nation and the military member is one-sided--
with the military member/veteran always honoring his/her obligation, 
and hoping that the government does not change the law or the benefits 
upon which they depend. We urge your committees to support a guarantee 
in writing of benefits to which veterans are legally entitled by virtue 
of their service. This would demonstrate that the government is 
prepared to be honest and consistent with its obligation to its service 
members and ``Keep America's Promise to America's Military ``
    Modification of Enhanced Per Diem for State Veterans Homes: The 
State Veterans home program continues to be the preferred provider of 
long term care for veterans providing over 30,000 beds in 140 state 
veteran's homes in all fifty states. This is over fifty percent of our 
veteran's long term population. Veterans Affairs has formed an ongoing 
partnership with state governments and the State Veterans Homes, yet it 
is essential that Congress and the VA recognize that veterans often 
need a level of care greater than what the per diem reimbursement rate 
provides. The current challenge is the enhanced per diem program that 
went into effect twenty three months ago. These homes are an excellent 
federal investment since the states provide funding for two-thirds of 
total operating costs.
    The State Home program for severely disabled veterans was approved 
by Congress in 2006 to allow veterans with disabilities rated 70 
percent or greater to have the same no-cost access to State Veterans 
Homes that they already have to VA-operated nursing homes and community 
nursing homes. Unfortunately, the new program's implementing 
regulations did not achieve the congressionally-mandated purpose of 
providing parity between State Home reimbursement rates and the 
reimbursement rates provided to private contract nursing homes. As a 
result, many State Homes that admitted severely disabled veterans 
suffered financial losses and others interested in providing services 
to these Veterans found they could not afford to provide such care. 
More importantly, many of these Veterans have been effectively 
prevented from the choice to receive their long term care at State 
Veterans Homes.
    To correct this problem, the House on October 11, 2011, voted 
unanimously to approve language authored by Representative Mike Michaud 
(D-ME) and Chairman Miller which would modify the program by allowing 
VA to enter into contracts or agreements with State Homes for the care 
of any veteran with a service-connected disability rated 70 percent or 
greater. This provision was included in H.R. 2074 which addresses 
several other veterans-related issues. Identical language was included 
in S. 914, authored by Senator Mark Begich (D-AK) and approved 
unanimously by the Senate Veterans' Affairs Committee back on June 29, 
2011. Unfortunately, the Senate has not moved any further action on 
either S. 914 or H.R. 2074, and we urge them to pass this legislation 
and resolve this longstanding problem.
    Protect VA Disability Compensation: Despite being clearly stated in 
law, veterans' disability compensation has become an easy target for 
former spouses and lawyers seeking money. This has been allowed to 
transpire despite the fact the law states that veterans' benefits 
``shall not be liable to attachment, levy, or seizure by or under any 
legal or equitable process, whatever, either before or after receipt by 
the beneficiary.'' Perhaps, enactment is needed to protect the 
probation against court-orders or state legislation that would award VA 
disability dollars to former spouses or third parties in divorce 
settlements.
    Homeless Veterans: Ending homelessness among Veterans is a top 
priority for the President, VA Secretary Shinseki, many other federal 
agencies and this Association. Thanks to your efforts, VA now has the 
resources to attack this problem head-on and they appear to be 
succeeding. Recent figures show homelessness among the nation's 
Veterans declined by about 12 percent during a one-year period ending 
January 2011, from 76,000 to 67,500. This news is encouraging but 
67,500 veterans without a place to call home are still way too many. Of 
particular concern: homeless Veterans, men and women, that have young 
children because we understand their numbers are increasing. We urge 
your continued support for VA's homeless assistance programs like 
vouchers for housing and the National Call Center for Homeless Veterans 
hotline which are critical to finally ending homelessness among 
Veterans. No one who has served this Nation in uniform should ever have 
to be living on the streets.
    Legitimate, Sincere Veterans Preference: Commendable moves in 
recent years by VA and the Department of Labor have enhanced the job 
preferences available to Veterans. However, we need to ensure that OPM 
guidelines that allow selective hiring practices within the federal 
government are removed. Some Veteran applications are never even 
considered for employment in the federal government, due to allowed 
restrictive qualification wording and narrowed hiring practices. We 
continue to urge your committees to support any improvement that will 
put ``teeth'' into such programs so that those who have served have a 
``leg up'' when transitioning back into the civilian workforce. One 
example of giving veterans a preference is the recently created 
Civilian Expeditionary Workforce (CEW). By meeting the goals of DoD and 
the administration, we can at the same time hire qualified veterans who 
have already gained the experience from the vast deployments in 
previous years who are willing to serve their country in this capacity 
as a full time government employee.
    Concurrent Receipt: AFSA continues its advocacy for legislation 
that provides concurrent receipt of military retired pay and veterans' 
disability compensation for all disabled retirees without offset. Under 
current statues, retirees with 50 percent or greater disabilities will 
receive their full retired pay and VA disability in FY 2014. Congress 
should now focus on eliminating this unjust offset for veterans with 
lesser disabilities and in particular, individuals who were medically 
retired with less than 20 years of service due to a service-connected 
illness or injury. They are not treated equally!
    Support of Survivors: With current military deployments and 
increasing casualties, it is imperative that we plan to properly take 
care of those who may be left behind if a military member makes the 
ultimate sacrifice. We commend these committees for previous 
legislation, which allowed retention of Dependency and Indemnity 
Compensation (DIC), burial entitlements, and VA home loan eligibility 
for surviving spouses who remarry after age 57. However, we strongly 
recommend the age-57 DIC remarriage provision be reduced to age 55 to 
make it consistent with all other federal survivor benefit programs.
    We also endorse the view that surviving spouses with military 
Survivor Benefit Plan (SBP) annuities should be able to concurrently 
receive earned SBP benefits and DIC payments related to their sponsor's 
service-connected death. We want to thank Congressman Joe Wilson, (R-
SC) for introducing H.R. 178 and Senator Bill Nelson, (D-FL) for 
introducing S. 260 which would repeal the SBP-DIC offset. We also thank 
the 177 and 49 cosponsors (respectively) who are co-sponsoring this 
important legislation.
    As you know, the fiscal year 2008 NDAA (Public Law 110-181) created 
the Special Survivor Indemnity Allowance (SSIA) for surviving spouses' 
whose military Survivor Benefit Plan (SBP) annuities were being offset, 
in whole or in part, by Dependency and Indemnity Compensation (DIC) 
which are paid by the Department of Veterans Affairs. It also applies 
to the widows of members who died on active duty whose SBP annuity is 
partially or fully offset by their DIC. Congress approved this 
legislation in lieu of repealing the SBP/DIC offset.
    SSIA began as a $50 monthly payment on October 1, 2008, and was 
scheduled to increase by $10 each year through 2013 when the benefit 
expired. In 2009, a provision in the Family Smoking Prevention and 
Tobacco Control Act (Public Law No: 111-31) extended the allowance 
another five years and increased projected monthly rates. Provisions in 
the House version of FY 2012 NDAA would have extended the benefit 
through 2021, and raise monthly rates slightly through FY 2017, but the 
provision was dropped in Joint Conference. Needless to say we were 
disappointed with this action and continue to call on Members of 
Congress to eliminate this unjust offset altogether.
    Finally, it is time to end the government's practice of 
electronically withdrawing the last paycheck of military retirees upon 
their death. Automatically withdrawing these funds can inadvertently 
cause essential payments to bounce and place great financial strain on 
a beneficiary already faced with the prospect of additional costs 
associated with their loved one's death. Congressman Walter Jones, (R-
NC) introduced the ``Military Retiree Survivor Comfort Act,'' H.R. 493, 
in January 2011 which would allow survivors to retain the full month's 
retired pay for any month the retiree was alive for at least 24 hours. 
To offset the cost associated with his proposal, a provision of the 
bill would delay the first Survivor Benefit Plan (SBP) annuity payment 
until the month after the retiree dies. Congress passed a similar law 
in 1996 allowing surviving spouses to retain Veterans disability and VA 
pension payments issued for the month of the veteran's death. AFSA 
strongly believes military retired pay should be treated no 
differently.
    Veterans Status for Certain Reserve Component Members: AFSA 
supports full veteran status for Reserve component members with 20 
years or more of service, who do not otherwise qualify for Veterans 
status under current law. The House on October 21, 2011, passed H.R. 
1025, which was introduced by Representative Tim Walz (D-MN). We 
greatly appreciate Senator Mark Pryor's leadership for introducing a 
Senate companion measure, S. 491, the ``Honor American's Guard-Reserve 
Retirees.'' We urge the Senate Veterans Affairs Committee to approve 
this legislation which would grant this status to these deserving 
individuals that are ``veterans'' in every sense of the word!
    National Cemeteries: VA's National Cemetery Administration (NCA) is 
responsible for providing final honors to many of our Nation Veterans. 
Thanks to your efforts, many expansion projects and construction 
projects have been completed, are underway or are being planned to 
ensure everyone who served this Nation in uniform has a final resting 
place. The NCA has come under fire recently due to a series of audits 
that revealed over 240 mismarked or unmarked graves and eight veterans 
or their loved ones buried in the wrong place at 13 cemeteries 
nationwide. I want to publicly thank Rep. Jon Runyan (R-NJ), Chairman 
of the Subcommittee on Disability Assistance and Memorial Affairs, for 
holding a recent oversight hearing on the matter which stressed the 
importance of fixing these mistakes at National Cemeteries. As he 
correctly noted at that hearing, ``We have a solemn obligation to 
cherish the memory and heroic actions of our veterans by holding 
ourselves and our organizations to the highest of standards.'' It is 
our mutual duty to honor our fallen heroes as best as we know how, with 
all the resources we can muster, and these oversight hearings should 
continue until each of these problems are resolved.
    Clark Veterans Cemetery: The United States left Clark Air Force 
Base in the Philippines in 1991 following destruction of the base by 
the Mount Pinatubo vocanic eruption and the collapse of base agreement 
negotiations. No provisions were made for the perpetual care of its 
military post cemetery, known as the Clark Veterans Cemetery (CVC).
    The CVC was established in 1948 by moving remains and head stones 
of over 7,000 graves from several older U.S. military base cemeteries 
located throughout the Philippines to include Fort McKinley in Manila, 
Sangley Point Naval Station and two cemeteries located on Fort 
Stotsenberg. Over 5,000 alone were disinterred from the old Fort 
McKinley cemetery to make room for a new World War II American Military 
Cemetery and Memorial on the same site, forever linking the Clark and 
new Manila Cemetery. The Air Force continued military burials at Clark 
until November 1991. The CVC then fell into disrepair with overgrown 
vegetation, vandalism, ash damage and looting. In 1994 the local VFW 
Post restored the cemetery as best they could and began a program of 
maintenance as well as burial of our veterans. Today, over 8,600 
American veterans and their families are interred, veterans who served 
in every war since the Civil War, to include the Iraq War. It is an 
abandoned and forgotten American Military Cemetery with over a hundred 
years of history as rich as any other of our nation's military 
cemeteries.
    Recently, Rep. Frank Guinta (R-NH) introduced H.R.4168, the 
``Caring for the Fallen Act'' which would designate the appropriate 
entity, the American Battlefields Monuments Commission (ABMC), to care 
for the Clark Veterans Cemetery. ABMC manages the Manila American 
Cemetery and Cabanatuan POW Memorial, both a short equidistant drive 
from the CVC. ABMC is our nation's professional organization for the 
care and administration of all of our overseas memorials and 
cemeteries. Ironically, the Air Force turned over the Clark cemetery 
records to the ABMC in 1993, but not the cemetery. The appropriation 
and authorization that created CVC in 1948 is the same one that created 
the ABMC cemetery in Manila. The two are eternally linked. The ABMC 
site in Manila would not exist today if those previously interred were 
not moved to Clark. Clark itself is historic with a Monument to 1,055 
Unknown Dead from the 1900-1906 Spanish and Philippine American Wars. 
The ABMC is the logical manager on the basis of history, cost, 
competence, and law; 36 U.S.C. 21 already provides the authority and 
wide latitude. ABMC does not own its land; there are no sovereignty or 
control issues. We are told the Philippine government is receptive to a 
lease or similar usufruct type agreement.
    The ``Warrior Ethos'' embedded in the character of our uniformed 
men and women demands that we never forget the sacrifices of those who 
have served this Nation. ABMC says a ``decision rests with the 
Congress'' and we hope you will act favorably on H.R. 4168 to help 
ensure the Veterans interred at Clark Veterans Cemetery are properly 
honored for generations to come.
    POW/MIAs: AFSA remains committed to provide the fullest possible 
accounting of missing military members from all past and future 
military actions, and promotes international compliance in recovery 
efforts. We urge the members of these committees to fully support and 
fund the efforts of the Joint POW/MIA Accounting Command (JPAC), a 
joint task force within DoD whose mission is to account for Americans 
who are listed as Prisoners Of War (POW), or Missing in Action (MIA).
    Full accounting for those Missing in Action is not just a term for 
us, it is a commitment to the memory of those missing in action and 
their families. We, as a nation, owe these families our very best 
efforts to account for all missing members of our Armed Forces.

                               EDUCATION

    Post 9/11 GI Bill: Arguably the best piece of legislation ever 
passed by Congress and thanks to the efforts of many of you here, the 
Post-9/11 GI Bill is providing unprecedented educational opportunities 
for the thousands of men and women who served in uniform since 9/11and 
many of their family members. For years, GI Bill benefits have helped 
to strengthen our country's workforce by raising the skill levels of 
Americans who have served in our military and are returning to civilian 
life and extending the benefit to eligible family members will produce 
similar returns.
    Providing in-state tuition rates at federally supported State 
universities and colleges-regardless of residency requirements, is an 
important goal for AFSA due to the rise in service members and their 
families returning to institutions to further their education and 
numerous PCS moves involved with the CONUS. A few AFSA members were 
caught off guard by changes enacted last year that required them to pay 
a significant portion of their children's out-of-state tuition rates 
because the benefit no longer covers the entire tuition amount. Ideally 
these institutions would cover the student under VA's Yellow Ribbon 
program, lowering out of pocket expenses for the service member, but 
the truth of the matter is not all schools do. For the ones that do 
participate, the school identifies which of their programs are Yellow 
Ribbon-covered, along with how many students they will accept under the 
program and how much they can pay each student so there are additional 
limitations. As the likely alternative given the nation's current 
fiscal situation, Congress should urge VA to conduct greater outreach 
to colleges and institutions on its Yellow Ribbon program.
    Oversight of Educational Benefits: AFSA is concerned with 
statistics that show the cost of sending a veteran to a for-profit 
school is more than double the cost of a public university, and that 
eight of 10 educational institutions collecting the most VA benefits 
are for-profit schools. By no means are we suggesting impropriety with 
these or any other educational institutions receiving federal money. 
Many institutions are offering high quality degrees that service 
members can use in conjunction with their military careers or aid them 
in employment once they separate. But given the tremendous sum of money 
involved, all of them tax dollars; we owe it to the American taxpayer 
to ensure they are getting the best ``bang for their buck.'' That said, 
AFSA endorses S. 2179, the ``Military and Veterans Educational Reform 
Act of 2012'' which was recently introduced by Senators Jim Webb (D-
VA), Tom Harkin (D-IA), Tom Carper (D-DE), Claire McCaskill (D-MO) and 
Scott Brown (R-MA) to make critical reforms to protect the integrity of 
the Post-9/11 GI Bill and the military's Tuition Assistance Program. By 
extending accreditation protections currently in place for federal 
student aid recipients to veterans using the GI Bill, S. 2917 takes 
much-needed steps towards strengthening the protections currently in 
place for veteran and military students seeking to use their taxpayer 
subsidized benefits. It also builds a stronger support network to help 
our service members and their eligible family members navigate the 
complicated process of picking a school.
    Arm Students with Information: AFSA believes users of VA 
educational benefits do not have access to the information they need to 
make sound academic decisions. The findings of a recent Senate 
investigation confirm many Veterans become victims of potential fraud, 
waste and abuse at the hands of schools that consistently fail to 
deliver on their educational promises. By arming students with better 
information about degree expectations, use, and graduation rates, we 
believe they can, and will make better choices with their earned 
benefits. DoD recently mandated this type of counseling for users of 
Tuition Assistance Programs; VA should suit. The department already 
offers similar counseling as part of its Vocational Rehabilitation & 
Employment Program (Chapter 36). S. 2917 would require DoD and VA to 
provide this in person, one-on-one educational counseling to veterans 
and members of the Armed Forces. Until such time as this or similar 
legislation is passed, VA may be able to expand their current program, 
on a voluntary basis, to users of GI Bill benefits.
    Education Benefits for Survivors and Dependents: VA's Survivors & 
Dependents Assistance (DEA) Program (Chapter 35) provides education and 
training opportunities to the spouse and eligible children of certain 
Veterans. Whereas most VA educational programs increased payment rates 
in recent years, the DEA program has not. As a result, the value of 
this benefit continues erodes as college costs continue to climb. 
Congress should boost these rates to more closely match the current 
cost of a four-year public university which was recently estimated by 
the National Center on Education Statistics to be $19,620 per year in 
2011.
    Retirement Benefits: The Administration's proposed FY 2013 budget 
calls for higher TRICARE fees, the establishment of new ones and the 
creation of a BRAC-like panel that will review current military 
compensation and recommend changes (most likely reductions) for 
Congress to consider. The President and many senior civilian leaders 
repeatedly said they will not balance the budget on the backs of 
Veterans. We took them at their word but now this is in fact, exactly 
what they are proposing to do. Apparently they lost sight of the fact 
that military retirees are Veterans, and we ask that you bear this in 
mind as deliberations on the Administrations proposed budget move 
forward.
    Senior military leaders often speak of the importance of ``Keeping 
the faith'' with military members, particularly where earned benefits 
are concerned--benefits like retired pay and healthcare. Right now, 
Airmen are asking ``Where is the faith?'' And they are looking to you, 
the Members of Congress, to provide that answer. ``Passing the buck'' 
to service members instead fulfilling promised benefits will only serve 
to undermine long-term retention and readiness. Part of the success of 
the all-volunteer force can be directly attributed to the robust 
benefits we provide military members in return for their service and 
sacrifice. Not just them, but their families too. Do we want to risk 
this? We call on Congress to oppose these fee increases and to honor 
the commitments made to those who have served and are now serving. All 
of whom are Veterans.

                               CONCLUSION

    Chairman Murray, Chairman Miller, in conclusion, I want to thank 
you again for this opportunity to express the views of our members on 
these important issues as you consider the FY 2013 budget. We realize 
that those charged as caretakers of the taxpayers' money must budget 
wisely and make decisions based on many factors. As tax dollars 
dwindle, the degree of difficulty deciding what can be addressed, and 
what cannot, grows significantly. However, AFSA contends that it is of 
paramount importance for a nation to provide quality health care and 
top-notch benefits in exchange for the devotion, sacrifice, and service 
of military members, particularly while the nation remains at war. So 
too, must those making the decisions take into consideration the 
decisions of the past, the trust of those who are impacted, and the 
negative consequences upon those who have based their trust in our 
government.
    We sincerely believe that the work the House and Senate Veterans' 
Affairs Committees do is among the most important on the Hill. Year 
after year, these two committees have illustrated the value of non-
political cooperation with the full focus of your efforts on the well-
being of those serving this nation. On behalf of all AFSA members, we 
appreciate your efforts and, as always, are ready to support you in 
matters of mutual concern.
    The Air Force Sergeants Association looks forward to working with 
you in this Second Session of the 112th Congress.
    Respectfully submitted this 22nd day of March, 2012

                                 <F-dash>
                  Prepared Statement of MG Gus Hargett

    Thank you for all you have done for our veterans since 9/11 and for 
this opportunity to testify.
Background--Unique Citizen Service Member/Veteran
    The National Guard is unique among components of the Department of 
Defense (DoD) in that it has the dual state and federal mission. While 
serving operationally on Title 10 active duty status in Operation Iraqi 
Freedom (OIF) or Operation Enduring Freedom (OEF), National Guard units 
are under the command and control of the President. However, upon 
release from active duty, members of the National Guard return as 
veterans to the far reaches of their states, where most continuing to 
serve in over 3,000 armories across the country under the command and 
control of their governors. As a special branch of the Selected 
Reserves they train not just for their federal missions, but for their 
potential state active duty missions such as fire fighting, flood 
control, and providing assistance to civil authorities in a variety of 
possible disaster scenarios.
    Since 9/11, 455,461 National Guard members have deployed in 
contingency operations to gain veteran status. When they return from 
deployment, they are not located within the closed structure of a 24/7 
supported active military installation, but rather reside in their home 
town communities where they rely heavily on the medical support of the 
Veterans Administration (VA).
    While serving in their states, members are scattered geographically 
with their families as they hold jobs, own businesses, pursue academic 
programs, and participate actively in their civilian communities. 
Against this backdrop, members of the National Guard remain ready to 
uproot from their families and civilian lives to serve their governor 
domestically, or their President in distant parts of the globe, as duty 
calls and to return to reintegrate within the same communities when 
their missions are accomplished.
    Using the National Guard as an operational force will require a 
more accessible mental health program for members and their families 
post-deployment in order both to provide the care they deserve as 
veterans and to maintain the necessary medical readiness required by 
deployment cycles. It cannot be a simple post-deployment send off by 
the active military of ``Good job. See you in five years.'' To create a 
seamless medical transition from active duty to the VA, an improved 
medical screening of our members before they are released from active 
duty is essential to identify the medical issues that will be passed to 
the VA. The Department of Defense must also recognize its 
responsibility of sharing the burden with the VA in funding mental 
health care for our National Guard members between deployments, which 
remains an unmet readiness need.
    Military service in the National Guard is uniquely community based. 
The culture of the National Guard remains little understood outside of 
its own circles. When the Department of Defense testifies before 
Congress stating its programmatic needs, it will likely recognize the 
indispensable role of the National Guard as a vital operational force, 
but it will say little about, and seek less to, redress the benefit 
disparities, training challenges, and unmet medical readiness issues 
for National Guard members and their families at the state level 
before, during, and after deployment. We continue to ask Congress to 
give the Guard a fresh look with the best interests of the National 
Guard members, their families, and the defense of the homeland in mind.

H.R. 1025-RECOGNITION AS VETERANS OF MEMBERS OF THE NATIONAL GUARD AND 
        RESERVE WHO SERVE 20 YEARS TO EARN MILITARY RETIREMENT PAY
    Congress needs to continue to act proactively on a broad front to 
appropriately recognize the value of National Guard service at home and 
overseas. The Senate Committee on Veterans' Affairs could go far in 
that effort by passing the budget-neutral H.R. 1025, which unanimously 
passed the House last year. The bill would authorize Veteran status 
under Title 38 for National Guard and Reserve members of the Armed 
Forces who are entitled to a non-regular retirement under Chapter 1223 
of 10 US Code, but were never called to active federal service during 
their careers - through no fault of their own. Pertinent sections of 
Title 38defiing ``veteran `` are set forth n the Appendix. H.R. 1025 is 
cost-neutral because it would provide no benefits other than the honor 
and recognition provided by allowing these members to simply call 
themselves veterans for their careers of honorable service.
    Most members of Congress and many serving and retired National 
Guard and Reserve members may not know that a reservist can complete a 
full Guard or Reserve career but not earn the title of ``Veteran of the 
Armed Forces of the United States,'' unless the member has served on 
Title 10 active duty for other than training purposes. As one National 
Guard retiree has put it, ``we gave the government a blank check for 20 
years of our service to send us wherever they wanted. It was their 
choice, not ours.''
    Some National Guard members who have been protecting the homeland 
on Aerospace Control Alert (formerly known as Operation Noble Eagle) 
and southwest border missions on Title 32 orders may one day retire 
from the Guard, but will not qualify to be Veterans of our Armed 
Forces. Contrast the character of service in these missions with that 
of an active duty member serving his or her entire enlistment in the 
continental United States (CONUS) who is fully recognized as a veteran 
with full benefits. To bestow veteran status and benefits on the active 
member in this instance and not allow the 20 year Guard or Reserve 
retiree even to call himself or herself a veteran just does not add up.
    Take the example from a message last year from a retired Guard 
general officer who served 30 years in the Guard during the Cold War. 
Although never deployed, he served on numerous reforger exercises and 
on other training missions far from his home and family while occupying 
a key leadership position in managing the National Guard in his state. 
The general recalled ordering an AWOL Guard soldier to active duty who 
then served 3 years in CONUS and was given full veteran status and 
benefits. However, the general who served honorably for 30 years ready 
and willing to answer any call for deployment cannot even call himself 
a veteran. This is just not right.
    We believe that Senate Committee on Veterans' Affairs (SCVA) has 
uncertain plans about moving this bill forward. It may be inclined 
toward folding it into an omnibus bill that would go back to the House 
as a joint conference item with no guarantee that it would successfully 
emerge from the pack in that secretive process.
    As many may recall, a predecessor bill to H.R. 1025 passed the 
House unanimously in 2010 only to stall in the Senate after it was 
placed on the unanimous consent calendar and not moved forward because 
members wanted it vetted by the SCVA. It is now properly before the 
SCVA where it warrants proper consideration as a standalone bill. As it 
is already approved by the House, it would likely become law if 
separately approved by that committee without the risk of possible 
rejection that it would face if sent back to House for reconsideration 
as part of an omnibus bill in joint conference.
    NGAUS is concerned from reports it has received that there exists 
pushback exists against this bill from lower echelon staff within the 
VA and congressional staff, feeling that passing this bill would be 
``allowing the camel's nose under the tent.'' This metaphor is both 
puzzling and deeply troubling to National Guard members. If any of you 
before me can tell me what this means, please do so today so I can 
respond. If it means that there is fear that National Guard members and 
NGAUS will be asking for more Veterans' services and benefits if the 
bill is passed, it's true - asking for better services and benefits is 
what every veteran and veterans service organizations does, and should 
continue to do, in asking for protection from Congress. If you expect 
our National Guard members and veterans to be any less diligent and 
responsible in asking Congress to address their needs and those of 
their families than any high-priced lobbyist walking these halls, then 
you are selling your National Guard short. The metaphor ``allowing the 
camel's nose under the tent'' is really nothing more than bias-driven 
code that the National Guard is not worthy of recognition by Congress. 
If passed, H.R. 1025 would help tear down the remnants of the wall of 
prejudice that sadly still exists in some quarters against the National 
Guard, who is always ready and always there in cost effectively 
protecting our nation.
    As a cost-neutral standalone bill, H.R. 125 provides an excellent 
opportunity for a divided Congress to come together to honor our 
National Guard and Reserve. NGAUS respectfully asks members of the 
Senate Committee on Veterans' Affairs to please join your colleagues in 
the House and move this bill forward as a standalone bill to support 
its passage into law. Our career National Guard and Reserve members 
deserve nothing less.

REQUIRE THE VA TO FULLY IMPLEMENT SECTION 304 OF THE CAREGIVERS AND 
        VETERANS OMNIBUS HEALTH SERVICES ACT 0F 2009, PUBLIC LAW 111-
        163, TO PROVIDE MENTAL HEALTH SERVICES TO IMMEDIATE FAMILY 
        MEMBERS OF OIF/OEF VETERANS
    Post-deployment, our National Guard members and their families 
heavily rely on the VA for mental health care. Congress recognized as 
much in passing The Caregivers and Veterans Omnibus Health Services Act 
of 2009, Public Law 111-163, enacted May 6, 2010, which now requires 
the VA to reach out not just to veterans but to their immediate 
families as well to assist in the reintegration process. Unfortunately, 
the VA has not fully complied with this law.
    Section 304 of the Family Caregiver Act (reproduced in the 
Appendix) now requires the VA to make full mental health services 
available to immediate family members of OIF/OEF veteran for three 
years post-deployment. However, the VA refuses to comply with the law 
by insisting that it does not have any obligation beyond providing the 
counseling at Vet Centers, which it has been doing since well before 
the law was passed. As terrific as Vet Centers are with their peer-to-
peer outreach, they do not have the full range of mental health 
services that are present in the highly praised VA Office of Mental 
Health Services (OMHS).To the best of our knowledge, the VA will not 
make the full range of OMHS mental health services available to 
immediate to families as required by Section 304.
    Section 304 was enacted on May 6, 2010, but we still await any VA 
regulations or instructions implementing this program. For many, the 
three year post-deployment period during which the VA is required by 
Section 304 to provide mental health services to immediate family 
members of returning veterans will begin to lapse in 2013. The VA OMHS 
needs to fully comply with Section 304. Our veterans and their 
immediate families may be a small subset, but they are worth it.

IMPLEMENT COMMUNITY BASED MENTAL HEALTH CARE FOR VETERANS
    Section 304 also authorizes the VA to contract with private 
entities in communities to bridge the geographical barriers preventing 
many of our veterans, and now their families, from receiving mental 
health treatment. The issues of veterans' unemployment and mental 
health maintenance cannot be separated. Before veterans can maintain 
gainful employment in a challenging job environment, they must be able 
to maintain a healthy mental status and establish supportive social 
networks.
    In 2007, the Rand Corporation published a study titled, ``The 
Invisible wounds of War.'' It found that at the time 300,000 veterans 
of Operation Iraqi Freedom and Operation enduring Freedom suffered from 
either PTSD or major depression. This number can only have grown after 
five more years of war. The harmful effects of these untreated 
invisible wounds on our veterans hinder their ability to reintegrate 
with their families and communities, work productively, and to live 
independently and peacefully.
    Rand recommended that a network of local, state, and federal 
resources centered at the community level be available to deliver 
evidence-based care to veterans whenever and wherever they are located. 
Veterans must have the ability to utilize trained and certified 
services in their communities. In addition to training providers, the 
VA must educate veterans and their families on how to recognize the 
signs of behavioral illness and how and where to obtain treatment.
    To facilitate the leveraging of mental health care providers in our 
communities, the VA can actively exercise its authority under section 
304 to contract with private entities in local communities, or 
creatively implement its fee-based option by issuing voucher cards that 
would allow our veterans to seek fee-based treatment with VA certified 
providers outside the brick and mortar of the Veterans Administration 
facilities.
    VA facilities are often located hundreds of miles from a veteran in 
need, particularly our National Guard veterans living in rural areas. 
Requiring a veteran, once employed, to drive hundreds of miles to 
obtain care at a VA facility necessitates the veteran taking time off 
from work, which most employees can ill afford, particularly after an 
extended absence from deployment in the case of our Guard veterans. The 
VA needs to leverage community resources to proactively engage veterans 
and their immediate family members in caring for mental health needs in 
a confidential and convenient manner that does not require long 
distance travel or delayed appointments.
    Several of our veterans have fallen through the cracks of the VA 
health care system, and will continue to do so. According to the 
Vietnam Veterans of America, only 30% of our veteran population has 
enrolled in VA medical programs. Many veterans end up in the care of 
state social service programs in cooperation with state and national 
veteran organizations. The VA has the authority to assist in 
maintaining this safety net of care for veterans in a stressful 
economic climate for our states with a voucher program or expanded 
contracting with private entities. It needs to act.

CONFIDENTIALITY MUST BE OBSERVED WITH MENTAL HEALTH CARE
    Most of our National Guard veterans of OIF/OEF eligible for VA care 
post-deployment are still serving with their units and subject to 
redeployment. Given the evolving electronic medical records 
interoperability between the VA and the Department of Defense (DoD), a 
confidentiality issue exists relative to mental health treatment 
records for these veterans who remain in the military who do not want 
their records shared by the VA with their military commanders for fear 
of career reprisals.
    It is essential that confidentiality be maintained by the VA for 
the mental health treatment records of these veterans to encourage 
their treatment with VA providers. It is critical that this be 
established as soon as possible legislatively, as the VA is believed to 
be operating under advice from its legal staff that all VA medical 
records can be transferred to DoD. Lack of confidentiality will chill 
the treatment process and is likely contributed to the under 
utilization of VA medical care by our veterans.

THE DEPARTMENT OF DEFENSE MUST COOPERATIVELY WORK WITH THE VA IN 
        SCREENING BEHAVIORAL HEALTH CARE NEEDS OF OUR MEMBERS BEFORE 
        THEY ARE RELEASED FROM ACTIVE DUTY
    At all stages of PTSD and depression, treatment is time sensitive. 
However, this is particularly important after onset, as the illness 
could persist for a lifetime if not promptly and adequately treated, 
and could render the member permanently disabled. The effects of this 
permanent disability on the member's entire family can be devastating. 
It is absolutely imperative that members returning from deployment be 
screened with full confidentiality at the home station while still on 
active duty by trained and qualified mental health care providers from 
VA staff and/or qualified health care providers from the civilian 
community. These providers could include primary care physicians, 
physician assistants, and nurse practitioners who have training in 
assessing psychological health presentations. Prompt diagnosis and 
treatment will help to mitigate the lasting effects of mental illness. 
This examination process must be managed by the VA in coordination with 
the National Guard Director of Psychological Health for the respective 
state, and the state's Department of Mental Health to allow transition 
for follow up treatment by the full VA and civilian network of 
providers within the state.
    As an American Legion staffer at Walter Reed once stated, the main 
problem for Reserve Component injured service members is that they are 
``rushed out of the system'' before their service connected injuries 
and disability claims have been resolved. Our injured members should 
not be given the ``bum's rush'' and released from active duty until a 
copy of their complete military medical file, including any field 
treatment notes, has been transferred to the VA, their discoverable 
service connected military medical issues have been identified, any 
service connected VA disability physicals has been performed similar to 
what is provided to the active forces before they are released from 
active duty, and the initial determination of any service connected VA 
disability claim has been rendered. Unless medically not feasible, our 
members should be retained on active duty in their home state for 
treatment to discourage them from reporting injures out of fear of 
being retained at a distant demobilization site.
    It is absolutely necessary to allow home station screening for all 
returning members by trained health care professionals who can screen, 
observe, and ask relevant questions with the skill necessary to elicit 
medical issues either unknown to the self-reporting member, or 
unreported for fear of being retained at a far removed demobilization 
site. In performing their due diligence before the issuance of an 
insurance policy, insurance companies do not allow individuals to self 
assess their health. Neither should the military. If geographical 
separation from families is causing some to underreport, or not report, 
physical or psychological combat injuries on the PDHA, then continuing 
this process at the home station for those in need would likely produce 
a better yield at a critical time when this information needs to be 
captured in order for prompt and effective treatment to be 
administered.
    Please see the copy of a November 5, 2008 electronic message to 
NGAUS from Dr. Dana Headapohl set forth in the Appendix, which strongly 
recommends a surveillance program for our members before they are 
released from active duty. Dr. Headapohl opines the obvious in stating 
that inadequate medical screening of our members before they are 
released from active duty is ``unacceptable to a group that has been 
asked to sacrifice for our country.'' (emphasis added)

ENHANCE EMPLOYABILITY FOR OUR NATIONAL GUARD VETERANS BY AMENDING 10 
        USC 1097c TO ALLOW EMPLOYERS TO OFFER ENROLLMENT IN TRICARE 
        RESERVE SELECT AND DECLINE MORE EXPENSIVE EMPLOYER SPONSORED 
        PLANS
    Included among our unemployed Gulf War II veterans are members of 
the National Guard and Reserve who are home from combat and, for the 
most part, remain in the Select Reserve as they return to civilian life 
and train for the next deployment. A prospective employer in a 
challenged economy may think twice before hiring one of our deployable 
members who has a guaranteed future ticket to war.
    One potential solution worth considering is to remove statutory 
prohibitions against employers offering incentives for National Guard 
and Reserve members to enroll in TRICARE Reserve Select (TRS) in lieu 
of the employer's more expensive plan, in order to make Guard and 
reserve job candidates for employment more competitive.
    According to the Department of Defense, TRS has been available to 
members of the Reserve Components since October 2007, but it remains 
under subscribed, with only 7 percent of the eligible population 
participating. This is surprising, given the current low monthly 
premium rates of $192.89 for family coverage and $54.36 for individual 
coverage.
    Under current law, 10 USC Section 1097c, employers of members of 
the Select Reserve cannot offer incentives to members of the Select 
Reserve to decline coverage under the Employer's more expensive health 
care plan and enroll in less expensive TRICARE Reserve Select with the 
premiums paid by the member from pre-tax dollars deposited into a 
health savings account by their employers.
    The current law prevents our member veterans from leveraging their 
ability to be covered with low-cost health insurance as an inducement 
for prospective employers to hire them. It is a challenge for all of 
our unemployed members to convince employers that they are worth 
hiring, especially in the face of disruptive, long-term absences due to 
deployments. Amending 10 USC 1097c would have the beneficial effect of 
making our member veterans more attractive to potential employers 
because they would be less expensive to insure. This savings would be 
significant for employers providing employees with health insurance.

STATUTORILY ESTABLISH AND SUSTAIN THE TRANSITION ASSISTANCE ADVISOR 
        PROGRAM
    The Yellow Ribbon Program needs to statutorily establish the 
Transition Assistance Advisor (TAA) Program, which currently operates 
with 62 TAAs managed by the Joint Staff of the National Guard Bureau 
under the auspices of the Department of Defense Office of 
Reintegration. The ``go to'' feature of TAA makes it invaluable and 
personal to our members and their families, by helping them learn and 
understand the benefits programs that exist at the VA and elsewhere 
before, during, and after deployments. So many programs have 
proliferated during the current war that many members and family 
complain that that the information thrown at them at PowerPoint benefit 
briefings is like ``drinking from a fire hose.'' Because of this, the 
reintegration briefers from the behavioral care staff of Johns Hopkins 
refuse to use PowerPoint, because its lack of interactivity loses the 
trust and attention of the audience. The TAA program provides a 
necessary interactive and trustworthy alternative to the one-time 
electronic briefing, or the many lost in the shuffle web sites. TAA has 
staying power and, simply put, it works. It needs to be resourced and 
sustained with statutory backing.
    The National Guard Transition Assistance Advisor (TAA) program 
differs from the active duty program primarily by the time and manner 
in which assistance is delivered, as well as the content of assistance 
programs. Where the active duty program will allow the TAAs to work 
over a matter of days with a captured active duty audience by providing 
training on job searching skills, the National Guard TAAs have time to 
deliver only very short briefings during the limited time our members 
remain on active duty at installations before returning to their homes. 
However, the TAAs remain reachable to provide personalized service to 
all callers, at all stages of deployments. A TAA program similar to the 
active forces could be considered if our returning members remained on 
active duty longer at National Guard installations after deployment.
    The TAAs serve as statewide points of contact, primarily to provide 
a professional person to assist in accessing veterans' benefits and 
medical care for members and families before, during, and after 
deployment. However, they can troubleshoot virtually all deployment-
related issues, ranging from processing medical compensation claims, 
accessing veterans' benefits, pursuing medical care options, assisting 
with job searches, financial assistance, referral for counseling, and 
obtaining dependent care. The TAAs, 90% of whom are either veterans or 
spouse of military members, make themselves available to members of all 
components and veterans of any service. It is the ``go to'' feature and 
personal interaction follow up that distinguishes the TAA program from 
other reintegration assistance programs.
    A description of what a TAA does is best provided by the following 
message sent in response to a NGAUS inquiry by Marine, Steven B. 
Sheppard, TAA for the Massachusetts National Guard.

    ``As the single point of contact for all Veterans of all branches 
of all eras, TAA's are very busy. We track our troops through both the 
Military and civilian healthcare sectors, which can be daunting to say 
the least. Often the more complicated cases require significant follow-
up care. Veterans rarely call with just one problem.

    A typical case that is brought to the TAA desk can include the 
following:

    - Unemployed Guard Member with no service connection has no 
capability to travel because his vehicle needs service
    - SM has been unemployed for 8 months with no end in sight
    - Health problems due to Line-of-Duty injuries / illness
    - Can't afford car payment / rent / vehicle repair

    This means that the TAA has to:

    - Help fill out need-based financial grant applications for 
emergency aid
    - Coordinate with financial planning and state resources to prevent 
foreclosure
    - Help coordinate military health services for possible return to 
active duty for treatment
    - Coordinate VA Healthcare services, i.e. enrollment, primary care 
and specialty clinic care
    - Provide compensation and pension evaluation and VA Disability 
claim via Certified National Service Officer -employment consultation 
with LVER/DVOP and Career Center Training/Services
    - Arrange for legal consultation if necessary (home foreclosure, 
child support modification, will/power of attorney, etc)

    Multiply this by any number of cases that the TAA may be managing, 
add in follow-up care, and you can see that this adds up quickly. This 
is in conjunction with helping Veterans of all eras which present 
additional hurdles. Though our primary mission is to focus on the OIF/
OEF era Veterans, coordinating end-of-life or elder care for WWII and 
Korean era Veterans is a necessary and much needed skill-set.
    This brings us to what I like to call my ``weekend job.'' At least 
once a month, sometimes more, the TAA facilitates seminar and classroom 
learning sessions at Yellow Ribbon reintegration events. We meet 
individually and in groups with returning or deploying Veterans in 
order to educate Guard/Reserve members on benefits and services. 
Because of the large number of troops in both the outgoing and incoming 
stages of deployment, this means that the TAA often works multiple 
weekends a month, if not all of them.
    Most TAA's also are on a number of planning committees to help 
coordinate services and events in the future as well. Panel 
discussions, coordination and feedback meetings with VHA and VBA, and 
consultation with the military chain-of-command are additional duties 
that help to forge the working relationships that we use on a daily 
basis. The bottom line is that the TAA is, by definition, a central 
point of contact, and we are used heavily by every state, federal, 
military and Veteran organization on a regular basis.

    Although necessarily different from the active duty program because 
of the limited time our members remain on active duty at National Guard 
our installations post deployment, clearly, the TAA program in the 
National Guard performs a valuable service to members and families. The 
program needs to be expanded.

VETERANS PREFERENCE STATUS FOR ALL WHO HAVE HONORABLY SERVED IN THE 
        NATIONAL GUARD AND RESERVE
    NGAUS recently received a letter from Monique Elling, a former 
member of the Delaware National Guard, who served honorably for 10 
years in domestic assignments, but who has been denied veterans 
preference points because her only Title 10 active duty time was in 
training status after enlistment. With her permission, a copy of her 
letter is set forth in the Appendix. Such restrictive definitions of 
veteran disrespect the honorable service of our members and unfairly 
restrict employment opportunities for otherwise qualified candidates. 
Veterans' employment preference points must be extended to all those 
who have served honorably in the Select Reserve and active forces.

Conclusion
    Thank you for that you have done for our veterans since 9/11. 
Please view our efforts as part of a customer feedback process to 
refine and improve the ongoing vital and enormous undertaking of the 
VA. Our National Guard veterans, both still serving and separated, will 
remain one of your largest base of customers who will continue to 
require your attention. Thank you for this opportunity to testify.

APPENDIX
    Sec.  101. DEFINITIONS

    For the purposes of this title----

    (1) The terms ``Secretary'' and ``Department'' mean the Secretary 
of Veterans Affairs and the Department of Veterans Affairs, 
respectively.

    (2) The term ``veteran'' means a person who served in the active 
military, naval, or air service, and who was discharged or released 
there from under conditions other than dishonorable

    (21) The term ``active duty'' means----

    (A) full-time duty in the Armed Forces, other than active duty for 
training;

    (B) full-time duty (other than for training purposes) as a 
commissioned officer of the Regular or Reserve Corps of the Public 
Health Service

    (i) on or after July 29, 1945, or

    (ii) before that date under circumstances affording entitlement to 
``full military benefits'' or

    (iii) at any time, for the purposes of chapter 13 of this title;

    (22) The term ``active duty for training'' means----

    (A) full-time duty in the Armed Forces performed by Reserves for 
training purposes;

    (B) full-time duty for training purposes performed as a 
commissioned officer of the Reserve Corps of the Public Health Service

    (i) on or after July 29, 1945, or

    (ii) before that date under circumstances affording entitlement to 
``full military benefits'', or

    (iii) at any time, for the purposes of chapter 13 of this title;

    (C) in the case of members of the Army National Guard or Air 
National Guard of any State, full-time duty under section 316, 502, 
503, 504, or 505 of title 32, or the prior corresponding provisions of 
law;

    (D) duty performed by a member of a Senior Reserve Officers' 
Training Corps program when ordered to such duty for the purpose of 
training or a practice cruise under chapter 103 of title 10 for a 
period of not less than four weeks and which must be completed by the 
member before the member is commissioned; and

    (E) authorized travel to or from such duty.

    The term does not include duty performed as a temporary member of 
the Coast Guard Reserve.

    The following Section 304 excerpted from S. 1963, signed into law 
on May 5,2010 by President Obama as Public Law No: 111-163, requires 
the VA to establish a program within 6 months of enactment to provide 
mental health services to OIF/OEF veterans and their immediate family 
members for 3 years post deployment.

SEC. 304. PROGRAM ON READJUSTMENT AND MENTAL HEALTH CARE SERVICES FOR 
        VETERANS WHO SERVED IN OPERATION ENDURING FREEDOM AND OPERATION 
        IRAQI FREEDOM.
       (a) Program Required- Not later than 180 days after the date of 
the enactment of this Act, the Secretary of Veterans Affairs shall 
establish a program to provide----
         (1) to veterans of Operation Enduring Freedom and Operation 
Iraqi Freedom, particularly veterans who served in such operations 
while in the National Guard and the Reserves----
           
    (A) peer outreach services;
           
    (B) peer support services;
           
    (C) readjustment counseling and services described in section 1712A 
of title 38, United States Code; and
           
    (D) mental health services; and
         (2) to members of the immediate family of veterans described 
in paragraph (1), during the 3-year period beginning on the date of the 
return of such veterans from deployment in Operation Enduring Freedom 
or Operation Iraqi Freedom, education, support, counseling, and mental 
health services to assist in----
           
    (A) the readjustment of such veterans to civilian life;
           
    (B) in the case such veterans have an injury or illness incurred 
during such deployment, the recovery of such veterans from such injury 
or illness; and
           
    (C) the readjustment of the family following the return of such 
veterans.
       
    (b) Contracts With Community Mental Health Centers and Other 
Qualified Entities- In carrying out the program required by subsection 
(a), the Secretary may contract with community mental health centers 
and other qualified entities to provide the services required by such 
subsection only in areas the Secretary determines are not adequately 
served by other health care facilities or vet centers of the Department 
of Veterans Affairs. Such contracts shall require each contracting 
community health center or entity----
         
    (1) to the extent practicable, to use telehealth services for the 
delivery of services required by subsection (a);
         
    (2) to the extent practicable, to employ veterans trained under 
subsection (c) in the provision of services covered by that subsection;
         
    (3) to participate in the training program conducted in accordance 
with subsection (d);
         
    (4) to comply with applicable protocols of the Department before 
incurring any liability on behalf of the Department for the provision 
of services required by subsection (a);
         
    (5) for each veteran for whom a community mental health center or 
other qualified entity provides mental health services under such 
contract, to provide the Department with such clinical summary 
information as the Secretary shall require;
         
    (6) to submit annual reports to the Secretary containing, with 
respect to the program required by subsection (a) and for the last full 
calendar year ending before the submittal of such report----
           
    (A) the number of the veterans served, veterans diagnosed, and 
courses of treatment provided to veterans as part of the program 
required by subsection (a); and
           
    (B) demographic information for such services, diagnoses, and 
courses of treatment; and
         
    (7) to meet such other requirements as the Secretary shall require.
       
    (c) Training of Veterans for Provision of Peer-outreach and Peer-
support Services- In carrying out the program required by subsection 
(a), the Secretary shall contract with a national not-for-profit mental 
health organization to carry out a national program of training for 
veterans described in subsection (a) to provide the services described 
in subparagraphs (A) and (B) of paragraph (1) of such subsection.
       
    (d) Training of Clinicians for Provision of Services- The Secretary 
shall conduct a training program for clinicians of community mental 
health centers or entities that have contracts with the Secretary under 
subsection (b) to ensure that such clinicians can provide the services 
required by subsection (a) in a manner that----
         
    (1) recognizes factors that are unique to the experience of 
veterans who served on active duty in Operation Enduring Freedom or 
Operation Iraqi Freedom (including their combat and military training 
experiences); and
         
    (2) uses best practices and technologies.
       
    (e) Vet Center Defined- In this section, the term `vet center' 
means a center for readjustment counseling and related mental health 
services for veterans under section 1712A of title 38, United States 
Code.
E-mail from Dana Headapohl, MD, to NGAUS
    Colonel Duffy - I am sending links to articles about the importance 
of providing medical surveillance examinations for workers in jobs with 
specific hazardous exposures. I believe this approach could be modified 
to evaluate National Guard members returning from Iraq and Afghanistan 
for PTSD, TBIs and depression.

    The OSHA medical surveillance model includes the following basic 
elements:

    1. Identification of potential hazardous exposures (chemical, 
physical, biologic).

    2. Screening workers for appropriateness of placement into a 
specific work environment with such exposures. For example, individuals 
with compromised liver functions should not be placed in environments 
with unprotected exposures to hepatotoxins.

    3. Monitoring workers after unprotected exposure incidents. 
Examples- monitoring pulmonary function in a worker exposed to a 
chlorine gas spill, or following hepatitis and HIV markers in a nurse 
after a needle stick injury.

    4. Conducting exit examinations at the end of an assignment with 
hazardous exposures, to ensure that workers have not suffered adverse 
health effects from those exposures.

    (including concussive explosions or other traumatic events).

    Surveillance exams of all types (OSHA mandated surveillance 
programs, population health screening for chronic disease risk factors) 
have been a part of my practice of Occupational and Preventive Medicine 
in Montana for the past 22 years. Early diagnosis and treatment is 
especially essential for potential medical problems facing military 
members serving in Iraq and Afghanistan - post traumatic stress 
disorder (PTSD), traumatic brain injury (TBI) and depression. Timely 
diagnosis and aggressive treatment is essential especially for these 
problems, to maximize treatment success and functioning and to mitigate 
suffering.
    There are a number of organizations that design and implement 
medical surveillance programs. There is no reason the same approach 
could not be applied to the specific exposures and potential medical 
problems facing National Guard troops in Iraq and Afghanistan. With 
proper program design and local provider training, this program would 
not need to be costly. In my clinical experience, male patients 
especially are more likely to report symptoms of PTSD, TBI, or 
depression in the context of an examination rather than questionnaire. 
Findings can present subtly, but if untreated can have devastating 
effects on the individual, family and work place.
    In my practice, I have seen a number of Vietnam veterans, and more 
recently National Guard members who have returned from deployment in 
Iraq or Afghanistan, who have been inadequately screened and/or are 
suffering unnecessarily because of geographical barriers to adequate 
treatment. This is unacceptable treatment of group that has been asked 
to sacrifice for our country. They deserve better.
    I applaud your organization's efforts to lobby for better post 
deployment screening and treatment of the National Guard members 
returning from Iraq and Afghanistan.

    Dana Headapohl MD

    http://www.aafp.org/afp/20000501/2785.html

    https://www.desc.dla.mil/DCM/Files/QSRHealth%20Medical%20Exam--
1.pdf This is about military surveillance exams.

    http://www.lohp.org/graphics/pdf/hw24en06.pdf

    http://www.cdc.gov/niosh/sbw/management/wald.html

    http://www.ushealthworks.com/Page.aspx?Name=Services--MedSur

-----Original Message-----
    From: Elling, Monique A Mrs CTR US NG NGB ARNG 
[mailto:<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="db96b4b5b2aaaebef59eb7b7b2b5bc9baea8f5baa9b6a2f5b6b2b7">[email&#160;protected]</a>]

    Sent: Wednesday, March 17, 2010 1:14 PM

    To: Richard Green

    Subject: The Unstatus Soldier (UNCLASSIFIED)

    Classification: UNCLASSIFIED
    Caveats: FOUO

    Mr. Green,

    Thank you for taking time out of your schedule to listen to my 
concerns. I was an officer in the Delaware National Guard who served 
over ten years- seven of which were full-time as a ``military 
technician''. I've recently been applying for federal jobs and on the 
job application it asks ``are you a veteran of the armed forces?'' My 
instinctive reply to the question was ``yes''.
    Naturally ten years of service in the Army National Guard qualifies 
me as a veteran. The question of my veteran status was preceded by the 
quantifying statement ``served honorably on active duty in the armed 
forces of the United States for 180 days or more (Reserve and National 
Guard active duty for training does not qualify)''. It's not a matter 
of wanting monetary benefits but the Federal Government's recognition 
my years of service.
    Counterintuitive to everything I had been trained to do and lived, 
I had to put ``no''. No, my ten years of training, operational 
exercises and drills are not quantifiable to 180 days of active duty. 
No, having to meet the same standards and required to attend the same 
schools as my active duty brothers is not quantifiable to 180 days of 
active duty. Is it a matter of perceived sacrifice? I too, upon the 
ramp-up of the war spent days and weeks away from my family preparing 
Soldiers and families for deployments. In fact, during the first serge 
of the war I was taking care of my father with cancer. I often found 
myself teetering between traveling to mobilization stations preparing 
my Soldiers and managing the care of my father. My father lost his 
battle with cancer. A part of me blames myself for splitting my time 
and not making him my sole priority. I share the next story not because 
I fancy morbidity, but to use my personal experience to illustrate the 
shared sacrifice of our ``Citizen'' Soldiers to their ``Active'' 
counterparts. I received my commission through the state OCS program. 
The length of the program was approximately 15 months. Twelve months 
into the program I became pregnant. Unaware of my pregnancy, I 
continued training and subsequently miscarried. I was told it was more 
than likely the physical stress I subjected upon myself. I've never 
publicly shared this story with anyone. I now gladly share but for the 
larger good it may do in the effort of changing the narrow definition 
of a ``veteran''.
    To add insult to injury, I recently interviewed and was chosen for 
a position working for the National Guard Bureau but it was revoked due 
to my reinstatement eligibility status. I found out that due to the 
fact military technicians are ``excepted'' status federal employees 
they cannot be considered for employment when the position is opened to 
only competitive status and reinstatement eligible federal employees. I 
researched the issue further and found out there were exceptions to 
allowing certain ``excepted'' status candidates to compete through the 
Department of Defense Interchange Agreement. Upon further investigation 
I was shocked to find out that the National Guard does not have such an 
agreement with Department of Defense. I am perplexed that the National 
Guard Bureau, the very agency that oversees the various State National 
Guards is closed to military technicians. Again I ask, what is my 
status? I don't receive the same status of my fellow guardsmen who are 
AGR and yet I'm not afforded the same treatment as a competitive 
federal employee. Ironically, I'm hunted by a phrase I use to tell my 
Soldiers about the equality of each Soldier regardless of color, 
nationality or sex. ``Despite all of our differences we are all green 
on the inside''.
    Again, I thank you for your time and hope that my experience may 
help another Soldier. Unstatus but still ``green'' on the inside.

    Sincerely,

    Monique A. Elling
    IIF Data
    Senior Analyst
    703.601.7576

    Don't wait to strike the iron when it's hot. Strike it and make it 
hot!
    Classification: UNCLASSIFIED
    Caveats: FOUO

                                 <F-dash>
                   Prepared Statement of Gary L. Fry
Introduction
    As the National Commander of AMVETS, it is my honor to share our 
concerns and comment on the issues under the purview of your 
committees. Since 1944, AMVETS has tirelessly served and represented 
more than one million servicemen and women.
    The purpose and goals of AMVETS, as spelled out in the 
organization's 1947 Congressional Charter, still ring true today. Among 
these aims are:

    <bullet>  to preserve for ourselves and our posterity the great and 
basic truths and enduring principles upon which this nation was 
founded;
    <bullet>  to maintain a continuing interest in the welfare and 
rehabilitation of disabled veterans and to establish facilities for the 
assistance of all veterans, to represent them in their claims before VA 
and other organizations;
    <bullet>  to dedicate ourselves to the service and best interests 
of the community, state and nation to the end that our country shall be 
and remain forever a strong and free nation;
    <bullet>  to encourage universal exercise of the voting franchise 
to the end that there shall be elected and maintained in public office 
men and women who hold such office as a public trust administered in 
the best interests of all people; and
    <bullet>  to advocate the development and means by which all 
Americans may become enlightened and informed citizens and this 
participate fully in the functions of democracy.

    Today, with a decade of war behind us and horrific budget cuts 
staring us in the face, our men and women in uniform remain steadfast 
in their mission to defend this great nation. During this same 10-year 
time span many of these brave service members paid the ultimate price 
for our freedom and others, at the completion of their service or due 
to injuries, have joined the ranks of our nation's veterans. This 
dedication and sacrifice must never be forgotten and the promises made 
to this nation's heroes must be fully and faithfully honored.
    Now is the time for the Administration and Congress to step up and 
acknowledge all that our veterans have done for this country. We, as a 
nation have, through the sacrifice of our veterans and military 
members, incurred a solemn obligation to support them in every way 
possible, now and into the future. President Obama once said that the 
national budget would not be balanced on the backs of veterans and 
AMVETS adamantly supports this concept of preserving all earned veteran 
benefits. Our service members and veterans do not deserve to be asked 
to continue making sacrifices; they don't deserve excuses or broken 
promises, they deserve this nation's full support and nothing less. 
They've done the hard work on behalf of all Americans; now is the time 
for All Americans to relieve them of their heavy burdens.
    Today's military and veteran community is faced with many 
challenges and AMVETS is dedicated to aggressively tackling these 
issues on behalf of American Veterans everywhere including:

    fVeteran Unemployment
       bReserve Component
       bActive Component
       bAffirmative Action Designation

    fVA/DoD Health Care & Mental Health
       bTraumatic Brain Injury (TBI) & Post-Traumatic Stress (PTS)
       bProsthetic & Sensory Aides
       bSuicide Prevention
       bExtension of the VA Caregivers Compensation Program

    fVeterans Benefits
       bMaintain Military Retirement & Health Care Benefits
       bConcurrent Receipt (Active & Reserve Component)
       bVA Claims & Appeals Backlog

    fWomen Veterans & Service Members
       bMilitary Sexual Trauma (MST)
       bCreation of a Sexual Assault Oversight and Response Office
       bGender Specific Healthcare

    fNational Guard & Reserve Service Members
       bImproved USERRA Protections
       bOn-going Transition Between State and Federal Service
       bVeteran Status

    fHomeless & Rural Veterans
       bProvide a Full Continuum of Care for Homeless Vets (housing, 
employment training, legal aid, etc)
       bAccess to Health & Mental Health Care
       bIncrease Travel Reimbursement Rates

    fPOW/MIA Recovery/Identification & Cemetery Affairs
       bImproved Over Site of Mortuary Affairs Operations
       bClark Cemetery & Return the Crew of the Intrepid
       bIncrease Veterans Burial Benefits

Veteran Unemployment
    During this time of persistent unemployment in our country, the 
problem of Veteran unemployment should be seen as a national disgrace 
and while everyone appears to be talking about the problem, few real 
solutions have been offered. Estimates from as recent as October 2011, 
suggest that the unemployment rate among American Veterans returning 
from Iraq and Afghanistan is at least 3 percent higher than the 
national average. In recognition of those who honorably and selflessly 
fought to maintain the freedoms of those who stayed behind, we as a 
nation cannot do enough to ensure that American Veterans get the proper 
skills, certifications and degrees necessary to be successful in the 
civilian job market.
    Veteran unemployment is a complex problem which will require the 
efforts of federal and state governments, the business community and 
the military/veterans community working in concert if any real progress 
is to be made. The efforts of any one entity alone will be insufficient 
to meet the challenges posed by this massive problem facing American 
Veterans everywhere and it's important to keep in mind that veterans, 
like their civilian counterparts, require not just a job, but living-
wage employment following their service. The vast majority of working-
age veterans want to continue to be productive citizens and they need 
to be provided greater opportunities to achieve their career goals. 
American Veterans have made unimaginable sacrifices for our nation; now 
is the time for Congress and the Administration to make a concerted 
effort to guarantee that veterans have access to employment and 
training opportunities to ensure success in an unfavorable civilian job 
market.
    AMVETS believes that perhaps the greatest and most comprehensive 
assistance this nation could provide for its veterans is to include 
them as a protected class under the current Affirmative Action law. 
Veterans are among the smallest minority groups in this country with 
fewer than 7 percent of Americans ever having served in the Armed 
Forces and less than one percent wearing the uniform today. While other 
minority groups enjoy certain protections and advantages under the law, 
those who have served and fought for their country currently enjoy no 
such comprehensive legal consideration. In fact, just the opposite is 
often true; frequently those who have served and sacrificed are at a 
disadvantage in comparison to their peers.
    Additionally there needs to be a better system to connect employers 
with open positions to unemployed veterans; the current system of 
merely posting jobs online, while beneficial, just isn't enough. There 
are literally hundreds of online employment and career sites catering 
to veterans and civilians alike, which unfortunately more often than 
not, leave veterans confused and overwhelmed. What is needed is a 
comprehensive `veteran employment resource guide' along with a single 
portal or site where all of these opportunities can be accessed in one 
place.
    In addition to the previous issues, there is the very real problem 
of licensing and credentialing which is required in certain career 
fields. Due to the fact that licensing and credentialing are handled at 
the state level rather than the national level, many veterans who hold 
these designations in the states where they are stationed are faced 
with the need to become re-licensed/re-credentialed if they move to 
another state. This is an absurd requirement. If an individual is 
certified in one state that should be sufficient in every state; the 
formation on national standards for professions would alleviate this 
impediment to veteran unemployment. These suggestions would go a long 
way in minimizing the current lack of organized information and the 
confusion caused by the vast number of disparate resources available.

Health Care & Mental Health
    The Veterans Health Administration (VHA) is not only the largest 
direct provider of healthcare services in the nation, it also provides 
the most extensive training environment for health professionals and is 
provides the most clinically focused setting for medical and prosthetic 
research. One of the prime responsibilities of the Department of 
Veterans Affairs (VA) is providing primary care to American Veterans. 
The VA also provides specialized health care services including: spinal 
cord injury, blind rehabilitation, traumatic brain injury, prosthetic 
services, mental health, and war-related poly-trauma injuries. AMVETS 
has serious concerns that any reduction in spending on VA healthcare 
programs will lead to catastrophic degradation to these critical 
services.
    Perhaps the most important veteran healthcare issue is the need for 
sufficient, timely and predictable funding. Without this provision 
there won't be anything else. This is especially important given 
congress' poor track record in passing the federal budget over the last 
few years. AMVETS calls on Congress and the Administration to ensure 
that VA healthcare programs are fully funded in a timely manner so that 
all eligible veterans are able to receive all the medical services they 
are entitled to.
    Unfortunately, the VA also faces significant challenges ensuring 
that newly returning war veterans have access to post-deployment 
readjustment services and specialized treatments while guaranteeing 
that all other enrolled veterans gain and keep access to effective, 
timely, high-quality mental health services. Add these challenges to 
the fact that ten years of war have taken a toll on the mental health 
of American military forces. Unfortunately, the VA also faces 
significant challenges ensuring that newly returning war veterans have 
access to post-deployment readjustment services and specialized 
treatments while guaranteeing that all other enrolled veterans gain and 
keep access to effective, timely, high-quality mental health services.
    The RAND Corporation published a study in 2008 ``Invisible Wounds 
of War'' which noted that 18.4 percent of all post-deployed service 
members presented conditions that met criteria for either PTS or major 
depression and that 19.5 percent reported experiencing a probable TBI 
incident during their deployments. The numbers of effected veterans are 
significant and these are complex conditions to treat.
    As previously mentioned, untreated/unhealed physical and mental 
health combat injuries play a significant role in the number of 
military/veteran suicides in this country. The data on these suicides 
is startling: VA reports that 18 veterans take their own lives every 
day which is equivalent to 6,750 veterans' suicides per year; multiply 
this by 10 years of war and the total number of veteran's suicides is a 
staggering 65,000+. And while the numbers of suicides have declined 
since peaking in 2009, this continues to be a grave problem deserving 
of our best efforts.

Veterans Benefits
    AMVETS believes in the solemnity of the promises made to our 
military members and veterans when they agreed to leave their homes and 
families to go fight in our stead. In addition to providing physical 
and mental healthcare to millions of veterans, the VA is also the 
primary federal agency providing a variety of benefits to our nation's 
veterans including: disability compensation, dependency and indemnity 
compensation, pensions, retirement, education benefits, home loans, 
ancillary benefits for service-connected disabled veterans, life 
insurance and burial benefits. It is crucial, that veteran's benefits 
become a national priority and they must be viewed in the context of 
the service and sacrifice performed by our men and women in uniform. 
These benefit programs however must not only be maintained, they need 
to be monitored and improved so they maintain their value and 
effectiveness.
    AMVETS firmly believes that all military retirees should be 
permitted to receive their full, earned military retirement as well as 
any and all VA disability compensation they may be entitled to; in 
other words there should be no offset between full military retired pay 
and VA disability compensation. Each form of compensation is 
individually earned, in its own right, by the veteran and other federal 
employees are not unjustly penalized this same way when an identical 
situation. AMVETS strongly urges Congress and the Administration to 
enact legislation to repeal this inequity faced by so many American 
Veterans.

Women Veterans and Service Members
    Every woman who ever served in the military in America did so as a 
volunteer! Their history of service to this country is long and proud 
even though their service prior to the Civil War was strictly 
unofficial; they have been involved in every battle, one way or 
another, going back to the Revolutionary War. Today, women comprise 
between 17% - 20% of the U.S. military and they are fully integrated 
into the combat zones around the world.
    Among the most critical issues facing women veterans today are: 
homelessness, military sexual trauma (MST), employment and the lack of 
gender specific health care. These three issues are the trifecta of 
degradation and deprivation for women veterans. They are also somewhat 
of a `Catch-22' in that each issue overlaps and effects the other two, 
making it that much more difficult to escape this negative cycle. How 
can we as a nation allow some of our most vulnerable veterans, many of 
whom also have children, to be living on the streets of our cities? Why 
is it that a woman should have to fear for her personal safety, not 
only from foreign enemies, but from her comrades-in-arms simply because 
she made a conscious decision to serve in the military? All veterans, 
by their very service to their country, should be guaranteed some 
basics: shelter, any necessary physical and mental health care, food, 
job training or education, and an opportunity to support themselves and 
their children upon exiting the military.
    Some of these veterans are already victims of MST and PTS while on 
active duty and now they are faced with the dangers and lack of 
appropriate physical and mental health care inherent in being homeless. 
These veterans are often unable to locate temporary housing at local 
homeless shelters because many of these facilities are not set up to 
house to accommodate the specific safety and privacy needs of women, 
not to mention their children. It's a sad fact that homeless 
individuals are not infrequently involved in the criminal justice 
system for a variety of offences, including crimes against women and 
children. This situation is truly a national disgrace and must not be 
allowed to continue.
    A new report from the Government Accountability Office shows that 
the number of homeless women veterans doubled between 2006 and 2010, 
with 3,328 women veterans unable to access shelter. Of these women, 
``almost two-thirds were between 40 and 59 years old and over one-third 
had disabilities.'' The numbers are not encouraging and they are 
expected to get worse. With tens of thousands of troops leaving 
military service and more slated over the next year, for women veterans 
with families, it's especially difficult to find work and housing. As 
of December 2011, The Veterans Administration estimated that of the 
roughly 68,000 homeless veterans, more than 5,000 were women. To combat 
the problem, the VA is training many of its 7,000 case managers to deal 
with issues specific to women.

National Guard & Reserve Service Members
    AMVETS fully supports H.R. 1025, Veterans Status, for National 
Guard and Reserve members with 20 years or more in service. This cost 
neutral bill would not bestow any new or unearned benefits, it would 
simply provide career Reserve Component (RC) members the honor of being 
recognized as a Veteran for their many years of service and sacrifice. 
This bill would also provide an opportunity for Congress and the 
Administration to show their support for America's military retirees.
    What is a military retiree? A military retiree is what a National 
Guard or Reserve Component member, who has completed a 20(+) year 
career, is designated upon retirement. If these individuals have never 
served on active duty (Title 10) orders for other than training 
purposes they are not legally considered veterans. Mind you, they are 
entitled to virtually all the same retirement benefits as their Active 
Component brethren, but they are not considered veterans under the law. 
This unjust situation is not widely known among members of Congress or 
even among members of the RC themselves.
    H.R.1025 would authorize Veteran status under Title 38 for National 
Guard and Reserve members of the Armed Forces who are entitled to a 
non-regular retirement under Chapter 1223 of 10 USC but were never 
called to active federal service during their careers - through no 
fault of their own. As an example, the service of our National Guard 
members now serving on Operation Noble Eagle on our Southwestern border 
on Title 32 orders would not qualify them to earn the status of 
``Veterans of our Armed Forces'' because it is technically a 
``training'' status.
    Currently, the Code of Veterans' Benefits, Title 38, excludes from 
the definition of ``Veteran'' career Reservists who have not served on 
Title 10 active duty for other than training purposes. Drill training, 
annual training, active duty for training, and Title 32 duty are not 
qualifying service to qualify for ``Veteran'' status. It doesn't make 
sense that an individual can serve three years on active duty, during a 
time of war or not and upon leaving the military they are considered a 
veteran; however, a National Guard or Reserve member who has 20(+) 
years of service but has not called to federal service is not 
considered a veteran - although they receive similar benefits.

Homeless Veterans
    As the House and Senate Veterans Affairs Committees undertake the 
important work of establishing their budget priorities for the VA, 
AMVETS urges the committees to consider the importance of supportive 
housing facilities for homeless veterans, many of which are situated on 
VA property and/or owned and operated by the VA. Consistent with 
Secretary Shinseki's goal of eliminating homelessness among veterans by 
the year 2015, these facilities are vital to the scores of homeless 
veterans - including those from Operations Enduring Freedom and Iraqi 
Freedom - that rely upon them for shelter, health care, and other 
services.
    AMVETS appreciates the support that the committees have shown for 
programs to mitigate the scourge of homelessness among veterans. We are 
also grateful for the $333 million that Secretary Shinseki has proposed 
for homeless veterans in the FY 2013 budget request, a one-third 
increase in funding from FY 2012. We strongly support the Secretary's 
goal of eliminating homelessness among veterans by 2015. The VA's 
``housing first'' approach - which has largely been carried out via a 
combination of increases in HUD-VASH vouchers, enhanced funding for the 
grant and per diem program, and support for outreach coordinators - has 
allowed the VA to make important progress toward its goal of 
eliminating veterans' homelessness.
    Even as this progress continues, AMVETS encourages the committees 
and the VA to prioritize the construction or repurposing of facilities 
on VA property to be used for supportive housing for homeless veterans. 
The shortage of such housing is particularly acute in the Los Angeles 
region, where approximately 8,000-10,000 veterans remain homeless. This 
represents an approximate 10 percent share of all homeless veterans 
nationwide. Remedying the homeless veterans' problem in Los Angeles is 
essential to meeting Secretary Shinseki's goal of elimination.
    Congress has repeatedly supported using vacant facilities on the 
West Los Angeles VA Medical Center campus for homeless veterans' 
housing and has resisted efforts to commercialize this valuable plot of 
property. The Cranston Act, as amended, prohibits the VA from issuing 
enhanced-use lease agreements on all 388 acres of the campus. The 
Homeless Veterans Comprehensive Service Programs Act of 1992 permits 
the VA to lease property to homeless organizations on the campus. In 
the Master Plan for the West L.A. campus adopted last year, at least 
three buildings - Buildings 205, 208, and 209 - are identified as 
possible residential facilities for homeless veterans.
    In the Veterans Health Care Facilities Capital Improvement Act of 
2011, Congress - under the leadership of Chairmen Murray and Miller - 
authorized $35 million in funding for VA to renovate Building 209 for 
use as a permanent supportive housing facility for homeless veterans. 
The completion of this renovation, which will provide 70-90 beds for 
homeless veterans when operational, will increase the supply of housing 
for Los Angeles's homeless veteran's population. This funding was an 
essential first step, but only a first step. Authorization and funding 
for renovations to Buildings 205 and 208 is needed to transform those 
vacant buildings into supportive housing facilities for homeless 
veterans. Once Buildings 205, 208, and 209 are completed, the VA will 
have made significant progress toward the reduction of homelessness 
among veterans in Los Angeles by giving hundreds of homeless veterans a 
safe and secure place to reside while receiving the vital health 
treatment that they need.

Mortuary Affairs
    AMVETS is deeply disturbed by on-going reports of the mishandling 
of the remains of our fallen heroes. There is no more sacred 
responsibility than the dignified and respectful recovery, return and 
burial of those killed in action. While AMVETS acknowledges that many 
positive improvements have recently been established, more needs to be 
done to ensure these events don't happen in the future. AMVETS 
recommends continued and increased oversight of all mortuary operations 
facilities.

                                 <F-dash>
                   MATERIALS SUBMITTED FOR THE RECORD
        ANTHONY A. WALLIS, ASSOCIATION OF THE UNITED STATES NAVY

               The Association of the United States Navy

    The Association of the United States Navy (AUSN) continues its 
mission as the premier advocate for our nation's Sailors and veterans 
alike. Formerly known as the Naval Reserve Association, which traces 
its roots back to 1954, AUSN was formally established on May 19, 2009 
to expand its focus on the entire Navy. AUSN works for not only our 
members, but the Navy and veteran community overall by promoting the 
Department of the Navy's interest, encouraging professional development 
of officers and enlisted and educating the public and political bodies 
regarding the nation's welfare and security.
    AUSN prides itself on personal career assistance to its members and 
successful legislative activity on Capitol Hill regarding equipment and 
personnel issues. The Association actively represents our members by 
participating in the most distinguished groups protecting the rights of 
military personnel. AUSN is a member of The Military Coalition (TMC), a 
group of 34 associations with a strong history of advocating for the 
rights and benefits of military personnel, active and retired. AUSN is 
also a member of the National Military Veterans Alliance (NMVA) and an 
associate member of the Veterans Day National Committee of the 
Department of Veterans' Affairs (VA).
    The association's members are active duty, reserve and veterans 
from all fifty states, U.S. Territories, Europe and Asia. AUSN has 81 
chapters across the country. Of our 18,000 members, approximately 95% 
are veterans. Our National Headquarters is located at 1619 King Street, 
Alexandria VA and we can be reached at 703-548-5800.
    Contact Information:
    National President: RDML Tim Moon, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="394d5054175456565779584c4a5717564b5e">[email&#160;protected]</a>
    Executive Director: RADM Casey Coane, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="bddedcced8c493ded2dcd3d8fddcc8ced393d2cfda">[email&#160;protected]</a>
    Legislative Director: Mr. Anthony Wallis, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2f4e415b4740415601584e4343465c6f4e5a5c4101405d48">[email&#160;protected]</a>
                                Summary
    Chairmen, Ranking Members and Members of the House and Senate 
Veterans' Affairs Committee, the Association of the United States Navy 
(AUSN) thanks you and your Committee for the work that you do in 
support of our Navy, retirees and veterans as well as their families. 
Your hard work has allowed significant progress in creating legislation 
that has left a positive impact on our military community.
    Last year alone, AUSN was pleased to see passage and implementation 
of legislation in the areas of Employment, Mental Health and Concurrent 
Receipt. Bills such as S.894, the Veterans Compensation COLA Act, 
S.1495/H.R.2751 The Joining Forces for Military Mental Health Act, 
S.325/ H.R. 948 Embedded Mental Health Providers for Reserves Act and 
Title II of H.R. 674 which contained provisions of S.951/H.R. 1941 The 
Hiring Heroes Act which passed into law as part of the National Defense 
Authorization Act (NDAA) for Fiscal Year 2012 (FY12) shows the 
commitment and determination of Members of this Committee as well as 
Congress to improve the lives of those who have served our country.
    As part of a larger veteran community, AUSN recognizes the many 
challenges ahead, especially with the release of the President's Fiscal 
Year 2013 (FY13) Budget Request on February 13. Of great concern 
amongst our membership and veterans are the increases in TRICARE rates 
and enrollment fees. Such changes must be done in accordance with what 
is fair to our veterans given the promises that were made when they 
signed up to serve their communities and their country. In addition, 
AUSN is pleased to see discussions underway to address concern for the 
impact of sequestration and what it might or might not have on the 
Department of Veterans' Affairs. AUSN is greatly concerned with the 
heavy cuts that are already being implemented in the Department of 
Veterans' Affairs' budget this fiscal year and the negative impact a 
sequestration trigger would have on crucial programs to our veteran 
community.
    The Association of the United States Navy, working with our 
members, veterans and alongside other Veteran Service Organizations 
(VSO's), has devised our FY13 Legislative Objectives and Priorities as 
described below that we would like both the House and Senate Veterans' 
Affairs Committee's to consider.

                          Veterans' Healthcare

    AUSN was pleased to hear that the President's Budget request seeks 
$52.7 billion for medical care, a 4.1% increase over the $50.6 billion 
approved by Congress for the current fiscal year and a net increase of 
$165 million above the advance appropriations level enacted for FY13. 
However, AUSN and its members must stress the importance and concern of 
its members and the veteran community to all Members of Congress on the 
proposed changes to the Military Healthcare System (MHS).

TRICARE
    The Administration's FY13 Budget Request implements numerous 
changes to the existing MHS, which is utilized by over 8.8 million 
veterans. Changes include increases to TRICARE Prime Enrollment fees. 
Last year, finally acknowledging Congress' long-standing concerns about 
the inappropriateness of dramatic increases in beneficiary fees, the 
Administration proposed a 13% increase in TRICARE Prime fees. In the 
absence of congressional objection, the increase was implemented as of 
October 1, 2011. However, the new proposal for FY13 through FY17 is a 
dramatic departure, proposing to triple or quadruple fees over the next 
five years (for example $520 across the board retired pay levels for 
FY12 to $600/$720/$820 tiered across the retired pay levels for FY13 to 
$893/$1,523/$2,048 by FY17). AUSN urges Congress to reject any increase 
in TRICARE Prime fees that exceeds the COLA-based standard established 
in the FY2012 Defense Authorization Act.
    In addition, the FY13 Budget Request institutes an annual TRICARE 
Standard Enrollment fee to be phased in over a five year period and 
then indexed to increases in National Health Expenditures(NHE) after 
FY17 (for example $0 in FY12 to $70 in FY13 for individuals and $0 in 
FY12 to $140 in for families). The deductibles for TRICARE Standard 
would also increase from $150 in FY12 to $160 in FY13 for individuals 
and from $300 in FY12 to $320 in FY13 for families. TRICARE for Life 
(TFL) would also see an implementation of enrollment fees for all three 
tiers going from $0 for all three for FY12 to $35 for Tier 1, $75 for 
Tier 2 and $115 for Tier 3 for FY13. In total, the FY13 Budget Request 
contains $48.7 billion for the entire DOD Unified Medical Budget to 
support the Military Health System (MHS), which is a difference of $4.1 
billion less than the $52.8 billion that was enacted for FY12.
    These proposed increases, which require Congressional approval, are 
part of the Pentagon's plan to cut $487 billion in spending and seeks 
to save $1.8 billion from the TRICARE system in the FY13 Budget, and 
$12.9 billion by 2017. These rate increases amount to an overall change 
of 30% to 78% increase in TRICARE premiums for the first year and 
explodes for a five year span increase of 94% to 345%, more than three 
times current levels!
    AUSN, our membership and the veteran community continue to oppose 
the establishment of any new fees where there are none now (such as the 
enrollment fees for TFL or TRICARE Standard). Our veterans should get 
guaranteed access for an enrollment fee which is not always the case 
for those that rely on TFL or TRICARE STANDARD where many can't find 
doctors to see them. Where a flat fee exists now (which DOD is trying 
to dramatically increase and then index to health cost growth), we 
assert that the same rules should apply to those that Congress applied 
to the Prime enrollment fee in the FY12 NDAA . . . they should be tied 
to Cost of Living Adjustments (COLA) and not health cost growth.
    These changes in the FY13 Budget Request raise concerns amongst the 
military community about the impact this will have on recruiting and 
maintaining a high quality all volunteer military force. These benefits 
have been instrumental in recruiting qualified servicemen and women and 
keeping them in uniform.

Agent Orange
    The Veterans' Affairs Committee has a longstanding working 
relationship with veterans and the effects of Agent Orange on the 
health of Vietnam veterans. What was once classified in the early 
1980's as a, ``minor acne condition,'' has met with thorough study and 
determination of an exposure to our servicemen that has caused severe 
illnesses such as various forms of cancer, Parkinson's Disease, 
Lymphoma and many others. During Vietnam, the United States military 
sprayed more than 19 million gallons of various ``rainbow'' herbicide 
combinations, but Agent Orange was used most often. The name ``Agent 
Orange'' came from the orange identifying stripe used on the 55-gallon 
drums in which it was stored from 1962 to 1971, used to remove trees 
and dense tropical foliage that provided enemy cover. Often times U.S. 
Navy and Coast Guard vessels were in the vicinity of disbursement of 
these chemicals.
    The Navy and Marine Corps Manual (SECNAVINST 1650.1H) defines the 
area in which a ship must have operated during this time period as 
follows; ``water areas from a point on the east coast of Vietnam at the 
border of Vietnam with China southeastward to 21N, 108-15E, thence 
southward to 18N, 108-15E; thence southeastward to 1-30N, 111E; thence 
southward to 11N, 111E; thence southwestward to 7N, 105E; thence 
westward to 7N, 103E; thence northward to 9-30N, 103E; thence 
northeastward to 10-15N, 104-27E; thence northward to a point on the 
west coast of Vietnam at the border of Vietnam wit Cambodia.'' Veterans 
who served aboard U.S. Navy and Coast Guard ships operating on the 
waters of Vietnam between January 9, 1962, and May 7, 1975, may be 
eligible to receive Department of Veterans Affairs (VA) disability 
compensation for 14 medical conditions associated with presumptive 
exposure to Agent Orange.
    AUSN was pleased last fall when the Department of Veterans Affairs 
released an updated list of U.S. Navy and Coast Guard ships that were 
confirmed to have operated on Vietnam's inland waterways, docked on 
shore, or had crewmembers sent ashore. This list, which can be found by 
going to the website at http://www.publichealth.va.gov/exposures/
agentorange/shiplist/index.asp, can assist Vietnam veterans in 
determining potential eligibility for compensation benefits. AUSN 
encourages the House and Senate Veterans' Affairs Committee to continue 
its work on the Agent Orange issue and support hearings and further 
actions on pending legislation such as H.R. 3612, the Blue Water Navy 
Vietnam Veterans Act which would amend Title 38, to clarify 
presumptions relating to the exposure of certain veterans who served in 
the vicinity of the Republic of Vietnam.

Mental Health Treatment and Professional Development
    There was great success last year in the passage of the FY12 NDAA 
which included embedded mental health providers for our servicemen and 
reservists as well as mental health screening legislation included in 
the bill to help continue to identify individuals suffering from mental 
ailments and to help curb the increasing problem of suicide amongst the 
services. When the FY13 Budget for VA was released, AUSN was happy to 
see that $6.2 billion was included to expand inpatient, residential and 
outpatient mental health programs (a 5.3% increase, $312 million), 
further building onto last year's initiatives. This increase in funding 
will help with increasing the outreach for mental health screenings, 
expand technologies for self-assessment and symptom management of Post-
Traumatic Stress Disorder (PTSD) and enhance other programs to reduce 
stigmas of mental health.
    However, despite previous successes, much work needs to be done in 
addressing mental health treatment, especially providing adequate 
professionals to treat such ailments as PTSD and Traumatic Brain Injury 
(TBI). There have been numerous complaints amongst the veteran 
community of the inadequate level of mental health care professional 
available to them at clinics across the country. When asked at the 
Senate Veterans' Affairs Committee hearing on February 29, Under 
Secretary of Veterans Affairs for Health, Robert Petzel, stated that, 
``the VA is developing a staffing model for VA mental health needs.'' 
Furthermore, when asked during that hearing about the recruitment of 
mental health care professionals, Under Secretary Petzel noted that 
despite recruitment efforts for VA hospital being overall successful, 
there was a gap in recruiting MD psychologists. Despite the VA offering 
competitive wages amongst other incentives, Under Secretary Petzel also 
concluded that the current environment just doesn't have that many of 
these types of professionals out in the field. AUSN strongly believes 
much more work needs to be done in regards to mental health care and 
looks for continued support for legislative efforts on identifying and 
providing adequate care and professionals to help alleviate the 
problems associated with mental illness amongst our veterans.

Remote Area Access for Veteran Healthcare
    As the VA continues to improve its clinics and professional care to 
our veterans, AUSN is also concerned about the access our nation's 
veterans have to these clinics and providers through the Department of 
Veterans Affairs. AUSN acknowledges that this country is large and many 
of our veterans live in rural or sparse areas of the country and may 
not have the ability to travel to more suburban or city areas to access 
the care that they need. In addition, there are problems with the VA's 
ability to meet staffing needs, not only at clinics in more popular 
areas, but also to serve the rural community. Under Secretary of 
Veterans Affairs for Health, Robert Petzel, has said that the VA has 
implemented a Patient Align Care Team (PACT) program which is bringing 
up physician and support staffing up to national levels and standards. 
Despite such prior successes, such as the 2008 Rural Access to Health 
Act, there is a problem not with pay, but with attracting physicians to 
rural areas. Secretary of Veterans Affairs, Eric Shinseki, and Under 
Secretary Petzel have testified that there are efforts within the VA to 
encourage staffing in rural areas such as expanding Tuition 
Reimbursement Programs for prospective physicians to come to rural 
areas as well as targeting talented individuals in rural communities to 
be medically trained by VA in addition to other incentives. AUSN 
supports pending legislation such as S. 1849, the Rural Healthcare 
Improvement Act, which would require a five year strategic plan for the 
Office of Rural Health of the Veterans Health Administration of the VA 
for improving access to, and the quality of, health care services for 
veterans in rural areas. AUSN continue to urge the bot the House and 
Senate Veterans Affairs Committees to look at this and similar 
legislation to improve access for our veterans in rural communities.

Disability Compensation/Concurrent Receipt
    The Department of Veterans Affairs projects it will receive about 
1.25 million claims for Veterans disability benefits (a 4% increase 
from the 1.2 million projected for this fiscal year). As it exists 
today, a disability rating is assigned (a percentage) by the VA after a 
physical examination for all body systems for which the veteran is 
claiming disability. However, a cash benefit is only provided to 
veterans with a rating of 10% or more. The basic benefit amount ranges 
from $127 to $2,769 a month, depending on the disability rating. 
However, given the economic situation faced by many of our veterans, 
this compensation may not be adequate to meet their needs as costs of 
living continue to rise. AUSN supports recently introduced legislation 
such as H.R. 4114, the Veterans' Compensation Cost of Living Adjustment 
Act and H.R. 4142, the American Heroes COLA Act. H.R. 4114 would 
increase effective December 1, 2012, the rates of compensation for 
veterans with service-connected disabilities and the rates of 
dependency and indemnity compensation for the survivors of certain 
disabled veterans. H.R. 4142 would amend Title 38, to provide for 
annual cost-of-living adjustments to be made automatically by law each 
year in the rates of disability compensation for veterans with service-
connected disabilities and the rates of dependency and indemnity 
compensation for survivors of certain service-connected disabled 
veterans.

               Veteran Employment/Transition and Housing

    The FY13 Budget Request included $233 million, a 14% increase over 
2012 authorized levels, for the administration of the VA's Vocational 
Rehabilitation and Employment Program (VR&E). The VR&E program is 
designed to help veterans with service connected disabilities prepare 
for, find and keep suitable jobs. Veterans with severe service 
connected disabilities who cannot immediately consider work are offered 
other services by the VR&E to improve their ability to live as 
independently as possible. The VA stated that the increase would focus 
on expanding services to wounded, ill and injured service members to 
ease their transition to the civilian sector. With program participants 
expected to increase from 108,000 in 2011 to 130,000 this next fiscal 
year, AUSN was happy to hear of this increase. There are still concerns 
regarding transitioning from active duty to the civilian sector amongst 
the veteran communities. Amongst the ones described in this testimony, 
are concerns regarding the experiences of a veteran while on active 
duty, translating to certain civilian sector jobs and license 
certifications. AUSN supports the bipartisan bill H.R. 4115, the Hire 
at Home Act, which would amend Title 38 to require, as a condition on 
the receipt by a State of certain funds for veterans employment and 
training that the State ensures that training received by a veteran 
while on active duty is taken into consideration in granting certain 
State certifications or licenses. Other legislation AUSN supports is 
H.R. 4155, Veteran Skills to Jobs Act, which would direct the head of 
each Federal department and agency to treat relevant military training 
as sufficient to satisfy training or certification requirements for 
Federal licenses.

Transition Programs
    AUSN is continuing to monitor the debate on whether or not to 
mandate participation in the military's transition assistance program 
(TAP). There are many current service members on active duty who 
continue to not understand why they would need to participate in the 
program. However, once service members left the military, many wondered 
why they never received comprehensive training and information on how 
to access their earned benefits and successfully transition from 
military to civilian life. Unfortunately, some veterans have no way to 
reasonably anticipate all of the challenges he or she may face once out 
of the military. AUSN believes that TAP resources must be available to 
veterans after they have transitioned off of active duty and looks for 
continued support and consideration of H.R. 4051, the TAP Modernization 
Act of 2012, and its pilot program to offer off-base TAP to communities 
where veterans have been hit hard by difficult economic times.

Encourage Hiring of Veterans
    Despite provisions of the Hire Heroes Act being included in Title 
II of H.R. 674 (Public Law 112-56) being a great step in the right 
direction, unemployment amongst veterans remains high and is a top 
concern of AUSN. Currently there are over 857,000 unemployed veterans 
(mostly Vietnam veterans) throughout the country. Furthermore, there 
are alarming cases where veterans are afraid to put `veteran' on their 
job applications in fear of employer's not wanting to hire them. The 
FY13 Budget Request proposes $1 billion over five years for a Veterans 
Job Corps, a new effort to leverage skills veterans develop in military 
service for a wide range of jobs. The initiative would put up to 20,000 
veterans to work on projects to restore America's lands and resources. 
Although promising, AUSN is concerned with its implementation and 
requests Congress review this proposal in detail to ensure that a large 
group of veterans coming home and, consequently, unemployed veterans 
can utilize this program. AUSN was pleased to participate in an open 
forum discussion with other VSO's this month on the launch of the 
Senate Veterans Jobs Caucus led by co-chairs, Senators Joe Manchin (D-
WV) and Mark Kirk (R-IL). On March 28, 2012 Senators Manchin and Kirk 
will hold a press conference to announce the creation of the Caucus and 
the unveiling of the Senate ``I Hire Veterans'' initiative, the first 
step in strengthening Congressional support for Veterans employment 
issues and will be the focus of the formal launch. AUSN is encouraged 
by this effort and will be present at the launch of this new Caucus 
initiative. AUSN continues to support legislation that promotes 
employers and businesses hiring veterans including H.R. 743 and S. 367, 
the Hire a Hero Act, both which target small business which hire 
individuals who are members of the Reserve Component.

Homelessness
    AUSN was pleased to hear in testimony before the Senate Veterans 
Affairs Committee that there has been significant progress in the area 
of combating veteran homelessness. The Department of Housing and Urban 
Development (HUD) released annual reports since 2009 on the estimates 
of homeless veterans and although there was an increase from 75,609 in 
2009 to 76,329 in 2010, there was a substantial 12% decrease in 2011 to 
67,495. However, the statistics on homeless veterans are still 
staggering. Veterans in the groups of age 31-60 compose the greatest 
percentages of homeless veterans, but Domiciliary Care for Homeless 
Veterans (DCHV) has reported that of these homeless veterans that come 
through, 90% suffer from Substance Use Disorders, 68% have serious 
psychiatric problems and 61% are being dually treated.
    Secretary Shinseki has testified that ending veteran homelessness 
is one of his top three priorities for the Department of Veterans' 
Affairs. AUSN was pleased to hear that the FY13 VA Budget Request 
contained $1.35 billion to further VA's plan to end homelessness (an 
increase of $333 million from FY12, 33%) which also includes $235 
million for the Homeless Grants and per Diem program to aid community 
organizations. In addition, $21 million to provide 200 coordinators who 
will help homeless Veterans with disability claims, housing problems 
and other issues. AUSN looks forward to hearing about the progress on 
combating homelessness amongst veterans and urges the House and Senate 
Veterans' Affairs Committee to consider legislation that addresses 
these issues, such as H.R. 1911, Protecting Veterans' Homes Act and S. 
1148, the Veterans Programs Improvement Act.

Claims Processing
    Processing of claims within the Department of Veterans Affairs is 
an ongoing problem as our veterans try to get the assistance needed for 
a wide range of issues. AUSN was pleased to see that the FY13 Budget 
Request included $2.164 billion, an increase of $145 million over 2012) 
in support of benefits processing through increased staff, improved 
business processes, and information technology (IT) enhancements. This 
funding would support the completion of 1.4 million disability 
compensation and pension claims and provide funding to complete 4 
million education claims. The VA notes that by 2013, no more than 40% 
of compensation and pension claims will be more than 125 days old which 
is a significant cut from the 60% of claims exceeding that mark this 
year. Even with the increase in funding and positive outlook, there 
still appears to be much work to be done in processing claims. The 
statistic heard by Senator Richard Burr at the Senate Veterans Affairs 
Hearing on the FY13 budget was astounding, that it takes 645 to 747 
days for appeals to claims to get processed and that the VA decides 
hundreds of thousands less claims than it receives. With 1 million new 
veterans expected to be utilizing the VA claims system, this needs to 
improve. Although it was reassuring that Secretary Shinseki also made 
this one of his top three priorities and that there are more options 
for veterans to contact call centers, AUSN continues to be concerned 
with the efficiency of the claims system for our nation's veterans and 
would like Congress to be on the forefront of any efforts to monitor 
and improve this process at the VA.

                           Veteran Education

    There have been drastic improvements to education assistance 
provided to our nation's veterans, of which AUSN has been pleased to 
see over the years. In the Senate Veterans' Affairs Committee hearing 
on February 29, Senator Mike Johanns stated that, ``I don't know what 
we are doing with education benefits, but at least from our experience 
something's working. Whatever model, if that could somehow be 
transferred to the disability claims and I appreciate they're much more 
complicated, but that seems to be working.''
    The Post-9/11 G.I. Bill is a magnificent benefit for today's 
veterans and improvements, such as correcting certain oversights within 
the bill, have only made it run more smoothly for the more than 606,000 
Service members, veterans and family members and survivors that 
currently use it. The provision has potential to help shape and mold 
future leaders and AUSN opposes any efforts to scale back the benefit 
as disservice to the men and women who have fought in defense of our 
nation for the last decade.
    Since VA implemented the Post-9/11 G.I. Bill, the department has 
primarily focused on ensuring student-veterans receive timely, accurate 
payments to finance an education. Unfortunately, as more and more 
veterans sought to take advantage of their earned educational 
opportunities, VA was left without the proper resources to ensure that 
veterans knew how best to use their benefits. Under Section 3697A of 
Title 38, VA is obligated to offer educational and career counseling to 
any separating service member or G.I. Bill eligible veteran. 
Unfortunately, this counseling is only offered through an ``opt-in'' 
process, and the total available counseling is capped at $6 million 
each year. In 2011, the VA announced that nearly 1 million veterans 
were enrolled in G.I. Bill programs, but that same year, only 6,400 
veterans received counseling on their benefits through Section 3697A.
    Congress must remove the cap to VA's educational counseling and 
mandate that VA contact veterans at different points prior to utilizing 
their educational benefits in an effort to deliver this counseling. 
Veterans who do not wish to receive educational counseling must still 
have the option to refuse it, but the ``opt-out'' system ensures that 
all potential student-veterans understand their benefit and understand 
the importance of their educational choice.
    AUSN supports H.R. 4057, the Improving Transparency of Education 
Opportunities for Veterans Act of 2012, which offers a critical first 
step in ensuring that student-veterans are properly informed about 
their benefits and have proper recourse for fraud, waste and abuse. 
AUSN believes that VA is already taking proactive steps to ensure 
current service-members receive this kind of information through the 
transition assistance program (TAP) and that veterans who apply for 
G.I. Bill benefits are exposed to critical information before tapping 
into their benefits. AUSN continues to advocate for legislative 
solutions for issues that arise with veteran educational assistance. We 
support other legislation such as H.R. 4140, the Restore the Promise 
G.I. Bill as well as S. 2179, the Military and Veterans Educational 
Reform Act which seeks to improve oversight of educational assistance 
programs.

                              Navy Reserve

Veteran Status for Reservists
    AUSN supports the classification of certain groups of our Navy 
Reservist as veterans. Currently, as it exists in the U.S. Code, a 
reservist can successfully complete a Guard or Reserve career but not 
earn the title of, ``Veteran of the Armed Forces of the United 
States,'' unless the member has served on Title 10 active duty for 
other than training purposes. Currently, Title 38 excludes from the 
definition of ``Veteran'' career those reservists who have not served 
on Title 10 active duty for other than training purposes. Drill 
training, annual training, active duty for training, and Title 32 duty 
are not deemed qualifying service to qualify for ``Veteran'' status. 
For example, the service of our Guard and Reserve members serving in 
Operation Noble Eagle would not qualify them to earn the status of 
``Veterans of our Armed Forces'' because it is technically a 
``training'' status.
    AUSN applauds the House of Representatives for passing H.R.1025, 
the Honor America's Guard and Reserve Retirees Act, last fall on 
October 11, 2011, sending the bill to the Senate for its approval where 
it still awaits action by the Senate Veterans' Affairs Committee. 
H.R.1025 would authorize Veteran status under Title 38 for Guard and 
Reserve members of the Armed Forces who are entitled to a non-regular 
retirement under Chapter 1223 of 10 USC but were never called to active 
federal service during their careers, through no fault of their own. 
The Senate has a companion version of this bill, S. 491, which had 
hearing held last summer of 2011. These zero cost bills provide an 
opportunity for Congress to come together to honor our Guard and 
Reserve members.
    The bills would not bestow any benefits other than the honor of 
claiming Veteran status for those who honorably served and sacrificed 
as career Reserve Component members. AUSN believes that our Reserve 
Component deserve nothing less.

                    Other Veteran Items of Interest

    AUSN recently learned of an important initiative done through the 
Missing in America Project, identifying unclaimed remains of veterans 
for proper burial. At funeral homes, and other entities across the 
country, an unknown number of veterans' ashes are abandoned and 
unclaimed, many of which are homeless veterans. AUSN was happy to hear 
that there is legislation pending that addresses this issue. H.R. 2051 
the Veterans Missing in America Act, would direct the Secretary of 
Veterans Affairs to work with VSO's and other groups, like the Missing 
In America Project, to provide assistance in determining if 
unidentified or abandoned remains are those of a veteran eligible for 
burial at a National Cemetery. AUSN supports continued efforts in 
regards to proper burial efforts such as these by the House and Senate 
Committee on Veterans Affairs.

                               Conclusion

    The Association of the United States Navy understands that there 
are difficult decisions ahead in regards to this year's FY13 Budget 
Request. Amongst our Legislative Objectives/Priorities for FY13 is the 
looming concern of the effects of an automatic sequestration trigger 
upon the Department of Defense and the Department of Veterans Affairs. 
AUSN is pleased that discussions are underway to check with the Office 
of Management and Budget (OMB) to see if an exemption will be made for 
the Department of Veterans' Affairs whereby in the Senate Veterans' 
Affairs Committee hearing on February 29 this year, VA Secretary 
Shinseki stated that for his purposes he, ``is not planning on 
sequestration . . . . [he's] addressing requirements and presenting a 
budget as expected and sequestration in pat or in whole is not 
necessarily a good policy.'' Currently, there are two bills that AUSN 
is tracking to address this concern of exempting veteran programs from 
sequestration, H.R. 3895, Protect VA Healthcare Act of 2012 and S. 
2128, Protecting the Health Care of Veterans Act of 2012. AUSN urges 
that the Veterans' Affairs Committee looks at these bills as a means of 
ensuring that veterans' programs aren't subject to sequestration. In 
addition, we encourage members of both the House and Senate to look at 
our website which has a daily updated Bills of Interest section where 
we have more legislation that is within our priorities that we are 
tracking on behalf of our members at http://www.ausn.org/Advocacy/
BillsofInterest/tabid/2668/Default.aspx. Thank you.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
